                     U.S. Department of Agriculture
                        Office of Inspector General




            Audit Report

  U.S. Department of Agriculture’s
Consolidated Financial Statements for
    Fiscal Years 2009 and 2008




                             Audit Report 50401-67-FM
                                      November 2009
                                  U.S. Department of Agriculture
                                   Office of Inspector General
                                     Washington, D.C. 20250


DATE:         November 16, 2009

REPLY TO
ATTN OF:       50401-67-FM

TO:           Evan J. Segal
              Chief Financial Officer
              Office of the Chief Financial Officer

ATTN:         Kathy Donaldson
              Audit Liaison Officer
              Office of the Chief Financial Officer

FROM:         Phyllis K. Fong                    /s/
              Inspector General

SUBJECT:      U.S. Department of Agriculture’s Consolidated Financial Statements for
              Fiscal Years 2009 and 2008

This report represents the results of our audits of the U.S. Department of Agriculture’s
consolidated financial statements for the fiscal years ending September 30, 2009 and 2008. The
report contains an unqualified opinion on the financial statements as well as the results of our
assessment of the Department’s internal control over financial reporting and compliance with
laws and regulations. Your response is included in its entirety as exhibit D.
In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, including the timeframes, on our
recommendations. Please note that the regulation requires a management decision to be reached
on all findings and recommendations within a maximum of 6 months from report issuance.
We appreciate the courtesies and cooperation extended to us during the audit.
Table of Contents

Executive Summary ................................................................................... 1 
Opinion on the Consolidated Financial Statements ............................... 3 
Internal Control Over Financial Reporting ............................................... 4 
Compliance and Other Matters ................................................................. 5 
Responsibilities.......................................................................................... 5 
Findings and Recommendations .............................................................. 7 
   Section 1: Material Weaknesses in Internal Control Over Financial
   Reporting ................................................................................................ 7 
      Finding 1: Improvements are Needed in Overall Financial Management .............. 7 
              Recommendation 1 .................................................................................................................. 8 
      Finding 2: Improvements are Needed in Information Technology Security and
      Controls .................................................................................................................. 9 
              Recommendation 2 ................................................................................................................ 12 

   Section 2: Noncompliance with Laws and Regulations .................. 13 
      Finding 3: Lack of Substantial Compliance with FFMIA Requirements................ 13 
      Finding 4: Transactions Were Not Always Obligated In Accordance With
      Appropriations Law ............................................................................................... 13 
Exhibit A: Audit Reports Related to the Fiscal Year 2009
Financial Statements ............................................................................... 15 
Exhibit B: Summary of Prior Year Recommendations ........................ 16 
Exhibit C: Status of Prior Year Noncompliance Findings ................... 17 
Abbreviations ........................................................................................... 18 
Exhibit D: Agency Response ................................................................. 20 
Exhibit E: Performance and Accountability Report ............................. 21 
U.S. Department of Agriculture’s Consolidated Financial Statements
for Fiscal Years 2009 and 2008 (Audit Report 50401-67-FM)

Executive Summary
Purpose
Our audit objectives were to determine whether (1) the consolidated financial statements present
fairly, in all material respects, in accordance with accounting principles generally accepted in the
United States of America, the assets, liabilities, and net position, net costs, changes in net
position, and budgetary resources; (2) the internal control objectives over financial reporting
were met; (3) the Department complied with laws and regulations for those transactions and
events that could have a direct and material effect on the consolidated financial statements; and
(4) the information in the Performance and Accountability Report was materially consistent with
the information in the consolidated financial statements.
We conducted our audits at the financial offices of various U.S. Department of Agriculture
(USDA) agencies and the Office of the Chief Financial Officer located in Washington, D.C., and
its National Finance Center located in New Orleans, Louisiana. We also performed site visits to
selected agencies’ field offices.

Results in Brief
In our opinion, the consolidated financial statements present fairly, in all material respects, the
financial position of USDA as of September 30, 2009 and 2008, and its net costs, changes in net
position, and budgetary resources for the years then ended, in conformity with accounting
principles generally accepted in the United States of America.
Our consideration of internal controls over financial reporting identified two significant
deficiencies. Specifically, we identified weaknesses in USDA’s:
   •   overall financial management; and
   •   information technology (IT) security and controls.

We believe that these two significant deficiencies are material weaknesses.
Our consideration of compliance with laws and regulations discusses two instances of
noncompliance relating to the Federal Financial Management Improvement Act of 1996 and
certain aspects of appropriation law.

   Key Recommendations
   As discussed in its Federal Managers’ Financial Integrity Act of 1982 report, the Department
   has plans to address the majority of the weaknesses discussed in the report. The key
   recommendations in this report were limited to additional improvements needed in financial
   management with respect to obligations as well as required system documentation for
   selected critical financial systems.




                                                                                                   1
Agency Response
The Department concurs with the two material weaknesses and findings related to
compliance with laws and regulations in the report. It generally agrees with the
recommendations in the report and will develop corrective action plans with milestones to
address the findings by December 30, 2009.

OIG Position
Management decision should be achievable upon our review of the plans for corrective
action.




                                                                                            2
Independent Auditors’ Report
Jon M. Holladay
Acting Chief Financial Officer
Office of the Chief Financial Officer

We have audited the accompanying consolidated balance sheets of the U.S. Department of
Agriculture (USDA) as of September 30, 2009 and 2008, and the related consolidated statements
of net cost; changes in net position; and the combined statements of budgetary resources
(hereinafter referred to as the “consolidated financial statements”) for the fiscal years then ended.
The objective of our audits was to express an opinion on the fair presentation of these
consolidated financial statements. In connection with our fiscal year 2009 audit, we also
considered USDA’s internal controls over financial reporting and tested USDA’s compliance
with certain provisions of applicable laws, regulations, contracts, and grant agreements that
could have a direct and material effect on these consolidated financial statements.
The following sections discuss our opinion on USDA’s consolidated financial statements; our
consideration of USDA’s internal controls over financial reporting; our tests of USDA’s
compliance with certain provisions of applicable laws, regulations, contracts, and grant
agreements; and management’s as well as our responsibilities.
The Findings and Recommendations Section presents the material weaknesses in internal control
and instances of noncompliance with laws and regulations, as of and for the year ended
September 30, 2009. Exhibit A of this report presents the audit reports related to the fiscal year
2009 statements. Exhibit B summarizes the current year status of prior year audit
recommendations. Exhibit C provides an update to previously reported instances of
noncompliance with laws and regulations. USDA’s response is presented in its entirety in
exhibit D.

Opinion on the Consolidated Financial Statements
In our opinion, the consolidated financial statements present fairly, in all material respects, the
financial position of USDA as of September 30, 2009 and 2008, and its net costs, changes in net
position, and budgetary resources for the years then ended, in conformity with accounting
principles generally accepted in the United States of America.
As discussed in Notes 1 and 21 to the consolidated financial statements, USDA made certain
reclassifications to prior year amounts to conform to the current year presentation. Specifically,
obligations for grant funds for one reporting component of USDA were reclassified from
“Obligations Incurred: Direct” to “Obligations Incurred: Reimbursable,” for fiscal year 2008.
Furthermore, as discussed in Notes 1 and 10, in fiscal year 2009 the Department completed the
implementation of Statement of Federal Financial Accounting Standards (SFFAS) 29, Heritage
Assets and Stewardship Land, by reclassifying appropriate heritage assets and stewardship land
information. Lastly, as discussed in Notes 1 and 29, in fiscal year 2009 the Department
implemented SFFAS 31, Accounting for Fiduciary Activity, and no longer recognizes fiduciary
assets on the balance sheet.
The information in USDA’s Management’s Discussion and Analysis (MD&A), and required
supplementary information (including stewardship information) contain a wide range of
information, some of which is not directly related to the financial statements. This information is
                                                                                                     3
not a required part of the consolidated financial statements but is supplementary information
required by accounting principles generally accepted in the United States of America and Office
of Management and Budget (OMB) Circular A-136. We have applied certain limited
procedures, consisting principally of inquiries of management regarding the methods of
measurement and presentation of this information. However, we did not audit this information,
and, accordingly, we express no opinion on it. As a result of such limited procedures, we believe
that the controls over required supplementary information related to deferred maintenance are
not sufficient to ensure the accuracy and completeness of the reported information.
The information in the Other Accompanying Information Section is presented for purposes of
additional analysis as required by OMB Circular A-136, and is not required as part of the
financial statements. This information has not been subjected to auditing procedures and,
accordingly, we express no opinion on it.

Internal Control Over Financial Reporting
Our consideration of the internal control over financial reporting was for the limited purposes
described in the Responsibilities Section of this report and would not necessarily identify all
matters in the internal control over financial reporting that might be significant deficiencies.
Significant deficiencies are deficiencies in internal control, or a combination of deficiencies, that
adversely affect USDA’s ability to initiate, authorize, record, process, or report financial data
reliably and in accordance with accounting principles generally accepted in the United States of
America such that there is more than a remote likelihood that a misstatement of the financial
statements being audited that is more than inconsequential will not be prevented or detected by
USDA’s internal control. Material weaknesses are significant deficiencies, or combinations of
significant deficiencies, that result in more than a remote likelihood that material misstatements
in relation to the consolidated financial statements being audited will not be prevented or
detected. Because of inherent limitations in any internal control, misstatements due to error or
fraud may occur and not be detected.
In our fiscal year 2009 audit, we noted certain matters described in this report’s findings and
recommendations, involving the internal control over financial reporting and its operation that
we consider to be significant deficiencies. Specifically, we identified weaknesses in USDA’s
   •   overall financial management; and
   •   IT security and controls.

We believe that these two deficiencies are also material weaknesses and are discussed in our
report in Findings and Recommendations, Section 1, Material Weaknesses in Internal Control
over Financial Reporting.
We did not identify any material weaknesses that were not disclosed in USDA’s Federal
Managers’ Financial Integrity Act of 1982 (FMFIA) report.




                                                                                                    4
Compliance and Other Matters
The results of our tests of compliance as described in the Responsibilities Section of this report,
disclosed two instances of noncompliance with laws and regulations that are required to be
reported under Government Auditing Standards and OMB Bulletin 07-04, as amended.
Specifically, we reported noncompliance with certain aspects of appropriations law, as described
in Finding 4 in the Findings and Recommendations, Section 2, Noncompliance with Laws and
Regulations. Additionally, the results of our tests of the Federal Managers’ Financial Integrity
Act of 1982 (FFMIA) disclosed instances, described in more detail in Finding 3 of the previously
mentioned Section 2, where USDA’s financial management systems did not substantially comply
with Federal financial management system requirements, applicable Federal Accounting
Standards, and the U.S. Standard General Ledger (SGL) at the transaction level.

Responsibilities
Management’s Responsibilities
USDA’s management is responsible for (1) preparing the consolidated financial statements in
conformity with accounting principles generally accepted in the United States of America,
(2) establishing, maintaining and assessing internal control to provide reasonable assurance that
the broad control objectives of the FMFIA are met, (3) ensuring that USDA’s financial
management systems substantially comply with FFMIA requirements, and (4) complying with
applicable laws and regulations.
Auditors’ Responsibilities
Our responsibility is to express an opinion on the fiscal years 2009 and 2008 consolidated
financial statements of the USDA based on our audits. We conducted our audits in accordance
with auditing standards generally accepted in the United States of America; the standards
applicable to financial audits contained in Government Auditing Standards issued by the
Comptroller General of the United States; and OMB Bulletin 07-04, Audit Requirements for
Federal Financial Statements, as amended. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.
In planning and performing our audits, we considered USDA’s internal control over financial
reporting by obtaining an understanding of the design effectiveness of internal controls,
determining whether the internal controls had been placed in operation, assessing control risk,
and performing tests of controls in order to determine our auditing procedures for the purpose of
expressing our opinion on the consolidated financial statements. We limited our internal control
testing to those controls necessary to achieve the objectives described in OMB Bulletin 07-04, as
amended and Government Auditing Standards. We did not test all internal controls as defined by
the FMFIA. The objective of our audit was not to provide an opinion on USDA’s internal
control. Consequently, we do not provide an opinion on internal control over financial reporting
nor on USDA’s assertion on internal control included in the MD&A.

                                                                                                    5
As part of obtaining reasonable assurance about whether the consolidated financial statements
are free of material misstatement, we performed tests of USDA’s compliance with certain
provisions of laws and regulations, contracts and agreements, and Governmentwide policy
requirements, noncompliance with which could have a direct and material effect on the
determination of the consolidated financial statement amounts. We also obtained reasonable
assurance that USDA complied with certain provisions of other laws and regulations specified in
OMB Bulletin 07-04, as amended, including requirements referred to in the FFMIA, except for
those that, in our judgment, were clearly inconsequential. We limited our tests of compliance to
the provisions described in the preceding sentences and did not test compliance with all laws and
regulations applicable to USDA. However, providing an opinion on compliance with laws and
regulations was not an objective of our audit and, accordingly, we do not express such an
opinion.
USDA’s response to the findings in our audit is included in its entirety in exhibit D. We did not
audit the response and, accordingly, express no opinion on it.
This report is intended solely for the information of the management of USDA, OMB, the U.S.
Government Accountability Office (GAO) and the U.S. Congress, and is not intended to be, and
should not be, used by anyone other than these specified parties.


/s/


Phyllis K. Fong
Inspector General

November 13, 2009




                                                                                                    6
Findings and Recommendations
Section 1: Material Weaknesses in Internal Control Over Financial
Reporting

Finding 1: Improvements are Needed in Overall Financial
Management
During fiscal year 2009, USDA continued to make improvements in its financial management.
For example, exhibit B describes actions taken by the Department relating to obligations and
reporting for loans. However, we noted areas where further improvements are needed.
• We noted that obligations 1 were not always valid because agencies did not effectively monitor,
review, and certify unliquidated obligations (ULO). We selected a nonstatistical sample of 60
obligations from 11 agencies for which no activity had occurred for over 2 years.2 We
determined that 40 (67 percent) ULOs were invalid because no future expenditures were
expected. We also found that 12 (20 percent) ULO balances were valid obligations but should
have been paid off in prior fiscal years if properly monitored. These obligations inappropriately
remained open, in part because USDA agencies were not submitting final payments to other
USDA agencies and/or were not deobligating residual amounts after final payments were made.
Additionally, we noted that when agencies did research and requested information necessary to
close obligations, the obligee (other USDA agencies) did not always respond nor offer any
explanation.
We performed a review of the June 30, 2009 obligation certifications required by the
Department. We determined that 3 of the 5 agencies selected for review inappropriately certified
to the validity of their balances. Documentation provided to support agencies’ reviews and
certifications showed incomplete and inaccurate reviews were performed.
The U.S. Department of Treasury’s (Treasury) annual closing guidance (Treasury Bulletin
2009-04, Yearend Closing, dated June 17, 2009) requires an annual review of ULOs.
Departmental Regulation (DR) 2230-1, Reviews of Unliquidated Obligations, dated April 21,
2009, further requires quarterly reviews and certifications as to the validity of balances from
agency Chief Financial Officers (CFO).
Ineffective monitoring and reviewing as well as inappropriately certifying to the validity of
obligation balances resulted in invalid obligations remaining open in the Foundation Financial
Information System. Invalid obligations improperly restrict the availability of funding authority.
This also increases the risk of misstating obligations as of yearend.
In its FMFIA report for 2009, USDA continued to report a material weakness relating to the lack
of consistent review and follow-up on ULOs. As noted in its FMFIA report, the Department has
already taken several corrective actions, such as revising Departmental guidance and establishing
a work group. The Department has several additional corrective actions planned, such as
conducting training on new processes for managing ULOs, implementing automated controls to

1
  An obligation is a binding agreement that will result in outlays, immediately or in the future. Budgetary resources must be
available before obligations can be incurred legally.
2
  Nonstatistical sample selected from activity as of March 31, 2009 and June 30, 2009.

                                                                                                                                7
deobligate invalid ULOs, and modifying systems and procedures to improve ULO management.
The Department estimates that all corrective actions will be completed in fiscal year 2010.
However, our review disclosed additional oversight is needed to improve agency reviews and
timely communication regarding requests for closing obligations.
• In fiscal year 2009 we identified that improvements were needed in Rural Development’s
controls over assumptions made to predict future cash flows for loans and loan guarantees
(commonly referred to as “curve assumptions”). Specifically, we identified incorrect formulas
and calculations, as well as inaccurate data used in the curve assumptions for various programs.
These errors occurred because (1) a control requiring management’s validation, review, and
approval of the development of the assumption curves was absent and (2) a designed control did
not operate effectively. Direct loans obligated and loan guarantees committed after fiscal year
1991 are reported in the financial statements based on the present value of the net cash flows
estimated over the life of the loan or loan guarantee. Thus, any errors in the assumptions used in
these calculations could cause material misstatements to the financial statements. Management
corrected all identified errors prior to finalizing the financial statements.
In its fiscal year 2009 FMFIA report, the Department noted that controls were lacking in the
credit reform quality assurance process to ensure that cash flow models, data inputs, estimates,
and reestimates are subject to appropriate management oversight. Rural Development indicated
corrective actions would be completed by July 31, 2010.
• We continued to identify abnormal balances 3 in the USDA fiscal yearend trial balance. For
fiscal year 2009, we noted 15 abnormal account balances totaling about $289 million (absolute)
at yearend. In fiscal year 2008, we reported a total abnormal balance of $1.2 billion in USDA’s
fiscal yearend trial balance. The Department has made considerable efforts to identify and
correct abnormal balances; however, further efforts are necessary to fully research and eliminate
abnormal balances prior to fiscal yearend. According to the Department, the existence of an
abnormal balance indicates that transactions or adjustments may have been posted in error.
Abnormal balances also increase the risk that balances may be misstated on the financial
statements.
• In fiscal year 2009, we again attempted to perform an audit of the Natural Resources
Conservation Service’s (NRCS) financial statements (Audit 10401-3-FM, NRCS’ Financial
Statements for Fiscal Year 2009). NRCS was once more unable to provide sufficient evidential
matter in support of transactions and account balances, as presented in the NRCS consolidated
financial statements as of and for the year ended September 30, 2009, particularly with respect to
obligations, obligations incurred including accrued expenses and undelivered orders, leases,
internal use software, unfilled customer orders, and stewardship property, plant and equipment.
NRCS was unable to complete corrective actions and make adjustments as necessary to these and
other financial statement amounts, prior to the completion of its audit.

       Recommendation 1
       Provide additional oversight to ensure agencies (1) properly monitor and review obligation
       balances (2) provide valid certifications based on complete and accurate reviews as required


3
    A balance that deviates from the standard balance as defined by the Department of Treasury’s SGL.

                                                                                                        8
       by DR 2230-001, and (3) understand the importance of responding to requests for bills or
       additional information in a timely manner.

Finding 2: Improvements are Needed in Information Technology
Security and Controls
We performed an independent evaluation of the Department’s IT security program and practices
as required by the Federal Information Security Management Act of 2002 (FISMA). We also
performed reviews of the general control structure of the Office of the Chief Information
Officer/National Information Technology Center (OCIO/NITC) and the Office of the Chief
Financial Officer/National Finance Center (OCFO/NFC) located in Kansas City, Missouri, and
New Orleans, Louisiana, respectively. 4 Additionally, we reviewed required system
documentation for a selected number of critical financial system applications.
In fiscal year 2009, both OCIO/NITC and OCFO/NFC sustained unqualified opinions on their
general control environments. Additionally, in fiscal year 2009, the Department fully
implemented the Cyber Security Assessment and Management (CSAM) system. The CSAM is a
comprehensive monitoring system which can facilitate achieving FISMA compliance.
However, although improvements have been made in the Department’s IT security in the last
decade, our FISMA report notes that many long-standing weaknesses remain. Since 2001, the
Office of Inspector General (OIG) has reported material weaknesses in the design and
effectiveness of the Department’s overall IT security program. USDA is a large and complex
organization, which includes 29 separate agencies and staff offices, each with its own IT
infrastructure. In order to mitigate the continuing material weaknesses, the Department needs to
coordinate with each of its component agencies and offices to identify and prioritize the most
significant security risks and then develop and implement a prioritized plan to systematically
mitigate the risks using realistic goals and milestones. Once the plan is developed, the
Department should continuously communicate with agencies to maintain their commitment to
and progress towards implementing the needed corrective actions. Until this occurs, critical
USDA data are exposed to an increased risk of inappropriate disclosure, modification, or
deletion.
The following summarizes the key matters identified during our evaluation of the Department’s
IT security program and practices, as required by FISMA:
• The Department should more effectively use CSAM when performing its oversight
responsibilities to ensure agencies are compliant with Federal and Departmental guidance. Our
review of the Department’s FISMA reportable systems documented in CSAM disclosed: (1) 53
systems did not have current certification and accreditations 5 (C&A); (2) 250 systems were not
reviewed and tested; (3) 73 systems did not have tested contingency plans; (4) 162 system
interconnections were inaccurately reported; and (5) 12 systems were not accurately recorded as
contractor systems (systems hosted or operated by a contractor).


4
    See exhibit A for information regarding the cited reports.
5
    The C&A is a process mandated by OMB Circular A-130, Appendix III, “Security of Federal Automated Information
    Resource,” dated November 28, 2000, that requires IT system controls to be documented, tested, and given formal authority to
    operate.

                                                                                                                                   9
• Our review of the plan of action and milestones (POA&M) 6 process found that the Department
did not have effective policies and procedures in place for reporting IT security deficiencies in
CSAM. For example, we identified at least 35 instances for one agency where POA&Ms should
have been created but were not. This occurred in part because oversight of the POA&M process
had not been a priority within the Department.
• We continued to find that agencies are not following the National Institute of Standards and
Technology (NIST) and Departmental guidance when preparing C&A documentation. Agencies
are required to submit C&A packages to the Department for an in-depth review (referred to as a
concurrency review). We evaluated seven C&A concurrency reviews where the Department
agreed with the agencies’ recommendations to accredit the system although the agencies’
documentation did not support accreditation. Additionally, when reviewing CSAM, OIG
identified 34 systems with an expired authority to operate or interim authority to operate.
• Our audit disclosed two agencies were not performing continuous monitoring of security
controls in accordance with NIST guidance. Without a formal continuous monitoring plan,
agencies cannot be certain that they are accomplishing the objectives of their security programs.
• The Department needed to take additional actions to minimize the risk of unauthorized release
of privacy data as required by OMB guidance. Due to the complexity and age of the legacy
systems within USDA, the Department had not fully implemented its plan to reduce the use of
social security numbers as identifiers. Also, because of technical issues associated with getting
encryption data to run on USDA workstations, full disk encryption had only been implemented
on 53 percent of the Department’s laptops.
• Agencies were not using the security configuration checklist as required by NIST and the
Department when deploying software covered by the NIST requirements.
• As of September 30, 2009, USDA agencies reported that they had deployed about 90 percent
of the required standard security settings which applied to them in accordance with Federal
Desktop Core Configuration (FDCC) requirements. OMB required agencies with certain
operating systems to be FDCC compliant by February 1, 2008.
• We noted that due to the large volume of security incidents throughout the year, the
Department did not always follow its own security review procedures. We found that only 18 of
49 (37 per cent) of the incidents reviewed were handled in accordance with Departmental
procedures.
• We were unable to determine if users with significant IT responsibilities received specialized
training as required by Federal law, NIST, and the Department. We further noted that there was
not a consistent method for tracking mandatory security awareness training for contractors.
• We scanned the networks of two agencies (using industry standard, commercially available
software) to better understand the security posture of the Department. Our scans disclosed over
20,000 vulnerabilities that were not mitigated in a timely manner. We also identified 299 critical
settings on network devices that did not conform to NIST standards and 322 instances where
code implemented on a website was not secure. Furthermore, our review disclosed that 1,705


6
    POA&M is a tool that identifies tasks needing to be accomplished to assist agencies in identifying, assessing, prioritizing, and
    monitoring the progress of corrective efforts for security weaknesses found in programs and systems.

                                                                                                                                   10
required software patches had not been installed on servers and 36,184 required patches had not
been installed on workstations.
Because of recommendations made in the FISMA report and planned actions by the Department,
no recommendations are included herein to address the weaknesses discussed above.
Additionally, for four key financial systems, we reviewed required documentation which
supports system security as well as the ability to continue operations after a disaster. We found
that System Security Plans (SSP) and Contingency and Disaster Recovery Plans did not fully
comply with OCIO and NIST requirements. The areas of noncompliance had been identified in
2007, however, corrections had not been made and POA&Ms had not been created for
remediation. We also noted Interface listings were inconsistent and/or inaccurately documented
in the SSPs and CSAM. Interconnection Security Agreements were outdated by at least 2 years
as well.
• Our review disclosed that information in the SSPs related to architectural processing diagrams,
environmental factors, privacy, and detailed management controls was incomplete. Additionally,
SSP documentation for one system included inaccurate location information and for one other
system inconsistent system categorizations. We also noted that the CSAM overall system rating
in one case was lower than indicated in the SSP.
• Our review of Contingency and Disaster Recovery Plans disclosed that the plans did not
contain all required information. Required information was lacking for specific notification and
recovery procedures, full testing of restored systems, and the decision process and authority for
deactivation of the plan.
• We also compared SSPs to CSAM for system interconnections and noted discrepancies.
• We obtained Interconnection Security Agreements (ISA) and found all the agreements were
invalid because the agreements had not been updated with current signatures. Without valid
signatures, neither USDA nor its external partner are obligated to adhere to agreed-upon
technical and security requirements.
The Department considers the SSP to be the foundation of the overall security process because it
defines the system security features and controls. It further supports Capital Planning and
Investment Control, FISMA reporting, system life cycle efforts, risk management activities, as
well as the C&A of the system. Contingency and Disaster Recovery planning is also vitally
important to ensure the Department will continue operating effectively and efficiently in the
event of a major incident or disaster. An accurate accounting of all interconnected systems and
agreed upon responsibilities for those connections supports these processes through
consideration of additional security risks and requirements. Without all of these elements in
place, the effectiveness of the overall security process is lessened.
As previously discussed, the Department is in the process of addressing the weaknesses
identified in our FISMA report. Therefore, recommendations made in this report are limited to
those relevant to the review of documentation of selected financial system applications.




                                                                                               11
Recommendation 2
Create a POA&M to correct deficiencies noted in both SSPs and Contingency and Disaster
Recovery Plans, (2) revise CSAM and/or system documentation to reflect consistent and
accurate information, and (3) institute policy and procedures to ensure review and signature
of all parties bound by ISAs.




                                                                                           12
Section 2: Noncompliance with Laws and Regulations

Finding 3: Lack of Substantial Compliance with FFMIA Requirements
FFMIA requires agencies to annually assess whether their financial management systems comply
substantially with (1) Federal Financial Management Systems Requirements (FFMSR), (2)
applicable Federal accounting standards, and (3) the SGL at the transaction level. In addition,
FISMA requires each agency to report significant information security deficiencies, relating to
financial management systems, as a lack of substantial compliance under FFMIA. FFMIA also
requires auditors to report in their CFO Act financial statement audit reports whether financial
management systems substantially comply with FFMIA’s system requirements.
During fiscal year 2009, USDA evaluated its financial management systems to assess
compliance with FFMIA. The Department reported that it was not substantially compliant with
FFMSR, applicable accounting standards, SGL at the transaction level, and FISMA
requirements.
As noted in its MD&A, USDA plans to continue its effort to achieve compliance with the
FFMIA and FISMA objectives. Improving Federal financial management systems is critical to
increasing the accountability of financial program managers, providing better information for
decision making, and increasing the efficiency and effectiveness of services provided by the
Federal Government.
In its FFMIA report, the Department reported noncompliance with FFMSR and FISMA for
multiple agencies relating to logical access controls, configuration management, physical access,
and environmental protection and disaster recovery.
Additionally, in its FFMIA report, the Department noted noncompliances for three of its
component agencies, described below.
   1. The Commodity Credit Corporation’s (CCC) funds control management system is not
      integrated with its financial management system. Thus, CCC is not able to comply with
      FFMSR. CCC is working towards integration and is modernizing its financial systems.
      Corrective action is scheduled for completion by October 31, 2012.
   2. The Forest Service (FS) does not comply with FFMSR and the SGL ledger at the
      transaction level. Corrective actions are scheduled for completion by October 1, 2010,
      for the SGL noncompliance.
   3. NRCS did not comply with FFMSR, Federal accounting standards, and the SGL at the
      transaction level. Corrective actions are scheduled for completion by
      December 31, 2009.
Because of actions planned by the Department, we are making no further recommendations in
this report.

Finding 4: Transactions Were Not Always Obligated In Accordance
With Appropriations Law
We noted that NRCS did not always obligate transactions in accordance with appropriations law.
NRCS did not obligate leases, training, and various other transactions prior to payment.

                                                                                               13
The GAO Publication GAO/OGC-92-13, Appropriations Law, defines an obligation in very
general terms as, “an action that creates a liability or definite commitment on the part of the
Government to make a disbursement at some later time. The obligation takes place when the
definite commitment is made, even though the actual payment may not take place until the
following fiscal year.”
A recommendation was included in the NRCS’s financial statement audit report. Therefore, we
are making no additional recommendations in this report. (We also note that this
noncompliance, reported for the FS in our fiscal year 2008 report, no longer exists.)




                                                                                                  14
Exhibit A: Audit Reports Related to the Fiscal Year 2009
Financial Statements

The following is a list of reports which are related to OIG’s audit of USDA’s fiscal year 2009
financial statements.

AUDIT NUMBER           AUDIT TITLE                                RELEASE DATE

05401-18-FM            Federal Crop Insurance                     November 2009
                       Corporation/Risk Management
                       Agency’s Financial Statements for
                       Fiscal Years 2009 and 2008
06401-24-FM            Commodity Credit Corporation’s             November 2009
                       Financial Statements for Fiscal Years
                       2009 and 2008
08401-10-FM            Forest Service’s Financial Statements      November 2009
                       for Fiscal Years 2009 and 2008

10401-3-FM             Natural Resources and Conservations        November 2009
                       Service’s Financial Statements for 2009


11401-30-FM            Statement on Auditing Standards No.        September 2009
                       70, Report on the National Finance
                       Center General Controls Review –
                       Fiscal Year 2009
27401-34-HY            Food and Nutrition Service Financial       November 2009
                       Statements for Fiscal Years
                       2009 and 2008
50501-15-FM            Fiscal Year 2009 Federal Information       November 2009
                       Security Management Act Report

85401-17-FM            Rural Development’s Financial              November 2009
                       Statements for Fiscal
                       Years 2009 and 2008

88501-13-FM            Statement on Auditing Standards No.        September 2009
                       70, Report on the National Information
                       Technology Center General Controls
                       Review – Fiscal Year 2009




                                                                                                 15
Exhibit B: Summary of Prior Year Recommendations


Audit Report 50401-65-FM, U.S. Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2008 and 2007, issued November 14, 2008


Recommendation 1
Provide additional oversight to ensure that general ledgers reflect valid obligations and that
agencies perform the required reviews timely and effectively.


Departmental Status
During fiscal year 2009, the Department issued revised Bulletin 2230-1, “Reviews of
Unliquidated Obligations” requiring agencies to review and certify aged ULOs quarterly instead
of annually as previously required. The Department established a working group to monitor
timely reviews of obligations. In addition the Department performed an internal review of aged
ULO’s as of March 31, 2009.


OIG Results
This Material Weakness continues to exist, as discussed in Finding 1.


Audit Report 50401-62-FM, U.S. Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2007 and 2006, issued November 15, 2007


Recommendation 1
Implement an effective quality control review process throughout the Department for credit
reform processes that, at a minimum, includes independent quality assurance reviews of model
changes, data extracts, and reestimates.


Departmental Status
During fiscal year 2009, the Department reinstituted the Credit Reform Working Group to
improve coordination and communication amongst the three lending agencies.


OIG Results
Material weakness remains for Rural Development, as discussed in Finding 1.




                                                                                                 16
Exhibit C: Status of Prior Year Noncompliance Findings


Audit Report 50401-65-FM, U.S. Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2008 and 2007, issued November 14, 2008


Reported Condition
On September 30, 2008, USDA formally reported an Anti-Deficiency Act (ADA) violation of
about $18 million by the FS to the President, Congress, and OMB. In May 2007, the Office of
General Counsel issued an opinion concluding that FS had an ADA violation. In February 2008,
GAO issued a decision, as the request of FS, which also found that the agency violated ADA.
Status
The Department reported no new ADAs in fiscal year 2009.
Please note this addresses only noncompliance findings that are not discussed in Section 2 of the
audit report.




                                                                                               17
Abbreviations

ADA ............................ Anti-Deficiency Act
C&A ............................ certification and accreditation
CCC............................. Commodity Credit Corporation
CFO ............................. Chief Financial Officer
CSAM ......................... Cyber Security Assessment and Management
DR ............................... Departmental Regulation
FDCC .......................... Federal Desktop Core Configurations
FFMIA ........................ Federal Financial Management Improvement Act of 1996
FFMSR........................ Federal Financial Management Systems Requirements
FISMA ........................ Federal Information Security Management Act of 2002
FMFIA ........................ Federal Managers’ Financial Integrity Act of 1982
FS ................................ Forest Service
GAO ............................ U.S. Government Accountability Office
ISA .............................. Interconnection Security Agreements
IT ................................. information technology
MD&A ........................ Management’s Discussion and Analysis
NFC ............................. National Finance Center
NIST ............................ National Institute of Standards and Technology
NITC ........................... National Information Technology Center
NRCS .......................... Natural Resources Conservation Service
OCFO .......................... Office of the Chief Financial Officer
OCIO ........................... Office of the Chief Information Officer
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
PIA .............................. Privacy Impact Assessments
POA&M ...................... plan of action & milestones
SFFAS ......................... Statement of Federal Financial Accounting Standards
SGL ............................. U.S. Government Standard General Ledger
SSP .............................. System Security Plans
Treasury ...................... U.S. Department of Treasury


                                                                                      18
ULO ............................ Unliquidated Obligations
USDA.......................... U.S. Department of Agriculture




                                                                19
Exhibit D: Agency Response




                             20
Exhibit E: Performance and Accountability Report




  USDA Performance and Accountability Report
             for Fiscal Year 2009




                    (Prepared by USDA)


           SECTIONS 1, 2, AND 4 ARE UNAUDITED.




                                                   21
                                                             Table of Contents
Message from the Secretary ....................................................................................................................ii
About this Report ................................................................................................................................. iv

1.    Management’s Discussion and Analysis........................................................................................... 1 
      Resources .......................................................................................................................................................................5 
      Performance Goals, Objectives, and Results .................................................................................................................7 
      Future Demands, Risks, Uncertainties, Events, Conditions, and Trends.....................................................................9 
      Systems, Controls and Legal Compliance ...................................................................................................................13 
2.    Annual Performance Report ......................................................................................................... 21 
      Strategic Goal 1: Enhance International Competitiveness of American Agriculture .................................................21 
      Strategic Goal 2: Enhance the Competitiveness and Sustainability of Rural and Farm Economies ..........................32 
      Strategic Goal 3: Support Increased Economic Opportunities and Improved Quality of Life In Rural America ......44 
      Strategic Goal 4: Enhance Protection and Safety of the Nation’s Agriculture and Food Supply ...............................52 
      Strategic Goal 5: Improve the Nation’s Nutrition and Health....................................................................................61 
      Strategic Goal 6: Protect and Enhance the Nation’s Natural Resource Base and Environment ................................68 
      Program Evaluations of Performance Information .....................................................................................................80 
3.    Financial Statements, Notes, Supplemental and Other Accompanying Information ....................... 87 
      Message from the Chief Financial Officer ..................................................................................................................87 
      Consolidated Financial Statements .............................................................................................................................88 
      Notes to the Consolidated Financial Statements ........................................................................................................93 
      Required Supplementary Stewardship Information ..................................................................................................157 
      Required Supplementary Information .......................................................................................................................165 
4.    Other Accompanying Information .............................................................................................. 175 
      Appendix A—Response to Management Challenges ...............................................................................................175 
      Appendix B—Improper Payment and Recovery Auditing Details ...........................................................................184 
      Appendix C—Inspector General Act Amendments of 1988: Management’s Report on Audit Follow-Up ............203 
      Appendix D—Acronyms ...........................................................................................................................................210 




                                                                                      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT                                                         i
                           Message from the Secretary
In fulfillment of its duty to the people, the President, and Congress, the U.S. Department of
Agriculture (USDA) respectfully submits this Fiscal Year 2009 Performance and Accountability
Report.
The Department’s wide range of programs and responsibilities touch the lives of every
American, every day. And as we fulfill our responsibility to serve the American people, we
strive to answer President Obama’s call to deliver the most transparent, accountable, and
responsive government in history.
Through implementation of the American Recovery and Reinvestment Act of 2009, USDA funded more than
50,000 projects to put Americans back to work and help rejuvenate the Nation's ailing economy. We provided
grants, loans, and other support to help create economic opportunities in America’s rural communities so that they
are self sustaining, repopulating, and thriving economically. And, we have begun the process of distributing billions
of dollars in loans and grants to bring broadband for high speed Internet service to rural communities across the
country.
USDA supported farmers and ranchers across American with disaster assistance, technical advice, and marketing
and regulatory programs. Through high-level trade meetings, we worked to expand agricultural exports in order to
ensure the future prosperity of America’s agricultural economy. And we are working to fully enforce the Packers
and Stockyards Act to crack down on unfair or deceptive practices and ensure a fair marketplace for livestock and
poultry.
I have outlined a new vision for management of our Nation’s forests with a focus on improving water resources and
mitigating the effects of climate change. This will create jobs for folks working to conserve and restore private and
public forests, and provide new opportunities for renewable energy generation. Adequate protection of roadless
areas is also a critical part of my vision to preserve the character of America’s forests, which is why I am currently
personally approving any new projects.
In Fiscal Year 2009, USDA conducted and supported cutting edge research into nutrition, food safety, agricultural
management, and technologies to secure America’s energy future from new domestic sources. In conjunction with
President Obama’s Biofuels Interagency Working Group, we worked to expedite Farm Bill provisions to support
the development of a renewable energy economy through research and funds for commercial and demonstration-
scale bio-refineries.
The Department fought hunger across the globe, working with the U.S. Department of State to outline a new
strategy for global Agricultural development that will focus on promoting availability, and improving accessibility
and utilization. And at home we worked to ensure healthier lives and better nutrition for America's children
through improvements to the food provided to women and their infant children, the expansion of programs and
public-private partnerships to encourage nutritious eating and healthy lifestyles.
In Fiscal Year 2009, USDA utilized the $170.5 billion appropriated by Congress to accomplish the following:
•    Provided most four-person households receiving Supplemental Nutrition Assistance Program (SNAP) benefits
     an $80 monthly payment increase, cushioning the impact of the current economic downturn and generating
     local economic activity worth $1.84 for each $1.00 spent;
•    Provided nearly $3 billion in administrative assistance to States to distribute SNAP benefits to 36 million
     Americans;


ii      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
•   Provided nearly $875 billion for building and repairing 1,828 community facilities including childcare centers,
    hospitals, medical clinics, fire and rescue stations, police stations, and community centers that will improve the
    quality of life for more than 19 million rural Americans;
•   Provided 11,000 grants and loans worth $16.6 billion to preserve rural housing in all 50 states and U.S.
    Territories to help nearly 140,000 rural Americans become homeowners;
•   Began a 12-state effort worth $320 million over 5 years to improve conservation and water quality in the
    Mississippi River Basin;
•   Helped individuals and groups apply conservation management measures to maintain or improve habitat on
    11.6 million acres of non-Federal land;
•   Provided loans and grants worth more than $112 million for 1,557 renewable energy and energy efficiency
    projects in 47 states through the Rural Energy for America Program;
•   Issued more than $2.5 billion in grants and loans to bolster rural water and wastewater infrastructure in more
    than 1,200 rural communities, expected to benefit nearly 3.4 million users;
•   Supported the hard-hit dairy and pork industries with more than $700 million in Milk Income Loss Contract
    payments and the purchase of $165 million in pork products for federal food nutrition assistance programs;
•   Facilitated a first-of-its-kind equivalency agreement between the U.S. and Canada to create greater market
    opportunities and economic growth for the organic products industry;
•   Granted a conditional license for a vaccine to reduce the prevalence of E. coli O157:H7 in feedlot cattle; and
•   Awarded disaster relief funds to rural businesses, communities, and public entities impacted by floods,
    tornadoes and other disasters.
The Food Safety and Inspection Service (FSIS) was identified by the Government Accountability Office’s high-risk
report in 2007, the only USDA issue area on their list. Ensuring the safety of the American food supply and
protecting the American people from foodborne illness is a top priority for President Obama and the Department.
I have initiated a top-to-bottom review of the FSIS food safety system with the goal of eliminating hospitalizations
and deaths due to foodborne illnesses. Additional actions taken by FSIS in Fiscal Year 2009 include:
•   Participating in President Obama’s Food Safety Working Group to build a food safety system that will meet
    the challenges posed by the global food supply of the 21st century;
•   Beginning to conduct routine sampling of bench trim for E. coli O157:H7;
•   Building a quality public health infrastructure with data that is readily accessible to key decision-makers and
    front-line personnel; and
•   Conducting real time surveillance of high-risk shipments of meat, poultry, and egg products coming into the
    United States and vulnerability assessments focused on imports through partnerships with other Federal
    agencies.
We are also working to transform USDA into a more productive and engaged organization. I have made civil
rights a top priority, taking definitive action to improve the Department's record and to move USDA into a new
era as a model employer and premier service provider. We temporarily suspended all foreclosures within the Farm
Service Agency’s farm loan program; we began a review of program civil rights complaints to improve the complaint
process; and I have ordered an external, independent analysis of program delivery to USDA constituents in the
field. Additionally, I have made it clear to all employees that discrimination of any form will not be tolerated at
USDA.



                                                      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT                   iii
To improve management of the Department, strengthen integration of activities, and increase our capacity for
accomplishing mission critical work, we replaced the Departmental Administration organization with a new USDA
Departmental Management organization. We have implemented reforms to avoid costs to the Department of
more than $50 million since January 2009. These cost-avoidance measures have included eliminating unnecessary
travel and conferences, increasing administrative efficiencies, and terminating contracts that are no longer needed.
The Department’s management team continues to oversee USDA’s assessment of internal control over its
programs, operations, financial systems, and financial reporting. The Department’s work is consistent with the
provisions of the Federal Managers’ Financial Integrity Act (FMFIA) and the Federal Financial Management
Improvement Act (FFMIA). USDA’s continuous monitoring and remediation efforts allow us to provide the
taxpayers reasonable assurance that the content of this report is based on sound, accurate data.
Nevertheless, continued improvement is needed to remediate existing material weaknesses and financial system
non-compliance. To accomplish this goal, management continues to implement corrective action plan activities.
Therefore, I provide qualified assurance that, except for the areas in need of improvement as described in the
Management Assurances section of this report, USDA’s internal control over operations, financial systems, and
financial reporting meet the objectives of FMFIA and FFMIA. The financial and performance information
presented herein is complete and accurate, and in accordance with law and Office of Management and Budget
guidance.
We have accomplished a lot in my first months as Agriculture Secretary. However, President Obama and I have a
broad and ambitious agenda for USDA as an ‘Every Way, Every Day’ organization. I salute USDA employees for
their outstanding work and want to let them know that there will be much more to accomplish as we move forward.
Finally, I want thank you for your interest in USDA. I am proud to share this information with our stakeholders,
employees, federal partners and the American people.




Thomas J. Vilsack
Secretary of Agriculture
November 13, 2009




iv     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                                       About this Report
The Government Performance and Results Act of 1993 requires all Federal agencies to engage in a strategic
planning process that directly aligns resources with results and enhances the accountability of all government
endeavors to the American taxpayers who finance them.
This results-oriented process includes the development and implementation of a five-year strategic plan; annual
reporting that sets specific, measurable targets for performance at the beginning of each fiscal year; and a concrete,
data-based assessment at year-end of the success of these endeavors.
This Fiscal Year 2009 Performance and Accountability Report is the year-end progress report of the U.S.
Department of Agriculture (USDA). It reviews the strategic goals and objectives the Department set for itself at
the beginning of the fiscal year and compares initial targets to actual performance. The data used by USDA to
measure actual performance are collected using standardized methodology that has been vetted by Federally
employed scientists and policymakers and, ultimately, by the undersecretaries of the respective mission areas, all of
whom attest to the completeness, reliability, and quality of the data.
In addition to promoting accountability and enhancing the management of USDA programs, this report also helps
illuminate the strategic allocation of resources in the future by directly linking program performance to budgetary
decisions.
This report strives to provide transparency to all Americans interested in the workings of their government and
USDA’s ability to “manage for results” in performing its many vital public functions.
USDA is working to implement provisions of the American Recovery and Reinvestment Act of 2009 (ARRA) to
put Americans back to work and rejuvenate the Nation's ailing economy. Information on implementing ARRA at
USDA can be found on the Internet at USDA.gov/recovery.




                                                      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT                      v
                                          1. Management’s Discussion and
                                             Analysis




T
    he U.S. Department of Agriculture (USDA) touches the lives of all Americans every day. More than 100,000
    employees deliver more than $170.5 billion in budgetary resources to provide public services through USDA’s
    more than 300 programs worldwide.
Founded by President Abraham Lincoln in 1862, when more than half of the Nation’s population lived and worked
on farms, USDA’s role has evolved with the economy. Today, USDA improves the Nation’s economy and quality
of life by:
• Enhancing economic opportunities for U.S. farmers and ranchers;
• Ensuring a safe, affordable, nutritious, and accessible food supply;
• Caring for public lands and helping people care for private lands;
• Supporting the sound, sustainable development of rural communities;
• Expanding global markets for agricultural and forest products and services; and
• Working to reduce hunger and improve Americans’ health through good nutrition.
Addressing these timeless concerns in the modern era presents its share of challenges. America’s food and fiber
producers operate in a global, technologically advanced, rapidly diversifying, and highly competitive business
environment driven by sophisticated consumers.
This report provides information on USDA’s core performance measures as described in its Strategic Plan for
FY 2005-2010. They are:
• To enhance international competitiveness of American agriculture;
• To enhance the competitiveness and sustainability of rural and farm economies;
• To support increased economic opportunities and improved quality of life in rural America;
• To enhance protection and safety of the Nation’s agriculture and food supply;
• To improve the Nation’s nutrition and health; and
• To protect and enhance the Nation’s natural resource base and environment.
These six goals mirror USDA’s commitment to provide first-class service, state-of-the-art science, and consistent
management excellence across the Department. USDA assesses and seeks to improve program performance so that
the Department can maximize its impact. Program assessments identify how well and efficiently a program is
working and what specific actions can be taken to improve its performance. Summary program evaluations
conducted during fiscal year (FY) 2009 are included in this document at the end of Section 2, “Annual Performance
Report.”
Although change has been a constant in the evolution of the U.S. farm and food sector, the current marketplace
emphasizes the growing importance to consumer preferences and the reach of global markets. USDA’s objectives
reflect this. Through these objectives, USDA strives to:
• Expand international trade for agricultural products and support international economic development;




                                                               MANAGEMENT’S DISCUSSION AND ANALYSIS               1
• Expand domestic marketing opportunities for agricultural products and strengthen risk management, the use of
     financial tools, and the provision of sound information to help farmers and ranchers in their decision-making
     processes;
•   Further develop alternative markets for agriculture products and activities;
•   Provide financing needed to help expand job opportunities and improve housing, utilities, and infrastructure in
     rural America;
•   Enhance food safety by taking steps to reduce the prevalence of foodborne hazards from farm to table and
     safeguard agriculture from natural and intentional threats;
•   Improve nutrition by providing food assistance and nutrition education and promotion; and
•   Manage and protect America’s public and private lands working cooperatively with state and local government
     and the private sector.
Exhibit 1: Headquarters Organization (FY 2009)

                                                                                    SECRETARY

                                                                                 Deputy Secretary




                 Chief Information         Chief Financial           Inspector                      Executive             Director of                General
                      Officer                  Officer                General                       Operations          Communications               Counsel



     Under Secretary for     Under Secretary for         Under Secretary           Under Secretary for     Under Secretary for     Under Secretary for       Under Secretary for
     Natural Resources        Farm and Foreign              for Rural              Food, Nutrition and        Food Safety          Research, Education         Marketing and
      and Environment        Agricultural Services        Development              Consumer Services                                 and Economics          Regulatory Programs
      Forest Service          Farm Service              Rural Utilities            Food and Nutrition        Food Safety and        Agricultural Research    Agricultural Marketing
      Natural Resources       Agency                    Service                    Service                   Inspection             Service                  Service
      Conservation            Foreign Agricultural      Rural Housing              Center for Nutrition      Service                National Institute of    Animal and Plant
      Service                 Service                   Service                    Policy and Promotion                             Food and Agriculture     Health Inspection
                              Risk Management           Rural Business-                                                             Economic Research        Service
                              Agency                    Cooperative Service                                                         Service                  Grain Inspection,
                                                                                                                                    National Agricultural    Packers and
                                                                                                                                    Statistics Service       Stockyards
                                                                                                                                    National Agricultural    Administration
                                                                                                                                    Library




                                        Assistant Secretary for                  Assistant Secretary for             Assistant Secretary for
                                       Congressional Relations                      Administration                        Civil Rights



USDA’s FY 2009 accomplishments include:
• Implemented provisions of ARRA (see USDA.gov/recovery) to put Americans back to work and rejuvenate the
   Nation's ailing economy;
• Granted a conditional license for a vaccine to reduce the prevalence of E. coli O157:H7 in feedlot cattle;
• Launched the National Institute of Food and Agriculture, which is designed to advance knowledge for
   agriculture; the environment; and human health and well-being by supporting research, education, and
   extension programs through the Land-Grant University System and other partner organizations;
• Developed new food safety rules as part of a joint effort with the U.S. Food and Drug Administration;
• Provided grants to preserve rural housing in 48 States and Puerto Rico;
• Provided loan guarantees and grants for 233 renewable energy projects in 38 States under the Rural Energy for
   America Program;
• Issued more than $1 billion in grants and loans to bolster rural water and waste disposal infrastructure;


2        FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
• Helped 50,000 rural Americans become homeowners;
• Facilitated a first-of-its-kind agreement between the U.S. and Canada designed to create greater market
    opportunities and economic growth for the organic products industry;
• Awarded disaster relief funds to rural businesses and communities impacted by floods and tornadoes;
• Provided over $3 billion in administrative assistance to States to distribute SNAP benefits; and
• Provided nearly $1.2 billion in loans and grants for building and repairing community facilities including
    childcare centers, hospitals, medical clinics, fire and rescue stations, police stations, and community centers.
MISSION AREAS
                                                      To ensure that USDA’s efforts focus on meeting its real world
                 Mission Statement                    objectives, the Department’s work is organized by mission
                                                      areas, which are a collection of agencies that work together to
  USDA provides leadership on food, agriculture,      achieve USDA’s aforementioned strategic goals. Descriptions
  natural resources, quality of life in rural         of USDA’s seven mission areas follow.
  America and related issues based on sound
  public policy, the best-available science, and      Natural Resources and Environment
  efficient management.                               The Natural Resources and Environment (NRE) mission area
                                                      ensures the health of the land through sustainable
                                                      management. Its agencies work to prevent damage to natural
resources and the environment, restore the resource base, and promote good land management. NRE consists of
the Forest Service (FS) and the Natural Resources Conservation Service (NRCS). FS manages public lands in
national forests and grasslands, which encompass 193 million acres. NRCS provides leadership in a partnership
effort to help America's private land owners and managers conserve their soil, water, and other natural resources.
Both Agencies work in partnership with Tribal, State, and local Governments; community-related groups; and
other Federal agencies to protect soils, watersheds, and ecosystems.
Farm and Foreign Agricultural Services
The Farm and Foreign Agricultural Services (FFAS) mission area helps keep America's farmers and ranchers in
business as they face the uncertainties of weather and markets. FFAS delivers commodity, credit, conservation,
disaster, and emergency assistance programs that help improve the stability and strength of the agricultural
economic sector. The mission area is comprised of the Farm Service Agency (FSA), the Foreign Agricultural
Service (FAS), and the Risk Management Agency (RMA). FSA administers and manages farm commodity, credit,
conservation, disaster, and loan programs as laid out by Congress through a network of Federal, State, and county
offices. FAS works to improve international market access for U.S. products, build new markets, improve the
competitive position of domestic agriculture in the global marketplace, and provide food aid and technical
assistance to other countries. RMA helps producers manage their business risks through effective, market-based
risk management solutions.
This mission area also includes two Government-owned corporations. The Commodity Credit Corporation (CCC)
works to stabilize farm income to help ensure an adequate, affordable supply of food and fiber. This corporation is a
financial mechanism by which agricultural commodity, credit, export, conservation, disaster, and emergency
assistance is provided. The Federal Crop Insurance Corporation (FCIC) improves the economic stability of
agriculture through a sound system of crop insurance.
Rural Development
The Rural Development (RD) mission area focuses on helping improve the economy and quality of life in all of
rural America. RD provides financial programs to support such essential public facilities and services as water and
sewer systems, housing, health clinics, emergency service facilities, and electric and telephone services. RD


                                                                  MANAGEMENT’S DISCUSSION AND ANALYSIS                 3
promotes economic development by providing loans to businesses through banks and community-managed lending
pools, while also helping communities participate in community empowerment programs. RD provides grants,
loans, and loan guarantees to farmers, ranchers, and rural small businesses to develop renewable energy systems and
make energy efficient improvements.
Food, Nutrition, and Consumer Services
The Food, Nutrition, and Consumer Services (FNCS) mission area works to harness the Nation's agricultural
abundance to reduce hunger and improve health in the United States. FNCS’s agencies administer Federal
domestic nutrition assistance programs. FNCS is comprised of the Food and Nutrition Service (FNS) and the
Center for Nutrition Policy and Promotion (CNPP). FNS administers USDA’s fifteen Federal nutrition assistance
programs. CNPP works to improve the health and well-being of Americans by developing and promoting dietary
guidance that links scientific research to the nutrition needs of consumers.
Food Safety
The Food Safety and Inspection Service (FSIS) is the public health agency responsible for ensuring that the
Nation’s commercial supply of meat, poultry, and egg products is safe, wholesome, and labeled and packaged
correctly.
Research, Education, and Economics
The Research, Education, and Economics (REE) mission area is dedicated to the creation of a safe, sustainable,
competitive U.S. food and fiber system, as well as the development of strong communities, families, and youth
through integrated research, analysis, and education. REE is comprised of the Agricultural Research Service
(ARS); the National Institute of Food and Agriculture (NIFA); the Economic Research Service (ERS); the
National Agricultural Statistics Service (NASS); and the National Agricultural Library (NAL).
Marketing and Regulatory Programs
The Marketing and Regulatory Programs mission area facilitates the domestic and international marketing of U.S.
agricultural products and ensures the health and care of animals and plants. MRP is made up of the Agricultural
Marketing Service (AMS); the Animal and Plant Health Inspection Service (APHIS); and the Grain Inspection,
Packers, and Stockyards Administration (GIPSA). AMS administers programs that facilitate the efficient, fair
marketing of U.S. agricultural products, including food, fiber, and specialty crops. APHIS provides leadership in
ensuring the health and care of animals and plants. GIPSA facilitates the marketing of livestock, poultry, meat,
cereals, oilseeds, and related agricultural products.
DEPARTMENTAL MANAGEMENT AND OFFICES
Department-level offices provide centralized leadership, coordination, and support for USDA’s policy and
administrative functions. Their efforts maximize the energy and resources agencies devote to the delivery of services
to USDA customers and stakeholders.




4       FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Resources
Congressional appropriations are the primary funding source for USDA operations. FY 2009 program obligations
totaled $170.5 billion, an increase of $32.8 billion compared to FY 2008. These are current year obligations from
unexpired funds. They do not include prior year upward or downward obligation adjustments. The variance is due,
in general, to enactment of ARRA and the 2008 Farm Bill (Food, Conservation, and Energy Act of 2008, Public
Law 110-234), indemnities paid, disaster programs, and domestic nutrition programs. The variance is explained in
the “Financial Statement Highlights” and the “Financial Statements” in this document.
Exhibit 2:   FY 2009 and 2008 USDA Program Obligations Dedicated to Strategic Goals

                                               USDA Program Obligations Dedicated to Strategic Goals
                                                           FY 2009 Actual Program Obligations

                                                                             Goal 2 — Enhance the Competitiveness
                                                                             and Sustainability of Rural and Farm
                                                                             Economies — 19%
                     Goal 1 — Enhance International
                     Competitiveness of American
                     Agriculture — 1%
                                                                                                 Goal 3 — Support Increased Economic
                                                                                                 Opportunities and Improved Quality of
                                                                                                 Life in Rural America — 3%

                Goal 6 — Protect and
                Enhance the Nation's Natural                                                    Goal 4 — Support Increased Economic
                Resource Base and                                                               Opportunities and Improved Quality of Life
                Environment — 9%                                                                in Rural America — 2%




                                    Goal 5 — Improve the Nation's
                                    Nutrition and Health— 66%


                                                           FY 2008 Actual Program Obligations

                           Goal 1 — Enhance
                                                                                 Goal 2 — Enhance the Competitiveness
                           International Competitiveness
                           of American Agriculture—4%                            and Sustainability of Rural and Farm
                                                                                 Economies—25%




                 Goal 6 — Protect and Enhance
                 the Nation's Natural Resource                                                  Goal 3 — Support Increased Economic
                 Base and Environment—9%                                                        Opportunities and Improved Quality of
                                                                                                Life in Rural America—14%




                                                                                             Goal 4 — Enhance Protection and Safety
                                                                                             of the Nation's Agriculture and Food
                      Goal 5 — Improve the Nation's                                          Supply—2%
                      Nutrition and Health—46%




                                                                                  MANAGEMENT’S DISCUSSION AND ANALYSIS                       5
Exhibit 3:     FY 2009 and 2008 USDA Staff Years Dedicated to Strategic Goals

                                                     USDA Staff Dedicated to Strategic Goals
                                                           FY 2009 Actual Staff Years

                                                                             Goal 2 — Enhance the Competitiveness
                                                                             and Sustainability of Rural and Farm
                  Goal 1 — Enhance International
                                                                             Economies— 20.78%
                  Competitiveness of American
                  Agriculture — 1.58%

                                                                                           Goal 3 — Support Increased Economic
                                                                                           Opportunities and Improved Quality of
             Goal 6 — Protect and                                                          Life in Rural America— 6.32%
             Enhance the Nation's Natural
             Resource Base and
             Environment — 48.88%                                                              Goal 4 — Support Increased Economic
                                                                                               Opportunities and Improved Quality of Life
                                                                                               in Rural America— 20.40%


                                                                                   Goal 5 — Improve the Nation's
                                                                                   Nutrition and Health— 2.05%


                                                           FY 2008 Actual Staff Years

                                                                           Goal 2 — Enhance the Competitiveness
                                                                           and Sustainability of Rural and Farm
                     Goal 1 — Enhance
                                                                           Economies— 20%
                     International Competitiveness
                     of American Agriculture — 2%

                                                                                        Goal 3 — Support Increased Economic
                                                                                        Opportunities and Improved Quality of
                                                                                        Life in Rural America— 6%

                                                                                           Goal 4 — Enhance Protection and Safety of the
                                                                                           Nation's Agriculture and Food Supply — 21%
             Goal 6 — Protect and
             Enhance the Nation's Natural
             Resource Base and
             Environment —49%                                                    Goal 5 — Improve the Nation's
                                                                                 Nutrition and Health— 2%




6        FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Performance Goals, Objectives, and Results
Of the 41 performance goals contained in USDA’s FY 2009 and Revised FY 2008 Budget Summary and Annual
Performance Plan, 31 were met or exceeded, 9 were unmet, and 1 was deferred. The following Performance
Scorecard table, organized by USDA’s strategic goals and objectives, provides a summary of the Department’s
performance results. Measures 2.2.2 and 3.2.5 each combine two measures from the Budget Summary. Additional
analyses of these results can be found in the Performance Section of this report.

                                                 PERFORMANCE SCORECARD FOR FY 2009
                  Objectives                                                    Annual Performance Goals                                      Result
                               Strategic Goal 1: Enhance International Competitiveness of American Agriculture
 1.1   Expand and Maintain International         1.1.1 Dollar value of agricultural trade expanded through trade agreement                    Unmet
       Export Opportunities                            negotiation, monitoring, and enforcement (Non-Sanitary and Phytosanitary)
 1.2   Support International Economic              1.2.1   Number of countries in which substantive improvements have been made in           Exceeded
       Development and Trade Capacity                      national trade policy and regulatory frameworks that increase market access
       Building
                                                   1.2.2   Food Aid Targeting Effectiveness Ratio                                            Exceeded
 1.3   Improved Sanitary and Phytosanitary         1.3.1   Value of trade preserved annually through USDA staff interventions leading to     Exceeded
       (SPS) System to Facilitate Agricultural             resolutions of barriers created by SPS or Technical Barrier to Trade (TBT)
       Trade                                               measures

                         Strategic Goal 2: Enhance the Competitiveness and Sustainability of Rural and Farm Economies
 2.1   Expand Domestic Market Opportunities        2.1.1   Number of items designated as biobased for Federal procurement                     Unmet
 2.2   Increase the Efficiency of Domestic         2.2.1   Timeliness – Percent of time official reports are released on the date and time    Unmet
       Agricultural Production and Marketing               pre-specified to data users
       Systems
                                                   2.2.2   Percent of market-identified quality attributes for which USDA has provided         Met
                                                           standardization
 2.3   Provide Risk Management and Financial       2.3.1   Increase the normalized value of risk protection provided to agriculture            Met
       Tools to Farmers and Ranchers                       producers through FCIC-sponsored insurance ($ Billion)
                                                   2.3.2   Increase percentage of eligible crops with Noninsured Crop Disaster                Unmet
                                                           Assistance Payments (NAP) coverage
                                                   2.3.3. Increase percentage of beginning farmers, racial and ethnic minority farmers,        Met
                                                          and women farmers financed by USDA
                   Strategic Goal 3: Support Increased Economic Opportunities and Improved Quality of Life in Rural America
 3.1   Expand Economic Opportunities by            3.1.1   Jobs Created or Saved                                                               Met
       Using USDA Financial Resources to
       Leverage Private Sector Resources and
       Create Opportunities for Growth
 3.2   Improve the Quality of Life Through         3.2.1   Number of borrowers/subscribers receiving new and/or improved electric            Exceeded
       USDA Financing of Quality Housing,                  facilities
       Modern Utilities, and Needed                3.2.2   Number of borrowers/subscribers receiving new or improved                          Unmet
       Community Facilities                                telecommunication services (Broadband)
                                                   3.2.3   Number of borrowers/subscribers receiving new or improved service from            Exceeded
                                                           agency funded water facility
                                                   3.2.4   Homeownership opportunities provided                                              Exceeded
                                                   3.2.5   Percentage of customers who are provided access to new and/or improved            Exceeded
                                                           essential community facilities –
                                                           • Health facilities
                                                           • Safety facilities




                                                                                    MANAGEMENT’S DISCUSSION AND ANALYSIS                                7
                                                    PERFORMANCE SCORECARD FOR FY 2009
                     Objectives                                                     Annual Performance Goals                                        Result
                             Strategic Goal 4: Enhance Protection and Safety of the Nation’s Agriculture and Food Supply
    4.1   Reduce the Incidence of Foodborne           4.1.1   Reduce overall public exposure to generic Salmonella from broiler carcasses           Unmet
          Illnesses Related to Meat, Poultry, and             using existing scientific standards
          Egg Products in the U.S.                    4.1.2   Reduce the overall public exposure to Listeria monocytogenes in ready-to-eat           Met
                                                              products
                                                      4.1.3   Reduce the overall public exposure to Listeria monocytogenes in post-lethality         Met
                                                              exposed ready-to-eat products
                                                      4.1.4   Reduce the prevalence of E. coli O157:H7 on ground beef                               Unmet
    4.2   Reduce the Number and Severity of           4.2.1   Number of significant introductions of foreign animal diseases or pests that           Met
          Agricultural Pest and Disease Outbreaks             spread beyond the original area of introduction and cause severe economic or
                                                              environmental damage, or damage to the health of animals or humans
                                                      4.2.2   Improve the capabilities of animal and plant diagnostic laboratories
                                                              • Specific plant diseases labs are prepared to detect                                  Met
                                                              • Specific animal diseases labs are prepared to detect                                 Met
                                                Strategic Goal 5: Improve the Nation’s Nutrition and Health
    5.1   Ensure Access to Nutritious Food            5.1.1   Participation levels for the major Federal nutrition assistance programs (millions
                                                              per month):
                                                              • Supplemental Nutrition Assistance Program (SNAP)                                     Met
                                                              • National School Lunch Program (NSLP)
                                                              • School Breakfast Program (SBP)
                                                              • Special Supplemental Nutrition Program for Women, Infants, and Children
                                                                 (WIC)
    5.2   Promote Healthier Eating Habits and         5.2.1   Application and usage level of nutrition guidance tools (pieces of nutrition         Exceeded
          Lifestyles                                          guidance distributed)
    5.3   Improve Nutrition Assistance Program        5.3.1   Increase SNAP payment accuracy rate                                                  Deferred
          Management and Customer Service
                              Strategic Goal 6: Protect and Enhance the Nation’s Natural Resource Base and Environment
    6.1   Protect Watershed Health to Ensure          6.1.1   Comprehensive nutrient management plans applied (number of plans)
          Clean and Abundant Water                            • Conservation Technical Assistance                                                  Exceeded
                                                              • Environmental Quality Incentives Program                                             Met
                                                      6.1.2   Increase Conservation Reserve Program (CRP) acres of riparian and grass                Met
                                                              buffers
    6.2   Enhance Soil Quality to Maintain            6.2.1   Cropland with conservation applied to improve soil quality (millions of acres)
          Productive Cropland Base                            • Conservation Technical Assistance Program                                            Met
                                                              • Environmental Quality Incentives Program                                            Unmet

    6.3   Protect Forests and Grasslands              6.3.1   Total acres of hazardous fuel reduction treatments                                   Exceeded
                                                      6.3.2   Acres of Wildland Urban Interface (WUI) high-priority fuels treated to reduce        Exceeded
                                                              the risk of catastrophic wildland fire
                                                      6.3.3   Acres of hazardous fuels treated outside the WUI to reduce the risk of               Exceeded
                                                              catastrophic Wildland fire
                                                      6.3.4   Percentage of acres treated in the WUI that have been identified in community        Exceeded
                                                              wildfire protection plans or equivalent plans
                                                      6.3.5   Percentage of total National Forest System land base for which fire risk is           Unmet
                                                              reduced through movement to a better condition class
                                                      6.3.6   Grazing and forest land with conservation applied to protect and improve the
                                                              resource base (millions of acres)




8           FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                 PERFORMANCE SCORECARD FOR FY 2009
                  Objectives                                                   Annual Performance Goals                    Result
                                                           • Conservation Technical Assistance                            Exceeded
                                                           • Environmental Quality Incentives Program                     Exceeded
                      Strategic Goal 6: Protect and Enhance the Nation’s Natural Resource Base and Environment (cont’d)
 6.4   Protect and Enhance Wildlife Habitat to     6.4.1   Wetlands created, restored, or enhanced (acres)
       Benefit Desired, At-Risk, and Declining             • Conservation Technical Assistance                            Exceeded
       Species                                             • Wetlands Reserve Program                                       Met
                                                           • Conservation Reserve Program                                 Exceeded


ACTIONS ON UNMET AND DEFERRED GOALS
USDA continuously works to improve its performance across all of its strategic goals and objectives. Sometimes
circumstances arise that result in the Department falling short of its goals. At other times, the Department
consciously alters its approach in ways that enhance its service to the public, but that make a specific performance
goal a less effective indicator of real progress. In FY 2009, USDA shifted its focus to stimulate the economy via
ARRA. The “Annual Performance Report” section of this report offers further discussion of the Department’s
actions on its goals.

Future Demands, Risks, Uncertainties, Events, Conditions, and Trends
Farmers and food companies operate in highly competitive markets with constantly changing demand for high
quality food with a variety of characteristics, including convenience, taste, and nutrition.
Additionally, homeland security is a significant, ongoing priority for the Department. USDA is working with the
U.S. Department of Homeland Security to help protect agriculture from intentional and accidental acts that might
affect America’s food supply or natural resources.
External factors that challenge USDA’s ability to achieve its desired outcomes include:
• Weather-related hardships and other uncontrollable events domestically and abroad;
• Domestic and foreign macroeconomic factors, including consumer purchasing power, the strength of the U.S.
   dollar, and political changes abroad that can impact domestic and global markets greatly at any time;
• Sharp fluctuations in farm prices, interest rates, and unemployment also impact the ability of farmers, other
   rural residents, communities, and businesses to qualify for credit and manage their debts;
• The impact of future economic conditions and actions by a variety of Federal, State, and local Governments
   that will influence the sustainability of rural infrastructure;
• The increased movement of people and goods, which provides the opportunity for crop and animal pests and
   diseases, such as avian influenza and bovine spongiform encephalopathy, to move quickly across national
   borders;
• Potential exposure to hazardous substances, which may threaten human health and the environment; and the
   ability of the public and private sectors to collaborate effectively on food safety, security, and related emergency
   preparedness efforts;
• The risk of catastrophic fire is dependent on weather, drought conditions, and the expanding number of
   communities in the wildland-urban interface; and
• Efforts to reduce hunger and improve dietary behaviors depend on strong coordination between USDA and a
   wide array of Federal, State, and local partners.




                                                                                   MANAGEMENT’S DISCUSSION AND ANALYSIS              9
FINANCIAL STATEMENT HIGHLIGHTS
Budgetary Resources
USDA receives most of its funding from appropriations authorized by Congress and administered by the U.S.
Department of the Treasury. Total budgetary resources consist of the balance at the beginning of the year,
appropriations received during the year, spending authority from offsetting collections and other budgetary
resources. Total budgetary resources was $208.7 billion for FY 2009 compared to $172.7 billion in FY 2008, an
increase of $36 billion.
The unobligated balance brought forward including recoveries of prior year unpaid obligations decreased $213
million, budget authority net of transfers and resources temporarily not available increased $28.9 billion and
budgetary resources permanently not available decreased $7.3 billion. The increase in budget authority was
primarily due to $28 billion in appropriations received from ARRA.
                                                               %      Obligations Incurred And Net Outlays
                                   2009          2008        Change
                                                                      Obligations Incurred increased $31.2 billion in FY 2009.
 Total Budgetary                $208,761      $172,749        21%     This increase is primarily due to a $18.9 billion increase at
 Resources
                                                                      FNS for the Women, Infants and Children (WIC) and
 Obligations Incurred           $170,508      $139,357        22%     Supplemental Nutrition Assistance (SNAP) programs; a $5.3
 Net Outlays                    $121,759       $96,182        27%     billion increase at RMA for indemnities paid; a $2.1 billion
 Data in millions                                                     increase at RD for credit programs; offset by a $2.5 billion
                                                                      decrease at FSA for disaster programs.
Net Outlays increased $25.6 billion in FY 2009, primarily in relation to the increase in obligations described above.
BALANCE SHEET
Condensed Balance Sheet Data
                                                                                  FY 2009       FY 2008      % CHANGE
                        Fund Balance with Treasury                                $72,334      $64,595         12%
                        Accounts Receivable, Net                                    8,866       10,298         -14%
                        Direct Loan and Loan Guarantees, Net                       85,657       81,774          5%
                        General Property, Plant and Equipment, Net                  2,972        2,973          0%
                        Other                                                         810          733         11%
                        Total Assets                                              170,639      160,373         6%
                        Debt                                                       84,119       77,577         8%
                        Loan Guarantee Liability                                    1,844        1,333         38%
                        Benefits Due and Payable                                    3,119        2,764         13%
                        Other                                                      36,642       39,298         -7%
                        Total Liabilities                                         125,724      120,972         4%
                        Unexpended Appropriations                                  38,302       30,783         24%
                        Cumulative Results of Operations                            6,613        8,618         -23%
                        Total Net Position                                         44,915       39,401         14%
                        Total Liabilities and Net Position                       $170,639     $160,373         6%




10         FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
AS OF SEPTEMBER 30, 2009 AND 2008 (IN MILLIONS)
Total Assets
Total assets increased $10.3 billion in FY 2009. This increase is primarily due to an increase in Fund Balance with
Treasury of $7.7 billion; an increase in Direct Loan and Loan Guarantees, Net of $3.9 billion, offset by a decrease
in accounts receivable for the Tobacco Transition Payment Program at CCC of $597 million and premiums from
Approved Insurance Providers at RMA of $777 million.
Direct Loan and Loan Guarantees, Net is the single largest asset on the USDA Balance Sheet. RD offers both
direct and guaranteed loan products for rural housing and rural business infrastructure. These represent 86 percent
of the total USDA loan programs. Loan programs administered by the FSA represent 8 percent of the total. FSA
provides support to farmers who are temporarily unable to obtain private, commercial credit. The remaining 6
percent represents commodity loans and credit programs administered by CCC. CCC’s loans are used to improve
economic stability and provide an adequate supply of agricultural commodities. CCC credit programs provide
foreign food assistance, expand foreign markets and provide domestic low-cost financing to protect farm income
and prices.
Total Liabilities
Total liabilities increased $4.8 billion in FY 2009. This increase is primarily due to a $6.5 billion increase in Debt,
offset by a decrease in other liabilities for repayments to Treasury of $941 million and $490 million at FSA and
CCC, respectively.
Debt represents amounts owed primarily to Treasury by CCC and RD. For CCC, the debt primarily represents
financing to support Direct and Counter Cyclical, Crop Disaster and Loan Deficiency programs. For RD, the debt
primarily represents financing to support Electric and Housing loan programs.
Total Net Position
Total net position increased $5.5 billion in FY 2009. This increase is due to an increase in unexpended
appropriations of $7.5 billion less $2 billion in cumulative results of operations.
NET COST OF OPERATIONS
Condensed Statement of Net Cost
For the Years Ended September 30, 2009 and 2008
(in million)
                                                                                                               %
                                                                                         FY 2009   FY 2008   CHANGE
                    Goal 1: Enhance International
                    Competitiveness of American Agriculture                               $1,362    $2,029    -33%
                    Goal 2: Enhance the Competitiveness and Sustainability of Rural
                    and Farm Economies                                                    22,116    17,159    29%
                    Goal 3: Support Increased Economic Opportunities and Improved
                    Quality of Life in Rural America                                       3,233     3,879    -17%
                    Goal 4: Enhance Protection and Safety of the Nation’s Agriculture
                    and Food Supply                                                        2,612     2,439     7%
                    Goal 5: Improve the Nation’s Nutrition and Health                     78,757    60,132    31%
                    Goal 6: Protect and Enhance the Nation’s Natural Resource Base
                    and Environment                                                       10,988    11,095     -1%
                    Net Cost of Operations                                              $119,068   $96,733    23%



                                                                                   MANAGEMENT’S DISCUSSION AND ANALYSIS   11
Net Cost of Operations
Net cost of operations increased $22.3 billion in FY 2009. This increase is primarily due to increased participation
in the WIC and SNAP programs at FNS of $18.6 billion; increased Price Support and Milk Income Loss program
payments at CCC of $1.7 billion; increased indeminities paid less underwriting gains at RMA of $1.7 billion; offset
by a decrease in disaster program payments at FSA of $2.2 billion.
Stewardship Investments
                          2009        2008   % Change Stewardship investments are substantial investments made by
 Non-Federal Physical    $87        $59     47%       the Federal Government for the benefit of the nation but are
 Property                                             not physical assets owned by the Federal Government. When
 Human Capital          $643       $630     2%        incurred, they are treated as expenses in determining the net
 Research and          $2,202     $2,137    3%        cost of operations. However, these items merit special
 Development                                          treatment so that users of Federal financial reports know the
 Data in millions                                     extent of investments that are made for long-term benefit.
                                                      Such investments are measured in terms of expenses incurred
for non-Federal physical property, human capital, and research and development.
Limitations of the Financial Statements
The principal financial statements have been prepared to report the financial position and results of operations of
the entity, pursuant to the requirements of 31 U.S.C. 3515(b).
While the statements have been prepared from the books and records of the entity in accordance with GAAP for
Federal entities and the formats prescribed by OMB, the statements are in addition to the financial reports used to
monitor and control budgetary resources, which are prepared from the same books and records.
The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity.




12       FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Systems, Controls and Legal Compliance
Management Assurances
STATEMENT OF ASSURANCE
The U.S. Department of Agriculture (USDA) provides a qualified statement of assurance
that its management has established and maintained effective management control,
financial management systems, and internal controls over financial reporting to meet the
objectives of Federal Managers’ Financial Integrity Act (FMFIA), with the exception of
three material weaknesses and one financial system non-conformance. The details of the
exceptions are provided in the FMFIA and the Federal Financial Management
Improvement Act (FFMIA) sections of this report.
USDA conducted an assessment of its financial management systems and internal control
over 1) the effectiveness and efficiency of operations and compliance with applicable laws
and regulations as of September 30, 2009, and 2) financial reporting as of June 30, 2009, which includes
safeguarding of assets and compliance with applicable laws and regulations, in accordance with the requirements of
Office of Management and Budget (OMB) Circular A-123, “Management’s Responsibility for Internal Control.”
Based on the results of these evaluations, USDA has three existing material weaknesses and one system non-
conformance in fiscal year 2009.
Other than the exceptions noted in the FMFIA and FFMIA sections, financial management systems conform
substantially with the objectives of FMFIA and the internal controls were operating effectively and no other
material weaknesses were found in the design or operation of the internal control over 1) the effectiveness and
efficiency of operations and compliance with applicable laws and regulations as of September 30, 2009, and
2) financial reporting as of June 30, 2009.




Thomas J. Vilsack
Secretary of Agriculture
November 13, 2009




                                                                MANAGEMENT’S DISCUSSION AND ANALYSIS              13
Federal Managers’ Financial Integrity Act Report on Management Control
BACKGROUND
The Federal Managers’ Financial Integrity Act (FMFIA) requires ongoing evaluations of internal control and
financial management systems. These evaluations lead to an annual statement of assurance that:
• Obligations and costs comply with applicable laws and regulations;
• Federal assets are safeguarded against fraud, waste, and mismanagement;
• Transactions are accounted for and properly recorded; and
• Financial management systems conform to standards, principles, and other requirements to ensure that Federal
    managers have timely, relevant, and consistent financial information for decision-making purposes.
USDA annually evaluates its internal controls over financial reporting in accordance with OMB Circular A-123,
“Management’s Responsibility for Internal Control,” Appendix A, “Internal Control Over Financial Reporting”
(A-123, Appendix A).
The Department operates a comprehensive internal control program. This program ensures compliance with the
requirements of FMFIA and other laws and OMB Circulars A–123, Appendix A, and A–127, “Financial
Management Systems.” All USDA managers must ensure that their programs operate efficiently and effectively,
and comply with relevant laws. They must also ensure that financial management systems conform to applicable
laws, standards, principles, and related requirements. In conjunction with OIG and GAO, the Department’s
management works aggressively to determine the root causes of its material weaknesses so that it can direct
resources to focus on their remediation.
USDA remains committed to reducing and eliminating the risks associated with its deficiencies. It also strives to
efficiently and effectively operate its programs in compliance with FMFIA.

FY 2009 Results
USDA has three existing material weaknesses: Information Technology, Financial Reporting – Unliquidated
Obligations, and Financial Reporting – Credit Reform. There is one system non-conformance: Funds Control
Management. Thus, the “Secretary’s Statement of Assurance” provides qualified assurance that USDA’s system of
internal control complies with FMFIA objectives. The following exhibit summarizes the results reported in
USDA’s Consolidated Financial Statements Audit Report.
An auditor-identified deficiency for Rural Development (RD) was found relating to the assumption curves used in
cash flow models to perform the annual reestimate calculations. While various processes are in place to ensure the
accuracy and completeness of the assumption curves, the overall controls surrounding these processes need
improvements to prevent errors.




14      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Exhibit 4: Summary of Financial Statement Audit

                     Audit Opinion                                                               Unqualified
                     Restatement                                                                     No
                                                           Beginning                                                             Ending
                  Material Weakness                         Balance         New       Resolved       Consolidated   Reassessed   Balance
  Improvement Needed in Overall Financial                        1                                                                 1
  Management
  Improvements Needed in Information Technology                  1                                                                 1
  Security and Controls
  TOTAL MATERIAL WEAKNESSES                                      2                                                                 2

The following exhibit lists USDA’s material weaknesses and the financial system non-conformance as related to
management’s assurance for FMFIA and the certification for FFMIA.
Exhibit 5: Summary of Management Assurances

                                       Effectiveness of Internal Control Over Financial Reporting (FMFIA § 2)
              Statement of Assurance                                                             Qualified
                                                        Beginning                                                                Ending
                 Material Weakness                       Balance          New        Resolved      Consolidated     Reassessed   Balance
 Information Technology                                      1                                                                      1
 Financial Reporting – Unliquidated Obligations              1                                                                      1
 Financial Reporting – Credit Reform                         1                                                                      1
 TOTAL MATERIAL WEAKNESSES                                   3                                                                      3
                                            Effectiveness of Internal Control Over Operations (FMFIA § 2)
              Statement of Assurance                                                            Unqualified
                                                        Beginning                                                                Ending
                 Material Weakness                       Balance          New        Resolved      Consolidated     Reassessed   Balance
 TOTAL MATERIAL WEAKNESSES                                   0                                                                      0
                                   Conformance with Financial Management System Requirements (FMFIA § 4)
              Statement of Assurance                                                             Qualified
                                                        Beginning                                                                Ending
                 Material Weakness                       Balance          New        Resolved      Consolidated     Reassessed   Balance
 Funds Control Management                                    1                                                                      1
 TOTAL NON-CONFORMANCE                                       1                                                                      1
                                     Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                       Agency                                       Auditor
          Overall Substantial Compliance                                  No                                          No
 1. System Requirements                                                   No                                            No
 2. Accounting Standards                                                  No                                            No
 3. United States Standard General Ledger at                              No                                            No
    Transaction Level
 4. Information security policies, procedures, and                        No                                            No
    practices




                                                                                  MANAGEMENT’S DISCUSSION AND ANALYSIS                     15
MATERIAL WEAKNESSES
Summary of Outstanding Material Weaknesses

 Material Weakness          1. USDA Information Technology                       Overall Estimated Completion Date                   FY 2012
 Existing
                            Internal control design and operating effectiveness deficiencies in four areas: logical access controls, configuration
                            management, physical access and environmental protection, and disaster recovery. These deficiencies represent an overall
                            Information Technology (IT) material weakness.
 FY 2009 Accomplishments:                                                       FY 2010 Planned Actions:
 • Began implementing whole disk encryption on portable computers;              • Expand encryption to include mobile media such as USB thumb
 • Implemented a Department-wide end-point management software tool                  drives by the end of the fiscal year;
     ensure complete and timely weakness remediation, improve client            • Finalize deployment of the Department-wide end-point
     management, and ensure compliance with security standards;                      management tool;
 •   Established secure coding requirements and improved application            • Expand the Department-wide Security Operations Center
     coding by providing a Department-wide tool to ensure compliance;                incorporating 24/7 border protection and monitoring, end point
 •   Improved access controls through dual-factor authentication for network         compliance, and improved incident response processes;
     and remote access;                                                         •    Establish improved and sustainable processes and procedures for
 •   Improved network and boundary protections through a Department                  identity and access management;
     Security Operations Center;                                                •    Standardize the configuration management and change control
 •   Updated regulations to meet the National Institute of Standards and             processes through improved processes and procedures;
     Technology and other Federal requirements relating to change control       •    Improve the A-123 and FISMA monitoring and reporting process to
     processes;                                                                      ensure weaknesses are timely identified and corrected; and
 •   Established an Identity and Access Management team to implement a          •    Establish functional disaster recovery site for mainframe and critical
     Department-wide approach toward improving and automating access                 mid-range systems.
     and segregation of duties controls; and
 •   Conducted a policy gap analysis and revised access control and
     configuration management policies and procedures.


 Material Weakness          2. Financial Reporting – Unliquidated              Overall Estimated Completion Date                     FY 2010
 Existing                   Obligations

                            Lack of consistent review and follow-up on unliquidated obligations (ULO).
 FY 2009 Accomplishments:                                                      FY 2010 Planned Actions:
 • Revised Departmental guidance to require quarterly reviews and              • Modify systems and related policies, procedures and processes to
     certifications for obligations;                                                improve the management, review, and closeout of ULOs;
 •   Established ULO data mart and aging report for management review          • Conduct training on new processes to manage, review, and closeout
     and monitoring;                                                                ULOs;
 •   Established ULO Department-wide working group to monitor open             • Implement automated controls to deobligate invalid ULOs; and
     obligations, share best practices, and measure agency performance;        • Institute continuous monitoring of controls over ULOs at successive
 •   Completed statistical sampling of aged ULOs to identify root causes of         levels of management.
     invalid ones and formulate corrective actions; and
 •   Monitored agency compliance with revised Departmental guidance on
     quarterly reviews and certifications for obligations.




16       FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
 Material Weakness          3. Financial Reporting – Credit Reform                Overall Estimated Completion Date                 FY 2010
 Existing
                            Controls are lacking in the credit reform quality assurance process to ensure that cash flow models, data inputs, estimates,
                            and reestimates are subject to appropriate management oversight.
 FY 2009 Accomplishments:                                                          FY 2010 Planned Actions:
 CCC:                                                                              RD will:
 • Established a team to review all model changes to include members of            • Ensure that detailed second party review procedures are
    both the budget and the accounting disciplines. Invited OIG to all                performed and documented by personnel independent of those
    Configuration Control Board meetings to monitor CCC's efforts;                    preparing the assumption curves;
 • Established a timeline for all model changes to allow adequate time for         • Establish process improvements for version control related to the
    testing and review prior to delivery to the auditors;                             curves;
 • Tested all model changes/development results to ensure that model               • Evaluate automation support to determine the feasibility of
    outputs properly capture all elements of the cash flow, not just those            performing curve calculations systematically;
    affected by change(s) in OMB’s Credit Subsidy Calculator 2 to ensure that      • Enhance review procedures over the quality and accuracy of
    those results do not produce unintended consequences; and                         Cohort Sheet materials; and
 • Procured a contractor for Independent Verification and Validation review        • Determine the reasonableness of the curves for reestimation
    and oversight for any newly developed models.                                     purposes and also focus on accuracy of the calculations and
                                                                                      portfolio trends.
 USDA:
 • Reinstituted the Credit Reform Working Group to improve communication
    and address issues related to credit reform budgeting and accounting;
    and
 • Coordinated consistent application of new credit reform guidance.

 *Note: CCC reported an auditor-identified weakness in controls for the credit
 reform assurance process in FY 2008. Better procedures were needed to
 ensure that cash flow models, data inputs, estimates, and reestimates were
 performed with appropriate management oversight. The material weakness
 for financial reporting - credit reform has been resolved for CCC.



SUMMARY OF OUTSTANDING SYSTEM NON-CONFORMANCE
 System Non-                1. Funds Control Management                           Overall Estimated Completion Date                 FY 2012
 Conformance
 Existing                   System improvements needed in recording obligations at the transactions level.
 FY 2009 Accomplishments:                                                          FY 2010 Planned Actions:
 • Developed functionality in the electronic Funds Management System               • Enhance the eFMS by incorporating transaction level obligations
     (eFMS) to process funds control at the time of obligation request from             for the Tobacco Transition Payment Program, Direct Payments,
     FSA/CCC program applications; and                                                  and Conservation Reserve Program (CRP) Annual Rental
 •   Began acquisition and planning phase of Farm Program Payment                       programs that will check funds availability at the time of
     System/Modernize and Innovate the Delivery of Agriculture Systems                  obligation;
     (MIDAS).                                                                      •    Implement Web-based Supply Chain Management (WBSCM) to
                                                                                        integrate obligation transactions for the Commodity Credit
                                                                                        Corporation (CCC) Commodity Operations programs into eFMS;
                                                                                        and
                                                                                   •    Complete planning phase and begin software and acquisition
                                                                                        phase of MIDAS project.




                                                                                       MANAGEMENT’S DISCUSSION AND ANALYSIS                                17
Federal Financial Management Improvement Act Report on Financial Management Systems
BACKGROUND
The Federal Financial Management Improvement Act (FFMIA) is designed to improve financial and program
managers’ accountability, provide better information for decision-making, and improve the efficiency and
effectiveness of Federal programs. FFMIA requires that financial management systems provide reliable, consistent
disclosure of financial data in accordance with generally accepted accounting principles and standards. These
systems must also comply substantially with: 1) Federal Financial Management System requirements; 2) applicable
Federal accounting standards; and 3) the United States Standard General Ledger (USSGL) at the transaction level.
Additionally, FISMA requires that there be no significant weaknesses in information security policies, procedures
or practices to be substantially compliant with FFMIA (referred to as Section 4 in the accompanying table).
Exhibit 6: Initiatives To Be Completed

                                                     Outstanding Initiatives to Achieve FFMIA Compliance
                                                                                           Section of                                              Target Completion
                                     Initiative                                         Non-compliance                           Agency                   Date
 Information Technology¹                                                                Federal financial system                 Multiple               9/30/2012
                                                                                        requirements, and
                                                                                        Information security policies,
                                                                                        procedures, and/or practices.
 Funds Control Management                                                               Federal Financial System                   CCC                 10/31/2012
                                                                                        requirements.
                                                                                        U.S. Standard General                       FS                  10/1/2010
                                                                                        Ledger at the transaction
                                                                                        level, and Federal financial
                                                                                        management system
                                                                                        requirements.
                                                                                        Federal financial                         NRCS                 12/31/2009
                                                                                        management system
                                                                                        requirements, Federal
                                                                                        Accounting Standards, and
                                                                                        U.S. Standard General
                                                                                        Ledger at the transaction
                                                                                        level.
 ¹ The information technology material weakness, which is reported in the Federal Managers’ Financial Integrity Act Report on Management Control, is comprised of four
 issues: logical access controls, configuration management, physical access and environmental protection, and disaster recovery.


FY 2009 RESULTS
During FY 2009, USDA evaluated its financial management systems to assess substantial compliance with the Act.
In assessing FFMIA compliance, the Department considered auditors opinions on component agencies’ financial
statements, and progress made in addressing the material weaknesses identified in the FY 2008 Performance and
Accountability Report. The Department is not compliant with Federal Financial Management System
requirements, Federal accounting standards, and the standard general ledger at the transaction level. Additionally,
as reported in the FMFIA section of this report, USDA continues to have weaknesses in information technology
controls that result in non-compliance with the FISMA requirement. As part of USDA’s financial systems strategy,
USDA agencies continue working to meet FFMIA and FISMA objectives.
FS is working to mitigate auditor-identified deficiencies related to its systems and methodologies to comply with
USSGL at the transaction level and Federal financial management system requirements.



18        FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
NRCS is working to mitigate auditor-identified deficiencies. Financial management systems did not substantially
comply with Federal financial management system requirements, the USSGL at the transaction level, and
applicable Federal Accounting Standards for internal use software (including work in progress), undelivered orders,
unfilled customer orders, expense accruals, and capital leases. Deficiencies were also noted regarding proper use of
USSGL.
Federal Financial Management System Requirements
CCC continues to develop an integrated funds control system, the electronic Funds Management System (eFMS),
within the FSA/CCC Core financial management system. This work includes integration with CCC’s general
ledger system at the transaction level. eFMS will also provide management with timely information to monitor and
control the status of budgetary resources recorded in the general ledger.
FY 2009 accomplishments included:
• Developed functionality in eFMS to process funds control at the time of obligation request from FSA/CCC
   program applications; and
•   Began Acquisition and Planning phase of Farm Program Payment System/Modernize and Innovate the
    Delivery of Agriculture Systems (MIDAS).
In FY 2010, CCC will:
• Enhance eFMS by incorporating transaction level obligations for the Tobacco Transition Payment Program,
    Direct Payments, and CRP Annual Rental programs that will check funds availability at the time of obligation;
•   Implement Web-based Supply Chain Management (WBSCM) to integrate obligation transactions for CCC
    Commodity Operations programs into eFMS; and
•   Complete Planning phase and begin Software and Acquisition phase of MIDAS.
In FY 2011 CCC will:
• Complete Proof of Concept and System Design for MIDAS.
In FY 2012, CCC will:
• Complete software modifications to program applications to send obligation transactions for CCC Farm,
    Foreign, and remaining commodity operations programs;
•   Implement Financial Management Modernization Initiative and FSA's Modernize and Innovate the Delivery
    of Agricultural Systems packages; and
•   Begin Initial Operating Capability for MIDAS.




                                                                MANAGEMENT’S DISCUSSION AND ANALYSIS              19
20   FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                                              2. Annual Performance Report




T
    2.   Annual Performance Report
    he U.S. Department of Agriculture’s (USDA) mission is to provide leadership on food, agriculture, natural
    resources, and related issues based on sound public policy, the best available science, and efficient management.
    The Department executed this mission in fiscal year (FY) 2009 through activities such as:
•   Helping millions of low-income households and America’s children improve their health and diets via targeted
     nutrition assistance programs;
•   Engaging in activities designed to bolster healthcare in rural America;
•   Opening new international markets, and maintaining existing markets;
•   Supporting the objectives of the National School Breakfast and School Lunch Programs;
•   Providing farmers and ranchers with risk management and financial tools;
•   Working with other Federal departments to create and implement new food-safety regulations;
•   Meeting with experts from around the globe to discuss current and emerging economic opportunities;
•   Researching ways to keep gas prices down, reduce America’s dependence on oil, and reduce greenhouse gas
     emissions;
•   Providing aid to those affected by severe weather and other disasters;
•   Fighting potential pest and disease outbreaks; and
•   Working to ensure the health and protection of the environment.

Strategic Goal 1: Enhance International Competitiveness of American Agriculture
Expanding global markets for agricultural products will increase demand and contribute directly to economic
stability and prosperity for America’s farmers. USDA accomplishes this through negotiation, monitoring, and
enforcement of trade agreements. Working with producers and commodity trade associations, USDA administers
an array of market development and export promotion programs designed to build long-term markets abroad. The
Department helps expand trade opportunities through technical assistance and training programs. USDA also
provides food assistance programs to developing countries. These programs are designed to provide greater food
security which leads to greater economic stability in the recipient countries. These tools support agricultural
development and growth in developing countries. They also help these countries participate in, and benefit from,
international trade. USDA works to facilitate trade by adopting and promoting science-based regulatory systems
and standards. These activities are reflected in the three objectives and four performance measures that follow.
OBJECTIVE 1.1: EXPAND AND MAINTAIN INTERNATIONAL EXPORT OPPORTUNITIES

               Measure 1.1.1: Dollar value of agricultural trade preserved through trade agreement negotiation,
                                                 monitoring, and enforcement




                                                                                   ANNUAL PERFORMANCE REPORT       21
Overview
The Department works closely with the Office of the U.S. Trade Representative to negotiate new trade agreements
to expand access to global markets for U.S. agriculture. USDA continues to play a leadership role in negotiating the
Doha Development Agenda under the auspices of the World Trade Organization (WTO).

                               Key Outcome                                          To further expand global trade, U.S. officials negotiated
                                                                                    bilateral accession agreements with countries seeking WTO
     Increased Access to Global Markets for U.S. Agricultural                       membership. In FY 2009, USDA played a critical role in
                                                                                    supporting negotiations with Russia, Kazakhstan, and
                    Producers and Exporters
                                                                                    several other countries.
The Department works to expand U.S. agricultural export opportunities by supporting regional and bilateral free
trade agreements. USDA is awaiting congressional approval of free trade agreements with Colombia, Panama, and
Korea. It also is closely monitoring implementation of existing free trade agreements, including the two newest
agreements with Peru and Costa Rica.

Analysis of Results
USDA uses a performance measure that estimates the value of trade preserved through enforcing trade agreements,
creating and maintaining new export opportunities, and addressing trade barriers. USDA failed to meet its targeted
level of performance. The 2008 collapse of the Doha Round of WTO negotiations, coupled with the global
economic climate, and delays in approval of already negotiated free trade agreements were significant factors.
Extensively monitoring and enforcing existing trade agreements, which USDA can influence, will help the
Department reach its 2010 targets.
Exhibit 7: Increase U.S. Export Opportunities and Trends in Expanding and Retaining Market Access

         Annual Performance Goals, Indicators,                       2005          2006            2007              2008                      Fiscal Year 2009
                      and Trends
                                                                                                                                     Target          Actual          Result
 1.1.1    Dollar value of agricultural trade preserved               $800           $14            $670              $484             $900           $368            Unmet
          through trade agreement negotiation,                                                                                                    (estimated)
          monitoring, and enforcement (Non-Sanitary
          and Phytosanitary) ($ millions) Baseline: 1999
          = $2,567
 Rationale for Met Range: The target for this measure is controlled by international parties. It reflects U.S. expectations for negotiating new agreements, addressing
 compliance with existing trade agreements and resolving trade access issues that arise so that domestic exports can continue.
 • Data assessment metrics to meet the target allow for an actual number in the range $810-$990. ($ millions)
 Data Assessment of Performance Measures 1.1.1
 Data for the World Trade Organization and tariff rates are projected estimates based on results posted to the performance tracking system within USDA..
 Data for successfully retaining and assuring U.S. trade access to export markets are projected estimates based on results posted during the first three
 quarters of FY 2009.
 • Completeness of Data—Data for successfully retaining and assuring U.S. trade access to export markets are projected estimates based on results
    posted during the first three quarters of FY 2009.
 • Reliability of Data—Data are reliable and used by the Department to highlight successes in the trade-policy arena.
 • Quality of Data—USDA maintains a standardized methodology to forecast trade impacts. Calculation of trade benefits from preserving existing trade
    is fairly straightforward and easy using this standard methodology. The primary sources of trade data are Department of Homeland Security’s U.S.
    Customs and Border Protection, the Census Bureau, the USDA publication Foreign Agricultural Trade of the United States, and other databases.
    Other sources include market reports compiled by USDA and industry estimates. Since measuring expected trade benefits from broad new trade
    agreements is extremely difficult, the Department evaluates its estimates against other outside estimates when available.




22         FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Challenges for the Future
The key challenge for increasing access to global markets is progress in the WTO negotiations. The conclusion of
the Doha negotiations has been delayed due to external factors and the difficulties inherent in negotiating sensitive
agricultural issues. Improvement in market opportunities under bilateral and regional trade agreements is
contingent on approval and implementation of agreements by all partners. Currently, three bilateral agreements are
pending approval by Congress and waiting implementation by Free Trade Agreement partners. Approval
procedures may include legislative, administrative, and judicial processes.


                                               Selected Results in Research, Extension, and Statistics
           2008 – 2009 World Economic Crisis. The world economic crisis that began in 2008 has major consequences for U.S.
           agriculture. In a new ERS analysis, The 2008/2009 World Economic Crisis: What It Means for U.S. Agriculture, ERS discusses
           the effect of the U.S. and global economic downturn on the U.S. agricultural sector. The weakening of global demand because of
           emerging recessions and declining economic growth results in reduced export demand and lower agricultural commodity prices,
           compared with those in 2008. These, in turn, reduce U.S. farm income and place downward pressures on farm real estate values.
           So far, the overall impact on U.S. agriculture is not as severe as on the broader U.S. economy, because the record-high
           agricultural exports, prices, and farm income in 2007 and 2008 put U.S. farmers on solid financial ground.



OBJECTIVE 1.2: SUPPORT INTERNATIONAL ECONOMIC DEVELOPMENT AND TRADE CAPACITY BUILDING


       Measure 1.2.1: Number of countries in which substantive improvements have been made in national trade policy
                                  and regulatory frameworks that increase market access


Overview
                         Key Outcome                      Global food insecurity impacts people worldwide, with
                                                          more than one billion who go hungry. The problem is
      Improved Ability in Developing Countries to Sustain exacerbated by the current global economic downturn. Food
                                                          security exists when food is available, accessible, and
    Economic Growth and Benefit from International Trade
                                                          appropriately used. Food assistance alone is not enough, as
                                                          food availability also concerns trade and increases in in-
country production. The largest contributing factors to insufficient production are chronic under-investment in
agriculture, inefficient inputs and markets, and poor governance. To address food insecurity, improvements need to
be made in the entire value chain from farm to table. These improvements include increasing production and
efficient inputs, reducing post-harvest losses, and supporting mechanisms that encourage local, regional, and
international trade. Food security must be country-driven and focused at the local level.
A major goal of USDA trade and development programs is increasing agricultural productivity and trade. Another
goal is investing in developing countries to enhance food security, economic growth, and the supply and
affordability of food. USDA is deploying its experts and institutional resources to help developing countries become
economically stable and capable of supporting their populations. This is mutually beneficial. The Department’s
trade and development programs help foreign Governments strengthen food security by adopting productivity-
enhancing technologies and policies. USDA programs also reconstruct the agricultural sector in war-torn, post-
conflict, and disaster areas; develop sustainable natural resource management systems; and strengthen agricultural
research and extension programs.




                                                                                                   ANNUAL PERFORMANCE REPORT                23
Agricultural development and food security are key components of the Department’s strategy for Afghanistan. In
response, USDA has created an Afghanistan-Pakistan Fusion Cell to manage Afghan programs, policy, and
analysis. More than 10 Departmental agencies have contributed employees as agricultural experts in Afghanistan
since 2003 to serve on Provincial Reconstruction Teams (PRTs). These civilian-military units assist local
agricultural communities in developing and managing agricultural reconstruction according to their own needs
assessments. In 2007, the Department expanded these efforts to Iraq. USDA advisors traveled there to work
directly with the Ministry of Agriculture in Baghdad and serve on PRTs. USDA has sent more than 120 experts to
both countries for 3-to-12-month tours. Some advisors sign up for multiple tours.
With trade a key component for bolstering food security, USDA measures the number of countries that have
benefited from improved trade policy and regulatory frameworks. These improved systems help build the capacity
of developing countries to grow economically and prosper from international trade. The Department implemented
more than 150 technical assistance activities in FY 2009 to develop trade capacity and facilitate market access for
U.S. agricultural products. These activities targeted regulatory systems in sub-Saharan Africa, the Middle East and
North Africa, Eastern Europe, Central America, and Asia. They focused on plant and animal disease surveillance,
diagnosis and mitigation, laboratory efficiencies, biotechnology and biosafety outreach, and maximum pesticide
residues. USDA also studied improving sanitary and phyto-sanitary (SPS) systems to improve WTO SPS
agreement compliance. The Department implemented capacity building projects that transfer skills in laboratory
analysis, detection of pesticide residues, risk assessment, surveillance and diagnosis of plant and animal health
diseases, and policy regulations.
As examples, USDA implemented capacity building programs targeting plant disease and food safety under the
Africa Global Competitiveness Initiative. The Department worked with the Food and Agriculture Organization of
the United Nations to develop the East Africa Phytosanitary Information Committee (EAPIC) as the official host
for the pest-and-disease-reporting database for the region. EAPIC’s goal is to reduce the number of pests and
increase market access. Under the Dominican Republic-Central America-United States Free Trade Agreement,
USDA concentrated on helping the countries of Costa Rica, the Dominican Republic, El Salvador, Guatemala,
Honduras, Nicaragua benefit from participation in the agreement. The Department trained the countries on
maximum pesticide residues, laboratory analysis, and plant and animal health and food safety capacity building
activities. As a member of the Asia Pacific Economic Cooperation group, USDA contributed expertise
to biotechnology, food safety, and food defense outreach activities. For WTO accessions, USDA specialists worked
with Cape Verde, Ethiopia, Liberia, Sao Tome, Comoros, and the Seychelles to help those countries better
understand the accession process, and the rights and obligations involved in organization membership.
USDA also continued to encourage and support developing countries to participate in international regulatory and
standard-setting organizations like Codex Alimentarius, the World Organization for Animal Health, and the
International Plant Protection Commission. The Department has initiated an outreach program for members of
the Codex Committee for Africa to strengthen their understanding of Codex, the importance of participating as an
active member, and the need for informed decision making based on sound science. In addition, USDA actively
engaged members of the Codex Committee for Latin America and the Caribbean to discuss science-based
positions on, for example, committees on food hygiene, fats and oils, and pesticide residues. One of the major
challenges facing U.S. agriculture is the differing pesticide maximum residue level (MRL) standards required of
U.S. trading partners. The Department has worked to strengthen global MRL harmonization by proposing new
standards-setting procedures and initiatives at the Codex general committee sessions. It also has initiated an
outreach activity for African countries that encourages the understanding of MRL issues and the effects of those
issues on trade.




24     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Analysis of Results
The performance target to make substantive improvements in nine countries’ national trade policy and regulatory
frameworks was exceeded. USDA’s pest-surveillance programs helped small-scale, women beekeepers in Swaziland
to continue to export organic honey to South Africa without the use of irradiation. The Department’s fruit fly
control program helped facilitate the restoration of banana exports from Mozambique to South Africa. These
exports are valued at more than $20 million per year. USDA also worked successfully with Namibia and Honduras
to prepare them for Department audits on equivalency in meat processing and poultry processing, respectively. If
the countries pass the audits, exports of those products to the United States will be permitted. Because of USDA
training, an institute in Costa Rica conducted its first Hazard Analysis and Critical Control Point Plan Validation
and Verification (a systematic preventive approach to food safety) for 20 local firms. Following assistance from the
Department and the U.S. Food and Drug Administration on processed-food labeling requirements, El Salvador
decreased the number of detentions at the border for poor labeling by 68 percent from the previous year. USDA
technical assistance helped to significantly decrease levels of the hazardous-to-humans pesticide methamidophos in
fresh vegetables in Guatemala. This decrease allowed the resumption of fresh-vegetable exports to the United
States, while facilitating passage of a new law banning the pesticide’s use and sale.
Cochran Fellowship Program training has increased market access opportunities for U.S. agricultural exports. The
program provides U.S.-based agricultural training opportunities for senior- and mid-level specialists and
administrators from public and private sectors concerned with agricultural trade, agribusiness development,
management, policy, and marketing. As a result of the Cochran training opportunities, Colombia updated its
biotechnology labeling requirements for consistency with U.S. standards. Jamaica changed its position to support
U.S. policies and initiatives at the April 2009 Codex Committee on Pesticide Residues meeting. St. Kitts opened
its market to U.S. beef and beef product exports. USDA’s resolution of meat and poultry trade issues with the
Philippines resulted in a tripling of exports. The Ukraine lifted its ban on pork imports. Its lifting allowed an
estimated $24 million in U.S. exports during 2009.
Following a scientific capacity-building visit to the United States, the Saudi Arabian Government reversed its
decision to ban live bovine imports from the United States. The reversal increased U.S. exports in FY 2009 by $14
million. Scientific and policy exchanges with China resulted in that country’s willingness to work with the United
States on setting maximum residue limits for pesticides in a new food-safety law under development. The
exchanges also helped USDA negotiate an agreement with China that permitted the entry of 60 containers of U.S.
poultry products being investigated by the Chinese Government.
In the Republic of Georgia, USDA supported the creation of three Regional Veterinary Service Units that will
serve as key nodes for a pilot animal-disease surveillance network. These units will also make way for the creation
and launch of Georgia’s National Animal Health Plan Steering Group. With USDA assistance, Serbia successfully
resolved issues of overlapping food safety inspection authorities between the Ministries of Agriculture and Health.
This step was necessary for revising of its SPS checklist for WTO’s consideration of Serbia’s accession. With
Department training, the Armenian food processing industry is meeting new food safety regulations. Armenian
citizens also are learning about safe food-handling through a USDA-assisted consumer awareness campaign.

                                                Selected Results in Research, Extension, and Statistics
          International Food Security Assessment. With volatile agricultural prices, USDA’s analysis of food insecurity in developing
          countries takes on added importance. Food security in 70 developing countries is projected to deteriorate over the next decade.
          Estimates indicate that the number of food-insecure people in those countries is rising. Price hikes for food and fuel, coupled with
          a slowdown in global economic growth, hinder progress. USDA estimates and projects the number of food-insecure people
          globally, regionally, and in each of the 70 developing countries studied. Food-insecure people are those consuming less than the
          nutritional target of 2,100 calories per day. The research also measures the food distribution gap (the amount of food needed to
          raise consumption of each income group to the nutritional requirement), and examines the factors that shape food security.




                                                                                                      ANNUAL PERFORMANCE REPORT                  25
Exhibit 8: Support International Trade Capacity Building

         Annual Performance Goals, Indicators,                      2005         2006           2007              2008                     Fiscal Year 2009
                      and Trends
                                                                                                                                  Target         Actual         Result
 1.2.1    Number of countries in which substantive                   n/a           6              13                9                8              9          Exceeded
          improvements have been made in national
          trade policy and regulatory frameworks that
          increase market access
 Rationale for Met Range: The target for this measure, based on 3 years of program history, is driven by foreign Governments and parties, and U.S. reimbursable-program
 funding levels. Annual targets reflect USDA expectations for substantive improvements in national trade policy and regulatory frameworks that increase market access for
 U.S. agricultural products in developing countries.
 • Data assessment metrics to meet the target allow for an actual number in the range 5-8.
 Data Assessment of Performance Measures 6.4.1
 Data for WTO and tariff rates are projected estimates based on results posted to the performance tracking system within the USDA. Data for successfully
 retaining and assuring U.S. trade access to export markets are projected estimates based on results posted during the first three quarters of FY 2009.
 Fourth-quarter estimates were derived using the average quarterly reporting and discounting the results to reflect any large, one-time annual events not
 expected to be repeated in the final quarter.
 • Completeness of Data—Data are based on specific criteria developed for measuring intangible and qualitative outcomes and those which are
     concrete and quantifiable.
 • Reliability of Data—Data are reliable, of good quality, and used by agency officials to highlight successes in the trade capacity building arena.
 • Quality of Data—Data for successfully verifying the numbers of countries in which USDA has made significant impact in trade capacity building are
     captured from a variety of credible sources, including:
       − Reports from overseas posts and project offices, such as Global Agriculture Information Network reports and progress reports;
       − Individual activity reports as provided by USDA partner institutions;
       − Questionnaires submitted by international participants regarding training programs;
       − Reports from other USDA agencies, the U.S. Department of State, the Agency for International Development, the Office of the U.S. Trade
            Representative, and U.S. embassies;
       − Assessment of the progress of projects through interviews conducted with ministry officials and other host-country recipients on the impact of
            USDA technical assistance;
       − Written and verbal observations by program managers who regularly monitor projects in the field;
       − Internal evaluations of activities conducted by the agency and evaluations conducted by external parties;
       − Special workshops designed to elicit feedback and evaluation on “how things are working;” and
       − “Lessons learned” workshops conducted with facilitators to review what is working and what can be improved.



Challenges for the Future
The food-security situation has become precarious for many lower-income countries because of the current global
economic downturn and recent volatility of food and fuel prices. Moreover, failing and post-conflict states pose one
of today’s greatest national and international security challenges. Struggling states often attract terrorism, crime,
trafficking, and human catastrophe. In response, USDA is sustaining and expanding its participation in the cross-
government approach to help stabilize and reconstruct societies in transition from conflict, civil strife, or natural
disasters. An example is USDA technical assistance to the Afghan Government that supports that country’s
National Development Strategy and aligns with the three mandates established under the United States-
Afghanistan-Pakistan Trilateral Initiative: food security, trade, and water management.
USDA is also building agricultural development and trade capacity building programs in priority countries in Sub-
Saharan Africa, South Asia, and Latin America. This work is designed to focus on increasing agricultural
productivity, while maintaining the natural resource base; improving food availability, accessibility, and utilization;
and encouraging science-based approaches to policies, regulations, and management practices in line with
international standards-setting bodies. By working with relevant U.S. Government agencies, land-grant
universities, and multilateral organizations, USDA will continue to lead efforts to increase trade and reduce food
insecurity worldwide.


26         FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                                   Measure 1.2.2: Food Aid Targeting Effectiveness Ratio


Overview
                     Key Outcome                      The United States leads the world in food aid. It provides
                                                      more than half of total worldwide assistance in combating
            Reduce Food Insecurity Worldwide          malnutrition. U.S. food-aid programs are a joint effort
                                                      across several Federal Departments. USDA works with the
                                                      U.S. Agency for International Development, the U.S.
Department of State, the U.S. Office of Management and Budget, private voluntary relief and development
organizations, and the United Nations’ World Food Program. These groups provide targeted food aid and
assistance where it is needed most. Economic development activities aimed at market-capacity building for both
domestic and international trade are supported through the provision of food assistance.
USDA currently administers two food assistance grant programs: the McGovern-Dole International Food for
Education and Child Nutrition Program (McGovern-Dole) and the Food for Progress program. McGovern-Dole
targets school children, their mothers, and the broader school communities of developing countries. The program
provides for the donation of U.S. agricultural commodities and associated financial and technical assistance for pre-
school and school-based feeding programs. It also authorizes the support of maternal, infant, and child nutrition
programs. The program’s purpose is to support a healthy young population necessary for a stable society and a
capable workforce. A healthy and literate workforce attracts jobs, supports a sustainable economy, and helps
establish a secure food supply through domestic production.
All private voluntary organizations that offer food aid through McGovern-Dole are required to conduct operational
and results surveys. USDA monitors program activities and accomplishments to determine their effectiveness.
Additionally, semi-annual reports from private voluntary organizations share results and challenges.
The Food for Progress program provides for the donation of U.S. agricultural commodities to developing countries
and emerging democracies committed to introducing and expanding free enterprise in the agricultural sector.
Priority determination is based on the greatest need for food, as well as individual country efforts to improve food
security and agricultural development; alleviate poverty; and promote broad-based, equitable, and sustainable
development.
Food assistance to needy people overseas can be provided through in-kind food aid, which is usually purchased in
the country donating the assistance, and local and regional purchases of food overseas. Until 2008, the United
States provided almost all of its food aid from domestic sources. The 2008 Farm Bill (Food, Conservation, and
Energy Act of 2008, Public Law 110-234) established a pilot project for USDA to implement a local and regional
purchase program in developing countries during 2009-2012. The Department is required to conduct four phases
within the project. The initial study phase was completed in January 2009 when USDA submitted a study to
Congress that described past local and regional procurement efforts by the World Food Program, private voluntary
organizations and other donors. During the second phase the Department will develop guidelines for a pilot
project. In FY 2010, USDA will begin implementing the pilot program and supporting local and regional purchases
in Africa and other developing countries. In 2012, the Department plans to hire a third party to evaluate the project
and report the findings to Congress.
USDA is also working with the development community to create strategic frameworks for its food assistance
programs that support agency strategic goals. The effort will provide an outline for the grant application process. It
will also allow USDA to measure progress in meeting goals during the implementation of activities.


                                                                                 ANNUAL PERFORMANCE REPORT          27
Analysis of Results
USDA exceeded its performance target. The Food Aid Targeting Effectiveness Ratio (FATER) is based on a
USDA food security assessment. For countries with greater food insecurity, there is a larger estimated food gap.
FATER measures the effectiveness of USDA food aid in closing the gap. The higher the FATER score, the larger
the percentage of the estimated food gap met by USDA programmed food aid. In countries with greater food
insecurity, the FATER value would be relatively low because of large food gaps in those countries. The FATER
value would be higher in countries with less food insecurity, where the food gaps are smaller. A target of 35 percent
represents a balance of food aid programming across countries with greater and lesser levels of food insecurity.
Exhibit 9: Support Foreign Food Assistance

         Annual Performance Goals, Indicators,                    2005         2006           2007     2008                Fiscal Year 2009
                      and Trends
                                                                                                                  Target       Actual         Result
 1.2.2    Food Aid Targeting Effectiveness Ratio                30-35%1      30-35%1          38%      57%         36%          48.7%       Exceeded
 1Measure was new in FY 2007; FY 2004-FY 2006 figures are estimates.
 Rationale for Met Range:
 • Data assessment metrics to meet the target allow for an actual number in the range 30-35 percent.
 Data Assessment of Performance Measures 6.4.1
 Data on quantities and use of food aid commodities of food aid are captured through the USDA Food Assistance Division database.
 • Completeness of Data— Data for successfully reporting on the effectiveness ratio are based on the annual provision and use of food aid. Total
    quantities of commodities and how these commodities are used by the beneficiary in the country of donation is compiled and analyzed by USDA. Data
    include food aid provided by the Department.
 • Reliability of Data— Data are reliable, of good quality, and used by agency officials to highlight the success and impacts of food aid programs and
    strengthen food security.
 • Quality of Data—Data for successfully verifying the quantities and use of food aid commodities in which USDA analyzes to show the effectiveness of
    food aid are captured through the USDA Food Assistance Division database. The outcome from the analysis also is further confirmed through a
    variety of credible sources, including:
      − Reports from USDA and U.S. Department of State personnel at overseas posts;
      − Program activity reports as provided by USDA partner organizations;
      − Follow-on evaluations conducted by USDA;
      − Reports from other USDA agencies, the U.S. Department of State, and the U.S. Agency for International Development;
      − On-going assessment of the progress of projects; and
      − Evaluation of activities by outside consulting firms.



Challenges for the Future
USDA faces similar challenges in meeting its food assistance targets as it does with maintaining or expanding
market access. Uncertainty about World Trade Organization negotiations and the volatility in food prices and
transportation costs are major challenges. New regulations for USDA’s food assistance programs will improve their
effectiveness and efficiency. An independent review of program operations is expected to strengthen financial and
management controls. Planned efforts to improve procurement and project monitoring will also help to meet future
challenges. The Web-based Supply Chain Management Project and the Food Aid Information System will bring
improved technology and up-to-date information to the grants process. These tools will cover the budget cycle
through procurement, ending with closeout and evaluation of agreements. The systems will enhance the
implementation of the new food assistance regulations published in May 2009. USDA will also create program
efficiencies by using additional, authorized flexibilities in administering grants and procuring commodities and
freight.




28         FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                  Selected Results in Research, Extension, and Statistics
            USDA Assists in Improving International Agricultural Statistics. USDA’s International Programs Office staff provided
            briefings or workshops for 13 groups, with 70 visitors representing the following 14 countries: Argentina, Azerbaijan, Brazil, China,
            Ghana, Japan, Kazakhstan, Russia, Serbia, South Africa, South Korea, Ukraine, Uzbekistan, and Vietnam. USDA provided
            technical assistance and training to improve agricultural statistics programs in Argentina, Armenia, China, Georgia, Madagascar,
            Mongolia, Peru, Russia, and Vietnam. The technical assistance ranged from basic survey concepts and procedures to complete
            national Census of Agriculture support. These activities promote better data and improved access to data from other countries,
            which allows U.S. analysts to better understand world supply and demand. Improved analysis supports trade and more efficient
            marketing of U.S. agricultural products.



OBJECTIVE 1.3: IMPROVED SANITARY AND PHYTOSANITARY (SPS) SYSTEM TO FACILITATE AGRICULTURAL TRADE


           Measure 1.3.1: Value of trade preserved annually through USDA staff interventions leading to resolutions of
                             barriers created by SPS or Technical Barrier to Trade (TBT) measures


Overview
                           Key Outcome                  SPS measures are those imposed by Governments to protect
                                                        human, animal, and plant health from pests, diseases, and
            An Improved Global SPS System for           contaminants. USDA works closely with the U.S. Trade
                                                        Representative and other agencies to pursue and enforce
               Facilitating Agricultural Trade
                                                        trade agreements to ensure that technical regulations and
                                                        measures designed to enhance food safety and protect plant
and animal health do not become barriers to trade. USDA staff working on such issues in more than 90 countries
includes veterinarians, economists, marketing experts, plant pathologists, and others.
USDA resolved numerous SPS and technical barriers to trade (TBTs) in FY 2009, including several that have been
outstanding for many years.
The largest single technical trade issue of concern to USDA for the past few years has been the normalization of
beef trade after the market closures caused by the findings of Bovine Spongiform Encephalopathy (BSE) in the
United States since 2003. In FY 2009, Nicaragua and St. Kitts joined the growing list of countries that now comply
with World Organization for Animal Health (OIE) standards on beef, allowing complete market access for U.S.
beef and beef products of all ages. Expanding access to the Japanese beef market remains a USDA priority.
Discussions with China, Taiwan, and other trading partners also continue. OIE’s 2007 classification of the United
States as "controlled risk" for BSE has been a cornerstone of domestic efforts at improving market access.
Another notable long-term success was the May 2009 United States-European Union (EU) Memorandum of
Understanding relating to the 20-year-old beef hormones dispute. The agreement will provide U.S. beef producers
with significant additional access, at zero duty, to the EU market for high-quality beef produced from cattle not
treated with growth-promoting hormones. Resolution of this issue required significant USDA staff intervention on
SPS and TBT issues.
Issues related to biotechnology require increasing attention and resources from the Department to maintain trade,
and gain additional market access. During the third quarter of FY 2009, USDA persuaded Japan to eliminate an 8-
year-old requirement that all U.S. corn be tested for the presence of an unapproved variety of biotech corn. The
elimination of the testing requirement is expected to save U.S. exporters $20 million annually. Meanwhile, USDA


                                                                                                        ANNUAL PERFORMANCE REPORT                   29
negotiators persuaded EU to approve some types of biotech soybeans, and Korea to approve three new biotech corn
and soy varieties. These actions prevented the possible stoppage of $2.4 billion of U.S. exports to these markets.
Country-by-country variation in maximum residue limits (MRLs) for pesticides threatens U.S. fruit and vegetable
exports to many countries. During FY 2009, USDA comments on Indonesian World Trade Organization (WTO)
notices persuaded that country to recognize and accept U.S. MRLs for fresh foods of plan origin in the absence of
Codex MRLs. USDA also proved to Malaysia that U.S. apples comply with that country’s MRL standards.
Additionally, the Department persuaded Taiwan to establish an MRL for a pesticide widely used in U.S. apples.
Meanwhile, Thailand indefinitely postponed implementing a disruptive inspection procedure that would have
required all fruit and vegetable imports to be accompanied by a certification confirming compliance with Thai
MRLs.
June 17, 2009, marked the signing of a United States-Canadian equivalency agreement for organic products. The
agreement allows products certified as organic in the United States to be sold as such in Canada without
recertification to that country’s standards. The equivalency agreement affects annual U.S. exports of organic
products to Canada valued at more than $2 billion. Without the agreement, the U.S. industry anticipated losing
more than half that amount during the year after the Canadian standard took effect. This anticipated loss would be
added to ongoing additional certification and labeling costs.
Japan and USDA agreed to a protocol for the shipment of non-fumigated U.S. cherries. The agreement made way
for U.S. shipments to begin in time for this year’s growing season. The United States and Vietnam signed a
protocol for the shipment of U.S. potatoes. Consumer food labeling issues with the potential to affect U.S. beef and
processed product exports with an annual value of $464 million were resolved in India and Korea. USDA
comments through the WTO Notification Process and with interaction at WTO committee meetings persuaded
Israel, Brazil, and Colombia to bring alcoholic beverage standards and terminology in line with United States and
international standards this quarter.
In FY 2009, USDA led efforts that helped avert major interruptions in the export of meat and poultry products to
Mexico. December 2008 negotiations with Mexico resulted in that country’s Government reinstating the eligibility
of 130 U.S. meat and poultry processing establishments to export there. USDA negotiations also eased a Mexican
ban on a particular type of bin in which a large percentage of U.S. meat and poultry is shipped to Mexico. In March
2009, USDA hosted Mexican representatives on a visit to the United States-Canadian border to view inspections of
the containers. This visit provided Mexico the opportunity to view how North American Free Trade Agreement
partners inspect products. It resulted in Mexico limiting the restriction to frozen products.
USDA’s work on SPS and TBT issues is felt beyond the agricultural realm. During the first quarter of FY 2009,
EU delayed implementing a wood packaging material bark requirement. Instead, the EU agreed to accept
international standards. This action saved exporters an estimated $1 billion on products shipped to EU on wood
packing material.

Analysis of Results
The Department measures the value of trade preserved by resolving trade barriers arising from SPS and TBT
measures imposed by foreign Governments. Trade issues and their impact on U.S. exports depend primarily on
foreign action, sometimes in response to such domestic events as a livestock disease outbreak. Both the problems
and the solutions are unpredictable. Resolution could come from a quick agreement with officials at the port of
entry. Or, it could require lengthy negotiations followed by a slow regulatory or legislative process in the country in
question. The impact of an action can range from a few thousand to billions of dollars. While USDA can establish
priorities in advance for known constraints, unforeseen events will occur that require realigning priorities.




30      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Exhibit 10: Increase U.S. Export Opportunities

         Annual Performance Goals, Indicators,                       2005          2006           2007              2008                      Fiscal Year 2009
                      and Trends
                                                                                                                                    Target          Actual          Result
 1.3.1    Value of trade preserved annually through                 $2,000        $2,600         $2,457            $7,316           $2,000          $9,500        Exceeded
          USDA staff interventions leading to resolutions
          of barriers created by SPS or TBT measures
          ($ millions)
 Baseline: 1999 = $2,567
 Rationale for Met Range: The target for this measure is controlled by foreign parties. It reflects U.S. expectations for addressing compliance with existing trade agreements
 and resolving trade access issues that arise so that domestic exports can continue. A met or exceeded target reflects USDA successes in addressing these barriers. An
 unmet target may conceal that USDA monitoring activities prevented noncompliance.
 • Data assessment metrics to meet the target allow for an actual number in the range $1,980-$2,420.
 Data Assessment of Performance Measures 1.3.1
 USDA uses a performance tracking system to collect and analyze actual performance data. The data are collected from the Department’s network of
 overseas offices and headquarters staff. The staff conducts trade compliance and enforcement activities, provides trade negotiation support to the U.S.
 Trade Representative.
 • Completeness of Data—Data for successfully retaining and assuring U.S. trade access to export markets are projected estimates based on results
    posted during the first three quarters of FY 2009.
 • Reliability of Data—Data are reliable and used by agency officials to highlight successes in the trade-policy arena.
 • Quality of Data—In addition to audits and internal control review of the performance tracking system, an established procedure is maintained to
    review each reported success for verification and the prevention of double counting.



USDA’s selection of this performance measure reflects the growing importance of addressing SPS and technical
barriers to trade in order to maintain or expand trade. As the U.S. Government continues to negotiate new
bilateral, regional and multilateral trade agreements, the challenge will be to monitor and enforce compliance with
both trade and technical commitments. This monitoring will ensure that U.S. agriculture receives full benefits from
negotiated reductions in tariff rates by preventing needless SPS and technical trade barriers.
Challenges for the Future
Given the increasing global flow of food and agricultural products, the ability of foreign countries to develop and
implement sound, science-based regulatory systems is vital to the long-term safety of U.S. agriculture and our food
supply. U.S. agriculture benefits greatly from the development of transparent and science-based regulatory
frameworks in other countries. Besides monitoring and enforcing its rights under the WTO SPS and TBT
agreements, USDA is working to support the development and adoption of science-based international standards
and SPS regulatory systems. These efforts are critical to the Department’s ability to bring developing countries into
the global trading system so that they support further liberalization through multilateral trade negotiations.




                                                                                                                    ANNUAL PERFORMANCE REPORT                                31
Strategic Goal 2: Enhance the Competitiveness and Sustainability of Rural and Farm Economies
Rural America is of critical importance to the Nation’s prosperity. USDA enhances the competitiveness and
sustainability of rural and farm economies by expanding domestic market opportunities, increasing the efficiency of
domestic agricultural production and marketing systems, and providing risk management and financial tools to
farmers and ranchers.
OBJECTIVE 2.1: EXPAND DOMESTIC MARKET OPPORTUNITIES

                    Measure 2.1.1: Number of Items Designated as Biobased for Federal Procurement


Overview
                     Key Outcome                         USDA is the lead agency in the Federal Government for the
                                                         biobased products program, referred to as the BioPreferred
    Increase the number of products designated under the Program. BioPreferred is comprised of two programs: a
                                                         preferred procurement program for Federal agencies and a
                   BioPreferred Program
                                                         voluntary labeling program for the broad scale marketing of
                                                         biobased products. The program is being implemented
through a variety of means including rulemakings, education and outreach, and training of procurement personnel.
BioPreferred promotes the procurement and use of biobased products throughout the Federal government and
commercial sectors. The BioPreferred program offers three major benefits:
• Climate Change Impact Reduction—The use of qualifying biobased products reduces the introduction of new fossil
   carbon into the atmosphere;
• Energy/Environmental Security—Biobased products replace petroleum products helping to increase U.S. energy and
   environmental security and independence. Many biobased products are sustainable, renewable, and
   compostable; and
• Economic Development—Biobased products create jobs by increasing demand for agricultural and forestry materials
   and by increasing new product development, manufacturing, and ultimately sales.
The 2008 Farm Bill requires every Federal agency to give a procurement preference to designated items composed
of biobased products, unless those items are not reasonably available, do not perform adequately, or are not
reasonably priced.
Biobased products are those determined to be composed in whole or large part of renewable domestic agricultural
or forestry materials. Such products, often made from plant, animal, and marine substances, include items such as
cleaners, lubricants, building materials, insulation, roof coatings, and fuel additives as well as a host of other
sustainable industrial items that the Federal Government can use.
USDA’s goal is to increase Federal procurement of biobased products government-wide and develop government
and consumer markets through a voluntary labeling program.
Through published regulations, USDA has designated a total of 33 biobased items or product categories
representing nearly 3,000 individual products. Federal procurement requirements are in place for all 33 of the
product categories. Approximately 2,100 companies, many of which are small businesses, currently offer more than
14,500 biobased products.




32     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
USDA conducts outreach and has developed a series of BioPreferred tools, such as model contract language, to
assist Federal agencies and the business community in the implementation of the program.

Analysis of Results
The performance measure was unmet. Currently, 33 items are designated as BioPreferred and receive preferred
procurement preference. USDA missed the target of designating 42 items in FY 2009, but will reach the goal in the
first quarter of FY 2010. Unexpected delays were encountered in the rulemaking process, but the final regulation is
set to be published in the coming weeks. Three more rounds of designations are in the approval process, and there
are five more planned rounds of rulemaking.
On July 31, 2009, BioPreferred accomplished a significant program milestone with the publication of the proposed
Voluntary Labeling rule. USDA intends to create a product label that would appear on qualifying BioPreferred
biobased products. When final, this regulation will allow biobased product manufacturers to participate in a
voluntary labeling program to identify biobased products on retail store shelves.
Technical information to support each proposed rule, as well as background information on products and
procurement training, is available at the BioPreferred Web site www.biopreferred.gov.
Exhibit 11: Number of Items Designated as Biobased for Federal Procurement.

         Annual Performance Goals, Indicators,                        2005          2006            2007              2008                      Fiscal Year 2009
                      and Trends
                                                                                                                                      Target          Actual          Result
 2.1.1    Number of items designated as biobased for                Deferred          6               6                33
          Federal procurement                                                                                                            42              33           Unmet

 Numbers signify Items published as final rule in Federal Register. Increase in FY 2008 target reflects larger number of items to be designated in the year’s series of
 rulemakings.
 Rationale for Met Range: Based on a count of items for designation, the target is a number with no range.

 Data Assessment of Performance Measures 6.4.1
 The performance measure is the number of items included in final rule designations for the BioPreferred Program (formerly known as the Federal
 Biobased Preferred Procurement Program).
 • Completeness of Data—The performance data are complete and unambiguous. The performance indicator for reporting past performance is a
    straightforward counting of the number of items included in final rule designations. Projections are based on “rule designations” in process.
 • Reliability of Data—The information is reliable. There is no subjectivity or ambiguity in determining the measure’s value.
 • Quality of Data—The quality of the data are very high due to its reliability. The data for projections is more ambiguous as it incorporates “rule
    designations” in process and expected progress by multiple federal agencies in the process of designating additional rules. The performance measure
    “items” included in final rule designations does not reflect the amount of BioPreferred program work. Multiple stakeholders and federal agencies are
    involved. In addition, there are technical demands in reporting information and support of the program not reflected in the measure.



Challenges for the Future
USDA continues to address the challenge of marketing BioPreferred products through www.biopreferred.gov. The
site now offers online training for procurement officials and allows buyers to easily locate biobased products in the
online catalog. New functionality as well as more intuitive search functions and expanded site navigation have
improved user access to BioPreferred information and products.
USDA is developing a model procurement program for Federal agencies and continues to educate Federal agencies,
manufacturers and vendors about the program. Through expanded outreach and education, as well as a continued
focus on marketing, USDA will increase the purchase of biobased products throughout the Federal and consumer
market.




                                                                                                                     ANNUAL PERFORMANCE REPORT                                 33
OBJECTIVE 2.2: INCREASE THE EFFICIENCY OF DOMESTIC AGRICULTURAL PRODUCTION AND MARKETING SYSTEMS

                Measure 2.2.1: Timeliness: Percent of time official reports are released on the date and time
                                                pre-specified to data users

Overview
                      Key Outcome                       Fundamental to the long-term viability of an agricultural
                                                        producer is the ability to manage an efficient and profitable
        Agricultural Producers Who Compete Effectively  operation. USDA activities make this possible through
                                                        programs that develop and transfer technology, production
                    in the Economic Market
                                                        practices, and business and marketing tools and information
                                                        to producers. The programs’ offerings represent the
centerpieces for an efficient and economically sustainable agricultural sector. To support an efficient marketing
environment, efforts are directed toward providing the necessary infrastructure and market information to reduce
per unit and overall production costs, and improve quality, yields, management, and marketing decisions. These
USDA programs provide the scientific, marketing, and other assistance necessary to increase the efficiency and,
correspondingly, the competitiveness of the agricultural producer. An economically prosperous agricultural
production sector contributes to the Nation’s economic vitality and standard of living. Consumers benefit from
efficiently produced and marketed agricultural products that minimize their food costs and maximize their
consumption choices.
USDA supports sound decision making about agriculture by providing readily available, accurate data and
assessments. The Agricultural Statistics Board (ASB) prepares and issues official national and State forecasts and
estimates relating to numerous agricultural subjects. ASB covers crop production, stocks of agricultural
commodities, livestock products, dairy products, poultry products, agricultural prices, agricultural wage rates,
chemical usage, and other related subjects. The reports calendar lists release dates and specified times for USDA’s
national agricultural statistics reports. These reports cover more than 120 crops and 45 livestock items. All 519 of
the agricultural statistics reports, except for 1 scheduled by ASB, were released on time to achieve a 99.8 percent
performance level in FY 2009.

Analysis of Results
USDA seeks to enhance agricultural competitiveness by providing timely data, which are measured by the
percentage of statistical reports released on time. The Department did not meet its performance target of 100
percent for FY 2009. One report was late due to a data provider delivering incorrect data, followed by technical
difficulties in issuing the report.
USDA strives to release its ASB reports on time 100 percent of the time each year. It is imperative to deliver high-
quality, objective, relevant, timely, and accurate statistics to producers and other data users. Such statistics allow
users to make sound decisions. Official agricultural statistics promote a level playing field in production agriculture
with impartial information available to all at a publicized time. These data, provided throughout the year, are
important to the commodity and agricultural markets. They help provide a fair and equitable environment. Public
officials use the data to make informed decisions. USDA policymakers and Congress use this information to help
build a strong sustainable farm economy. This results in a more stable food supply and more affordable food prices
for consumers.




34      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Exhibit 12: Agricultural Statistics Reports Released On Time

         Annual Performance Goals, Indicators,                     2005         2006           2007           2008                Fiscal Year 2009
                      and Trends
                                                                                                                         Target        Actual         Result
 2.2.1    Timeliness – Percent of time official reports are       99.8%         100%           100%           99.6%      100.0%         98.9%         Unmet
          released on the date and time specified to data
          users
 Rationale for Met Range: Based on a count of reports issued on time. The target is a number with no range.

 Data Assessment of Performance Measures 2.2.1
 Each fall, USDA publishes the Agricultural Statistics Board (ASB) calendar. The calendar lists the dates and times of all ASB reports to be issued the
 following year. It allows all data users and the public to plan ahead for important reports. Additionally, when special reports are issued during the year, a
 press release announces their release dates and times. Press releases are also used when there are planned report delays or other changes. USDA
 counts the number of paper-copy releases scheduled for release and determines how many are delivered as promised. Thus, the percent of reports
 released by the prescribed date and time is the number delivered on time multiplied by one hundred, equaling the total count of announced reports.
 USDA defines its performance as “on time” if the paper product is created, the appropriate Department official is briefed (for reports with scheduled
 briefings), and the press has access to the report.
 • Completeness of Data—The data are considered complete as of September 30, 2009.
 • Reliability of Data—The data are considered reliable.
 • Quality of Data—Agency performance information on timeliness is maintained internally at the Washington, D.C., Headquarters. USDA’s Marketing
     and Information Services Office maintains the performance data for national reports released. After the release of each report, data on timeliness are
     recorded. Quarterly reports are submitted to the Office of Budget and Program Analysis.




Challenges for the Future
Delayed data collection from sources and unanticipated technical or other difficulties impact timeliness. Reports
released later than indicated on the ASB release date calendar may cause data users a delay in making decisions that
could affect their marketing efforts. USDA has many checks in place designed to limit the occurrence of delayed
reports, resulting in a near perfect track record.


            Measure 2.2.2: Percent of market-identified quality attributes for which USDA has provided standardization


Overview
                              Key Outcome              USDA facilitates the competitive and efficient marketing of
                                                       agricultural products in domestic and international markets.
     Economically Sound Agricultural Production Sector The Department’s marketing support programs benefit local
                                                       farmers and communities; small farmers and small
                                                       businesses; agribusiness; sustainable agriculture; and
producers, traders, and consumers of U.S. food and fiber products. Activities include:
• Developing commodity grade and certification                                      • Purchasing nutritious, quality specialty crops,
   standards, and offering grade, contract, and audit                                  meats, fish, and poultry products that are
   verification services;                                                              distributed by USDA nutrition assistance
• Developing organic standards and managing the                                        programs;
   National Organic Program (NOP);                                                  • Monitoring and enforcing Country of Origin
• Generating and disseminating market news                                             Labeling (COOL);
   information;                                                                     • Sampling and testing commodities for pesticide
• Providing technical assistance, conducting studies,                                  residues and pathogens;


                                                                                                              ANNUAL PERFORMANCE REPORT                          35
     and establishing grants aimed at improving food      • Verifying pesticide recordkeeping; and
     marketing and distribution, including farmers,       • Protecting producers from unfair marketing
     direct, and alternative markets;                         practices.
Setting official standards for agricultural products and regulating and monitoring them enhances the marketing and
distribution of agricultural products. USDA establishes official U.S. standards, specifications, and marketing claim
descriptions for cotton, dairy products, fruits, vegetables, other specialty crops, meat, poultry products, and eggs.
These standards and descriptions, supported by official (but voluntary) verification services, facilitate sales and
purchases of agricultural commodities. In 2009, USDA began development of catfish standards and updated
standards for other commodities.
Organic standards and certification are managed by the NOP. Organic agricultural production is the fastest
growing segment of U.S. agriculture. The NOP is responsible for managing the development and interpretation of
NOP regulations; the accreditation, auditing, and training of certifying agents; and ensuring compliance with and
enforcement of the regulations. The regulations cut across all commodity groups and address every aspect of the
organic industry, including: crop production; livestock production; processing; labeling; the accreditation of
certifying agents; the certification of organic operations; the petitioning, review, and approval of materials to be
added to the National List of Allowed and Prohibited Substances; compliance; testing; and the governing of States’
Organic Programs. The NOP oversees the operation and ensures the compliance of 98 domestic and foreign
certifying agents, which certify nearly 28,000 certified organic production and processing operations worldwide.
The NOP is a worldwide program, and participates in trade negotiations, along with the Foreign Agriculture
Service and the Office of the U.S. Trade Representative, to establish organic equivalence with U.S. trading
partners. During 2009, NOP established its first equivalency agreement with Canada—the largest U.S. trade
partner and largest estimated export market for U.S. organic products. The NOP also has eight recognition
agreements or arrangements with foreign governments which are negotiated at the program level, and which
require regular service and monitoring.
USDA Market News reports use U.S. standards and official marketing descriptions to describe agricultural trading.
The Market News program improves market competitiveness and increases the efficiency of agricultural marketing
systems by gathering and publishing price and other market data on a wide range of agricultural commodities,
including cotton; milk and dairy products; fruits, vegetables, and other specialty crops; eggs and poultry products;
livestock and meat; and grains. These reports make available timely, accurate, and unbiased market information that
covers local, regional, national, and international markets. USDA continued to expand reporting on the production
and marketing of organic commodities, which included working closely with U.S. producers and marketers of
organic poultry and eggs, and their respective trade associations, to obtain their commitment to voluntarily provide
organic market information. USDA increased its reporting on organic fruits and vegetables at shipping point by
17%, at terminal market by 35%, and with shipment information by 75%. To support export marketing, Market
News improved two international quarterly publications regarding commodity shipments and participated in
various market news capacity building activities in the Western Hemisphere and with the Market Information
Organization of the Americas (MIOA).
USDA provided technical support to a wide range of interested parties—from small farmers to consumers—on a
host of marketing initiatives that facilitate sustainable agricultural practices, local farmers and communities, and
small farmer/small business access to new markets and business opportunities. During FY 2009, USDA launched
the “Know Your Farmer, Know Your Food” initiative to help develop local and regional food systems and spur
economic opportunity. The initiative helps connect children to where their food comes from and creates
opportunities for farmers and USDA to provide and purchase more locally grown foods to schools. As part of this
initiative, the Farmers Market Promotion Program (FMPP) awarded 86 grants totaling more than $4.5 million
that reaching into communities across America. FMPP grants were awarded to encourage and support the viability
of farmers markets and direct marketing projects nationwide.


36      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
USDA, as authorized through the Specialty Crop Block Grant Program, awarded over $57 million to the State
departments of agriculture, the District of Columbia, and the Commonwealth of Puerto Rico. These funds were
used to enhance the competitiveness of the specialty crop industry to support commodities that include fruits,
vegetables, tree nuts, dried fruits, and nursery crops (including floriculture). USDA initiated a site visit program to
evaluate the efficiency and effectiveness of the administration of grant funds and provides feedback to State
agencies in order to assist in this administration.
USDA procured a variety of non-price-supported commodities in order to provide nutritious food to needy
recipients and much needed assistance to the beef, pork, poultry, seafood, and fruit and vegetable industries. A total
of more than $439 million in foods were purchased to support agricultural producers and growers, plus another
$468 million to meet entitlement requirements for Child Nutrition programs. As part of a pilot program, USDA
purchased 3.3 million pounds of fresh-cut apples for limited national distribution to National School Lunch
Program recipients. USDA also developed and published guidelines for food companies to use for developing and
submitting child nutrition labeling quality control plans for USDA review and approval, and began design on a
database to monitor child nutrition label program activities, including the status of quality control plans, label
approvals, and plant reviews.
During 2009, USDA began administering a comprehensive Country of Origin Labeling (COOL) program for all
covered commodities. USDA published a final rule in 2009 which became effective on March 16 and expanded
COOL to include chicken, goat, macadamia nuts, pecans, and ginseng as covered commodities and added
provisions for labeling products of multiple origins. USDA conducted several training sessions for cooperating state
reviewers, informational sessions for retailers and other stakeholders, and began retail compliance reviews.

Analysis of Results
USDA initiates a process to develop and implement standards when new ones are needed. Measuring the number
of standards developed by the Department to meet market needs indicates how USDA is performing in its efforts
to support a sound agricultural sector in the economy. The Department met its standards development goal by
developing draft quality standards for catfish and catfish products in collaboration with the U.S. Department of
Commerce and National Marine Fisheries Service.
Exhibit 13: Percent of market-identified quality attributes for which USDA has provided standardization

         Annual Performance Goals, Indicators,                      2005         2006           2007              2008                     Fiscal Year 2009
                      and Trends
                                                                                                                                 Target          Actual         Result
 2.2.2    Percent of market-identified quality attributes           96%          94%           95.7%             98.0%            97.0%          97.0%              Met
          for which USDA has provided standardization
 Rationale for Met Range: The target is a number with no variance. Any result greater than or less than 97 percent is considered unmet or exceeded, respectively.

 Data Assessment of Performance Measures 2.2.2
 The development of quality standards is a complex, multi-stage process requiring extensive review and discussion with the client industry. Thus, yearly
 milestones have been established for completing of the standards development process. For USDA, the development of a new standard requires a great
 deal of research into a wide range of activities, including: 1) a study of the product to determine the quality factors involved and the range of quality
 produced; 2) an investigation into the production practices in major producing areas, varieties or types of production, packing, processing techniques, and
 consumer-buying practices; 3) a statistical plan for sampling product; and 4) interviews with producers, packers, processors, shippers, receivers,
 consumers, and scientists.
 • Completeness of Data—Data used in conjunction with performance information are based on information reported by USDA and each Commodity
    Standards Branch: Cotton, Tobacco, Dairy, Fruits and Vegetables, Livestock and Seed, and Poultry – through the end of the third quarter of the
    reporting year, and a projection for the fourth quarter of the fiscal year based on prior-year performance. The Department also calculates the quarterly
    and annual results based on a statistical model of percentage of goal attained for standards development.




                                                                                                                 ANNUAL PERFORMANCE REPORT                                37
       Annual Performance Goals, Indicators,                 2005        2006          2007            2008                   Fiscal Year 2009
                    and Trends
                                                                                                                     Target       Actual         Result
 • Reliability of Data—The data are reliable because of extensive research and field testing. These tests are used to adjust the standard or specification
   until it is an accurate measure of the commodity. It is then made available for review and comment in the Federal Register by industrystakeholders,
   clients, and customers. Performance shortfalls may occur if resources are limited or if the standard under development is controversial.
 • Quality of Data—Data are projected based on industry requirements, program plans, and historical performance trends. The target information uses
   data dependent upon the baseline projections from the Department’s commodity standards programs. To the extent that any of the USDA projections
   are inaccurate, the projection of value will also be inaccurate.


Challenges for the Future
USDA must react quickly to changes in consumer demand, domestic and international marketing practices, and
new technologies.


                                                  Selected Results in Research, Extension, and Statistics
            Improving Fisheries and Preserving Jobs. USDA funded New Jersey scientists to produce the fifth generation of tetraploid
            oysters and continued selection for disease resistance and fast growth. Tetraploid oysters have been used for commercial
            production of triploids. Triploid oysters grow significantly faster than normal diploids, and have become an important product of
            the oyster culture industry. Oyster survival rates in the Delaware Bay have increased more than twofold, preserving a regional
            fishery and thousands of jobs. The restored harvest has had a direct impact on the economy of the region with a return of $40 for
            each $1 spent.



OBJECTIVE 2.3: PROVIDE RISK MANAGEMENT AND FINANCIAL TOOLS TO FARMERS AND RANCHERS

                  Measure 2.3.1: Increase the normalized value of risk protection provided to agriculture producers
                                                 through FCIC-sponsored insurance


Overview

                            Key Outcome               USDA provides and supports cost-effective means of
                                                      managing risk for agricultural producers. This assistance is
                                                      designed to improve the economic stability of agriculture. It
              Economically Sound Agricultural
                                                      assesses the producers’ need and develops a variety of
                    Production Sector                 suitable risk-management tools. These tools help farmers
                                                      and ranchers protect their livelihood in times of disasters or
other uncontrollable conditions. USDA uses the value of risk protection to measure the effectiveness of risk
management. The value of risk protection denotes the amount of insurance used to protect and stabilize the
agricultural economy.
The USDA Federal Crop Insurance Program provides an actuarially sound risk management program to reduce
agricultural producers’ economic losses due to natural disasters. This program is available to producers solely
through private insurance companies. These companies market and provide full service on policies upon which they
share the risk with USDA. A Standard Reinsurance Agreement (SRA) defines the amount of risk they share. The
SRA calls for insurance companies to deliver risk-management insurance products to eligible entities under certain
terms and conditions. Companies are responsible for all aspects of customer service and guarantee payment of
producer premiums to the Federal Crop Insurance Corporation (FCIC). In return, FCIC reinsures the policies and


38        FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
provides premium subsidy to producers. It also reimburses for administrative and operating expenses associated
with the companies delivering the insurance products.
USDA has implemented initiatives to increase awareness and service to small and limited resource farmers and
ranchers and other under-served groups and areas. Through partnership agreements, the Department provides a
venue for public and private agricultural organizations, land grant colleges and universities, community-based
organizations, farmers and ranchers, and other stakeholders. USDA also partners with community-based
organizations, and Hispanic Serving Institutions. These partnerships provide technical program assistance and risk-
management education on strategies associated with legal, production, marketing, human resources, and labor risks.

Analysis of Results
USDA assesses producers’ needs and private risk-management tools. This work ensures that new, sound, and
innovative alternatives are available to increase program participation with greater protection for producers.
The Department is projected to exceed its target by $0.5 billion. The final actual results may vary significantly from
this projection. The performance measure illustrates the normalized/real dollar value of FCIC coverage in force
within the agricultural economy. FCIC promotes the economic stability of agriculture through a sound system of
crop insurance. The measure also shows the amount of potential collateral provided to qualify for commercial loans.
Since the 1999 crop year, the normalized value has increased by approximately $19 billion. While there are a
number of factors that influence these figures, including market-price increases and inflation, they represent a major
growth in the amount of the agricultural economy insured via the FCIC-sponsored insurance. During the 2008
crop year, which covered parts of both the 2008 and 2009 fiscal years, the economic risk or liability of American
agricultural producers was reduced by approximately $88.5 billion through Federal crop insurance coverage.
USDA’s challenge is to expand and improve insurance coverage and other risk management solutions, particularly
for underserved States, areas, communities, and commodities. Thus, the Department addresses the management
and financial information technology costs associated with operating and maintaining existing program data needs.
These systems and technologies also service new and revised products.
USDA researches how to deliver more crop and livestock products. This research includes reviewing and approving
private-sector insurance products reinsured by FCIC that are targeted to the needs of underserved areas and various
specialty crops. The Department also evaluates and ensures the efficient delivery of risk-management products to
agricultural producers. To further contribute to the producers’ ability to protect their financial stability, USDA
provides education, outreach, and non-insurance risk management assistance initiatives and tools through
partnerships. 44.7 $48.1 $50.7 $51.5 $51.4
Exhibit 14: Providing Risk Management Tools to Farmers and Ranchers

         Annual Performance Goals, Indicators,                      2005          2006           2007                2008             Fiscal Year 2009
                      and Trends
                                                                                                                             Target       Actual         Result
 2.3.1    Increase the normalized value of risk                     $44.7         $48.1          $50.7               $51.5    $51.4        $51.4          Met
          protection provided to agriculture producers
          through FCIC-sponsored insurance ($ billions)
 Rationale for Met Range: Annual targets for this measure have consistently seen a variation of plus or minus 4.4.

 Data Assessment of Performance Measures 2.3.1
 The value of risk protection denotes the amount of insurance in effect protecting and stabilizing the agricultural economy. USDA’s value projection target
 is based on projections developed in November 2008, forecasted participation, and conditions current at that time. The baseline model uses the latest
 information from the crop insurance program and combines it with USDA baseline projections for major crops. These crops include corn, wheat,
 soybeans, sorghum, barley, rice, and cotton. In making the projections, the model holds various factors constant, such as premium rates and average
 coverage level. The model assumes that all non-major crops produce yields consistent with USDA projections for major crops. The baseline model is a




                                                                                                                     ANNUAL PERFORMANCE REPORT                    39
       Annual Performance Goals, Indicators,                  2005         2006          2007            2008                   Fiscal Year 2009
                    and Trends
                                                                                                                       Target        Actual         Result
 tool for developing budget projections contained in Presidential budget requests. The budget and performance projections for the crop insurance program
 depend on baseline projections from numerous USDA agencies.
 • Completeness of Data—The data used in conjunction with performance information are based on actual information reported through the end of the
     third quarter. To provide the annual data, USDA projects the results for the fourth quarter of the fiscal year based on prior year performance. Analysis
     has shown that normally 99 percent of the final actual data will be reported to USDA during the first quarter of the next fiscal year. The Department
     receives the actual data from insurance companies. It then maintains data through two integrated processing systems that validate the information.
     The data then are sent through the system to generate all accounting functions. These processing systems ensure that data received are accurate,
     errors are corrected quickly, and timely monthly accounting reports are provided.
 • Reliability of Data—USDA deems this information to be reliable. The insurance companies receive data from the producers and transmit them to the
     Department. Once received, USDA takes extensive steps to verify the data’s accuracy and validity. The Standard Reinsurance Agreement (SRA) also
     provides reinsured companies with disincentives for not following prescribed guidelines and procedures. While the data are deemed reliable, a recent
     audit by the Office of Inspector General found that USDA’s Risk Management Agency (RMA) information technology environment might be vulnerable
     to errors, misuse, abuse, unauthorized access, disruption of service, and willful destruction. RMA generally agreed with these findings and has made
     substantial progress in implementing the agreed to recommendations.
 • Quality of Data—Data are projected based on historical performance. The target information uses data dependent upon the baseline projections from
     numerous USDA agencies. To the extent that any of the Department’s projections are inaccurate, the projection of value will also be inaccurate.



Challenges for the Future
USDA’s challenge is to continue expanding and improving insurance coverage and other risk-management
solutions, particularly for underserved States, areas, and communities. The Department needs to address the
management and financial information technology costs associated with operating and maintaining existing
program data needs.

                  Measure 2.3.2: Increase the percentage of eligible crops with Noninsured Crop Disaster Assistance
                                                     Payments (NAP) Coverage


Overview

                            Key Outcome                                    Farmers must have access to timely and accurate
                                                                           information. Without it, they will not be able to compete in
                 Economically Sound Agricultural                           a rapidly growing marketplace. USDA provides farmers
                                                                           with the risk-management and financial tools needed to
                       Production Sector
                                                                           minimize risk and enhance their operations.
The Department’s programs are designed to reduce the volatility of price and climate fluctuations. Stable
commodity supplies and prices assure an affordable supply of food for the Nation. In response to natural disasters,
USDA also administers emergency loan and disaster relief programs to return farms and ranches to their pre-
disaster state as quickly as possible. The Department’s NAP provides financial assistance to producers of non-
insurable crops when natural disasters cause low yields or inventory loss, or prevent planting.
Those eligible for assistance through NAP are landowners, tenants, or sharecroppers who share in the risk of
producing an eligible crop. Eligible crops must be non-insurable agricultural commodities for which there is no
available crop insurance. By obtaining NAP coverage, producers are able to provide some level of assurance to
lending institutions that USDA will assume a portion of the insurance risk.




40        FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Analysis of Results
This measure, like the previous one, shows performance in providing a sound agricultural sector by helping mitigate
severe losses. The 2009 data for the NAP measure is created by using proxy information from claims made on the
2008 crop year. USDA did not meet its target for increasing the percentage of eligible crops with NAP coverage
due to policy changes that negatively impacted the validity of data, and significant changes in commodity prices.
Because the NAP figure depends on proxy data from several program partners, the results are dependent on
reconciling operational parameters so that data are comparable. Targets were set based on agency practices that
have recently been altered.
Significant 2008 commodity price differences resulted in a negative crop value for NAP. This is not accurate as
demonstrated by NAP participation fees and crops covered. Each increased by 14 percent and more than 34
percent, respectively, after removal of mandated NAP fee increases during 2009. To compensate for the anomaly
affecting the NAP formula, data inputs were adjusted to compensate for changes in operational parameters,
resulting in a NAP eligibility figure of 6.4 percent, similar to previous years. However, with this adjustment, the
data are still not representative of actual producer participation in NAP.
Due to the changing policies across programs, the current NAP measure does not provide data that accurately
reflects NAP progress and cannot be effectively used to set performance targets. A new NAP measure will need to
be developed. Due to the eligibility requirement in the 2008 Farm Bill, NAP performance is expected to increase in
the next fiscal year. This measure requires NAP participation and/or the purchase of crop insurance to gain
eligibility for USDA permanent disaster programs. Permanent disaster programs include:
•   The Supplemental Revenue Assistance Payments Program;
•   The Livestock Forage Program;
•   Emergency Assistance for Livestock, Honey Bees, and Farm-Raised Fish Program; and
•   The Tree Assistance Program.
Exhibit 15: Providing Tools to Help Farmers and Ranchers Stay Economically Viable

         Annual Performance Goals, Indicators,                     2005          2006           2007              2008                     Fiscal Year 2009
                      and Trends
                                                                                                                                 Target          Actual         Result
 2.3.2    Increase percentage of eligible crops with              12.82%        12.70%         11.76%             7.2%           23.52%           6.4%          Unmet
          Noninsured Crop Disaster Assistance
          Payments (NAP) coverage
 Estimated results as of September 30 2009 and adjusted for data anomaly. The target and threshold represents the value of crops participating in the program compared to
 the universe of the value of crops eligible to participate in the NAP program.
 Rationale for Met Range: Data assessment metrics to meet the target allow for an actual number in the range 22.52-24.52 percent.

 Data Assessment of Performance Measures 2.3.2
 • Completeness of Data—The result is based on final FY 2009 data.
 • Reliability of Data— USDA collects performance information from key program partners that it uses to manage NAP and improve performance. The
   Department conducts numerous edit checks of its source data. Its review of the data includes peer review. USDA correlates data from multiple
   partners to compile NAP. It uses a formula approved by the Office of Management and Budget. External factors which contribute to and impact the
   program’s performance data include natural disasters, crop eligibility, legislated linkage requirements, commodity price fluctuations, and policy
   changes. The 2008 Farm Bill links eligibility requirements to receive disaster benefits to NAP participation. While the participation rate may fluctuate
   from year to year, the program is on track towards meeting long-term targets.
 • Quality of Data—USDA and its partner agencies conduct data reviews for integrity and accuracy. Due to recently changing policies among program
   partners which affect the comparability of data, the current NAP measure does not provide an acceptable level of quality. A new NAP measure will
   need to be developed.




                                                                                                                 ANNUAL PERFORMANCE REPORT                               41
Challenges for the Future
Because of the volatile nature of the market and the unpredictability of natural disasters, USDA regularly reviews
NAP and other farm support programs in keeping with legislation to provide effective, customer-focused programs.
Information technology and infrastructure modernization also pose an ongoing challenge to the Department.
Significant costs are associated with providing adequate technical assistance to support USDA programs and
management.


                Measure 2.3.3: Increase percentage of beginning farmers, racial and ethnic minority farmers,
                                          and women farmers financed by USDA

Overview

                       Key Outcome                        USDA Farm Loan Programs (FLP) provides loans and loan
                                                          guarantees to eligible farmers and ranchers. The programs
                                                          are designed to promote, build, and sustain family farms,
          Greater Diversity of Agricultural Producers
                                                          which help support a thriving agricultural economy.
                                                          Departmental assistance is particularly important to
minorities, women, and beginning farmers. Barriers to entering production agriculture are quite high. They include
the initial capital investment, high land values, and increasing input costs. Beginning farmers, minorities, and
women are particularly impacted by these barriers. Access to credit is an important tool in overcoming the barriers
and allowing these groups to begin or maintain a farming operation.

Analysis of Results
USDA met the target for this performance measure. The Department currently provides agricultural credit to more
than 17 percent of the Nation’s minority, women, and beginning farmers. This credit includes direct and
guaranteed farm ownership and operating loans. Farm ownership loans are used to purchase farm real estate,
enlarge existing farms, construct or improve farm structures, and improve the environmental soundness of farms.
Farm operating loans are used for normal operating expenses, equipment, machinery and livestock purchases, and
refinancing existing debt. In FY 2009, USDA provided over 18,000 loans to the targeted groups – valued at more
than $1.82 billion. USDA currently has 47,503 minority, women, and beginning farmers in its loan portfolio, a 7
percent increase from FY 2008.
USDA experienced a significant increase in demand for its farm loan programs in FY 2009. A total of 32,150 loans
were made compared to 26,305 in FY 2008. This surge in demand is partially because of increased credit
requirements for mortgage loans by commercial lenders. The instability in the credit market resultant from the
housing industry has impacted the agricultural credit sector. Additionally, dramatic downturns in the dairy, hog,
and poultry industries further increased demand for the Department’s loan programs. USDA met the increased
demand partially because of additional funding for the Direct Operating Loan program provided through the
American Reinvestment and Recovery Act (ARRA). USDA funded an additional 2,600 operating loans through
ARRA funds. Nearly 64 percent of these loans were issued to minority, women, and beginning farmers.




42      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Exhibit 16: Providing Tools to Help Farmers and Ranchers Stay Economically Viable

         Annual Performance Goals, Indicators,                     2005         2006           2007              2008                      Fiscal Year 2009
                      and Trends
                                                                                                                                  Target       Actual         Result
 2.3.3    Increase percentage of beginning farmers,              15.00%        15.50%         15.9%            16.22%             17.0%        17.4%           Met
          racial and ethnic minority farmers, and women
          farmers financed by USDA
 Rationale for Met Range: Data assessment metrics to meet the target allow for an actual number in the range 16.5-17.5 percent.

 Data Assessment of Performance Measures 2.3.3
 FLP data reside in the Program Loan Accounting System, Guaranteed Loan System, Direct Loan System, and FLP Databases. Information obtained from
 the 2002 Census of Agriculture is also used for this performance measure. The measure is calculated by taking the total number of minority, women, and
 beginning farmers in the loan portfolio and dividing it by the number of members of those three groups listed in the 2002 Census of Agriculture with at
 least $10,000 in sale.s (This sales figure excludes hobby farms, which are not the intended market for FLPs.)
 • Completeness of Data—Data reported is final as of September 30, 2009.
 • Reliability of Data—Data are considered reliable. System enhancements and built-in edits, coupled with comprehensive internal control review
     programs help ensure data reliability and quality. While Census of Agriculture data are considered reliable, the resulting percentage reported likely
     understates the importance of USDA's service to these targeted groups. It does not account for how many of these farmers would meet USDA's test
     for credit. Given that less than 50 percent of farm operators have any debt, it is unlikely that all of the targeted farm operators identified in the census
     would meet the credit test. Despite this limitation, these data are the best available for estimating USDA's performance in reaching the targeted
     groups.
 • Quality of Data—FLP data are of high quality. Most FLP data originate from accounting systems, which are subject to OIG audit. FLP data are
     collected for multiple purposes and gathered throughout the normal lending process. Data derived from the 2002 Census of Agriculture were
     developed in FY 2006 and will be used until new performance targets are developed as part of the Department’s strategic planning process. When
     new performance targets are developed, the 2002 Census data will be replaced with data from the 2007 Census.


Challenges for the Future
U.S. agriculture continues to change as most farms become larger and increasingly dependent on technology. These
changes increase the capital needed to enter farming. The costs of operating a farm continue to increase because of
higher input costs. These factors result in significant barriers and challenges for the groups that the USDA farm
loan programs are intended to assist. To keep pace, the Department will continue efforts to modernize the program
delivery system, and refine and adjust program requirements to maximize opportunities for the Nation's minority,
women, and beginning farmers.


                                                      Selected Results in Research, Extension, and Statistics
              Helping Farmers and Ranchers Increase Profits. USDA’s Western Sustainable Agriculture Research and Education (SARE) is
              funded to help the agriculture industry become more profitable, protect natural resources/the environment, and improve the
              quality of life for producers and consumers. The number of separate SARE-impacted farms and ranches, which increased profits
              and/or reduced costs, was documented as at least 1,452, with adjacent farms and ranches totaling over 3000, impacting
              4,178,000 acres. Of these farms and ranches, 82 percent reported sustained usage of the research-based idea or practices
              tested. Finally, for the 5-year life-span of this Cooperative Agreement there was a positive economic impact of over $500 million.




                                                                                                                ANNUAL PERFORMANCE REPORT                              43
Strategic Goal 3: Support Increased Economic Opportunities and Improved Quality of Life In Rural America
OBJECTIVE 3.1: EXPAND ECONOMIC OPPORTUNITIES BY USING USDA FINANCIAL RESOURCES TO LEVERAGE PRIVATE SECTOR RESOURCES
AND CREATE OPPORTUNITIES FOR GROWTH



                                            Measure 3.1.1: Jobs Created or Saved


Overview
                      Key Outcome                          USDA has the responsibility of coordinating Federal
                                                           assistance to rural areas of the Nation. The Department
     Enhanced Capital Formation for Rural Communities      strives to help rural Americans improve the quality of their
                                                           lives.
Each year, USDA programs create or save thousands of rural jobs, build and update rural infrastructure, and create
or improve more than 60,000 units of quality rural housing. To multiply the impact of its programs, the
Department works with State, local, and Tribal Governments; private and nonprofit organizations; and user-owned
cooperatives. USDA programs are administered by the Department’s network of State and local offices.
The Department partners with the private sector and community-based organizations to provide financial
assistance and business planning. It also provides technical assistance to rural businesses and cooperatives, conducts
research into rural economic issues, and provides cooperative educational materials to the public.
USDA Business Programs help fund projects that create or preserve quality jobs and/or promote a clean rural
environment. Its financial resources are often leveraged with those of other public and private credit source lenders
to meet business and credit needs in under-served areas. Program recipients may include individuals, corporations,
partnerships, cooperatives, public bodies, nonprofit corporations, Native American tribes, and private companies.
The Department is providing capital to enable rural businesses to participate in the developing global economy.
One of the primary programs assisting the USDA in realizing this goal is the Business and Industry (B&I)
Guaranteed Loan Program. B&I provides capital in the form of loan guarantees to improve, develop, or finance
businesses, and improve the economic and environmental climate in rural communities. This is achieved by
bolstering the existing private credit structure through the guarantee of quality loans, which will provide lasting
community benefits. In FY 2009, B&I obligated $993 million in guaranteed loans. It is estimated that the ARRA
dollars will create or save more than 20,000 jobs for rural Americans.
In addition to B&I, Rural Business and Cooperative Programs offer a full menu of economic development loan and
grant options that are delivered through cooperatives, non-profit organizations, institutions of higher learning, local
and Tribal governments, and other rural business and economic development stakeholders. These programs
increase access to capital and business-based services for rural communities. They can also assist with
infrastructure to support local business development.
USDA’s Cooperative Programs help rural residents form new cooperative businesses and improve the operations of
existing cooperatives (user-owned businesses). To accomplish this, Cooperative Programs provide technical
assistance to cooperatives, conduct cooperative-related research, and produce educational materials that promote
public understanding of cooperatives.




44      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
USDA’s Rural Business Enterprise Grant Program (RBEG) provides grants for rural projects that finance and
facilitate development of small and emerging rural businesses, help fund distance learning networks, and help fund
employment related adult education programs. RBEG received $19 million in ARRA funds. In one instance, the
Minnesota Chippewa Tribe in rural northern Minnesota has already received an $83,149 RBEG grant to help its
Business Development Center provide training for area businesses to expand. The grant created new jobs and
spurred economic growth in the region. The funding also is expected to help lower chronically high unemployment
and poverty rates among Native Americans who live in the region. So far, four Native American-owned businesses
have been selected to use the funding to expand their operations. The Rural Business Opportunity Grant program
(RBOG) promotes sustainable economic development in rural communities with exceptional needs. RBOG allows
for the provision of training and technical assistance for business owners, entrepreneurs, and economic development
officials. It also assists with economic development planning.

Analysis of Results
USDA has met its goals for this objective. The number of jobs created or saved is linked directly to the total
amount of USDA business program funding, amounts obligated and disbursed to awardees, and local economic
conditions. Annual job targets are based on historical program operations, subsidy rates and annual appropriations,
all of which can vary annually. The job target numbers assume a level funding horizon and timely allocations of
funds without regard to the potential impact of major natural disasters or local economic conditions. Recently,
these factors, particularly the struggling economy, have caused a general decline in annual job numbers. The
FY 2009 targets reflect the additional ARRA funding. Any remaining program funds will be carried over into
FY 2010 and continue to provide benefits to rural communities in the next fiscal year.
Exhibit 17: Strengthen Rural Businesses

         Annual Performance Goals, Indicators,                    2005          2006          2007              2008                     Fiscal Year 2009
                      and Trends
                                                                                                                               Target         Actual         Result
 3.1.1    Jobs Created or Saved                                  73,328        71,715        72,710            70,476          83,083         83,083           Met
 Rationale for Met Range: Job projected data are gathered when projects are obligated in the Guaranteed Loan System (GLS) based on a formula driven by historical
 results. Final job counts are verified on closing the loan and grant. A met range of 5 percent is used.
 • Target and threshold data were recalculated midway through the fiscal year to reflect American Recovery and Investment Act of 2009 funds.
 • Data assessment metrics to meet the target allow for an actual number in the range 94,385- 99,225.
 Data Assessment of Performance Measures 3.1.1
 Business program data are collected in various systems and ways. The finance office records and reports total loan and grant obligations as of the date
 they are executed. These data are collected as part of the obligation process. USDA also uses its GLS to collect additional information to satisfy reporting
 requirements, and for management and evaluation purposes. This information includes the number of jobs projected at obligation and verified jobs
 created or saved at the transaction’s closing. Data used to determine B&I’s delinquency status are generally reported directly by lenders into GLS. For
 other programs, USDA staff reports delinquency information.
 • Completeness of Data—Business program data are considered final and complete as of September 30, 2009, unless there are any year-end closing
    adjustments.
 • Reliability of Data—Business and Industry guaranteed loan borrower financial performance is reported by many, but not all, lenders semi-annually to
    the Rural Business Cooperative Service. Grantees generally report quarterly or semi-annually. There is inconsistency in the time periods represented
    by lender reports. In lieu of a reliable, consistent, and complete data set from lenders, the Finance Office’s financial data have been found acceptable
    to the Office of Inspector General, as are State-office-verified data on the financial performance of loans. Data for jobs created or saved are obtained
    by State office staff from borrowers and lenders. They are entered into GLS at the same time obligations are recorded. These data are reliable when
    they have been updated and verified by State staff. USDA reports the computed jobs saved or created based on underlying market and financial
    feasibility projections that support loan applications. The jobs are counted only in one fiscal year, the year the loan is obligated. The delinquency rate,
    which excludes loans in bankruptcy, is based on reports supplied by lenders on the performance of each loan.
 • Quality of Data—While the percentage of States verifying third-party financial and jobs data has improved each year, further improvements are
    needed. The economic model described above should lead to these improvements. USDA is testing an economic model to show the impact of
    business programs in rural areas more accurately and completely.




                                                                                                               ANNUAL PERFORMANCE REPORT                              45
Challenges for the Future
Rural economies face challenges different from those of urban and suburban areas. These challenges include:
• Historical dependence on local natural resources and farm commodities, subject to cyclical trends, and changing
   regulatory standards and oversight;
• Low profit margins on local commodity sales yet strong competition from international commodities;
• Large-scale changes in technology and related efficiency gains; and
• Inaccessibility and low-density populations resulting in limited foot traffic for retail establishments, and limited
   discretionary budgets for business improvements, upgrades, and modernization.
Additionally, rural areas typically have underdeveloped public services that make it difficult to attract or retain
businesses. The lack of public funding for amenities which are common in urban areas, such as dedicated business
parks or expanded transportation links, creates additional challenges. Education, health care, and entertainment are
perceived to be marginally acceptable in many rural areas.


                                                Selected Results in Research, Extension, and Statistics
           Census of Agriculture. On February 3, 2009, USDA released the results of the 2007 Census of Agriculture. The Census of
           Agriculture, taken every five years, is a complete count of U.S. farms and ranches and the people who operate them. The Census
           looks at land use and ownership, operator characteristics, production practices, income and expenditures, and many other areas.
           The Census provides the only source of uniform, comprehensive agricultural data for every county in the nation. In conducting the
           Census, USDA placed a special emphasis on outreach to traditionally under-represented populations, including small, minority,
           female, and limited resource farm operators. Working in partnership with community-based organizations nationwide, USDA
           engaged in an extensive effort to make sure the Census included all farms and ranches, regardless of size, location or type of
           operation. USDA also partnered with these groups to provide hands-on assistance and support to local producers – including
           non-English speakers – in filling out their Census forms. In addition, USDA targeted its media-outreach efforts towards
           publications and broadcast outlets that reach small, minority, and non-English-speaking producers.



OBJECTIVE 3.2: IMPROVE THE QUALITY OF LIFE THROUGH USDA FINANCING OF QUALITY HOUSING, MODERN UTILITIES, AND NEEDED
COMMUNITY FACILITIES
Overview


                                                              Measures 3.2.1–3.2.5
           3.2.1   Number of borrowers/subscribers with new and/or improved electric facilities
           3.2.2   Number of borrowers/subscribers with new or improved telecommunication services (Broadband)
           3.2.3   Number of borrowers/subscribers with new/improved service from agency funded water facility
           3.2.4   Homeownership opportunities provided
           3.2.5   Percentage of customers who are provided access to new and/or improved essential community facilities


                          Key Outcome                                   Decent, affordable housing is indispensable to vibrant rural
                                                                        communities. USDA Housing Programs help finance new
            Improved Quality of Life in Rural Areas                     or improved housing for more than 60,000 moderate-, low-,
                                                                        and very-low-income families each year. No rural
                                                                        community can thrive without adequate community




46      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
facilities. Thus, USDA Community Programs also help rural communities finance, construct, enlarge, or improve
fire stations, libraries, hospitals and medical clinics, industrial parks, and other community facilities.
Community Facilities Direct Loans, Loan Guarantees, and Grants are used to construct, enlarge, extend, or
otherwise improve community facilities providing essential services in rural areas and towns.
In FY 2009, more than $250 million was invested in 144 health care facilities serving 2.8 million rural residents.
During the same period, 789 communities received more than $38 million to finance fire, rescue, and public safety
facilities, equipment, and vehicles. Overall, more than 15 million rural Americans will enjoy a better quality of life
directly attributable to the $532 million investment in essential community facilities.
USDA’s Community Facilities (CF) Programs are designed to develop essential community facilities for public use
in rural areas. Program management received additional ARRA funds, $1.1 billion for direct loans and $61 million
for grants. The Department expects to have those funds all obligated by the end of FY 2010.
Revitalization of rural communities through the recovery of the ailing housing market is essential to a healthy
national economy. USDA’s Direct and Guaranteed Loan programs have helped to fill the void as private mortgage
lenders pulled back from financing modest homes for low- and moderate-income families. In FY 2009, the agency
provided record numbers of rural families with direct loans or Government guarantees for fair deals from
participating lenders.
Since the start of USDA Housing programs 60 years ago, more than 2.7 million families have benefited. This
includes some 140,000 loans or guarantees for rural homes in FY 2009 totaling nearly $17.5 billion – a record
amount. An additional 11,000 households received home repair assistance with 1-percent interest loans or grants.
The record spending is part of the Department’s economic stimulus for rural America, which combines annual
appropriations with ARRA funds (through FY 2010) and targeted disaster recovery funding. An additional $11.2
billion in ARRA funding was provided for Single Family Housing Loans, and they expect to have it obligated by
the end of FY 2010.
The Rural Broadband program supports the expansion of broadband service in rural areas. This expansion occurs
through financing and grants to projects that provide access to high-speed service and facilitate economic
development in locations without sufficient access to such service. Applications come in from a diverse range of
parties including State, local, and Tribal governments; nonprofits; industry; anchor institutions, such as libraries,
universities, community colleges, and hospitals; public safety organizations; and other entities in rural, suburban,
and urban areas.
The Broadband Program received $2.5 billion in ARRA funding for up to $9 billion in program level. USDA has
partnered with the U.S. Department of Commerce's National Telecommunications and Information
Administration and the Federal Communications Commission to ensure that these funds will be awarded
competitively with transparency and accountability.
Through its water programs, USDA invested $1.5 billion to finance construction, repairs, and upgrades. While an
infusion of 2008 Farm Bill funds may have contributed to the Department exceeding its goals, USDA has also
marketed its water programs aggressively to rural communities. This marketing has created brand-name recognition
for its services and financial assistance. Upgraded underwriting tools also have improved the water programs’
performance by helping to identify communities with greater loan potential. Additionally, the Rural Water &
Waste Disposal program received $3.6 billion in ARRA funding for loans and grants, and expects to obligate them
by the end of FY 2010.

Analysis of Results
The electric programs have fully utilized their FY 2009 loan-lending authority, and the improved electric facilities
performance measure was exceeded. The telecommunications measure was unmet, as programs were affected by the


                                                                               ANNUAL PERFORMANCE REPORT                47
2008 Farm Bill, which required modifications to the Broadband Loan Program. Revisions to the ongoing 2008
Farm Bill broadband loan program are currently under development. Permanent regulations are anticipated to be
published in fiscal year 2010. The broadband measure was exceeded.
The community facilities program met its goal by emphasizing health care and public safety facilities. USDA staff
provided outreach at national, state, and regional conferences, showing its ability to provide facilities at reasonable
rates and terms for rural Americans.
The performance of the housing programs has far exceeded the target. The demand for the guaranteed loan
program doubled, and the direct program increased by one-fourth this year. Additionally, home costs for the direct
program were lower than expected. Direct and guaranteed loans have been made totaling nearly $17.5 billion – a
record amount. USDA anticipates a growing need for increased funding in coming years as demand continues to
spiral upwards.
The water and environmental programs fully utilized their FY 2009 lending authority and exceeded their target
performance measures. Projections for FY 2010 are 1.457 million borrower customers (subscribers). Water and
waste facilities funded through ARRA are projected to serve 2.6 million borrower customers.
Exhibit 18: Improving Rural Quality of Life Through Electric Opportunities

         Annual Performance Goals, Indicators,                      2005          2006           2007              2008                      Fiscal Year 2009
                      and Trends
                                                                                                                                   Target         Actual          Result
 3.2.1    Number of borrowers/subscribers receiving                 2,360         8,184          5,826             8,103           7,100           9,759        Exceeded
          new and/or improved electric facilities
          (thousands)
 Rationale for Met Range: Annual targets for this measure are based on historical activity and adjusted according to program level received each fiscal year. Met range
 represents a 5-percent deviation from target.
 • Data assessment metrics to meet the target allow for an actual number in the range 5,818-6,431.
 Data Assessment of Performance Measures 3.2.1
 Electric programs data are collected from various Rural Utilities Service (RUS) documents including RUS Forms 740c and 130, Borrower’s Statistical
 Profile, Information Publication 201-1 and the borrower’s loan application.
 • Completeness of Data—The data are complete and accurate, collected at the time of loan approval, and reported annually.
 • Reliability of Data—Applicants are required to report essential data to the Electric programs. These data are used to administer USDA loan funds
    and ensure loan security. The Electric Program is developing a new loan tracking and data collection system as part of the Community Program
    Application Processing – Electric Programs.
 • Quality of Data—Applications are reviewed to ensure the borrower meets the eligibility requirements for the various loans, guarantees, and grants
    offered by Electric programs. All approved applications must show feasibility from a financial standpoint and ensure loan security. Loan funds may be
    used only for the approved purposes for which the loan was made.



Exhibit 19: Improving Rural Quality of Life Through Telecommunication Services

         Annual Performance Goals, Indicators,                      2005          2006           2007              2008                      Fiscal Year 2009
                      and Trends
                                                                                                                                   Target         Actual          Result
 3.2.2    Number of borrowers/subscribers receiving               232,249       297,027        356,440           775,342          370,000        187,000          Unmet
          new or improved telecommunication services
          (Broadband) (thousands)
 Rationale for Met Range: Annual targets for this measure are based on historical activity and adjusted according to program level received each fiscal year. Met range
 represents a 7-percent deviation from target.
 • Data assessment metrics to meet the target allow for an actual number in the range 344,100-395,900.




48         FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
          Annual Performance Goals, Indicators,                     2005          2006           2007             2008                      Fiscal Year 2009
                       and Trends
                                                                                                                                  Target         Actual          Result

 Data Assessment of Performance Measures 3.2.2
 The county data are collected from each approved loan application. Applicants identify their proposed service territories, including the number of
 subscribers to be served in the location by county. Measuring the extent to which broadband service is deployed in rural America on a county-by-county
 basis will enable USDA to assess improved economic conditions. The data on the number of counties to be served for each loan are derived from
 applicants’ loan applications.
 • Completeness of Data—Data are complete and final.
 • Reliability of Data—While applicants are required to perform market surveys of their proposed service areas, the actual counties served may vary if
    all funds are not used or the borrower later requests a change of purpose from the original loan application. Overall, the data are reliable.
 • Quality of Data—All applications are reviewed to determine eligibility. These applications must show feasibility from financial and technical
    standpoints. Applicants must perform market surveys of their proposed service areas. The data depend on the borrower drawing down loan funds and
    constructing the system as portrayed in the applicant’s loan design. Variance may result if a borrower does not draw down all loan funds or request
    approval for a change of purpose from the original loan, resulting in differences in the number of counties served and the number specified in the plan.



Exhibit 20: Improving Rural Quality of Life Through Water and Waste Disposal Facilities

         Annual Performance Goals, Indicators,                   2005           2006             2007             2008                      Fiscal Year 2009
                      and Trends
                                                                                                                                  Target         Actual          Result
 3.2.3     Number of borrowers/subscribers receiving          1,325,000       1,637,554       1,332,063       4,361,872         4,018,000       8,208,689      Exceeded
           new or improved service from agency
           funded water and/or waste facilities
 Rationale for Met Range: Annual targets for this measure are based on historical activity and are adjusted according to program level received each fiscal year. ARRA
 performance goals were set based on funding provided for the program level according to historical activity. Met range represents a 5-percent deviation from target.
 • Data assessment metrics to meet the target allow for an actual number in the range 3,817,100-4,218,900.
 Data Assessment of Performance Measures 3.2.3
 The Water and Environmental Program (WEP) collects data through the Community Programs Application Processing (CPAP) system. CPAP is a non-
 financial system in which agency field staff input data about applicants, borrowers, funding, and services provided. The data obligations flow through the
 Rural Utilities Loan Servicing System to the Program Loan Accounting System and through a data server to a data warehouse.
 • Completeness of Data—CF data are complete and final.
 • Reliability of Data—USDA’s data warehouse stores historical information on Departmental programs and such non-agency data as Census
     information. Program data are downloaded to the warehouse every evening from several accounting databases. Data generally are current through
     the previous day. The warehouse provides obligations data, used to measure the number of loans, loan amounts, number of borrowers, and funds
     advanced.
 • Quality of Data—Based on CPAP information, the number of subscribers receiving new or improved water or wastewater service can be extrapolated
     from the data warehouse. The WEP National Office and USDA field offices use data from CPAP, the data warehouse, and Departmental accounting
     systems to review or evaluate the financial, operational, and managerial programs of the utilities serving rural customers.



Exhibit 21: Homeownership Opportunities Provided

          Annual Performance Goals, Indicators,                     2005          2006           2007             2008                      Fiscal Year 2009
                       and Trends
                                                                                                                                  Target         Actual          Result
 3.2.4     Homeownership opportunities provided
           • Guaranteed Loans                                      34,251        31,131         32,481           54,660           68,627         115,981
           • Direct Loans                                          11,744        11,041         10,646            9,474           11,074          11,262       Exceeded
           • Total                                                 45,995        42,172         43,532           66,574           63,434         127,243




                                                                                                                  ANNUAL PERFORMANCE REPORT                               49
         Annual Performance Goals, Indicators,                        2005          2006            2007              2008                      Fiscal Year 2009
                      and Trends
                                                                                                                                      Target          Actual          Result
 Rationale for Met Range: The range of 10 percent is based on the historical variance from the target during the past several years in the number of houses sold in the
 Guaranteed and Direct Single Family Housing Loan Programs. Target and Actual include both Annual and ARRA funds.
 • First figure in each column represents guaranteed loans, the second row is direct loans, and the total is listed in the third row.
 • Excludes an (estimated) additional 13,200 hurricane supplemental/natural disaster homeownership opportunities (12,800 Guaranteed, 400 Direct).
 • Data assessment metrics to meet the target allow the actual total number in the range 75,716 - 83,686 for Direct and Guaranteed loans combined.
 Data Assessment of Performance Measures 3.2.4
 Homeownership data are entered in the Web-based DLOS system. This centralized server application ensures viable data collection. It tracks
 performance and can be used to forecast needs. Information is entered into UniFi and uploaded nightly into the MortgageServ system. This system
 obligates funds, establishes closed loans, administers escrow accounts, and performs other administrative function. Hyperion, a query and reporting tool,
 serves as the interface between the data warehouse and USDA staff.
 • Completeness of Data—Homeownership data are complete and final.
 • Reliability of Data—Homeownership data originate in systems used to obligate funding and are reliable. Data for initial placement of households into
     their own homes are reliable. They are linked directly to homeownership loans maintained in USDA's financial accounting systems. No adjustments
     are made for later defaults and the resulting loss of homeownership.
 • Quality of Data—Homeownership data are based on loan obligations collected in the Dedicated Loan Origination and Servicing System, and stored in
     USDA's Data Warehouse. Thus, the data on the number of households are auditable. Data represent the population served based on the available
     U.S. Census information.

Exhibit 22: Improving Rural Quality of Life Through Community Facilities

         Annual Performance Goals, Indicators,                        2005          2006            2007              2008                      Fiscal Year 2009
                      and Trends
                                                                                                                                      Target          Actual          Result
 3.2.5    Percentage of customers who are provided
          access to new and/or improved essential
          community facilities
         • Health facilities                                          3.5%          3.8%            7.2%              4.8%             5.4%            5.5%
                                                                                                                                                                    Exceeded
         • Safety facilities                                          4.1%          3.8%           6.16%              5.7%             5.0%           9.06%
 Rationale for Met Range: It is a challenge to measure the range of residents served because grants may vary widely, even within a category. One grant for a fire engine, for
 example, may serve 1,000 people, whereas another grant for a similar amount for a health care project might serve 10,000. Therefore, USDA would consider its FY 2009
 goal unmet if CF serves fewer than 4.7 percent of the rural population with new health care facilities and provides new fire, rescue, and public safety facilities for less than
 2.5 percent of the rural population. The ranges include all CF program funding, including ARRA funds.
 • Data assessment metrics to meet the target allow for an actual number in the range 4.7 to 5.7 percent for health facilities and the range 2.5 to 3.5 percent for safety
      facilities. Both areas met the goals.
 Data Assessment of Performance Measures 3.2.5
 Program data are collected by means of two streams of input. The finance office records and reports total loan and grant obligations as of the date of
 obligations. These data are collected as part of the obligation process. Additionally, USDA collects information for management and evaluation purposes.
 Data on delinquency status are reported by the finance office for community facilities direct loans, and by lenders for CF guaranteed loans.
 • Completeness of Data—CF program data are complete and final.
 • Reliability of Data—CF data are entered into GLS by field staff as the program funds are obligated. They also represent the population served based
     on available U.S. Census information. Population data served by community facilities are estimates. USDA screens data annually for irregularities.
     Population estimates served by community facilities are based on engineering studies used for the design of new or expanded public utilities systems.
     The Department is developing mapping technologies to improve the determination of service areas for community facilities.
 • Quality of Data—Data are constantly monitored and any irregularities or ambiguities are questioned and resolved. Because data are derived from
     actual obligations and constantly monitored, the quality of the data is ensured.


Challenges for the Future
The demand for increased energy efficiency and conservation poses both opportunities and challenges for USDA’s
electric programs. Challenges include control of greenhouse gas emissions through alternative fuels and renewable
energy, addressing state and local support for power plant projects, legal issues, and containing escalating
construction and fuel costs.


50         FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
ARRA provided $9 billion in program level for high-speed Internet service in communities that lack sufficient
access. There are short-term challenges to implementing USDA’s Broadband Initiative Program to distribute these
funds and establish the appropriate monitoring and servicing of the investments. Regulations for the ongoing Farm
Bill broadband program must be revised and telecommunication program staff must develop and conduct outreach
on the changes.
More than ever, rural communities must invest in water and wastewater facilities to upgrade aging facilities, meet
new environmental quality standards and enhance the security of their operations. As communities increase their
investments in water utilities, they must also manage costs better and set appropriate rates to ensure system
sustainability. A regional approach to water and waste water service delivery in some rural areas helps address rising
costs. Underwriting and meeting funding requirements for these larger regional systems will continue to challenge
utilities programs.
USDA is committed to assisting the most rural of America’s communities in planning, designing, and developing
financial packages for renovating or replacing vital facilities. These facilities, which include hospitals, schools, and
child-care businesses, are rapidly becoming more complex and expensive. The challenge is to develop a level of
expertise that benefits communities the most.
USDA’s direct loans are up by nearly 25 percent. Guaranteed loans have doubled from the previous year. With few
other affordable lending products available, demand is expected to continue to skyrocket despite continued, high
underwriting standards and documentation requirements. Processors in local offices, which have experienced staff
reductions in recent years, are now at the limit of their capacity. Improvements to USDA’s automation products
will increase capacity and allow lenders, partners and remotely located employees to interface other data systems –
increasing speed and efficiency of operations. Meanwhile, an automated “decision tool” is being developed to
streamline the Direct Loan program. “Jump teams” of highly-qualified staff will be made available to areas with
greatest demand.
Another challenge for the housing program is to meet the ongoing demand for funding. Demand by lenders for
guarantees will continue for the foreseeable future. The long-time goal of increasing access to housing for those in
the poorest and most remote areas remains unfulfilled. Despite serving a high portion of minorities, more help is
needed. While economic stimulation is needed to get America’s housing market growing again, USDA’s housing
programs will continue to play a central role in providing funding and support to the many rural Americans still in
need of decent, safe, and affordable housing.


                                                Selected Results in Research, Extension, and Statistics
          Status of Rural Health Care. Rural residents have higher rates of mortality, disability, and chronic disease than their urban
          counterparts. A USDA study found several factors that contribute negatively to the health status of rural residents such as lower
          socioeconomic status, smoking, weight, and exercise levels. Farmers and their families also have higher risks of workplace
          hazards.
          Impact of Baby Boom Migration on Rural America. A USDA analysis of age-specific migration during the 1990s reveals
          extensive shifts in migration patterns as Americans move through different life stages. The analysis finds a significant increase in
          migration to non-metropolitan areas as people reach their fifties and sixties, and projects a shift in migration among “baby
          boomers” toward more isolated settings.




                                                                                                      ANNUAL PERFORMANCE REPORT                  51
Strategic Goal 4: Enhance Protection and Safety of the Nation’s Agriculture and Food Supply
OBJECTIVE 4.1: REDUCE THE INCIDENCE OF FOODBORNE ILLNESSES RELATED TO MEAT, POULTRY AND EGG PRODUCTS IN THE UNITED
STATES


                                                         Measures 4.1.1–4.1.4
           4.1.1 Reduce the overall public exposure to generic Salmonella from broiler carcasses using existing scientific
                  standards
           4.1.2 Reduce the overall public exposure to Listeria monocytogenes in ready-to-eat products
           4.1.3: Reduce the overall public exposure to Listeria monocytogenes in post-lethality exposed ready-to-eat products
           4.1.4: Reduce the overall public exposure to E. coli O157:H7 in ground beef


Overview

                         Key Outcome                    USDA verifies and enforces Federally regulated
                                                        establishments’ compliance with their science-based food
                 Basing Policy on Science               safety system, the Hazard Analysis and Critical Control
                                                        Point (HACCP) system. HACCP is designed to prevent
                                                        the contamination or adulteration of food products. The
establishments may have other supporting programs and must have Sanitation Standard Operating Procedures
(SSOPs). SSOPs are written procedures that show how an establishment is meeting basic sanitation requirements
every day. These programs represent USDA’s foundation of preventing and controlling contamination of the food
supply during slaughter and processing. By placing the responsibility on the slaughter or processing facility to
implement systems for preventing and controlling contamination, the Department can best use its inspection
resources to ensure the safety of the Nation’s food supply. USDA verifies that establishments meet regulatory
requirements, and inspects carcasses and products.
One critical element to verifying the effectiveness of the establishments’ HACCP system and supporting programs
is the routine sampling of product for pathogens known to cause serious human illness. These pathogens include:
• Salmonella in broiler chickens;
• Listeria monocytogenes in ready-to-eat products; and
• Escherichia coli (E. coli) O157:H7 in raw ground beef.
Consumption of food contaminated with Salmonella can cause Salmonellosis, one of the most common bacterial
foodborne illnesses. Salmonella infections can be life-threatening, especially to those with weak immune systems,
such as infants, the elderly, and persons with Human Immunodeficiency Virus (HIV) infection or undergoing
chemotherapy.
Consumption of food contaminated with Listeria monocytogenes can cause listeriosis, an uncommon but potentially
fatal disease. While healthy people rarely contract listeriosis, it can cause high fever, severe headache, neck stiffness
and nausea. Listeriosis can also cause miscarriages, stillbirths, and serious and sometimes fatal infections in those
with weakened immune systems. The most susceptible are infants, the elderly, persons with HIV infection and
those undergoing chemotherapy.
E. coli O157:H7 are a large and diverse, potentially deadly group of bacteria that can cause bloody diarrhea,
dehydration, and kidney failure.


52      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
On-site USDA inspection personnel collect samples and send them for testing to Department’s field-service
laboratories based on a pre-set schedule. Sampling allows USDA to verify that establishments ensure food safety
through HACCP, sanitation and supporting programs. The Department focuses on the percentage of positive tests
from all establishments. It measures the industry’s performance as a whole to form the basis of USDA’s food safety
performance measures.
If a positive is detected at an establishment, USDA performs a series of follow-up activities. If the Department
determines that the pathogen’s presence threatens public health and product has not been held, it works with the
establishment in support of the product’s recall. Finally, in response to positive USDA test results for E. coli
O157:H7 and Listeria monocytogenes, the Department performs a food safety assessment (FSA) to analyze an
establishment’s control of the pathogen. USDA also uses FSAs to determine the design and implementation of an
establishment’s food safety system, and why contamination occurred. Additionally, the Department requires the
establishment to develop an action plan to address any problems.
Exhibit 23: Pathogen Reduction (Food Inspection)

     Annual Performance Goals, Indicators,                     2005             2006            2007             2008                    Fiscal Year 2009
                  and Trends
                                                                                                                                Target         Actual         Result
 4.1.1   Reduce overall public exposure to generic
         Salmonella from broiler carcasses using                n/a             45%             71%              80%             85%          82.08%          Unmet
         existing scientific standards1
 4.1.2   Reduce the overall public exposure to
         Listeria monocytogenes in ready-to-eat               0.70%            0.60%           0.31%            0.29%           0.25%          0.08%            Met
         products2
 4.1.3   Reduce the overall public exposure to
         Listeria monocytogenes in post-lethality             0.43%            0.23%           0.41%            0.35%           0.29%           0.1%            Met
         exposed ready-to-eat products2
 4.1.4   Reduce the overall public exposure to E.
         coli O157:H7 in ground beef2                         0.21%            0.40%           0.28%            0.48%           0.24%          0.36%          Unmet
 1USDA   measures its Salmonella performance in terms of a percentage of broiler chicken processing establishments that are in Salmonella performance Category 1.
 Establishments are placed in Category 1 if they demonstrate consistent process control in Department verification testing.
 2USDA measures its performance for Listeria monocytogenes and E. coli O157:H7 in terms of a volume-adjusted percent-positive rate for the pathogen in the Department’s
 HACCP verification testing. USDA has based its performance objectives for those pathogens on the Healthy People 2010 goals for reducing illnesses from Listeria
 monocytogenes and E. coli O157:H7.
 Volume adjusted percent positive rates are based on sampling results as of August 31, 2009. For Listeria monocytogenes, these are further adjusted by production
 category.

 Data Assessment of Performance Measures 4.1.1, 4.1.2, 4.1.3, 4.1.4
 Through consultations with its stakeholders, USDA continuously examines the Nation’s changing food safety system and practices. The Department
 articulates a long-term view in regard to its performance and the benefits to public health. USDA also monitors its performance against the Healthy People
 2010 goals for these three critical pathogens — Salmonella, Listeria monocytogenes (Lm) and E. coli O157:H7. The Department developed an attribution
 model to determine what percentage of all Salmonella, Lm, and E. coli illnesses result from USDA-regulated contaminated products.
 • Completeness of Data—Results are based upon USDA’s laboratory results analyzed as of August 31, 2009 and are the best available indication of
     the FY 2009 fourth-quarter results. Quarterly and annual data are based on sampling at a range of establishments, from very small to large.
 • Reliability of Data—The data are reliable because they are based on testing and verification from the USDA’s field service laboratories for regulated
     establishments. Each positive sample is subjected to highly specific verification testing. The primary goal of these sampling programs is to monitor
     how well each establishment is maintaining control of food safety through its HACCP, sanitation and supporting programs. USDA recognizes that its
     verification testing samples for Salmonella in raw classes of product and for Lm in ready-to-eat foods are biased in favor of being collected at
     establishments with poor process controls and/or higher volume; this likely results in overestimates in public exposure to these two pathogens. For E.
     coli O157:H7, however, this is not the case because the sample collection is not biased because our programs sample every establishment and take
     into account establishment production volume. USDA is working towards incorporating statistical design into its verification testing programs for
     Salmonella and Lm in order to have true measures of prevalence.
 • Quality of Data—The volume adjusted data show that these measures historically correlated with the Centers for Disease Control and Prevention
   foodborne illness outbreak data.




                                                                                                                ANNUAL PERFORMANCE REPORT                              53
Analysis of Results
Salmonella
USDA has made consistent progress towards meetings its performance goal of reducing overall public exposure to
generic Salmonella from broiler chicken carcasses. The FY 2009 target was 85 percent of broiler establishments in
Category 1 and based upon data ending August 31, 2009. Additionally, 83 percent of broiler establishments were in
Category 1 (USDA categorizes slaughter processing establishments as Category 1, Category 2 or Category 3 based
on their consistency in process control for Salmonella reduction. Category 1 represents the most consistent and top
performing category). USDA has met its Healthy People 2010 goal for Salmonella broiler chickens of 0.68 cases per
100,000 people. However, USDA did not meet its goal for the number of establishments reaching Category 1
status as shown in Exhibit 23. With respect to the latter, USDA self-imposed a continuous improvement approach
by placing establishments into one of three categories in order to further drive additional reductions in Salmonella
illnesses beyond those for Healthy People 2010.
In March 2008, USDA started posting the names of broiler chicken processing establishments in Categories 2 and
3 to its Web site monthly. While establishments from the young turkey product class also are now eligible for
posting, because more than 90 percent of young turkey establishments are in Category 1 and none are in Category
3, these facilities are currently not posted. Over time, USDA expects to post the establishments in Categories 2 and
3 from other product classes monthly. As more establishments attain Category 1 status, USDA believes that fewer
people will be exposed to Salmonella from raw classes of USDA-regulated products. Consequently, as more
establishments gain greater control over Salmonella, the goal of reducing the number of illnesses from Salmonella
from USDA-regulated products is more likely to be achieved.
The category system provides incentives for industry to reduce the occurrence of Salmonella in operations. The
Department has also developed a number of different initiatives to reduce the presence of Salmonella on USDA-
regulated products.
USDA schedules food safety assessments (FSAs) in poor-performing establishments to analyze an establishment’s
control of Salmonella, and the design and implementation of an establishment’s food safety system. FSA findings
inform regulatory decisions and are also used to devise agency policies and outreach efforts. All enforcement
analysis and investigations officers have been trained in updated methods for conducting FSAs.
USDA has also developed the Salmonella Initiative Program (SIP). SIP is designed to drive improvements in on-
going control of Salmonella in broiler and turkey slaughter operations on a volunteer basis. Participating
establishments must collect samples for microbial analysis on each line during each shift on every day of production.
These additional samples will provide the agency with key microbial data on process control. These data may be
used to inform performance standards development in the future.
USDA is conducting several baseline studies on raw classes of product in which the presence and numbers of
Salmonella and other microorganisms are being assessed. For example, the Department completed a study on
broilers in FY 2008 and one on young turkeys in FY 2009. USDA is also designing a baseline to measure
prevalence on raw chicken parts. Finally, the market hog baseline began in FY 2009. Baseline data will be analyzed
for trends and relationships between pathogen levels. New performance standards are intended to be derived from
these studies.
Finally, in terms of training, USDA has conducted five face-to-face “how-to” workshops in FY 2009 on controlling
Salmonella. These workshops are designed to help small and very small operators reduce this pathogen in poultry
operations.




54      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Listeria monocytogenes
USDA has met the performance goals of decreasing the percentage of all ready-to-eat (RTE) meat and poultry
products testing positive for Listeria monocytogenes (Lm), and the percentage of post lethality exposed RTE meat
and poultry products testing positive for Lm. The FY 2009 performance target for Lm in all RTE products was a
volume adjusted percent positive rate of 0.25 percent. The actual performance in FY 2009 is 0.08 percent (as of
August 31, 2009). The FY 2009 performance target for Lm in post-lethality exposed RTE products was a volume
adjusted percent positive rate of 0.29 percent. The actual performance in FY 2009 is 0.17 percent (as of August 31,
2009). The Department also met the Healthy People 2010 goals for human illnesses due to Lm in all RTE meat and
poultry products. USDA also met its goal for post-lethality exposed RTE meat and poultry products.
In FY 2009, the Department began measuring its Lm performance in terms of both the all RTE product sampling
program and the Lm sampling program targeted at post-lethality exposed products. USDA decided to begin
measuring its performance in terms of post-lethality exposed products. These products pose a greater risk to public
health. The Department targets most of its Lm initiatives toward post-lethality exposed products. Thus, USDA
decided to report both a volume adjusted percent positive rate for all RTE products and post-lethality exposed
products in FY 2009.
E. coli O157:H7
USDA has not met the performance goal for E. coli O157:H7 in ground beef. The FY 2009 target was 0.24 percent
positive while the volume adjusted percent positive rate for E. coli 0157:H7 in ground beef was 0.36 percent.
Likewise, the Department did not meet its Healthy People 2010 goal for illnesses from E. coli 0157:H7 in ground
beef of 0.28 cases per 100,000 people. USDA worked with the affected establishments on recalls of contaminated
products if product testing positive was not held. As of September 21, 2009, it also conducted 182 FSAs related to
E. coli O157:H7.
In July, 2009, USDA implemented a new sampling program for “bench trim.” Bench trim refers to trimmings
derived from animals not slaughtered onsite at the establishment. This product was not already sampled under the
Department’s routine trim testing program. The program’s goal is to encourage establishments that produce this
product to apply an anti-microbial treatment or other intervention to all beef used in this product’s production prior
to or after its removal. Alternatively, USDA sampling may provide an incentive for producers of bench trim to
maintain purchase specifications that require their suppliers to apply an antimicrobial or other intervention to
address E. coli O157:H7. USDA will track the results of this program to see whether it achieves these goals or
whether the results indicate that new policy or guidance is necessary to protect the public health.
In July, 2009, USDA issued a directive to its inspection personnel consolidating multiple notices on USDA
sampling and other verification activities for E. coli O157:H7, which clarifies policies and procedures, and
implements new necessary sampling and verification procedures. By clarifying the procedures outlined in the
directive, USDA inspection personnel should better understand their responsibilities and, thus, perform their
sampling and verification activities more effectively. The new sampling and verification procedures should better
protect the public’s health. The Department will track E coli O157:H7 data to assess whether the revisions in the
directive have produced improvements in its sampling and verification procedures to better protect the public’s
health. Additionally, inspection personnel are completing training on the Directive to ensure that they fully
understand their duties related to sampling and verification for E. coli O157:H7.
USDA is conducting more detailed analysis of recent FSAs concerning E. coli O157:H7. For these FSAs, USDA is
analyzing:
• All recent noncompliance records and enforcement actions;
• Available USDA sampling history;
• The establishment’s sanitation system;


                                                                              ANNUAL PERFORMANCE REPORT             55
•    The establishment’s microbiological testing programs;
•    The establishment’s hazard analysis and HACCP system;
•    Interventions used to address E. coli O157:H7;
•    Suppliers; and
•    How the establishment defines its lots of raw beef products.
Based on this analysis, USDA intends to determine whether establishments that have produced E. coli O157:H7-
positive products have common or recurring deficiencies that can be addressed by 1) new or modified compliance
guidelines for industry; 2) clarifying instructions to USDA inspection program personnel concerning sample
collection or other USDA verification activities; or 3) developing new policy or testing to address the pathogen.
Challenges for the Future
USDA must continue to verify that regulated establishments’ HACCP systems and supporting programs meet
regulatory requirements. The Department will continue to provide training and outreach activities to educate
industry personnel and consumers. It will also identify and disseminate information on best practices. Additionally,
USDA will develop regulations and supporting guidance for all stakeholders as new scientific and technical
information becomes available. USDA plans to begin phased-in implementation of the Public Health Information
System (PHIS) in October 2010. PHIS is designed to maximize the performance of food safety verification and
sampling procedures performed by USDA inspection program personnel. The data from inspection and sample
analyses will be automated and, through predictive analytics, more intensified inspection and enforcement can be
initiated sooner at poor-performing establishments. Additionally, PHIS will facilitate outbreak investigations by
linking in real time the U.S. Centers for Disease Control (CDC) PulseNet data on human outbreak information,
and the USDA sub-typing data from VetNet. PulseNet is a national network of public health and food regulatory
agency laboratories coordinated by CDC. VetNet is designed to investigate animal and foodborne illness outbreaks.
This linkage will allow USDA to target its investigations more quickly toward establishments likely to be the cause
of human illness outbreaks under investigation.
In terms of cross-cutting training initiatives, USDA posted the content of its Web seminars to help small and very
small operators understand how to reduce Salmonella, Listeria monocytogenes, and E. coli in their operations. This
information can be viewed at http://www.fsis.usda.gov/news_&_events/Reg_Education_Videos/index.asp.
In March 2009, President Obama established the Food Safety Working Group (FSWG). FSWG, which is chaired
by the Secretaries of USDA and the U.S. Department of Health and Human Services, will advise the President on
how to upgrade food-safety laws for the 21st century. Key FSWG findings and recommendations that affect
USDA will be addressed over the next several years in response to these recommendations. The Department is:
• Developing more effective outreach and communication materials and tools for State/Multilateral organizations
    and consumers;
• Strengthening its data analysis and surveillance activities, and developing risk-based approaches to target
    inspection resources and enforcement actions;
• Enhancing its incident command system and updating its emergency operations procedures;
• Increasing its oversight of imported foods by developing risk-based approaches to import inspection and foreign
    country audits;
• Implementing science-based, data driven approaches to reduce the prevalence of foodborne pathogens;
• Developing tools to more rapidly recall contaminated products from commerce; and
• Improving its trace-back systems for food products.




56       FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                                               Selected Results in Research, Extension, and Statistics
           Developing a Quick Method for Detecting E. coli O157:H7. A USDA funded food scientist, in collaboration with a researcher at
           the National Chiao Tung University in Taiwan, has found a way to detect pathogenic E. coli O157:H7 in food visually, using
           nanotechnology. The quick, easy, and affordable method developed by this team of researchers could allow consumers and
           producers to know immediately whether their food is safe to eat, because the presence of pathogenic E. coli O157:H7 causes the
           nanoparticles to change color. The implications for the industry are revolutionary.
           Detecting Melamine Residues in Food. USDA-funded researchers, collaborating with Beacon Analytical Systems, a Maine
           biotechnology company, have developed a commercial kit (EIA) for the rapid quantification of melamine residues in food. Beacon
           is currently the only manufacturer of melamine EIA kits in the world. In addition to their work on melamine contamination, USDA
           funded scientists are working with Beacon on new ways to detect paralytic shellfish poison (PSP) in seafood.



OBJECTIVE 4.2: REDUCE THE NUMBER AND SEVERITY OF AGRICULTURAL PEST AND DISEASE OUTBREAKS


        Measure 4.2.1: Number of significant introductions of foreign animal diseases or pests that spread beyond the
        original area of introduction and cause severe economic or environmental damage, or damage to the health of
                                                      animals or humans


Overview

                          Key Outcome                  USDA provides a secure agricultural production system for
                                                       U.S. consumers. This is done by reducing the number and
               A Healthy Food Supply                   severity of pest and disease outbreaks by:
                                                       • Safeguarding animal and plant resources against the
                                                           introduction of foreign pests and diseases;
• Detecting and quickly responding to new invasive species and emerging agricultural health situations;
• Eradicating or managing existing agricultural pests and diseases and wildlife damage; and
• Developing and applying more effective scientific methods.
The Department has several programs that focus on this goal each with its own set of performance measures. As an
indicator of success in FY 2009, one performance measure has been selected to represent the range of activities
conducted by its programs–one that pertains to the Animal Health Monitoring and Surveillance (AHMS)
Program. It evaluates and enhances disease control and eradication programs. AHMS monitors surveillance
activities to detect incursions of foreign and emerging animal diseases. AHMS also monitors international disease
trends and threats, and provides timely and accurate animal health information. This work is designed to prevent
the introduction of foreign animal diseases. If such diseases enter the country, AHMS works to prevent their
spread. The program seeks to minimize economic and environmental damage, and threats to the health of animals
or humans.

Analysis of Results
USDA met its target related to animal disease outbreaks in FY 2009. USDA developed animal-health monitoring
and surveillance systems to ensure success in future years. There were no significant introductions of foreign animal
diseases or pests that spread beyond the original area of introduction and caused severe economic or environmental
damage, or damage to the health of animals or humans.



                                                                                                   ANNUAL PERFORMANCE REPORT                 57
Exhibit 24: Reduce the Number and Severity of Pest and Disease Outbreaks

         Annual Performance Goals, Indicators,                   2005         2006          2007             2008                    Fiscal Year 2009
                      and Trends
                                                                                                                            Target         Actual         Result
 4.2.1    Number of significant introductions of foreign           0            0             0                0               0              0            Met
          animal diseases or pests that spread beyond
          the original area of introduction and cause
          severe economic or environmental damage, or
          damage to the health of animals or humans
 •   Rationale for Met Range: These foreign animal diseases could have significant economic impact and animal health consequences. USDA seeks to prevent the spread
     of every single one. Data assessment metrics to meet the target is 0 introductions. No threshold can be identified when the target is 0.
 Data Assessment of Performance Measures 6.4.1
 Determining the performance result involves: (1) routine monitoring and surveillance of world animal health problems; (2) investigating reports identifying
 any new introduction of a significant foreign animal disease (FAD), testing to determine the extent of spread; and (3) evaluating the severity of the
 damage.
 •    Completeness of Data—The data are complete when the scheduled testing is finished; the samples are analyzed and the quarantined animals are
      tested and released. The cutoff for the data is set at one month before the reporting date.
 •    Reliability of Data—The data are considered reliable when USDA’s Deputy Administrator of Veterinary Services has reviewed and approved them.
 •    Quality of Data—The issues related to collection and reporting of performance information are described above.



Challenges for the Future
USDA faces many challenges in its efforts to reduce the number and severity of pest and disease outbreaks. Every
year, the flow of animals, plants, and host material from abroad increases. This growth creates new pathways into
the country. The social and biological environment in which Federal efforts must be coordinated is becoming more
complex every year. Agencies must stay informed about new technologies. For each of these challenges, USDA has
developed strategies. One of the strategies is surveillance and monitoring in cooperation with States and industry.
Another strategy is to gather and update pest and disease information world wide. When learning of a possible
threat, the Department conducts science-based, early-detection, and rapid-response efforts. It creates and enforces
regulations to prevent the entry and spread of invasive species. USDA also develops new networks and tools in
collaboration with States, universities, and the private sector.


                               Measure 4.2.2: Improve Animal and Plant Diagnostic Laboratory Capabilities


Overview

                             Key Outcome                The National Animal Diagnostic Network and Plant
                                                        Diagnostic Network Centers ensure timely disease
      Improve Animal and Plant Diagnostic Laboratory    detection. They also produce and maintain a timely,
                       Capabilities                     comprehensive catalog of pest and disease outbreak
                                                        occurrences in a nationally accessible database. This
database allows USDA, in collaboration with the states, to expedite initial control responses, verify the physical
boundaries of an outbreak and initiate regional or national containment strategies should an outbreak occur. These
two networks continue to study new diseases regularly to protect the Nation from accidental or deliberate
introduction of diseases.



58         FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Exhibit 25: Ensure the Capabilities of Plant and Diagnostic Laboratories are Improved

         Annual Performance Goals, Indicators,            2005       2006         2007           2008                  Fiscal Year 2009
                      and Trends
                                                                                                              Target       Actual         Result
 4.2.2    Improve the capabilities of animal and plant
          diagnostic laboratories.
         • Specific plant diseases (and insects) labs      5           6            7              8             9           10            Met
           are prepared to detect
         • Specific animal diseases labs are prepared      7           8            8              9             9           10            Met
           to detect
 Data Assessment of Performance Measures 4.2.2
 • Completeness of Data—The data are complete when the scheduled testing is finished; the samples are analyzed and the quarantined animals are
   tested and released. The cutoff for the data is set at one month before the reporting date.
 • Reliability of Data—The data are considered reliable when USDA’s Deputy Administrator of Veterinary Services has reviewed and approved them.
 • Quality of Data—The issues related to collection and reporting of performance information are described above.



Analysis of Results
The performance goal was met. Trend data show a steady increase in plant and animal diseases the networks are
prepared to detect.
Plant disease (and insect) detection criteria have been developed for:
• Soybean rust;
• Sudden oak death;
• Ralstonia stem rot;
• Plum pox virus;
• Pink hibiscus mealybug;
• Potato wart;
• Huanglongbing (citrus greening);
• Potato Cyst Nematode;
• Late Blight; and
• Beet Curly Top.
The last two diseases were added in FY 2009. The plant laboratory network partnered with other cooperative
extension officials to quickly and efficiently conduct a widespread outreach and detection campaign on tomato and
potato Late Blight. This fungal disease, which triggered the great Irish potato famine of the 1840s, became a
significant domestic problem in FY 2009. A new diagnostic test was also implemented for Beet Curly Top, a disease
spread by insects that affects tomatoes, sugar and table beets, beans, and cucurbits. Beet Curly Top also was
integrated into the Legume Integrated Pest Management (IPM) Pest Information Platform for Extension and
Education (ipmPIPE). The ipmPIPE provides real-time information to disease detectors, including best practices
for optimum scouting.
Animal disease-detection criteria have been developed for the following nine high-consequence diseases: Foot-and-
Mouth Disease, Exotic Newcastle Disease, Classical Swine Fever (or hog cholera), High Pathogen Avian Influenza, Low
Pathogen Avian Influenza, Bovine Spongiform Encephalopathy, Scrapie, Chronic Wasting Disease, and Rift Valley Fever.
Rift Valley Fever, added in FY 2008, is a fever-causing disease that affects livestock (including cattle, buffalo, sheep,
and goats) and humans. In FY 2009, the National Animal Health Laboratory Network (NAHLN) conducted a
reorganization based on the recommendations of an independent review panel. This reorganization was designed to



                                                                                                 ANNUAL PERFORMANCE REPORT                         59
ultimately increase the network’s capability, capacity, and efficiency. NAHLN is part of a national strategy to
coordinate the Nation’s Federal, State, and university laboratory resources.
Challenges for the Future
Future challenges to improving laboratory capabilities include improving plant laboratory quality assurance and
first-detector training. Plans are underway to cooperate with USDA’s Plant Protection and Quarantine Program
and Center for Plant Health, Science, and Technology to structure a quality-assurance system consistent with the
policies of the International Organization for Standardization (ISO). ISO is a federation of 125 national bodies
that promotes standardization and facilitates international exchange of goods and services through the development
of technical, scientific, and quality standards. Improved first-detector training, conducted through the cooperative
extension system, will improve laboratory sample quality and speed initial detection of high-consequence
pathogens.


                                               Selected Results in Research, Extension, and Statistics
          Using Salmonella to prevent Campylobacter Contamination. USDA funded faculty and graduate students at a veterinary
          school developed a new poultry vaccine using Salmonella to induce chicks to make antibodies to Campylobacter proteins in their
          intestines—where the infection begins. The vaccination process is simple, easy to produce and protective to the chick. The
          Salmonella lives four to five days, enough time to stimulate antibody production, and dies. The goal is to halt the contamination
          before it spreads and survives on raw chicken sold in stores. The vaccine may be available in 3 to 5 years. The vaccine's effect
          could be significant: about 8.9 billion broilers go to market annually in the U.S., with a value of $21.5 billion.
          Protecting the Honey Bee. USDA-funded researchers have teamed up with Mite Zapper (Detroit, MI) to further refine a mite
          control device for honey bee colonies. This research increases knowledge about mode of actions or effects of pests or diseases
          on honey bees to achieve better control of pests and diseases and to gain increased honey production and more effective
          pollination of agricultural crops.
          Identification of H2N3 influenza A viruses from swine in the United States. Although viruses of each of the 16 influenza A
          hemagglutinin (H, the main binding site for flu viruses) subtypes are potential human pathogens, only viruses of the H1, H2, and
          H3 subtype are known to have successfully established infections in humans. H2 influenza viruses have been absent from human
          circulation since 1968, and as such pose a substantial human pandemic risk. USDA’s National Animal Disease Center (NADC)
          scientists reported this year the isolation and characterization of an avian/swine virus reassortant (two viruses that interchange
          their genes resulting in a new virus) H2N3 influenza A virus isolated from diseased swine from two farms in the United States.
          This virus contained an amino acid on the H2 protein that has been associated with increased binding affinity to the mammalian
          receptor for influenza viruses, and the H2N3 viral isolate was shown to cause disease in experimentally infected swine. In
          addition, the swine H2N3 virus was infectious and highly transmissible in swine and ferrets. These findings suggest that this H2N3
          virus has undergone some adaptation to the mammalian host and that its potential spread should be very closely monitored.
          Access to the virus for potential vaccine development is available should the H2N3 swine influenza virus re-emerge and begin to
          circulate among the U.S swine population.




60      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Strategic Goal 5: Improve the Nation’s Nutrition and Health
Nutrition is the link between agriculture and the Nation’s health. USDA made significant progress in advancing its
nutrition and health goal in FY 2009. The Department’s leadership in Federal nutrition assistance programs made a
healthier diet available for millions of children and low-income families. Cutting-edge nutrition promotion efforts
of the Center for Nutrition Policy and Promotion (CNPP) harnessed interactive technologies to motivate all
Americans to make positive dietary behavioral changes consistent with the Dietary Guidelines for Americans. CNPP
develops and promotes dietary guidance that links scientific research to consumers’ nutrition needs. The Dietary
Guidelines for Americans provides authoritative advice for all persons about how good dietary habits can promote
health and reduce risk for major chronic diseases.
Key FY 2009 accomplishments include:
• Promoting access to the Supplemental Nutrition Assistance Program (SNAP). Formerly the Food Stamp
   Program, SNAP is the Nation’s largest nutrition assistance program. This program is at record-breaking levels
   and serves roughly 34 million people monthly. The latest information on the rate of participation among
   eligible people showed that, in 2007, 66 percent of all eligible persons participated, compared with 54 percent
   in 2001;
• Promoting Nutrition Education by Using the MyPyramid Food Guidance System (MyPyramid). MyPyramid
    offers the American public an individualized approach to nutritional well-being and active living. This network
    of nutrition education tools, located at MyPyramid.gov, translates the Dietary Guidelines for Americans into
    understandable concepts for consumers. Users can access the site to assess and personalize their diet and
    physical activity plans. Its newest tool, MyPyramid for Preschoolers (ages 2 to 5 years old), helps parents help
    their young children eat well and be active and healthy. Consumers continue to respond enthusiastically to this
    educational approach. Thus, CNPP continues to develop new educational tools to promote nutrition education
    to specific population groups. In 2009, MyPyramid.gov and other nutrition related Web-based tools were
    accessed or used more than 3.5 billion times. This usage brought the overall total since April 2005 to 7.5
    billion; and
• Continuing to ensure that SNAP benefits are accurately issued. The SNAP payment accuracy rate for FY 2008,
    announced in 2009, was 94.99 percent. This new record high reflects effective partnerships with State
    administering agencies. It also draws the extensive use of policy options to streamline program administration
    while improving access for working families.
OBJECTIVE 5.1: ENSURE ACCESS TO NUTRITIOUS FOOD


                  Measure 5.1.1: Participation levels for the major Federal nutrition assistance programs


Overview

                     Key Outcome                     Nutrition assistance programs represent the core of the
                                                     Nation’s effort to improve food security and reduce and
          Reduced Hunger And Improved Nutrition      prevent hunger. USDA’s commitment to these programs is
                                                     part of its goal to ensure that all eligible Americans who
                                                     wish to participate can receive program services easily and
with dignity and respect. The programs’ strong FY 2009 performance reflects their fundamental strengths. It also
demonstrates the Department’s efforts to promote access and improve service to its clients in cooperation with our
State partners.



                                                                                 ANNUAL PERFORMANCE REPORT           61
Exhibit 26: Improve Access to Nutritious Food

         Annual Performance Goals, Indicators,                       2005          2006           2007              2008                      Fiscal Year 2009
                      and Trends
                                                                                                                                    Target         Actual          Result
 5.1.1    Participation levels for the major Federal
          nutrition assistance programs (millions per
          month):
          • Supplemental Nutrition Assistance Program                25.7          26.7           26.5              28.4             32.6            33.9
            (SNAP) Avg. (Monthly)
          • National School Lunch Program (NSLP)                     29.6          30.1           30.5              30.9             31.6            31.6
            Avg.(Daily)
          • School Breakfast Program (SBP) Avg.                       9.3           9.8           10.1              10.6             11.0            11.0            Met
            (Daily)
          • Special Supplemental Nutrition Program for                8.0           8.1            8.3               8.7              9.3            9.1
            Women, Infants, and Children (WIC)
            Program (Monthly)
 FY 09 data as of June 2, 2009.
 Rationale for Met Range: Thresholds for 5.1 reflect the margin of error in forecasts of future participation. For SNAP participation, results from 2 independent assessments
 suggest that predictions of the number of SNAP participants are accurate to within plus-or-minus 7.5 percent (on average). The threshold range for the school meals and
 WIC participation levels are 5 percent and 3 percent respectively. The range reflects the pattern of variance between actual and target performance for both programs over
 the past five years.
 • Data assessment metrics to meet the target allow for an actual number in the range (in millions) 31.4-36.5 for SNAP, 30.0- 33.2 for NSLP, 10.5-11.6 for SBP, and 9.0-
      9.6 million for WIC.
 Data Assessment of Performance Measures 5.1.1
 Participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to regional offices. There, they
 are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to the National Data Bank (NDB) Preload
 System. NDB is a holding area for data review prior to release. Otherwise, regional-office personnel reject the report and the State agency is contacted.
 Data posted by regional personnel into NDB are reviewed at USDA. If data are reasonable and consistent with previous reports, they will be downloaded
 to NDB for public release. If not, USDA works with regional offices and States to resolve problems and inconsistencies. This process of review and
 revision ensures that the data are as accurate and reliable as possible.
 • Completeness of Data—Figures for SNAP and WIC participation represent 12-month fiscal-year averages. Figures for NSLP and SBP are based on
     9-month (school year) averages. Participation data are collected and validated monthly before being declared annual data. Reported estimates are
     based on data through March 2009, as available, June 2, 2009.
 • Reliability of Data—The data are highly reliable. Participation-data reporting is used to support program financial operations. All of the data are used
     in published analyses, studies and reports. They also are used to support dialogue with and information requests from the Government Accountability
     Office (GAO), the Office of Inspector General (OIG) and the Office of Management and Budget.
 • Quality of Data—As described above, the data used to develop this measure are used widely for multiple purposes, both within and outside USDA.
     The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.


Analysis of Results
As program participation is voluntary, projections are based on economic and other factors that impact the likely
behavior of eligible populations. An analysis of the most recent information available follows.
Supplemental Nutrition Assistance Program (SNAP)—Program participation increased almost 21 percent
between May 2008 and May 2009. USDA’s efforts to support and encourage SNAP participation included:
• Rapidly implemented key provisions of the 2008 Farm Bill that expanded availability, and increased benefits,
    and simplified program administration;
• Continued efforts with States to develop outreach strategies. Forty out of 53 State agencies now have formal
    outreach plans or other documented outreach activity;
• Supported innovative State practices to promote access by simplifying the application process. Twenty-three
    states have an Internet-based application filing system. Nearly 25 states allow telephone interviews. Twenty-
    seven states use call centers;


62         FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
• Implemented ARRA provisions on time to increase benefits and eliminate time limits for able-bodied adults
   without children. ARRA also provided nearly $300 million in 100 percent State administrative expense funding
   to State agencies in response to the economic downturn. ARRA provisions are designed to provide a stimulus
   to the U.S. economy in the wake of the economic downturn; and
• Provided numerous strategies to help States manage workloads as a result of increasing participation and
   decreasing State resources due to the economic downturn.
USDA also measures the number of people eligible for the program. This process determines the rate at which
eligible people are participating. The latest study shows that, in 2007, 66 percent of all persons eligible for SNAP
participated. The number reflects an increase in eligible individuals greater than the increase in participants. While
the number of participants increased 2 percent, the number of eligible participants increased by 4 percent. Also in
2007, participants received 81 percent of all benefits available if every eligible person participated. This number
indicates that the program is effectively reaching those most in need.
National School Lunch Program (NSLP)—Participation levels reached 31.6 million in FY 2009. This number is a slight
increase from FY 2008. It continues the recent trend of increases. NSLP provides nutritious meals to millions of
children at school. More than 100,000 schools and residential child care institutions operated the program in
FY 2009.
School Breakfast Program (SBP)—Participation levels reached 11 million in FY 2009, continuing a trend of increases
during the last several years. SBP makes healthy, nutritious meals available to millions of children at the start of each
school day. More than 85,000 institutions operated the program in FY 2009.
The Special Supplemental Nutrition Program for Women, Infants and Children (WIC)—In FY 2009, approximately 9.1 million
participants received WIC benefits. USDA addresses the health and nutritional needs of at risk, low-income
pregnant, breastfeeding and postpartum women, infants, and children up to 5 years of age with supplemental food
packages, nutrition education, and health and social services referrals.
Challenges for the Future
Studies and analyses show that there continue to be large numbers of eligible people who do not participate in
Federal nutrition assistance programs. Many may not be aware that they are eligible. Therefore, efforts to improve
access to and promote awareness of these programs, and seeking improvements in policy and operations that make
it easier to apply, are ongoing challenges.
The quality of program delivery by third parties—hundreds of thousands of State and local Government workers
and their cooperators—is critical USDA’s efforts to reduce hunger and improve nutrition.
In FY 2009, the Department and its program delivery partners sustained effective access to the programs. The
period was marked by greater-than-targeted participation in SNAP and expected levels of average monthly
participation in NSLP, SBP, and WIC.

                                                Selected Results in Research, Extension, and Statistics
          Healthier Food Research. USDA-funded scientists have been advancing the knowledge of the role of black raspberries in
          cancer management. Findings from these studies suggest that a mixture of preventative agents, which berries provide, may more
          effectively prevent cancer than a single agent that targets only one or a few genes. Black raspberries have vitamins, minerals,
          phenols and phytosterols, many of which individually are known to prevent cancer in animals. Freeze drying the berries
          concentrates these elements about ten times, giving a power pack of chemoprevention agents that can influence the different
          signaling pathways that are deregulated in cancer.
          Creating a New Index for Ranking Nutritional Value of Food. Through USDA National Research Initiative funding, scientists
          created a Relative Antioxidant Index (RACI) by statistically integrating the antioxidant capacity values generated using seven
          different chemical methods. The RACI was validated using 20 commonly consumed vegetables. This index provides
          standardization of information about the antioxidant content of various fruits and vegetables and is useful as a ranking tool for use
          by the food industry, scientists, and consumers.



                                                                                                      ANNUAL PERFORMANCE REPORT                   63
OBJECTIVE 5.2: PROMOTE HEALTHIER EATING HABITS AND LIFESTYLES


                               Measure 5.2.1: Application and usage level of nutrition guidance tools


Overview

                         Key Outcome                           Healthy eating and physical activity practices help reduce
                                                               the risk of death or disability from a wide range of chronic
          Healthful Eating and Physical Activity across        diet-related illnesses. USDA uses Federal nutrition policy
                                                               and nutrition education, both for the general public and
                          the Nation
                                                               those served by the nutrition assistance programs, to provide
                                                               scientifically based information about healthful diets and
lifestyles.
USDA and the U.S. Department of Health and Human Services co-developed the Dietary Guidelines for Americans.
The guidelines provide advice about food choices that promote health and prevent disease. The MyPyramid food
guidance system provides the educational tools to help Americans take the necessary “Steps to a Healthier You.” A
range of cutting-edge information tools, many available on the Internet, offer a personalized eating plan with the
foods and amounts that are right for a given individual.
The Department will continue promoting diets and behaviors as a vital public-health issue. The Dietary Guidelines
for Americans is the cornerstone of Federal nutrition guidance. USDA uses the 2005 Dietary Guidelines for Americans
and MyPyramid to advise people in on how to improve their overall health through proper nutrition. The
Department uses partnerships and “information multipliers” – such as shopkeepers who post public service
messages in their shops, or school teachers who teach their students about nutrition – to maximize the reach and
impact of its interventions, both within Federal nutrition-assistance programs and with the general public.

Analysis of Results
USDA continued its leadership role in promoting nutrition guidance through educational tools designed to
motivate people to live healthier. For example:
• The Department distributed more than 3 billion pieces of nutrition guidance materials distributed via the
   Internet and print materials;
• USDA continued its collaborative effort to increase communication of dietary and physical activity guidance
   messages. The program “Partnering with MyPyramid,” (http://www.mypyramid.gov/Challenge/index.html)
   with more than 140 members, showcases the role of various industries and others (e.g., youth groups) as
   Government partners to encourage healthier eating and physical activity behaviors among families. The
   partnership is designed to empower nutrition gatekeepers by providing easy to apply guidance for modeling a
   healthy lifestyle. It also provides information to help them make healthy food choices for themselves and their
   families where they prepare foods, work, play, and purchase foods; and
• “MyPyramid for Preschoolers” is the newest educational tool. Located at MyPyramid.gov, it helps parents create
   a customized eating plan for their preschooler. The tool also encourages parents to explore ways to help their
   preschooler (1) grow up healthy, (2) develop healthy eating habits, (3) try new foods, (4) play actively every day,
   and (5) follow food safety rules. Sample meals and snack patterns are designed to help parents translate
   MyPyramid Plan daily amounts into individual meals and snacks. Ideas are also offered for having a preschooler
   help the food preparer in the kitchen—a good way to encourage a child to try new foods.


64       FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Exhibit 27: Promoting Healthier eating Habits and Lifestyles

         Annual Performance Goals, Indicators,                      2005         2006           2007              2008                     Fiscal Year 2009
                      and Trends
                                                                                                                                  Target         Actual             Result
 5.2.1    Application and usage level of nutrition                   n/a          1.5            2.6               3.2              2.5            3.5         Exceeded
          guidance tools (pieces of nutrition guidance
          distributed, in billions)
 Rationale for Met Range: Thresholds reflect trends of MyPyramid.gov “hits” and print materials distributed (MyPyramid and the Dietary Guidelines for Americans).
 • Data assessment metrics to meet the target allow for an actual number in the range 2.3-2.7 billion.
 Data Assessment of Performance Measures 6.4.1
 Data on the application and usage level of nutrition guidance tools are drawn from electronic records associated with www.MyPyramid.gov, survey
 analysis and inventory records of print materials.
 • Completeness of Data—Data related to MyPyramid.gov are collected instantaneously, indicating the number of e-hits to the Web site and the
    number of registrations to the MyPyramid Tracker. For print materials, data from national headquarters represent the difference between what was
    distributed versus what remains in the inventory.
 • Reliability of Data—The data are highly reliable. The number of hits is instantaneously recorded, the online survey is continual and well-tested. The
    number of distributed print materials is tracked. Consumer satisfaction data are collected by predictive methodology of the American Customer
    Satisfaction Index (ACSI). The ACSI methodology is a measurement system that provides a rigorous scientific foundation to quantify the value of
    customer satisfaction. The survey used to test MyPyramid.gov is presented randomly during a customer’s Web session subject to strategic
    parameters that qualify respondents. It incorporates a 10-point radio button scale for greater differentiation of responses.
 • Quality of Data—The data are used to report on the success of the MyPyramid Food Guidance System. The system offers simultaneous recording of
    MyPyramid.gov usage and a thorough and continual customer-satisfaction survey. Thus, usage and customer-satisfaction levels are high-quality
    indicators of the degree to which USDA promotes and customers respond to interactive tools and print materials designed to help Americans
    personalize their diets.



Challenges for the Future
Crafting more effective messages and nutrition education programs to help people make better food choices
requires understanding their current choices. There also must be an awareness of the relationships between these
choices and their attitudes towards and knowledge of diet/health links. The data that can address this information
gap, however, are limited.
The ability of existing nutrition guidance and promotional materials to achieve behavior change remains
challenging. Limited resources are available for nutrition promotion relative to other messages, products, and
practices in the food marketplace. Physical activity and other lifestyle issues also significantly impact body weight
and health.
USDA tracks its annual performance in promoting healthful eating and physical activity by monitoring its annual
distribution of nutrition education materials. Over the longer term, the Department assesses the effect of these
efforts with its Healthy Eating Index (HEI). HEI assesses the conformance to Federal dietary guidance and is
based on nutrition surveillance data.




                                                                                                                 ANNUAL PERFORMANCE REPORT                                   65
                                                 Selected Results in Research, Extension, and Statistics
           Healthier Eating Habits of Low-Income Audiences Studied. With funding by USDA, researchers tested their hypothesis that
           lower-cost diets among low-income women would be higher in calories but lower in nutrients. Their tests concluded that the more
           energy-dense (high-calorie) the diet, the less nutritious it is likely to be. Additionally, low-income women who ate more nutritious
           diets spent more money per calorie than those who ate less nutritious diets. The consumption of a higher energy-dense diet was
           associated with higher intakes of fat and lower intakes of calcium and vitamin A. Results of this project point out the need for
           more nutrition guidance materials for low-income audiences.
           Adherence to the 2005 Dietary Guidelines for Americans lowers risk for cardiovascular disease. USDA and the U.S.
           Department of Health and Human Services share responsibility for revising the Dietary Guidelines for Americans every five years.
           In the Framingham Heart Offspring cohort study, USDA scientists in Boston, MA found a 50% lower prevalence of metabolic
           syndrome in men and women with high adherence to the Dietary Guidelines for Americans. Metabolic syndrome, characterized by
           abdominal obesity and the inability to use insulin efficiently, is a forerunner of type 2 diabetes and increases risk for coronary
           heart disease.
           Many Americans receive inadequate amounts of vitamins A, C, and E. Using data from the “What We Eat in
           America/NHANES 2001-2002” national dietary survey, USDA scientists in Beltsville, MD found a high prevalence of inadequate
           intakes of vitamins A, E, and C for most age and gender groups in the United States.
           The U.S. Organic Sector: Emerging Issues and Policy Dimensions. The federal organic regulatory program includes a “USDA
           organic” label that has bolstered consumer assurance and helped drive a rapid expansion in sales. Domestic supply now trails
           demand for many products. The first Congressional hearing on organic agriculture was held in 2007, and stakeholders called for
           additional research and other tools to help the domestic farm sector meet burgeoning consumer demand. USDA research
           describes changes in the character of the U.S. organic sector in response to this growth, and highlights some emerging issues
           and concerns. Recent findings provide supporting analysis on issues across the organic supply chain, from structural changes in
           the organic farm sector to the socioeconomic characteristics of organic consumers.



OBJECTIVE 5.3: IMPROVE NUTRITION ASSISTANCE PROGRAM MANAGEMENT AND CUSTOMER SERVICE


                                           Measure 5.3.1: Increase SNAP Payment Accuracy Rate


Overview

                          Key Outcome                                    USDA looks to ensure that nutrition-assistance programs
                                                                         serve those in need at the lowest possible costs. The
      High Level of Integrity in the Nutrition Assistance                Department also strives to offer its programs with a high
                                                                         level of customer service. Managing Federal funds for
                          Programs
                                                                         nutrition assistance effectively, including prevention of
                                                                         program error and fraud, is important for maintaining
program integrity.

Analysis of Results
SNAP payment accuracy reached a record-high 94.99 percent in 2008, the last year for which data are available.
The number reflects the excellent performance by State agencies in administering the program. This combined rate
reflects 4.01 percent in overpayments and 1.00 percent in underpayments for a total of 5.01 in erroneous payments.
Thirty-five States had a payment accuracy rate greater than 94 percent, including 15 States with rates greater than
96 percent.



66      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
An enhanced Partner Web (an Intranet for State SNAP agencies) and the National Payment Accuracy Work
Group (consisting of representatives from USDA headquarters and regional offices) have allowed the Department
to realize consistent increases in SNAP payment accuracy. These efforts help make timely and useful payment
accuracy-related information, tools, and best practices available across the country.
Additionally, the Department continued to use an early detection system to target States that may be experiencing a
higher incidence of errors based on preliminary quality control (QC) data. Actions then are taken by regional
offices to address these situations in the individual States.
Exhibit 28: Increase Efficiency in Food Management

         Annual Performance Goals, Indicators,                     2005         2006           2007              2008                     Fiscal Year 2009
                      and Trends
                                                                                                                                Target         Actual          Result
 5.3.1    Increase SNAP Payment Accuracy Rate                     94.1%         94.2%         94.4%             94.3%           94.99%          Not           Deferred
          (Baseline: 2001 = 91.3%)                                                                                                            Available
 FY 2009 data will be available in 2010.
 Rationale for Met Range: The 95-percent confidence interval around the estimate of payment accuracy is ±.33. Data assessment metrics to meet the target allow for an
 actual number in the range 94.1-94.7 percent.

 Data Assessment of Performance Measures 5.3.1
 SNAP, formerly the Food Stamp Program, uses annual payment accuracy data from the Quality Control (QC) process to support its management. The
 data are based upon statistically valid methodology. The QC process uses a systematic random sampling of SNAP participants to determine a combined
 payment error rate for each State. The combined error rate is composed of over-issuances and under-issuances of SNAP benefits. A regression formula
 is applied to the results of the reviews to calculate official error rates.
 State agencies review selected cases monthly to determine the accuracy of the eligibility and benefit-level determination. The process includes a client
 interview and verification of all elements of eligibility and the basis of issuance. Federal reviewers validate a sample of the State’s reviews by conducting a
 re-review. The process has proven to be a sound method of calculating reliable data.
 • Completeness of Data—The most current data available for this measure are for FY 2008. The payment accuracy rate of 94.99 exceeded the
     Performance Goal/Measure target. FY 2009 performance will be deferred until next year’s report, once data on that fiscal year are available.
 • Reliability of Data—QC data is valid and accepted by State SNAP agencies as a basis for performance-incentive payments and penalties. The
     Government Accountability Office and the Office of the Inspector General also use it regularly.
 • Quality of Data—As described above, the data used to develop this measure are used widely for multiple purposes, both within and outside USDA.
     The measure itself is frequently cited as an important, high-quality indicator of program performance.



Challenges for the Future
Some improper payment risks are inherent to the legislatively mandated program structure. This structure is
intended and designed to be easily accessible to people in special circumstances and settings. USDA must shape its
management approach in light of the need to make services convenient and accessible to participants. State and
local Governments also bear direct responsibility for delivering the programs. Thus, the Department must work
with these groups to address improper payment problems through monitoring and technical assistance. This
approach requires adequate numbers of trained staff supported by a modernized information technology
infrastructure to ensure full compliance with national program standards.
Despite this strategy, two significant challenges will impact future success. Congressional action has changed the
quality control process, lowering the risk of penalties for poor State agency performance. However, State agencies
have, for the most part, risen to the challenge and continue to achieve a high level of payment accuracy.
Additionally, State budgets have been and will continue to be extremely tight. This factor could hurt State
performance in payment-accuracy. USDA will continue to provide technical assistance and support to maintain
payment accuracy in the context of this changing program environment.




                                                                                                                ANNUAL PERFORMANCE REPORT                               67
Strategic Goal 6: Protect and Enhance the Nation’s Natural Resource Base and Environment
OBJECTIVE 6.1: PROTECT WATERSHED HEALTH TO ENSURE CLEAN AND ABUNDANT WATER


                                                         Measure
                       6.1.1: Comprehensive Nutrient Management Plans applied
                              • Conservation Technical Assistance
                              • Environmental Quality Incentives Program
                       6.1.2: Increase Conservation Reserve Program acres of riparian and grass buffers



Overview

                      Key Outcome                        Healthy landscapes and efficient water usage are essential to
                                                         ensuring clean and abundant water resources. USDA
                 Clean and Abundant Water                manages national forests and grasslands to protect
                                                         watersheds. The Department also provides science-based
                                                         technical assistance to land users on privately owned lands
to help protect and enhance the Nation’s natural resources. With assistance delivered primarily through the
Conservation Technical Assistance Program (CTA), USDA conservation experts assisted land users with
conservation plans covering more nearly 37.6 million acres of working lands in FY 2009. These plans provide
producers with information on soil quality, condition of their grazing lands and woodlands, irrigation water
management, wildlife habitat needs, and measures to improve or protect soil, water and air quality. The
Department also assisted agricultural producers with implementing water quality improvement practices on 35.2
million acres. Much of USDA’s assistance for water quality is directed towards livestock producers to reduce the
risk of livestock waste and nutrients entering waterways. The Department also helped producers improve their
irrigation practices on more than 2 million acres, a significant resource issue since a third of all ground and surface
water is used for agricultural irrigation. USDA also provides time-sensitive water supply forecasting based on snow
survey data.
USDA also provided producers with financial assistance to help offset the cost of installing riparian and grassland
buffers, and other conservation practices. Major programs providing financial assistance for water resources
included the Environmental Quality Incentives Program (EQIP) and the Conservation Reserve Program (CRP).
EQIP is a voluntary conservation program that provides assistance to landowners and agricultural producers in a
manner that promotes agricultural production and environmental quality as compatible goals. CRP is a voluntary
program for agricultural landowners that allows them to receive annual rental payments and cost-share assistance to
establish long-term, resource-conserving covers on eligible farmland.

Analysis of Results
USDA continues to make significant progress in protecting watershed health and ensuring clean and abundant
water. The Department exceeded its target for CTA and met its target for EQIP by helping livestock producers
apply comprehensive nutrient management plans (CNMPs). CNMPs are conservation systems for animal-feeding
operations designed to ensure that the collection, storage, and utilization of animal waste are managed in ways that
minimize the potential for environmental damage. These systems also include conservation practices implemented


68      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
for nutrient management, erosion control, and buffers to protect bodies of water. As animal agriculture has become
more concentrated, public concern about potential environmental damage has increased. USDA focuses on helping
producers comply with State and local regulations to minimize the potential for damage to water or air resources
from livestock operations. EQIP performance reflects the continuing trend of producers utilizing financial
assistance to apply CNMPs. EQIP financial assistance is used for capital-intensive, structural practices and the
adoption of practices to improve the management of working land.

Riparian and grass buffers intercept sediment and nutrients before they reach surface waters. To measure
performance in achieving its strategy, USDA monitors acreage of agricultural lands to be enrolled as buffer zones in
CRP. During the past five years, the number of acres set aside as buffer areas under the CRP program has increased
steadily. CRP met its performance target of 2.01 million acres for the measure. For FY 2009, producers have set
aside approximately 2.03 million acres as CRP buffer areas. In 2009, these buffers intercepted at least 300 million
pounds of nitrogen and 65 million pounds of phosphorus before they entered surface waters.
Exhibit 29: Healthy Watersheds, High Quality Soils, and Sustainable Ecosystems

         Annual Performance Goals, Indicators,                     2005         2006           2007             2008                     Fiscal Year 2009
                      and Trends
                                                                                                                                Target         Actual       Result
 6.1.1    Comprehensive Nutrient Management Plans
          applied (number of plans)
         • Conservation Technical Assistance                      2,421         2,269          1,911            1,745            1,300          1.485   Exceeded
         • Environmental Quality Incentives Program               2,032         2,774          2,490            2,520            2,000          2,019     Met
 6.1.2    Increase Conservation Reserve Program                    1.75          1.86          1.95             2.001            2.01           2.03         Met
          (CRP) acres of riparian and grass buffers
          (million acres, cummulative)
 1 Revised 7/09 due to updated enrollment data.

 Rationale for Met Range:
 • 6.1.1: 1) Conservation Technical Assistance. Data assessment metrics to meet the target allow for an actual number in the range 1,170 – 1,430.
      2) Environmental Quality Incentives. Data assessment metrics to meet the target allow for an actual number in the range 1,800 – 2,200.
 • 6.1.2: Data assessment metrics to meet the target allow for an actual number in the range 1.90 - 2.11 million acres.
 Data Assessment of Performance Measures 6.1.1
 • Please refer to goal 6, Objective 6.4.1.
 Data Assessment of Performance Measures 6.1.2
 The data source for this measure is the USDA National CRP Contract and Offer Data Files.
 • Completeness of Data—CRP targets and actual data are cumulative. Data are based on estimated results through September 30, 2009. The
    measure reports national acres under contract with the following types of conservation buffers: filter strips, riparian buffers, and wildlife habitat buffers
    on marginal pasture land. There are no known data limitations.
 • Reliability of Data—USDA considers the data to be reliable. CRP is authorized through FY 2012.
 • Quality of Data—While current information only provides the number of acres in these buffers, ongoing research will show models that estimate
    sediment and nutrients intercepted by these buffers. These estimates may also be used to track performance.


The Department has directed ARRA funds to cost-effective projects that provide public safety, flood protection,
and economic and environmental benefits. USDA has approved nearly 400 projects to acquire floodplain easements
($145 million), invest in watershed infrastructure improvements ($145 million), and rehabilitate existing watershed
dams ($50 million) where there is the greatest risk of infrastructure failure and threat to life and property. Benefits
include the protection of life and property by reduced threats and damage from flooding, improved water quality,
safe and reliable water supplies, enhanced fish and wildlife habitat, erosion control, improved quality of life through
expanded recreational opportunities, and added community green space. Detailed information on these projects can
be found at http://www.nrcs.usda.gov/programs/recovery/index.html#State_Recovery_Project_Fact_Sheets. USDA




                                                                                                                ANNUAL PERFORMANCE REPORT                            69
received more than 4,500 applications totaling nearly $1.8 billion. This demand necessitated a ranking process to
ensure that eligible projects yielding the greatest public and environmental benefits were funded.

Challenges for the Future
The quality of ground and surface waters to support intended uses and the supply of these waters to meet
expanding demand are continuing concerns. Challenges to maintaining the rate of improvement will include the
continuing concentration of livestock operations, increased acreage cropped for ethanol and cellulosic sources of
biomass, and the risk of increased erosion from more intense storm events. Competition for water will continue to
increase, especially in areas with limited or variable water supply. The expansion of cropped acres to produce energy
feedstocks also may increase agricultural demand for water. Climate change impacts also affect water quality and
quantity. Drought and variable precipitation in many parts of the Nation could result in shortages in areas that have
had adequate supplies in the past.
Several provisions of the 2008 Farm Bill offer opportunities for continued efforts to ensure clean and abundant
water. Among these are the Chesapeake Bay Watershed and Agricultural Water Enhancement Programs, and the
reauthorization of programs for Watershed Rehabilitation, the Great Lakes Basin, and the Wetlands Reserve
Program.
If markets support increased production, agricultural producers may continue to plant crops on environmentally
sensitive land rather than establishing long-term conservation covers or buffers. CRP enrollment continues to be
influenced by high commodity prices. These prices have reduced the attractiveness of retiring cropland from
production and enrolling it in CRP.
USDA uses the multi-agency Conservation Effects Assessment Project (CEAP) to quantify the environmental
benefits of conservation practices. Private landowners are cooperating with USDA in the CEAP effort. Watershed-
based assessments are directed at evaluating interactions among practices and hydrology in the landscape. With
additional knowledge of the dynamic relationship between conservation activities undertaken on individual farms
and ranches and the resulting off-site benefits, USDA can more effectively utilize its programs. Much of this effort
is focused on the impacts of livestock, irrigation and drainage management, and conservation practices with
significant watershed level impacts.

                                                Selected Results in Research, Extension, and Statistics
          “Green Payments” in Agriculture. A recent USDA report addresses the potential advantages and disadvantages of linking
          commodity and conservation programs into a single policy tool. The research examined the distribution of income support and
          environmental gains from various scenarios, combining the income support objective of existing commodity programs and
          environmental objectives of existing USDA conservation programs. Because commodity and conservation payments tend to go to
          different producers on different types of land, scenario outcomes varied. Conservation-based payments yielded larger
          environmental gain and substantial income support, although the distribution of income support across farms differed markedly
          from that of current commodity programs.
          Surface applications of poultry litter are safe at appropriate agronomic rates. Poultry litter contains fecal bacteria, sex
          hormones, and low levels of antibiotics; therefore, it is important to determine whether poultry litter poses a risk to public health.
          USDA researchers in Athens, Georgia, conducted controlled rainfall simulations on long-term no-till and conventional tillage fields
          with poultry litter applications at rates recommended for crop production. They found no increase in the loads of fecal bacteria,
          hormones, or antibiotics in runoff to surface waters and concluded that under current guidelines there is little potential of
          contaminating surface waters with pathogens or hormones. This is important information for the poultry industry and
          environmental protection agencies because surface waters contaminated with pathogens or hormones from poultry litter are likely
          an indication of mismanagement of litter applications.
          Improved water quality. Loss of nutrients from heavily fertilized fields can lead to water quality degradation in waterways.
          Nutrient contamination is a major water quality concern and its remediation a national priority. A novel approach to drainage water
          management in areas where diffuse flow is concentrated is to filter the runoff through low cost materials such as industrial
          byproducts. USDA scientists in Columbus, Ohio, have screened 55 industrial byproducts and have found five that hold promise
          for removing nitrate, phosphate, and atrazine from drainage waters.




70     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
OBJECTIVE 6.2: ENHANCE SOIL QUALITY TO MAINTAIN PRODUCTIVE CROPLAND BASE


                                                          Measure
                      6.2.1 Cropland with conservation applied to improve soil quality (millions of acres)
                                 • Conservation Technical Assistance Program
                                 • Environmental Quality Incentives Program


Overview
                      Key Outcome                         High-quality soils support the efficient production of crops
                                                          for food, fiber, and energy. Proper soil management
                                                          maximizes agricultural production and improves the
                    Enhanced Soil Quality
                                                          environment. In 2009, USDA conservation experts assisted
                                                          people in writing or updating conservation plans on private
land covering more than 11.7 million acres of working cropland. The Department helps producers install
conservation practices and systems that meet established technical standards and specifications. USDA worked with
producers to implement conservation practices on 14.4 million acres of cropland. The Department also provides
financial assistance to encourage producers to adopt land treatment practices proven to provide significant public
benefits. Financial assistance through EQIP is available to producers to install structural measures or adopt
management practices to reduce erosion and protect cropland. The new Conservation Stewardship Program (CSP)
provides opportunities for producers to implement higher levels of management and conservation activities to
improve soil quality. Through 2009, CRP protected 33.7 million acres of fragile soil. The conservation cover
provided by CRP resulted in the equivalent of 56.5 million metric tons of carbon dioxide from reduced energy and
fertilizer usage, and carbon sequestered in soils and the conserving vegetation.
USDA completed initial or updated mapping of soils on 37.5 million acres, including Federal lands, for the
national soil survey. Soil surveys provide information on the capabilities and conservation-treatment needs of soils.
The Department provides the scientific expertise to enable a uniform system of mapping and assessing soil across
the Nation. Historically, USDA has produced soil surveys along geo-political boundaries. Current efforts are
directed toward developing seamless national soil survey coverage. Data on carbon stocks stored in the nation’s soils
and dynamic soil properties are being collected. This information will be used to address climate change and
evaluate changes in soil quality under varying management conditions, so policy makers, planners and land users
can use this information to make better land management decisions.

Analysis of Results
USDA met its target for helping producers apply conservation practices on cropland for CTA. It did not meet the
target for EQIP. While the Department assisted producers with implementing conservation practices to improve or
enhance soil quality on 4.8 million acres, the acreage served was 0.3 million acres (6 percent) of the acceptable range
of the projected performance for this metric.
Several factors contributed to the shortfall this year. Flooding, coupled with cool, wet spring weather conditions
hampered conservation practice implementation during the 2009 crop season. To broaden EQIP participation
among a greater population of farmers, ranchers, and nonindustrial private forest landowners, payment caps were
instituted in EQIP. These caps limit the amount of financial assistance available for management practices, e.g.,
residue and tillage management. The aforementioned practices have been widely adopted throughout the
agricultural community. The decrease in EQIP performance for this measure has been partially offset by


                                                                                    ANNUAL PERFORMANCE REPORT        71
agricultural producers implementing these widely accepted management practices without financial incentives, as
evidenced in CTA’s soil quality performance trends in the past three years.
Changes to USDA software delayed the approval of new EQIP contracts, associated payments, and some prior year
contract payments. The Department created a temporary solution with protocols for determining participant
eligibility so that payments could be processed. The synchronization of the AGI Web services is scheduled to be
completed and available early in FY 2010.
Exhibit 30: Enhanced Soil Quality

         Annual Performance Goals, Indicators,                     2005         2006           2007              2008                     Fiscal Year 2009
                      and Trends
                                                                                                                                Target         Actual          Result
 6.2.1    Cropland with conservation applied to improve
          soil quality (millions of acres)
         • Conservation Technical Assistance                        6.0          6.4            7.3               8.3             7.5            7.6            Met
         • Environmental Quality Incentives                         2.2          3.4            5.3               5.6             5.7            4.8           Unmet
 Rationale for Met Range: These measures are designed to provide a better indicator of soil quality. They include all cropland and hay land on which USDA-assisted
 producers apply conservation measures. These measures are designed to maintain or enhance soil quality and enable the sustained production of a safe, healthy, and
 abundant food supply.
 • Conservation Technical Assistance: Data assessment metrics to meet the target allow for an actual number in the range 6.8–8.3.
 • Environmental Quality Incentives: Data assessment metrics to meet the target allow for an actual number in the range 5.1–6.3.
 Data Assessment of Performance Measures 6.2.1
 Please refer to Goal 6, Objective 6.4.1.



Challenges for the Future
USDA continues to evaluate the effects of short-term and long-term conservation practices on soil quality,
including impacts on organic matter and carbon sequestration. Erosion control and increasing soil organic matter
are necessary to enhancing soil quality. Many of the conservation practices that reduce erosion also increase the
organic matter in the soil, resulting in increased soil carbon. There is an immediate need to collect additional field
data to improve the assessment of national carbon stocks, validate soil carbon models, and document benefits of
applied conservation practices. USDA will invest in developing data and analytical tools to support soil quality
protection and will encourage market-based approaches that reduce atmospheric carbon.
The Department will face challenges associated with soil data collection and dissemination. Economic constraints
in partnering with other agencies and universities could reduce the number of acres mapped and the total number
of soil surveys updated. USDA will seek to strengthen partnerships and form new ones with entities having
common interests. It will also use technology to improve data-collection efficiency.
Reduced CRP acreage may cause the carbon now stored in fragile soils to escape into the atmosphere. If these soils
return to crop production without the benefit of good conservation practices, increased soil erosion could also occur.




72         FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                Selected Results in Research, Extension, and Statistics
           Modern wheat and oat varieties are less responsive than older varieties to elevated atmospheric carbon dioxide. Plants
           need light, soil, water, nutrients, temperature, and carbon dioxide (CO2 ) for growth. One aspect of adapting agriculture to global
           change is identification of crop lines that can better take advantage of the rising concentration of atmospheric CO2. Research by
           USDA’s Crop Systems and Global Change Laboratory in Beltsville, Maryland, has shown that the yields of wheat and oat varieties
           released 100 years ago are more enhanced by projected future increases of CO2 than are the yields of modern lines. This work
           identifies resources for developing higher-yielding crops that can take advantage of atmospheric composition changes affecting
           climate.
           New soil test procedures reduce fertilizer applications. Current fertilizer rate recommendations for the heavy clay soils of
           central Texas often do not result in meaningful crop yield improvements. USDA researchers from the Grassland Soil and Water
           Research Laboratory in Temple, Texas, developed new soil testing procedures for fertilizer recommendations. Fertilizer
           recommendations based on the new soil test methods were evaluated on local producer owned farms and resulted in savings in
           fertilizer cost ranging from $2,000 to $40,000, depending on farm size, without a loss in crop yield. Wide use of the new soil
           testing procedures will reduce fertilizer use, thus resulting in greater profits for farmers and decreased impacts from excess
           fertilizer losses to the environment.



OBJECTIVE 6.3: PROTECT FORESTS AND GRAZING LANDS


                                                             Measure
       6.3.1     Total acres of hazardous fuel reduction treatments
       6.3.2     Acres of Wildland Urban Interface (WUI) high-priority fuels treated to reduce the risk of catastrophic
                 Wildland fire
       6.3.3     Acres of hazardous fuels treated outside the WUI to reduce the risk of catastrophic
                 Wildland fire
       6.3.4     Percentage of acres treated in the WUI that have been identified in community wildfire protection
                 plans or equivalent plans
       6.3.5     Percentage of total National Forest System land base for which fire risk is reduced through movement
                 to a better condition class.
       6.3.5     Grazing and forest land with conservation applied to protect and improve the resource base
                 • Conservation Technical Assistance
                 • Environmental Quality Incentives

Overview

                          Key Outcome                     Climate change, severe fires, diseases, and pests have all led
                                                          to declining forest health. Privately owned working forest
                                                          lands are also being lost to development and fragmentation
        Sustainable Forest and Grassland Ecosystems
                                                          at an alarming pace. All of these changes have enormous
                                                          impacts on drinking water, greenhouse gas emissions, the
climate, local economies, and wildlife and recreational opportunities. USDA is taking an “all-lands approach” to
addressing these challenges. Many national forests are adjacent to State and private land. More than 80 percent of
the forest area in the United States is outside of the national forest system. Managing the Nation’s forests requires



                                                                                                     ANNUAL PERFORMANCE REPORT                   73
cooperation among a large number of stakeholders, with a focus on the whole landscape. The Department’s forest
protection performance measures focus on reducing the risks of severe wildland fire and restoring forest ecosystems.
USDA looks to increase the extent of land under conservation management that will protect ecosystem health and
reduce susceptibility to damage caused by drought, invasive species, and wildfire.
USDA promotes project planning and implementation to reduce fire risk and restore forests and grasslands. It
focuses on mechanical fuels treatment and the significant use of fire – both controlled burns and wildland fire.
These efforts are critical to ecosystem health. Restoring forest ecosystems, particularly in fire-adapted forests, will
make forests more resilient to climate-induced stresses and ensure that they are able to continue to provide ample,
abundant, clean water.
Removing excess vegetation helps decrease fire hazards. This process protects firefighters and the public. Since the
inception of the National Fire Plan in 2001, USDA has treated more than 20 million acres to remove excess
vegetation through a combination of hazardous fuels reduction funds and other vegetation management program
efforts. Unplanned ignitions are also used as a tool to manage hazardous fuels where there are opportunities to do
so safely, effectively, and with full consideration of potential risks. In 2009, management objectives were achieved
on more than 309,750 acres using naturally ignited fires.
USDA’s efforts to reduce the risks of wildfire are conducted in collaboration with Federal, State, Tribal, and local
Governments, and non-Governmental organizations. The Department works with communities in fire-prone
environments to help them take measures to successfully adapt to the presence of wildland fire. A key aspect of that
work is collaborating with communities to develop and implement Community Wildfire Protection Plans
(CWPPs). CWPPs identify wildland fire hazards in areas within and surrounding communities. They also identify
high-priority hazardous fuels for treatment. Additionally, CWPPs help private citizens understand the role fire
plays in ecosystem health, promote positive interactions with federal land managers, and create local business
opportunities.
Hazardous fuel reduction accomplishments in FY 2009 include:
• Investing more than 60 percent of the dollars available for hazardous fuel treatments in the wildland urban
   interface near communities;
• Completing LANDFIRE for all 50 States. LANDFIRE is an interagency, landscape-scale fire, ecosystem, and
   vegetation-mapping project. It helps land managers make informed project decisions to reduce high-priority
   wildland fire risks across landscapes;
• Continuing to develop a science-based methodology to evaluate unplanned acres burned as acres moved toward
   desired conditions, when outcomes are consistent with management objectives; and
• Continuing to implement a process to document and display fuel-treatment effectiveness where on-the-ground
   treatments have been tested by wildfire.
Several key USDA programs contribute to management efforts that reduce fire risks, prepare communities, and
restore forests and grasslands to sustainable conditions. The hazardous fuel reduction program is a crucial
component of this effort. Other tools include programs to improve timber and range productivity, wildlife and fish
habitat, forest health, and watershed quality.
In 2009, USDA conservation experts assisted people in writing or updating conservation plans on private land
covering 24.4 million acres of grazing and forest lands. USDA also assisted producers in applying conservation
practices on 31.9 million acres of non-Federal grazing lands and forest.

Analysis of Results
USDA met or exceeded all but one of its performance goals for protecting the health of the Nation’s forests and
grasslands against the risk of fire. USDA exceeded its 2009 CTA and EQIP targets for conservation applied to
protect and enhance non-Federal grazing land and forest land.


74      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
The Department did not meet its target for measure 6.3.5. While the Department moves numerous acres to a
better condition class each year, its ability to do so is impacted by weather, resource availability, and the number of
treatments required. Additionally, multiple treatments often are needed to move an area toward its desired
condition. Federal wildland fire management agencies also changed the application of fire policy to wildland fire
incidents. This shift in policy implementation was not fully represented in the 2009 data. Future adjustments in the
way condition class change data are collected will be needed.
Nationwide drought conditions, community expansion into the wildland urban interface, and densely vegetated
forests increase the chances of more unnaturally severe and damaging wildfires. The 2002 coarse scale assessment of
wildland fuels determined that approximately 56 percent of all acres managed by USDA have missed 2 or more
expected fire cycles. It also showed that many acres are at elevated risk from wildland fire. The finer scale data
available from LANDFIRE are expected to show an even greater departure from expected conditions in the
Nation’s forests and woodlands.
To increase the effectiveness of its ongoing efforts to help people protect and enhance plant and animal
communities, USDA is working to improve the technology for measuring conditions. The Department is also
projecting the results of management options on grazing lands.
Challenges for the Future
The cost of managing wildfires and reducing hazardous fuels continues to be a challenge. The Department is
working with Congress to ensure that it has the necessary funds to fight fires and manage forests. While using
excess vegetation for biomass and bio-based products may lower the cost of fuel reduction and restoration
treatments, the limited market for this material and rising transportation costs from the source to scarce processing
facilities creates barriers to its use. Forest processing infrastructure has also been lost in recent years. Thus, the
capacity to perform the important kinds of restoration work that must be done has significantly decreased.
Since much of the Department’s activities on private forestland and rangeland occur in cooperation with State
agencies, State-level budget constraints may hamper USDA efforts to meet the goal for non-Federal grazing land.
Exhibit 31: Trends in Treatment of Hazardous Fuel, Private Forests and Grasslands

     Annual Performance Goals, Indicators,                2005           2006        2007        2008                  Fiscal Year 2009
                  and Trends
                                                                                                            Target         Actual         Result
 6.3.1   Total acres of hazardous fuel reduction
         treatments                                     2,722,000      2,547,000   3,027,000   3,038,277   2,485,000      3,194,036   Exceeded
 6.3.2   Acres of WUI high-priority fuels treated to
         reduce the risk of catastrophic wildland       1,658,000      1,590,000   1,654,000   1,940,978   1,739,500      1,837,686   Exceeded
         fire*
 6.3.3   Acres of hazardous fuels treated outside
         the WUI to reduce the risk of catastrophic     1,064,000      957,000     1,373,000   1,097,299   745,500        1,356,350   Exceeded
         wildland fire*
 6.3.4   Percentage of acres treated in the WUI        Performance       17%
         that have been identified in community
         wildfire protection plans or equivalent       measure not     (baseline    24.70%       36%         28%            40%       Exceeded
         plans                                         in existence.     year)
 6.3.5   Percentage of total National Forest           Performance       1.1%
         System land base for which fire risk is
         reduced through movement to a better          measure not     (baseline    1.90%       2.10%       3.00%          2.37%          Unmet
         condition class                               in existence.     year)
 6.3.6   Grazing and forest land with conservation
         applied to protect and improve the
         resource base, millions of acres
         • Conservation Technical Assistance               7.5           11.8        14.2        16.0        13.0           16.0      Exceeded




                                                                                                ANNUAL PERFORMANCE REPORT                          75
     Annual Performance Goals, Indicators,                    2005             2006           2007            2008                     Fiscal Year 2009
                  and Trends
                                                                                                                              Target       Actual         Result
        • Environmental Quality Incentives                     8.0             12.2            16.5           16.9             15.0         17.2      Exceeded
           Program
*For 2005, 2006, 2007 these data were taken from the “Healthy Forests Report,” found at
http://www.forestsandrangelands.gov/reports/documents/healthyforests/2007/fy2007_final_healthy_forests_report_12112007.pdf.
Rationale for Met Range:
• 6.3.1: Data assessment metrics to meet the target allow for an actual number in the range of 2,360,750 to 2,609.250. As such, USDA exceeds the
   target for this measure. This is partially due to accomplishments achieved with American Recovery and Reinvestment Act of 2009 (ARRA) funds not
   included in the original target. Additionally, this year's fire season was less severe than in recent years. Thus, more staff were available to work on
   hazardous fuels projects because they were not fighting fires.
• 6.3.2—Data assessment metrics to meet the target allow for an actual number in the range 1,652,525 to 1,826,475. As such, USDA exceeds the
   target for this measure. This is partially due to accomplishments achieved with ARRA funds not included in the original target. Almost 17,000 acres
   have been treated in the Wildland Urban Interface (WUI) using ARRA funds to-date. At least 35,000 acres are likely to be treated in the WUI using
   ARRA funds by the end of the fiscal year. Additionally, this year's fire season was less severe than in recent years. Thus, more staff were available to
   work on hazardous fuels projects because they were not fighting fires.
• 6.3.3—Data assessment metrics to meet the target allow for an actual number in the range 708,225 to 782,775. As such, USDA projects that it will
   exceed the target for this measure. This is partially due to accomplishments achieved with ARRA funds not included in the original target. More than
   9,500 acres have been treated outside WUI using ARRA funds to-date. More than 19,000 acres are likely to be treated outside the WUI using ARRA
   funds by the end of the fiscal year. Additionally, this year's fire season was less severe than in recent years. Thus, more staff were available to work
   on hazardous fuels projects because they were not fighting fires.
• 6.3.4—Data assessment metrics to meet the target allow for an actual number in the range 26.6 percent to 29.4 percent. As such, USDA projects that
   it will exceed the target for this measure. This is likely at least partially due to accomplishments achieved with ARRA funds not included in the original
   target. Additionally, USDA continues to stress the importance of working with partners in helping communities plan and prepare for wildland fires.
   These alliances have likely led to increased emphasis on these types of treatments.
• 6.3.5—Data assessment metrics to meet the target allow for an actual number in the range 2.85 percent to 3.15 percent. USDA projects that it will
   meet the target for this measure. Acres affected by wildland fire that move the landscape towards a desired condition may now be accounted for due
   to a change in the implementation guide for federal wildland fire policy. With these additional acres, in concert with those treated by prescribed fire and
   mechanical means, USDA predicts that it will move sufficient acres to Condition Class 1 to achieve this target. Condition Class 1 refers to acres in a
   condition where fire regimes are within a historical range and the risk of losing key ecosystem components is low.
• 6.3.6—This measure was re-defined and expanded in FY 2007 to include all private grazing or forest land on which the Department assisted
   producers to apply conservation measures to maintain or improve long-term vegetative condition and protect the resource base. Lands on which
   conservation measures may be applied include grazed range, grazed forest, native and naturalized pasture, and forest. Performance data for FY 2005
   and FY 2006 have been provided to indicate prior year performance had this measure been employed at that time.
Data Assessment of Performance Measures 6.3.1, 6.3.2, 6.3.3, 6.3.4, 6.3.5
The data for hazardous fuels treatments are reliable, of good quality, and certified by the respective line officer. USDA wildfire and other program
managers collected, compiled, and analyzed the data.
• Completeness of Data— Values shown are final FY 2009 data.
• Reliability of Data—All data for hazardous fuels were reported through the National Fire Plan Operations System. USDA and the U.S. Department of
   Interior (DOI) land-management agencies co-developed the system. Its data are collected, compiled, and analyzed by program managers, and
   certified by the respective line officer.
• Quality of Data— Data quality has been assessed at about 90 percent for project data in all regions. The quality of these data is monitored
   continuously and being improved with focused training and policy direction on reporting requirements. Data are projected based on historical
   performance and year-to-date actual accomplishments. If information is not entered into the systems of record immediately upon completion of the
   project, the quality of the projection will be compromised.
For 6.3.6 Data Assessment, see Goal 6, Objective 6.4.1.




76       FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                Selected Results in Research, Extension, and Statistics
           Protecting the Upper Mid-West Forests. The Emerald Ash Borer (EAB) is an exotic invasive insect known to kill ash trees of all
           species. In states surrounding Minnesota, the emerald ash borer has already killed millions of trees. To delay EAB introduction
           and spread to ash trees in Minnesota, a First Detector Program was created by USDA-funded specialists. A public information
           campaign resulted in the collection of seeds from 254 ash trees. These seeds were placed in a long-term storage facility, making
           it possible to preserve the ash gene pool for potential reintroduction of the species when more effective mechanisms have been
           introduced to manage the EAB.
           U.S. Agriculture and Forestry Greenhouse Gas Inventory Report. Periodic assessments of greenhouse gas emissions from
           the agricultural and forestry sectors are conducted and reported by USDA and the Environmental Protection Agency (EPA).
           USDA scientists at the Soil, Plant, and Nutrient Research Laboratory in Ft. Collins, Colorado, collaborated with Colorado State
           University to develop the USDA “U.S. Agriculture and Forestry Greenhouse Gas Inventory Report.” Results were reviewed and
           published in the most recent EPA greenhouse gas inventory and will be used by land managers, planners, and others with an
           interest in greenhouse gas dynamics and their relationships to land use to develop policy and strategies to manage greenhouse
           gas emissions from agricultural sources.
           Grazing exclusion can increase the fire risk to sagebrush communities. Considerable controversy exists over the role of
           livestock grazing and prescribed fire to manage sagebrush steppe range land to stop the spread of cheatgrass (an invasive
           annual grass) and reduce the severity of wildfires in the Great Basin. USDA scientists in Burns, Oregon, evaluated the impacts of
           fire on sagebrush range land that had either been grazed up until the year of burning (1993) or had been excluded from grazing
           since 1937. Vegetation characteristics were measured in the 12th through 14th years after burning. Burning caused a huge
           increase in cheatgrass in the ungrazed areas, but not in the grazed areas. This long-term research provides ranchers and land
           managers with science-based information in selecting fire and grazing management practices for controlling cheatgrass.


OBJECTIVE 6.4: PROTECT AND ENHANCE WILDLIFE HABITAT TO BENEFIT DESIRED, AT-RISK AND DECLINING SPECIES


                                         Measure: 6.4.1 Wetlands Created, Restored or Enhanced
                                                • Conservation Technical Assistance Program
                                                • Wetlands Reserve Program
                                                • Conservation Reserve Program


Overview

                          Key Outcome                   USDA addresses the needs of wildlife in managing national
                                                        forests and grasslands. USDA also provides technical and
                                                        financial assistance to landowners and managers to improve
     Improved Wildlife Habitat Quality While Supporting
                                                        habitat on private lands. On non-Federal land, USDA
          Desired Species and Species of Concern
                                                        conservationists provide on-site assistance to assess the
              (At-Risk and Declining Species)           quality of wildlife habitat. They also develop management
                                                        plans that consider wildlife needs for shelter, nesting areas,
and access to water and food during critical periods. These plans are designed to sustain and enhance wildlife
habitat.
The Department helped individuals and groups apply conservation management to maintain or improve habitat on
11.6 million acres of non-Federal land. The land treated included 11.1 million acres of upland wildlife habitat and
more than 440,000 acres of wetland wildlife habitat. Several USDA programs encourage participants to enter into
contracts to improve and restore grassland, rangeland, forest ecosystems, wetlands, and adjacent upland buffers. As


                                                                                                     ANNUAL PERFORMANCE REPORT                 77
of September 30, 2009, there were 33.7 million acres enrolled in CRP, which helps maintain and improved wildlife
habitat. Easement acquisitions and agreements help ensure the long term viability of these habitat areas. These
actions are designed to create productive, diverse, and resilient habitat.

Analysis of Results
USDA set targets for the creation, restoration or enhancement of wetlands under three USDA programs: CTA, the
Wetlands Reserve Program (WRP) and CRP. The performance measure for wetlands includes land on which
USDA provided technical and/or financial assistance in FY 2009. USDA exceeded its targets for CTA and met its
targets for both WRP and CRP.
CTA provides technical assistance supported by science-based technology and tools to help people conserve,
maintain and improve their natural resources. On wetlands where USDA provided technical assistance through
CTA, no financial assistance was provided by Department programs. In some cases, financial assistance may have
been provided through non-USDA sources.
WRP is a voluntary conservation program that offers landowners the means and opportunity to protect, restore and
enhance wetlands on their property. WRP participants sign an easement or agreement with USDA. The 2008
Farm Bill reauthorized WRP through 2012 and increased the overall program acreage cap to 3,041,200 acres, an
increase of 766,200 acres.
The CRP annual performance target of 50,000 acres enrolled in CRP was exceeded in 2009 by 31,443 acres, a 63-
percent increase over the projected number of acres. The major increase is due to the announcement of increased
incentives for certain wetland practices. The increase is also attributed to underestimating the number of general
signup acres reenrolled into wetland practices. Contributing to the total enrollment was the adoption of several
initiatives, including the 100,000-acre Duck Nesting Habitat Initiative, the 500,000-acre Bottomland Hardwood
Timber Initiative, and the 250,000-acre non-floodplain Wetland Restoration Initiative. These restored wetlands
and buffers have increased prime wildlife habitat and water storage capacity. They have also led to a net increase in
wetland acres on agriculture land.
The Duck Nesting Habitat Initiative was designed to increase duck populations by an estimated 60,000 birds
annually and to restore 100,000 wetland acres. The Bottomland Hardwood Timber Initiative was designed to
improve flood plains through the restoration of primarily bottomland hardwood trees. The Wetland Restoration
Initiative was designed to restore up to 250,000 acres of wetlands and playa lakes that are located outside of the
100-year floodplain.
USDA uses the acreage of wetlands created, restored, or enhanced as an indicator of progress toward improved
habitat for many species. The Department is participating in cooperative efforts to quantify the results of its
conservation practices for wildlife habitat. The results will be used to manage agricultural landscapes for
environmental quality.
Numerous species have benefitted from USDA’s projects. A recent study by the Fish and Wildlife Service (FWS)
examined the effect of CRP in North Dakota, South Dakota and northeastern Montana. FWS estimated that the
duck population grew by an average of 2 million annually between 1994 and 2004, a 30-percent increase compared
to the same area without CRP. The program is also credited with enhancing the population of several bird species
considered endangered. The Washington Department of Natural Resources found that a severe decline in an
eastern Washington sage grouse population has been reversed in an area with substantial CRP enrollment. A
Journal of Wildlife Management study credits CRP with contributing to the sharp rebound in Henslow’s Sparrow
populations.
Several assessments of WRP benefits are being conducted as part of the CEAP Wildlife Component. These studies
are designed to evaluate ecological functions and ecosystem services of restored wetlands at a landscape level to help
gage the effectiveness of programs such as WRP. Missouri and California, participants in a nine-state pilot of


78      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
WRP in the 1990s, were the focus of two studies this year. In Missouri, researchers from the University of Missouri
Department of Fisheries and Wildlife Sciences noted that post restoration Habitat Suitability Indices (HSI) were
markedly higher for most habitat types. HSI provides habitat information for evaluating impacts on fish and
wildlife habitat resulting from water or land use changes. The HSI increase was greatest for species associated with
emergent herbaceous wetlands. While these wetlands develop faster than forested wetlands, they are often a
precursor of forested wetlands. California’s Central Valley has lost more than 94 percent of its wetlands. The
California Cooperative Fish and Wildlife Research Unit at Humboldt State University is conducting a study to
quantify the ecosystem services provided by emergent wetlands restored or enhanced under WRP. Ecological
services such as native pollinators, biodiversity, erosion, sediment retention, floodwater storage, nitrogen and
phosphorus retention, and carbon accumulation are being measured.


                                                     Selected Results in Research, Extension, and Statistics
             Protecting Birds Species in Forests. The removal of forest products, namely timber, has an impact on bird species. USDA
             funded ornithologists are providing science-based management recommendations on the size, shape, and spatial distribution of
             timber harvests that will promote the continued viability of bird communities. In particular the scientists have shown that
             successional bird communities may be sensitive to patch and landscape attributes related to the size and distribution of early-
             successional habitats, and mature-forest bird communities heavily use successional habitats during the post-breeding and post-
             fledging periods. This research shows that use of shrubby areas by juvenile mature-forest birds (e.g., ovenbird and worm-eating
             warbler) increases survival rates.


Exhibit 32: Improved Wildlife Habitat

         Annual Performance Goals, Indicators,                   2005         2006          2007             2008                    Fiscal Year 2009
                      and Trends
                                                                                                                            Target        Actual        Result
 6.4.1   Wetlands created, restored or enhanced
         (acres)
         • Conservation Technical Assistance                    53,498       65,345        62,093           72,806          51,300         67,233     Exceeded
         • Wetlands Reserve Program                            180,358      181,979       149,326          128,860         100,000        106,379       Met
         • Conservation Reserve Program                         50,934       61,279        68,834           80,103          50,000         81,443     Exceeded
 Rationale for Met Range:
 • Conservation Technical Assistance: Data assessment metrics to meet the target allow for an actual number in the range 46,170 – 56,430.
 • Wetland Reserve Program: Data assessment metrics to meet the target allow for an actual number in the range 90,000 – 110,000.
 • Conservation Reserve Program: Data assessment metrics to meet the target allow for an actual number in the range 47,500 - 52,500 acres annually.
 Data Assessment of Performance Measures 6.4.1
 The chief sources of data for this performance measure are the National Conservation Planning Database (NCP), the Program Contracts Database
 (ProTracts), and the Performance Results System (PRS). The CRP data source for this measure is the FSA National CRP Contract and Offer Data Files.
 • Completeness of Data—The performance reported for these measures is based on actual data reported for FY 2009. Numerous data quality
    mechanisms within PRS ensure the completeness of each performance record entered in the system. There are no known data limitations.
 • Reliability of Data— For FY 2009, the data reported for these performance measures were calculated within PRS based on information validated and
    retrieved from the NCP and ProTracts. Conservation practices are developed in consultation with the customer and included in conservation plans
    stored in the NCP. Periodic reviews are conducted to assess the accuracy of reported data.
 • Quality of Data— Overall quality of the data is good. Field staffs, trained and skilled in conservation planning and application suited to the local
    resource conditions, report performance where the conservation is occurring. Error checking enhancements and reports within the PRS application
    maintain data quality by allowing users at local, State, and national levels to monitor data inputs. Data on the linkage of programs and conservation
    practices applied are accurate because the conservation program responsible for applying each practice is documented in the conservation plan
    developed in Toolkit. The same land unit may benefit from the application of more than one conservation practice. Where more than one program is
    used to apply practices on the same land unit, each program is credited under the performance measure.




                                                                                                            ANNUAL PERFORMANCE REPORT                            79
Challenges for the Future
Commodity prices, economic conditions, weather, and developmental pressures can impact the ability and
willingness of agricultural producers to restore, improve, and protect habitat areas. Producers may be less willing to
make long-term commitments regarding the use of their land. This could impact wetland restoration of prior
converted cropland. Due to expiring CRP contracts and favorable commodity prices, USDA projects a slight
decrease in the program’s cumulative enrolled acreage. Some of that land could return to crop production, which
would reduce habitat for grassland bird species. Grassland birds are declining faster than any other type of North
American birds.
USDA works with other agencies and private organizations to provide producers with information and other
resources to adopt conservation measures and management practices. Many wildlife projects are supported by a
combination of Federal, State, local, and private funds. State and local budget constraints could impact project
implementation.
Program Evaluations of Performance Information
     Program               Title                         Findings and Recommendations/Actions                                  Availability
 Guaranteed    Office of Inspector General   Findings: OIG evaluated USDA’s Farm Service Agency’s (FSA)              http://www.usda.gov/oig/webdocs
 Farm Loan     (OIG) Report No. 03601-17-    controls over the guaranteed farm loan interest rates charged by        /03601-17-Ch.pdf
 Programs      Ch issued September 29,       lenders and interest assistance provided to borrowers. The report
               2008. Controls Over           found that 1) FSA did not verify that lenders complied with interest
               Guaranteed Farm Loan          rate requirements; and 2) FSA needs to enhance its oversight to
               Interest Rates and Interest   include a review of interest rates.
               Assistance.                   Actions: FSA is enhancing its Guaranteed Loan System to allow
                                             the agency to monitor interest rates charged by lenders
                                             participating in the Guaranteed Loan program. FSA also is revising
                                             the program regulations to clarify and simplify lender interest rate
                                             requirements.
 Farm Loan     OIG Report No. 03601-49-      Findings: OIG determined that FSA’s foreclosure and restructure         http://www.usda.gov/oig/webdocs
 Programs      Te issued June 8, 2009.       processes were generally consistent and in conformity with              /03601-49-TE.pdf
               Farm Service Agency           applicable laws and regulations. It added that socially
               Socially Disadvantaged        disadvantaged and non-socially disadvantaged borrowers were
               Borrower Foreclosures –       treated consistently when their loans were restructured or
               Farm Program Loans.           foreclosed.
                                             Actions: N/A
 Disaster      OIG Report No. 03601-         Finding: For future programs, FSA should 1) provide procedures          http://www.usda.gov/oig/webdocs
 Programs      0023-KC – Report Issued       with detailed guidance describing the required documentation for        /03601-23-KC-Redacted.pdf
               2/2/09                        applicants and third-party certifiers to clearly substantiate claimed
               2005 Hurricane Relief         livestock losses; 2) specific instructions for local FSA office
               Initiatives: 2005 Hurricane   personnel to follow when applicants do not have verifiable
               Livestock Indemnity           evidence for establishing beginning inventory; 3) determine the
               Program and Feed              adequacy of documentation supporting beginning and ending
               Indemnity Program             inventories for six cases in Vermillion Parish; 4) review the State
                                             Committee’s determination to approve the changes made to 2005
                                             farm program records in Plaquemines Parish; 5) seek recovery of
                                             any unsupported payments; and 6) review the facts and
                                             circumstances regarding the establishment of loss claim periods to
                                             ensure they correlate eligible loss periods more closely with local
                                             conditions related to the disaster.
                                             Actions: FSA will provide procedures for substantiating claimed
                                             livestock losses. It also will provide instructions for applicants
                                             without verifiable evidence for establishing beginning inventories.
                                             Reviews will be conducted to determine the adequacy of
                                             documentation supporting beginning and ending inventories for six




80        FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
 Program                 Title                         Findings and Recommendations/Actions                                   Availability
                                            cases in Vermillion Parish, and the State Committee’s
                                            determination to approve the changes made to 2005 farm program
                                            records in Plaquemines Parish. Addtionally, FSA will recover any
                                            monies determined to be overpaid and determine if loss claim
                                            periods correlate more closely with local conditions related to the
                                            disaster.
Tobacco      OIG Report No. 03601-          Nothing came to OIG’s attention to indicate that the FSA national,     http://www.usda.gov/oig/webdocs
Transition   0016-AT – Report Issued        selected State and county offices were not operating in                /03601-16-AT.pdf
Payment      8/3/09                         accordance with prescribed laws, regulations, and policies and
Program      Tobacco Transition Payment     procedures.
             Program –Payments to
             Producers - Closed 8/13/09
 Perform.
 Measure                 Title                         Findings and Recommendations/Actions                                   Availability
4.1.1        Review of the Use of           Findings: NAS applauded USDA for its work to develop a risk-           Reports are available at :
4.1.2        Process Control Indicators     based approach to inspection. The Academy recommended that             http://www.iom.edu/CMS/3788/59
4.1.3        in the USDA Public Health      USDA clarify the terminology in its report. NAS also suggested that    186/64582.aspx
4.1.4        Risk-Based Inspection          USDA continue to refine its approach as it moves forward. It
             System. Letter Report by the   advised the Department to conduct additional predictive analyses
             National Academy of            to look at the relationship between USDA’s proposed decision
             Sciences (NAS)                 criteria and future establishment behavior.
                                            Actions: USDA has revised its technical report for the public
                                            health decision criteria. It will make that report public in mid-
                                            October 2009. USDA also began to use its Public Health Decision
                                            Criteria, outlined in the report reviewed by NAS, to schedule food
                                            safety assessments in July 2009.
4.1.1        Letter Report on the Review    Findings: NAS supported USDA’s development of an attribution           Reports are available at :
4.1.2        of the Food Safety and         methodology for all of its product categories. The Academy             http://dels.nas.edu/dels/viewrepor
4.1.3        Inspection Service Risk-       suggested that USDA develop uncertainty estimates for its              t.cgi?id=5698
4.1.4        Based Approach to Public       attribution estimates. In addition, NAS suggested that USDA
             Health Attribution by the      explore the use of additional data from the Centers for Disease
             National Academy of            Control (CDC) and that it continue to develop a method for the
             Sciences                       incorporation of serotype information in attribution estimates.
                                            Actions: USDA is currently calculating uncertainty estimates for its
                                            attribution estimates. The Agency met with CDC about additional
                                            data sources and determined that no additional information was
                                            currently available. USDA is continuing to develop methods for
                                            including serotype information in its attribution work.
5.1          Supplemental Nutrition         Findings: Reports national rates of participation among eligible       Available on the FNS Web site at:
             Assistance Program             people. In 2007, 66 percent of individuals eligible for SNAP           http://www.fns.usda.gov/ora/MEN
             Participation Rates: 2000 to   benefits chose to participate. The program provided 81 percent of      U/Published/SNAP/FILES/Partici
             2007                           the benefits that all eligible individuals could receive. The number   pation/Trends2000-2007.pdf
                                            suggests that SNAP is reaching the neediest eligible individuals.
                                            These figures represent a small decline from the previous year –
                                            although the number of program participants increased. This
                                            change can be attributed to a larger increase in the number of
                                            households that became eligible compared to the number of new
                                            participants.
                                            Actions: No recommendations for action.




                                                                                                  ANNUAL PERFORMANCE REPORT                         81
     Program               Title                            Findings and Recommendations/Actions                                   Availability
 5.1           WIC Eligibles and Coverage       Findings: This report offers updated estimates of the population         Available on the FNS Web site at:
               - 1994 to 2007: Estimates of     eligible for WIC benefits from 1994 through 2007. The new series         http://www.fns.usda.gov/ora/MEN
               the Population of Women,         builds on the methodology recommended by the Committee on                U/Published/WIC/FILES/WICEligi
               Infants, and Children Eligible   National Statistics of the National Research Council. It also more       bles1994-2007.pdf
               for WIC Benefits -               accurately captures changes in the breastfeeding practice of new
               September 2009                   mothers during their period of WIC eligibility
                                                Actions: No recommendations for action.
 5.1           Direct Certification in the      Findings: This report is the first in a series of annual reports. It     Available on the FNS Web site at:
               National School Lunch            presents information on the outcomes of direct certification for SY      http://www.fns.usda.gov/ora/MEN
               Program: State                   2007-2008. The estimated the number of school-age SNAP                   U/Published/CNP/FILES/DirectC
               Implementation Progress          participants was compared with the number of children directly           ert08.pdf
               (Report to Congress) -           certified for free school meals in each State. The ratio of these
               December 2008                    figures is a measure of the success of State and local systems to
                                                directly certify SNAP participant children.
                                                Actions: No recommendations for action.
 5.2           Diet Quality of American         Findings: Uses data from the National Health and Nutrition               Available on the FNS Web site at:
               School-Age Children by           Examination Survey. It assesses the nutrient intakes, diet quality,      http://www.fns.usda.gov/oane/me
               School Lunch Participation       and food choices of program participants, income-eligible                nu/Published/CNP/FILES/NHAN
               Status: Data from the            nonparticipants, and higher-income non-participants, broken out by       ES-NSLP.pdf
               National Health and              age and gender.
               Nutrition Examination            Actions: No recommendations for action.
               Survey, 1999-2004
 5.2           Diet Quality of American         Findings: Uses data from the National Health and Nutrition               Available on the FNS Web site at:
               Young Children by WIC            Examination Survey. It assesses the nutrient intakes, diet quality,      http://www.fns.usda.gov/oane/me
               Participation Status: Data       and food choices of program participants, income-eligible                nu/Published/WIC/FILES/NHANE
               from the National Health and     nonparticipants, and higher-income non-participants, broken out by       S-WIC.pdf
               Nutrition Examination            age and gender.
               Survey, 1999-2004                Actions: No recommendations for action.
 5.3           Diet Quality of Americans by     Findings: Uses data from the National Health and Nutrition
               Food Stamp (SNAP)                Examination Survey. It assesses the nutrient intakes, diet quality,      Available on the FNS Web site at:
               Participation Status: Data       and food choices of program participants, income-eligible                http://www.fns.usda.gov/oane/me
               from the National Health and     nonparticipants, and higher-income non-participants, broken out by       nu/Published/SNAP/FILES/Partici
               Nutrition Examination            age and gender.                                                          pation/NHANES-FSP.pdf
               Survey, 1999-2004                Actions: No recommendations for action
 5.3           Feasibility of Assessing         Findings: Identifies the factors that contribute to large variation in   Available on the FNS Web site at:
               Causes of State Variation in     State administrative costs. It also assesses the feasibility of          http://www.fns.usda.gov/ora/MEN
               Food Stamp (SNAP)                estimating their relative contributions.                                 U/Published/SNAP/FILES/Other/
               Program Administrative           Actions: No recommendations for action.                                  sae.pdf
               Costs: Final Report
 5.3                                            Findings: Estimates the accuracy level of CACFP meal                     Available on the FNS Web site at:
               Child and Adult Care Food                                                                                 http://www.fns.usda.gov/ora/MEN
                                                reimbursement levels (“tiering”), and related improper payments in
               Program (CACFP) –                                                                                         U/Published/CNP/FILES/CACFP
                                                2007. The level of improper payments was comparable to the
               Assessment of Sponsor                                                                                     Tiering07.pdf
                                                estimates from 2005 and 2006 at about three percent of total
               Tiering Determinations –
                                                CACFP meal reimbursements.
               2007
                                                Actions: No recommendations for action.
 5.3                                            Findings: The purpose of the pilot test was to determine the             Available on the FNS Web site at:
                                                feasibility and accuracy of comparing the number of meals claimed        http://www.fns.usda.gov/ora/MEN
               Results of the Feasibility       with the number of children observed at the time of the sponsor’s        U/Published/CNP/FILES/CACFP
               Study of Estimating the Risk     monitoring visit. At issue is the risk of overpayments in the Family     MealClaiming.pdf
               of Meal Claiming Error in the    Day Care Home (FDCH) component of CACFP. The feasibility
               Child and Adult Care Food        study indicates that the central assumption underlying this
               Program (CACFP)                  approach to measuring the risk of Improper Payments Information
                                                Act errors is invalid.
                                                Actions: The report contains no recommendations.



82        FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
 Program               Title                          Findings and Recommendations/Actions                                   Availability
5.3        Child and Adult Care Food      Findings: The purpose of this pilot was to test possible methods         Available on the FNS Web site at:
           Program (CACFP): Improper      that could lead to valid estimations of the number of meals served       http://www.fns.usda.gov/ora/MEN
           Payments Data Collection       by FDCHs. Parent recall surveys had the highest likelihood of            U/Published/CNP/FILES/CACFPI
           Pilot Project                  yielding accurate national estimates of meals served to children.        mpPaymentsDataCol.pdf
                                          These surveys can produce separate estimates of over- and
                                          under-payments.
                                          Actions: Based on the experiences in the pilot study, the Parent
                                          Recall Method was recommended for use in estimating erroneous
                                          payments in a national study.
5.3        Accuracy of LEA Processing     Findings: This report is the third in a series of annual reports. It     Available on the FNS Web site at:
           of School Lunch                assesses administrative error associated with the local educational      http://www.fns.usda.gov/ora/MEN
           Applications - Regional        agency’s (LEA) approval of applications for free and reduced-price       U/Published/CNP/FILES/rora200
           Office Review of               school meals. The percent of all students with administrative errors     7.pdf
           Applications (RORA) 2007       in the processing of their applications for meal benefits has
                                          remained relatively stable during the three-year period.
                                          Administrative errors ranged between three and four percent.
                                          Actions: No recommendations for action.
5.3        Food and Nutrition Service     Findings: OIG reviewed The Food and Nutrition Service’s (FNS)            Report is available at:
           Financial Statements for       financial statements for Fiscal Years 2007 and 2008. FNS’                http://www.usda.gov/oig/webdocs
           Fiscal Years 2008 and 2007     statements received an unqualified opinion. The agency’s core            /27401-33-HY.pdf
                                          financial management system was found to be in substantial
                                          compliance with the Federal Financial Management Improvement
                                          Act of 1996.
                                          Actions: The report contains no recommendations.
5.3        Feasibility of Assessing       Findings: Identifies the factors that contribute to large variation in   Report is available at:
           Causes of State Variation in   State administrative costs. It also assesses the feasibility of          http://www.fns.usda.gov/ora/MEN
           Food Stamp (SNAP)              estimating their relative contributions.                                 U/Published/SNAP/FILES/Other/
           Program Administrative         Actions: No recommendations for action.                                  sae.pdf
           Costs: Final Report
6.3.1      Government                     Findings: GAO found that the approach the agencies – Forest              Report is available at:
6.3.2      Accountability Office          Service (FS) and the U.S. Department of the Interior (DOI) – have        http://www.gao.gov/new.items/d0
           (GAO)-09-68 issued             taken hampers Fire Program Analysis (FPA) from meeting some of           968.pdf
6.3.3      November 2008.
6.3.4                                     its key objectives. Specifically, GAO found that FPA has limited
           Wildland Fire Management:      ability to project the effects of different levels of vegetation-
6.3.5      Interagency Budget Tool        reduction treatments and firefighting strategies over time. Thus,
           Needs Further Development      agency officials lack information that could help them analyze the
           to Fully Meet Key Objectives   long-term impact of changes in their approach to wildland fire
                                          management. GAO recommends that Forest Service (FS) and DOI
                                          develop a strategic plan for the continued development of FPA.
                                          Among other things, the plan should address ways to improve
                                          FPA’s ability to model the effects over time of different investments
                                          in fuel-reduction treatments and firefighting strategies on the cost
                                          of suppressing wildland fires.
                                          Actions: FS has established a strategy that is now being
                                          implemented. Plans now exist for a staged deployment that allows
                                          for adaptive use and modification. As the system is used and
                                          outputs are reviewed and analyzed, system strengths and
                                          weaknesses are identified through established business
                                          processes. Additionally, an external peer review is planned to
                                          identify needed system improvements. A more comprehensive
                                          analysis of the fuel treatments and vegetative management
                                          aspects of FPA is also likely.




                                                                                                  ANNUAL PERFORMANCE REPORT                        83
     Perform.
     Measure               Title                     Findings and Recommendations/Actions                               Availability
 6.4.1          OIG-10099-4-SF-          Findings:                                                            Report is available at
                Wetlands Reserve         • Finding 1—NRCS incurred new obligations during the 2002            http://www.usda.gov/oig/webdocs
                Program Restoration          Farm Bill period with expired funds from the 1996 Farm Bill      /10099-4-SF.pdf
                Compliance. Report           period.
                issued August 2008       • Finding 2—NRCS did not annually monitor most sampled
                                             easements.
                                         • Finding 3—Two NRCS State offices overpaid NRCS’ share of
                                             restoration costs for two 30-year easements.
                                         Actions: Recommendations 1-4 and 6-8 were closed in March,
                                         2009. Recommendation 5 was submitted in August, 2009 for
                                         closure. NRCS is awaiting decision. The agency has made
                                         numerous business process changes since the audit. The changes
                                         inlcude: 1) implementing policy regarding allowably of hunting
                                         structures on easements; 2) reviewing funds used to obligate
                                         contracts; 3) correcting deficiencies found during the review; 4)
                                         implementing remote sensing capabilities to assist in easement
                                         monitoring; and 5) implementing new easement valuation policy per
                                         the 2008 Farm Bill.
 6.1.1          OIG-OIG10601-1-AT-       Findings:                                                            Report is available at
                Flood Control Dam        • Finding 1—NRCS needs to assess and rehabilitate high hazard        http://www.usda.gov/oig/webdocs
                Rehabilitation. Report      dams.                                                             /10601-1-AT-Redacted.pdf
                issued July 2009         • Finding 2—NRCS needs to update its dam inventory for
                                            accuracy.
                                         • Finding 3—NRCS did not prioritize the assessment of high
                                            hazard dams.
                                         • Finding 4—NRCS did not establish reasonable performance
                                            goals for the Dam Rehabilitation Program.
                                         Actions: NRCS agreed to develop cooperative relationships with
                                         State agencies that regulate dams. These Federal-State
                                         partnerships would ensure the rehabilitation of dams that threaten
                                         public safety. They also would report to Congress on any high-
                                         hazard dams needing rehabilitation that are not fixed because of
                                         program limitations.
 6.1.1,         OIG-10601-4-KC-          Findings: NRCS lacked management controls to effectively             Report is available at
 6.2.1          Conservation Security    administer the Conservation Security Program (CSP).                  http://www.usda.gov/oig/webdocs
 6.3.4          Program. Report issued   • Finding 1—NRCS needs to strengthen overall CSP                     /10601-4-KC-Redacted.pdf
 6.4.1          June 2009                    management control.
                                         • Finding 2—Improper delineation of agricultural operations went
                                             undetected.
                                         • Finding 3—One applicant’s actions and misstatements led to the
                                             improper approval of two additional CSP contracts and
                                             jeopardized his own contract.
                                         • Finding 4—Tenant participation denied.
                                         • Finding 5—Grazing information changed by NRCS made
                                             applicants eligible.
                                         • Finding 6—Farm visits needed to confirm stewardship practices.
                                         • Finding 7— NRCS lacked compensating management.
                                         • Finding 8—ProTracts does not limit participants to one CSP
                                             contract.
                                         Actions: NRCS reached management decision on
                                         Recommendations 1-5, 7, 10-15, 20 and 22. Recommendations 6, 8,
                                         9, 16-19, 21 and 23 will be re-submitted to OIG. All existing CSP
                                         contracts received a comprehensive review. NRCS provided




84        FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
 Perform.
 Measure              Title                     Findings and Recommendations/Actions                                   Availability
                                    national CSP training to inform for key agency State personnel of
                                    new policies and reiterate existing policy. Internal controls of field
                                    spot checking prior to obligation have been incorporated into agency
                                    business processes. Corrective actions will be taken on findings
                                    from the 2009 CSP review prior to making 2010 payments. NRCS
                                    will release a revised conservation programs manual and train all
                                    office staff.
6.1.1       OIG-10099-6-SF-Farm     Findings:                                                                Report is available at
6.2.1       and Ranch Lands         • Finding 1—NRCS Needs to improve management oversight of                http://www.usda.gov/oig/webdocs
6.3.4       Protection Program-          the Farm and Ranch Lands Protection Program (FRPP) and              /10099-6-SF.pdf
6.4.1       Review of Non-               monitoring of non-Governmental organization’s (NGOs)
            Governmental                 compliance with program regulations.
            Organizations. Report   • Finding 2—NRCS needs to verify that NGOs do not use
            issued July 2009             landowner funds to pay for their share of easements' purchase
                                         price.
                                    • Finding 3—NRCS should establish standards over NGOs'
                                         obtaining funds from landowners for easement-related costs.
                                    Actions: Management decision has been reached on all items
                                    except Recommendation 3. The Office of General Counsel has
                                    initiated court proceedings against an NGO. OIG will not accept
                                    management decision until court case legal issues are resolved.
                                    NRCS will issue a final rule and a new FRPP manual. The new
                                    policy will require NRCS State office staff to visit every FRPP parcel
                                    before a cooperative agreement is signed. The visit is designed to
                                    interview every landowner, inform them of FRPP regulations,
                                    confirm the estimated easement value, Federal contribution, entity
                                    contribution, landowner donation, and recommended contribution to
                                    stewardship funds before a cooperative agreement is signed.




                                                                                            ANNUAL PERFORMANCE REPORT                      85
86   FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                                        3. Financial Statements, Notes, Supplemental
                                           and Other Accompanying Information



3.   Financial Statements, Notes, Supplemental and Other Accompanying Information
Message from the Chief Financial Officer


T
     he U.S. Department of Agriculture’s (USDA) Office of the Chief Financial Officer leads the way to fiscally sound, cost
     effective program delivery, supported by reliable financial management information and infrastructure.
     Highlights of USDA’s significant progress in financial management during fiscal year (FY) 2009 include:
• Began implementation of a core financial system to replace USDA’s nine general ledger systems;
• Completed testing for all in-scope cycles as required by OMB Circular A-123 Appendix A, “Internal Control over
     Financial Reporting.” As a result of FY 2009 testing, USDA identified 105 control deficiencies and corrected 16 control
     deficiencies from prior year’s assessments; 1359 Plans of Actions and Milestones were closed;
•    Reduced USDA’s inventory of open audits by 18 percent in FY 2009;
•    Reduced Improper Payments from 6.13 percent to 5.92 percent;
•    Exceeded the Departmental recovery target of $53.7 million with total improper payment recoveries of $352.8 million
     reported for FY 2009;
•    Implemented a Department-wide end-point management software tool ensure complete and timely weakness remediation,
     improve client management, and ensure compliance with security standards, and implemented whole disk encryption on
     portable computers;
•    Revised guidance to require quarterly reviews and certifications for unliquidated obligations (ULO), established ULO data
     mart and aging report to manage and monitor ULOs, and completed statistical sample of aged ULOs to identify root
     causes of invalid obligations and formulate corrective actions; and
•    Reinstituted the Credit Reform Working Group to coordinate consistent application of new credit reform guidance, and
      worked with Commodity Credit Corporation to resolve the prior year auditor-identified weakness in controls for the
      credit reform assurance process.
While we continue to make progress in financial management, we cannot yet give unqualified assurance of compliance with the
Federal Managers’ Financial Integrity Act or the financial systems requirements of the Federal Financial Management
Improvement Act. We will continue to focus on these efforts in the coming year.
We are proud of our accomplishments for FY 2009 and of the hard working employees at USDA. USDA is committed to
providing sound management of the resources under our stewardship and to communicating the effectiveness of our efforts to
all Americans through this Performance and Accountability Report.




                         FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                         87
Consolidated Balance Sheet
                                                 As of September 30, 2009 and 2008
                                                            (In Millions)
                                                                                               2009           2008
            Assets (Note 2):
            Intragovernmental:
                Fund Balance with Treasury (Note 3)                                        $    72,334    $    64,595
                Investments (Note 5)                                                               165            109
                Accounts Receivable, Net (Note 6)                                                  270            249
                Other (Note 11)                                                                      4              5
              Total Intragovernmental                                                           72,773         64,958

              Cash and Other Monetary Assets (Note 4)                                              248            348
              Investments (Note 5)                                                                   3              3
              Accounts Receivable, Net (Note 6)                                                  8,596         10,049
              Direct Loan and Loan Guarantees, Net (Note 7)                                     85,657         81,774
              Inventory and Related Property, Net (Note 8)                                         205             15
              General Property, Plant, and Equipment, Net (Note 9)                               2,972          2,973
              Other (Note 11)                                                                      185            253

            Total Assets                                                                       170,639        160,373

              Stewardship PP&E (Note 10)

            Liabilities (Note 12):
              Intragovernmental:
                Accounts Payable                                                                     5              7
                Debt (Note 13)                                                                  84,119         77,577
                Other (Note 15)                                                                 11,774         13,678
              Total Intragovernmental                                                           95,898         91,262

              Accounts Payable                                                                     734            848
              Loan Guarantee Liability (Note 7)                                                  1,844          1,333
              Federal Employee and Veteran Benefits                                                846            832
              Environmental and Disposal Liabilities (Note 14)                                       9             25
              Benefits Due and Payable                                                           3,119          2,764
              Other (Notes 15 & 16)                                                             23,274         23,908
              Total Liabilities                                                                125,724        120,972

              Commitments and Contingencies (Note 17)

            Net Position:
             Unexpended Appropriations - Earmarked Funds (Note 18)                               1,263          1,428
             Unexpended Appropriations - Other Funds                                            37,039         29,355
             Cumulative Results of Operations - Earmarked Funds (Note 18)                         (349)          (490)
             Cumulative Results of Operations - Other Funds                                      6,962          9,108
             Total Net Position                                                                 44,915         39,401

            Total Liabilities and Net Position                                             $ 170,639      $ 160,373




                                              Consolidated Financial Statements


                                    The accompanying notes are an integral part of these statements.


88     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                                Consolidated Statement of Net Cost
                         For the Years Ended September 30, 2009 and 2008
                                            (In Millions)


                                                                                2009          2008

Enhance International Competitiveness
of American Agriculture:
  Gross Costs                                                               $     1,779   $     2,484
  Less: Earned Revenue                                                              417           455
    Net Costs                                                                     1,362         2,029

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
  Gross Costs                                                                    27,986        20,995
  Less: Earned Revenue                                                            5,870         3,836
    Net Costs                                                                    22,116        17,159

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
  Gross Costs                                                                     7,029         8,426
  Less: Earned Revenue                                                            3,796         4,547
   Net Costs                                                                      3,233         3,879

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
 Gross Costs                                                                      3,409         3,374
 Less: Earned Revenue                                                               797           935
   Net Costs                                                                      2,612         2,439

Improve the Nation's Nutrition and Health:
  Gross Costs                                                                    78,818        60,181
  Less: Earned Revenue                                                               61            49
   Net Costs                                                                     78,757        60,132

Protect and Enhance the Nation's
Natural Resource Base and Environment:
  Gross Costs                                                                    11,730        12,105
  Less: Earned Revenue                                                              742         1,010
   Net Costs                                                                     10,988        11,095


Total Gross Costs                                                               130,751       107,565
Less: Total Earned Revenue                                                       11,683        10,832

Net Cost of Operations (Note 19)                                            $ 119,068     $    96,733




                       The accompanying notes are an integral part of these statements.


       FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                     89
                                          Consolidated Statement of Changes in Net Position
                                                  For The Year Ended September 30, 2009
                                                                (In Millions)

                                                                    Earmarked
                                                                      Funds              All Other                           Consolidated
                                                                     (Note 18)            Funds              Eliminations       Total
     Cumulative Results of Operations:
      Beginning Balances                                         $         (490)     $        9,108          $          -    $      8,618

      Budgetary Financing Sources:
         Appropriations Used                                             6,986              104,227                     -        111,213
         Non-exchange Revenue                                                -                   10                     -             10
         Donations and Forfeitures of Cash and Equivalents                   1                    -                     -              1
         Transfers In (Out) without Reimbursement                        1,639                4,592                     -          6,231
      Other Financing Sources (Non-Exchange):
         Transfers In (Out) without Reimbursement                          (70)                (492)                    -           (562)
         Imputed Financing                                                  48                3,785                (2,800)         1,033
         Other                                                              48                 (911)                    -           (863)
      Total Financing Sources                                            8,652              111,211                (2,800)       117,063

      Net Cost of Operations                                             (8,511)           (113,357)               2,800         (119,068)

      Net Change                                                            141              (2,146)                    -          (2,005)

        Cumulative Results of Operations                                   (349)              6,962                     -           6,613

     Unexpended Appropriations:
      Beginning Balances                                                 1,428               29,355                     -         30,783

      Budgetary Financing Sources:
        Appropriations Received                                           6,778             114,209                     -         120,987
        Appropriations Transferred In (Out)                                   (5)                22                     -              17
        Other Adjustments                                                    48              (2,320)                    -          (2,272)
        Appropriations Used                                              (6,986)           (104,227)                    -        (111,213)
      Total Budgetary Financing Sources                                    (165)              7,684                     -           7,519

        Unexpended Appropriations                                        1,263               37,039                     -         38,302

      Net Position                                              $           914      $       44,001          $          -    $    44,915




                                          The accompanying notes are an integral part of these statements.


90         FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                                         Consolidated Statement of Changes in Net Position
                                                 For The Year Ended September 30, 2008
                                                               (In Millions)

                                                               Earmarked
                                                                 Funds                 All Other                        Consolidated
                                                                (Note 18)               Funds           Eliminations       Total
Cumulative Results of Operations:
 Beginning Balances                                          $          789        $        7,517       $          -    $     8,306

 Budgetary Financing Sources:
    Appropriations Used                                               3,517                86,379                  -         89,896
    Non-exchange Revenue                                                  -                    19                  -             19
    Donations and Forfeitures of Cash and Equivalents                     1                    23                  -             24
    Transfers In (Out) without Reimbursement                          1,247                 5,291                  -          6,538
 Other Financing Sources (Non-Exchange):
    Transfers In (Out) without Reimbursement                            (32)                 (359)                 -           (391)
    Imputed Financing                                                    46                 3,429             (2,568)           907
    Other                                                                84                   (32)                 -             52
 Total Financing Sources                                              4,863                94,750             (2,568)        97,045

 Net Cost of Operations                                              (6,142)              (93,159)            2,568          (96,733)

 Net Change                                                          (1,279)                1,591                  -            312

   Cumulative Results of Operations                                    (490)                9,108                  -          8,618

Unexpended Appropriations:
 Beginning Balances                                                   1,113                29,824                  -         30,937

 Budgetary Financing Sources:
   Appropriations Received                                            4,157                86,854                  -          91,011
   Appropriations Transferred In (Out)                                   (3)                   10                  -               7
   Other Adjustments                                                   (322)                 (954)                 -          (1,276)
   Appropriations Used                                               (3,517)              (86,379)                 -         (89,896)
 Total Budgetary Financing Sources                                      315                  (469)                 -            (154)

   Unexpended Appropriations                                          1,428                29,355                  -         30,783

 Net Position                                                $          938        $       38,463       $          -    $    39,401




                                         The accompanying notes are an integral part of these statements.



                       FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                     91
                                                  Combined Statement of Budgetary Resources
                                                For The Years Ended September 30, 2009 And 2008
                                                                   (In Millions)

                                                                                      2009                                         2008
                                                                                          Non-Budgetary                                Non-Budgetary
                                                                                           Credit Reform                                Credit Reform
                                                                        Budgetary       Financing Accounts           Budgetary       Financing Accounts
     Budgetary Resources:
     Unobligated balance, brought forward, October 1                $       28,078           $    5,314          $       27,756           $     5,208
     Recoveries of prior year unpaid obligations                             3,934                  754                   4,103                 1,226
     Budget Authority -
      Appropriation                                                        132,335                    -                 102,655                    -
      Borrowing Authority                                                   28,870               14,905                  30,267               14,911
      Earned -
        Collected                                                           22,678                9,496                  23,370                 8,855
        Change in receivables from Federal Sources                             (60)                   -                     (45)                 (177)
      Change in unfilled customer orders -
        Advances received                                                      140                     -                     (6)                   -
        Without advance from Federal Sources                                   (47)                  220                     12                  241
      Expenditure transfers from trust funds                                 1,130                     -                    963                    -
     Nonexpenditure transfers, net, anticipated and actual                    (431)                    -                   (743)                   -
     Temporarily not available pursuant to Public Law                          (12)                    -                    (11)                   -
     Permanently not available                                             (32,938)               (5,605)               (38,925)              (6,911)
     Total Budgetary Resources                                             183,677               25,084                 149,396               23,353

     Status of Budgetary Resources:
     Obligations Incurred -
       Direct                                                              122,471               20,395                  96,475               18,039
       Reimbursable                                                         27,642                    -                  24,843                    -
     Unobligated Balance -
       Apportioned                                                          13,786                2,324                   7,925                2,784
       Exempt from Apportionment                                               873                    4                   1,100                    5
     Unobligated balance not available                                      18,905                2,361                  19,053                2,525
     Total Status of Budgetary Resources                                   183,677               25,084                 149,396               23,353

     Change in Obligated Balances:
     Obligated balance, net, brought forward October 1                      25,277                20,694                 25,472                18,107
     Obligations incurred                                                  150,113                20,395                121,318                18,039
     Gross outlays                                                        (141,959)              (16,818)              (117,444)              (14,162)
     Recoveries of prior year unpaid obligations, actual                    (3,934)                 (754)                (4,103)               (1,226)
     Change in uncollected payments from Federal Sources                       107                  (220)                    33                    (64)
     Obligated balance, net, end of period -
      Unpaid obligations                                                    30,836               24,414                  26,616               21,590
      Uncollected customer payments from Federal Sources                    (1,232)               (1,116)                (1,339)                (896)
     Obligated Balance, net, end of period                                  29,604               23,298                  25,277               20,694

     Net Outlays:
     Gross outlays                                                         141,959               16,818                 117,444               14,162
     Offsetting collections                                                (23,948)               (9,496)               (24,327)              (8,855)
     Distributed offsetting receipts                                        (3,100)                 (474)                (1,889)                (353)
     Net Outlays                                                    $      114,911           $     6,848         $       91,228           $    4,954




                                              The accompanying notes are an integral part of these statements.


92           FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                                    Notes to the Consolidated Financial Statements
                                           As of September 30, 2009 and 2008
                                                       (In Millions)


NOTE 1. SIGNIFICANT ACCOUNTING POLICIES
Organization
The Department of Agriculture (USDA) provides a wide variety of services in the United States and around the
world. USDA is organized into seven distinct mission areas and their agencies that execute these missions.
Listed below are the missions and the agencies within each mission including four Government corporations:
Farm and Foreign Agricultural Services (FFAS)
• Farm Service Agency (FSA)
    − Commodity Credit Corporation (CCC)
• Foreign Agricultural Service (FAS)
• Risk Management Agency (RMA)
    − Federal Crop Insurance Corporation (FCIC)
Food, Nutrition, and Consumer Services (FNCS)
• Food and Nutrition Service (FNS)
Food Safety
• Food Safety and Inspection Service (FSIS)
Marketing and Regulatory Programs (MRP)
• Agricultural Marketing Service (AMS)
• Animal and Plant Health Inspection Service (APHIS)
• Grain Inspection, Packers and Stockyards Administration (GIPSA)
Natural Resources and Environment (NRE)
• Forest Service (FS)
• Natural Resources Conservation Service (NRCS)
Research, Education, and Economics (REE)
•   Agricultural Research Service (ARS)
•   Cooperative State Research, Education, and Extension Service (CSREES)
•   Economic Research Service (ERS)
•   National Agricultural Statistics Service (NASS)
Rural Development
• Rural Development (RD)
    − Rural Telephone Bank (RTB) – a corporation
    − Alternative Agricultural Research and Commercialization Corporation (AARC)
With the passage of the 2006 Agriculture, Rural Development, Food and Drug Administration, and Related
Agencies Appropriation Act, Public Law No. 109-97, the legal restriction on redeeming Government-owned Class




                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION              93
A stock was removed for RTB. As a result of this change, the process of liquidation and dissolution of the RTB
began. During FY 2008, RTB was dissolved in its entirety and will no longer be a reportable entity.
Consolidation
The financial statements consolidate all the agencies’ results. The effects of intradepartmental activity and balances
are eliminated, except for the Statement of Budgetary Resources that is presented on a combined basis. The
financial statements are prepared in accordance with generally accepted accounting principles for the Federal
Government.
Reclassifications
Certain reclassifications have been made to prior year amounts to conform to the current year presentation. Note
21, Apportionment Categories of Obligations Incurred was reclassified to conform to the FY 2008 OMB
apportionment schedule. CCC reclassified FY 2008 obligations incurred for the P.L. 480 Title II Grant Fund
from reimbursable to direct on the Statement of Budgetary Resources.
Use of Estimates
The preparation of financial statements requires management to make estimates and assumptions that affect the
amounts reported in the financial statements and accompanying notes. Actual results could differ from those
estimates.
Revenue and Other Financing Sources
Revenue from exchange transactions is recognized when persuasive evidence of an arrangement exists, delivery has
occurred or services have been rendered, sales price is fixed or determinable, and collection is reasonably assured. In
certain cases, the prices charged by the Department are set by law or regulation, which for program and other
reasons may not represent full cost. Prices set for products and services offered through the Department’s working
capital funds are intended to recover the full costs incurred by these activities. Revenue from non-exchange
transactions is recognized when a specifically identifiable, legally enforceable claim to resources arises, to the extent
that collection is probable and the amount is reasonably estimable. Appropriations are recognized as a financing
source when used. An imputed financing source is recognized for costs subsidized by other Government entities.
Investments
The Department is authorized to invest certain funds in excess of its immediate needs in Treasury securities.
Investments in non-marketable par value Treasury securities are classified as held to maturity and are carried at cost.
Investments in market-based Treasury securities are classified as held to maturity and are carried at amortized cost.
The amortized cost of securities is based on the purchase price adjusted for amortization of premiums and accretion
of discounts using the straight-line method over the term of the securities.
Accounts Receivable
Accounts receivable are reduced to net realizable value by an allowance for uncollectible accounts. The adequacy of
the allowance is determined based on past experience and age of outstanding balances.
Direct Loans and Loan Guarantees
Direct loans obligated and loan guarantees committed after fiscal 1991 are reported based on the present value of
the net cash-flows estimated over the life of the loan or guarantee. The difference between the outstanding
principal of the loans and the present value of their net cash inflows is recognized as a subsidy cost allowance; the
present value of estimated net cash outflows of the loan guarantees is recognized as a liability for loan guarantees.
The subsidy expense for direct or guaranteed loans disbursed during the year is the present value of estimated net
cash outflows for those loans or guarantees. A subsidy expense also is recognized for modifications made during the
year to loans and guarantees outstanding and for reestimates made as of the end of the year to the subsidy
allowances or loan guarantee liability for loans and guarantees outstanding.


94       FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Direct loans obligated and loan guarantees committed before fiscal 1992 are valued using the present-value method.
Under the present-value method, the outstanding principal of direct loans is reduced by an allowance equal to the
difference between the outstanding principal and the present value of the expected net cash flows. The liability for
loan guarantees is the present value of expected net cash outflows due to the loan guarantees.
Inventories and Related Property
Inventories to be consumed in the production of goods for sale or in the provision of services for a fee are valued on
the basis of historical cost using a first-in, first-out method. Commodities are valued at the lower of cost or net
realizable value using a weighted average method.
Property, Plant and Equipment
Property, plant and equipment (PP&E) are stated at cost less accumulated depreciation. Depreciation is determined
using the straight-line method over the estimated useful lives of the assets. Useful lives for PP&E are disclosed in
Note 9. Capitalization thresholds for personal property and real property are $25,000 and $100,000 for internal use
software. There are no restrictions on the use or convertibility of PP&E.
Pension and Other Retirement Benefits
Pension and other retirement benefits (primarily retirement health care benefits) expense is recognized at the time
the employees’ services are rendered. The expense is equal to the actuarial present value of benefits attributed by the
pension plan’s benefit formula, less the amount contributed by the employees. An imputed cost is recognized for
the difference between the expense and contributions made by and for employees.
Other Post-employment Benefits
Other post-employment benefits expense for former or inactive (but not retired) employees is recognized when a
future outflow or other sacrifice of resources is probable and measurable on the basis of events occurring on or
before the reporting date. The liability for long-term other post-employment benefits is the present value of future
payments.
Earmarked Funds
In accordance with SFFAS 27, Identifying and Reporting Earmarked Funds, which became effective in FY 2006,
the Department has reported the earmarked funds for which it has program management responsibility when the
following three criteria are met: (1) a statute committing the Federal Government to use specifically identified
revenues and other financing sources only for designated activities, benefits or purposes; (2) explicit authority for
the earmarked fund to retain revenues and other financing sources not used in the current period for future use to
finance the designated activities, benefits or purposes; and (3) a requirement to account for and report on the
receipt, use, and retention of the revenues and other financing sources that distinguishes the earmarked fund from
the Government’s general revenues.
Stewardship PP&E
SFFAS 29, Heritage Assets and Stewardship Land, reclassified all heritage assets and stewardship land information
as basic except for condition information, which is classified as RSI. The reclassification as basic information was
phased in per SFFAS 29. Heritage assets and stewardship land information that was previously reported in RSSI
temporarily shifted to RSI until it moved to a note on the balance sheet as basic information. The phase-in of
disclosure requirements being reported as basic information provided that SFFAS 29 was fully implemented for
reporting periods beginning after September 30, 2008. See Note 10, Stewardship PP&E.
Contingencies
Contingent liabilities are recognized when a past event or exchange transaction has occurred, a future outflow or
other sacrifice of resources is probable, and the future outflow or sacrifice of resources is measurable.



                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                    95
Allocation Transfers
The Department is a party to allocation transfers with other federal agencies as both a transferring (parent) entity
and/or a receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to
obligate budget authority and outlay funds to another department. A separate fund account (allocation account) is
created in the U.S. Treasury as a subset of the parent fund account for tracking and reporting purposes. All
allocation transfers of balances are credited to this account, and subsequent obligations and outlays incurred by the
child entity are charged to this allocation account as they execute the delegated activity on behalf of the parent
entity.
The Department allocates funds, as the parent, to the Department of Transportation, Department of the Interior,
Department of Defense, Department of Housing and Urban Development, U.S. Agency for International
Development and the Small Business Administration. The Department receives allocation transfers, as the child,
from the Department of Labor, Department of Transportation, Department of the Interior, Economic
Development Administration, Appalachian Regional Commission and the Delta Regional Authority.
Inter-Entity Cost Implementation
Beginning in FY 2009, SFFAS 30, Inter-Entity Cost Implementation became effective. This standard requires full
implementation of the inter-entity cost provision in SFFAS 4, Managerial Cost Accounting Standards and
Concepts. Each entity’s full cost should incorporate the full cost of goods and services that it receives from other
entities. The entity providing the goods or services has the responsibility to provide the receiving entity with
information on the full cost of such goods or services either through billing or other advice.
Recognition of inter-entity costs that are not fully reimbursed is limited to material items that (1) are significant to
the receiving entity, (2) form an integral or necessary part of the receiving entity’s output, and (3) can be identified
or matched to the receiving entity with reasonable precision. Broad and general support services provided by an
entity to all or most other entities should not be recognized unless such services form a vital and integral part of the
operations or output of the receiving entity.
Fiduciary Activities
Beginning in FY 2009, SFFAS 31, Accounting for Fiduciary Activities became effective. Fiduciary activities are
the collection or receipt, and the management, protection, accounting, investment and disposition by the Federal
Government of cash or other assets in which non-Federal individuals or entities have an ownership interest that the
Federal Government must uphold. Fiduciary assets are not assets of the Federal Government and are not
recognized on the balance sheet. Prior period amounts presented in the basic financial statements and notes were
not restated. See Note 29, Fiduciary Activities.




96       FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
NOTE 2. NON-ENTITY ASSETS
Non-entity assets include proceeds from the sale of timber payable to Treasury, timber contract performance bonds,
employer contributions and payroll taxes withheld for agencies serviced by the National Finance Center, interest,
fines and penalties. In FY 2008, non-entity assets included property taxes and insurance for single family housing
borrowers.
                                                                      FY 2009                   FY 2008
           Intragovernmental:
             Fund balance with Treasury                           $         152            $               62
             Accounts Receivable                                                24                         23
           Subtotal Intragovernmental                                       176                            85

           With the Public:
             Cash and other monetary assets                                      -                        125
             Accounts receivable                                                97                        127
           Subtotal With the Public                                             97                        252

           Total non-entity assets                                          273                           337

           Total entity assets                                          170,366                    160,036

           Total Assets                                           $     170,639            $       160,373


NOTE 3. FUND BALANCE WITH TREASURY
Other Fund Types include deposit and clearing accounts. Borrowing Authority not yet Converted to Fund Balance
represents un-obligated and obligated amounts recorded at year-end that will be funded by future borrowings.
Non-Budgetary Fund Balance with Treasury includes special fund receipt accounts; and clearing and suspense
account balances awaiting disposition or reclassification. Unprocessed Intragovernmental Payment and Collection
(IPAC) transactions were not reported to Treasury at the end of FY 2009 because the proper Treasury Account
Symbol was unknown which reduced Fund Balance with Treasury by $35 million.

                                                                                 FY 2009               FY 2008
          Fund Balances:
             Trust Funds                                                   $            519        $          633
             Special Funds                                                           16,977                17,239
             Revolving Funds                                                          8,003                 8,338
             General Funds                                                           46,761                38,326
             Other Fund Types                                                            74                    59
          Total                                                                      72,334                64,595


          Status of Fund Balance with Treasury:
          Unobligated Balance:
             Available                                                                16,987               11,814
             Unavailable                                                              21,266               21,577
          Obligated Balance not yet Disbursed                                         52,748               45,841
          Borrowing Authority not yet Converted to Fund Balance                      (32,803)             (29,681)
          Non-Budgetary Fund Balance with Treasury                                    14,136               15,044
          Total                                                            $          72,334       $       64,595




                      FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                   97
NOTE 4. CASH AND OTHER MONETARY ASSETS
In FY 2009 and FY 2008, cash includes Federal crop insurance escrow amounts of $154 million and $130 million
and price support transfers in transit of $93 million and $92 million, respectively. In FY 2008, funds held in escrow
for single family housing borrowers and certificates of deposit were $125 million and $1 million, respectively.
                                                                                          FY 2009                       FY 2008


                        Cash                                                          $             248         $               348




NOTE 5. INVESTMENTS
     FY 2009                                                          Amortized                                                            Market
                                Amortization                          (Premium)                 Interest            Investments,            Value
                                  Method             Cost             Discount                 Receivable                Net              Disclosure
     Intragovernmental:
       Non-marketable
         Par value                               $            -   $               -        $                -       $             -   $                -
         Market-based            Straight Line              165                  (1)                        1                  165                  165
     Total                                       $          165   $              (1)       $                1   $              165    $             165


     With the Public:
       AARC                                      $           3    $               -        $                -   $                 3   $                3
     Total                                       $           3    $               -        $                -   $                 3   $                3


     FY 2008                                                          Amortized                                                            Market
                                Amortization                          (Premium)                 Interest            Investments,            Value
                                  Method             Cost             Discount                 Receivable                Net              Disclosure
     Intragovernmental:
       Non-marketable
          Par value                              $            -   $               -        $                -       $             -   $                -
         Market-based            Straight Line              107                   1                         1                  109                  109
     Total                                       $          107   $               1        $                1   $              109    $             109


     With the Public:
       AARC                                      $           3    $               -        $                -   $                 3   $                3
     Total                                       $           3    $               -        $                -   $                 3   $                3




98           FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
NOTE 6. ACCOUNTS RECEIVABLE, NET
                       FY 2009
                                                    Accounts         Allowance for         Accounts
                                                  Receivable,         Uncollectible      Receivable,
                                                     Gross             Accounts              Net
                      Intragovernmental           $       270        $              -    $       270
                      With the Public                   8,621                   (25)           8,596
                      Total                       $     8,891        $          (25)     $     8,866

                       FY 2008
                                                    Accounts         Allowance for         Accounts
                                                  Receivable,         Uncollectible      Receivable,
                                                     Gross             Accounts              Net
                      Intragovernmental           $       249        $              -    $       249
                      With the Public                  10,079                   (30)          10,049
                      Total                       $    10,328        $          (30)     $    10,298


NOTE 7. DIRECT LOANS AND GUARANTEES, NON-FEDERAL BORROWERS
Direct Loans
Direct loan obligations or loan guarantee commitments made pre-1992 and the resulting direct loans or loan
guarantees are reported at net present value.
Direct loan obligations or loan guarantee commitments made post-1991, and the Federal Credit Reform Act of
1990 as amended governs the resulting direct loan or loan guarantees. The Act requires agencies to estimate the
cost of direct loans and loan guarantees at present value for the budget. Additionally, the present value of the
subsidy costs (i.e. interest rate differentials, interest subsidies, delinquencies and defaults, fee offsets and other cash
flows) associated with direct loans and loan guarantees are recognized as a cost in the year the loan or loan
guarantee is disbursed. The net present value of loans or defaulted guaranteed loans receivable at any point in time
is the amount of the gross loan or defaulted guaranteed loans receivable less the present value of the subsidy at that
time.
The net present value of Direct Loan and Loan Guarantees, Net is not necessarily representative of the proceeds
that might be expected if these loans were sold on the open market.
Direct Loan and Loan Guarantees, Net at the end of FY 2009 was $85,657 million compared to $81,774 million at
the end of FY 2008. Loans exempt from the Federal Credit Reform Act of 1990 represent $414 million of the total
compared to $643 million in FY 2008. Table 1 illustrates the overall composition of the Department’s credit
program balance sheet portfolio by mission area and credit program for FY 2009 and FY 2008.
During the fiscal year, the gross outstanding balance of the direct loans obligated post-1991 is adjusted by the value
of the subsidy cost allowance held against those loans. Current year subsidy expense, modifications and reestimates
all contribute to the change of the subsidy cost allowance throughout the year. The subsidy cost allowance moved
from $4,661 million to $5,284 million during FY 2009, an increase of $623 million. Table 2 shows the
reconciliation of subsidy cost allowance balances from FY 2008 to FY 2009.
Total direct loan subsidy expense is a combination of subsidy expense for new direct loans disbursed in the current
year, modifications to existing loans, and interest rate and technical reestimates to existing loans. Total direct loan
subsidy expense in FY 2009 was $977 million compared to $462 million in FY 2008. Table 3 illustrates the
breakdown of total subsidy expense for FY 2009 and FY 2008 by program.




                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                         99
Direct loan volume increased from $8,758 million in FY 2008 to $9,715 million in FY 2009. Volume distribution
between mission area and program is shown in Table 4.
Guaranteed Loans
Guaranteed loans are administered in coordination with conventional agricultural lenders for up to 95 percent of
the principal loan amount. Under the guaranteed loan programs, the lender is responsible for servicing the
borrower’s account for the life of the loan. The Department, however, is responsible for ensuring borrowers meet
certain qualifying criteria to be eligible and monitoring the lender’s servicing activities. Borrowers interested in
guaranteed loans must apply to a conventional lender, which then arranges for the guarantee with a Department
agency. Estimated losses on loan and foreign credit guarantees are reported at net present value as Loan Guarantee
Liability. Defaulted guaranteed loans are reported at net present value as Loans Receivable and Related Foreclosed
Property, Net.
Guaranteed loans outstanding at the end of FY 2009 were $57,367 million in outstanding principal and $51,527
million in outstanding principal guaranteed, compared to $40,787 and $36,492 million, respectively at the end of
FY 2008. Table 5 shows the outstanding balances by credit program.
During the fiscal year, the value of the guaranteed loans is adjusted by the value of the loan guarantee liability held
against those loans. Current year subsidy expense, modification and reestimates all contribute to the change of the
loan guarantee liability through the year. The loan guarantee liability is a combination of the liability for losses on
pre-1992 guarantees and post-1991 guarantees. Table 6 shows that total liability moved from $1,333 million to
$1,844 million during FY 2009, an increase of $511 million. The post-1991 liability moved from $1,332 million to
$1,843 million, an increase of $511 million. Table 7 shows the reconciliation of total loan guarantee liability.
Total guaranteed loan subsidy expense is a combination of subsidy expense for new guaranteed loans disbursed in
the current year, modifications to existing loans, and interest rate and technical reestimates to existing loans. Total
guaranteed loan subsidy expense in FY 2009 was $409 million compared to $82 million in FY 2008. Table 8
illustrates the breakdown of total subsidy expense for FY 2009 and FY 2008 by program.
Guaranteed loan volume increased from $11,374 million in FY 2008 to $23,126 million in FY 2009. Volume
distribution between mission area and program is shown in Table 9.
Credit Program Discussion and Descriptions
The Department offers direct and guaranteed loans through credit programs in the FFAS mission area through the
FSA and the CCC, and in the RD mission area.
The Farm and Foreign Agricultural Services Mission Area
The FFAS mission area helps keep America’s farmers and ranchers in business as they face the uncertainties of
weather and markets. FFAS delivers commodity, credit, conservation, disaster and emergency assistance programs
that help strengthen and stabilize the agricultural economy. FFAS contributes to the vitality of the farm sector with
programs that encourage the expansion of export markets for U.S. agriculture.
FSA offers direct and guaranteed loans to farmers who are temporarily unable to obtain private, commercial credit
and nonprofit entities that are engaged in the improvement of the nation’s agricultural community. Often, FSA
borrowers are beginning farmers who cannot qualify for conventional loans due to insufficient financial resources.
Additionally, the agency helps established farmers who have suffered financial setbacks from natural disasters, or
have limited resources to maintain profitable farming operations. FSA officials also provide borrowers with
supervision and credit counseling.
FSA’s mission is to provide supervised credit. FSA works with each borrower to identify specific strengths and
weaknesses in farm production and management, and provides alternatives to address weaknesses. FSA is able to
provide certain loan servicing options to assist borrowers whose accounts are distressed or delinquent. These


100     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
options include reamortization, restructuring, loan deferral, lowering interest rate, acceptance of easements, and
debt write-downs. The eventual goal of FSA’s farm credit programs is to graduate its borrowers to commercial
credit.
CCC’s foreign programs provide economic stimulus to both the U.S. and foreign markets, while also giving
humanitarian assistance to the most-needy people throughout the world. CCC offers both credit guarantee and
direct credit programs for buyers of U.S. exports, suppliers, and sovereign countries in need of food assistance.
CCC permits debtor nations to reschedule debt under the aegis of the Paris Club (The Club). The Club is an
internationally recognized organization under the leadership of the French Ministry of Economics and Finance. Its
sole purpose is to assess, on a case-by-case basis, liquidity problems faced by economically disadvantaged countries.
The general premise of the Club’s activities is to provide disadvantaged nations short-term liquidity relief to enable
them to re-establish their credit worthiness. The Departments of State and Treasury lead the U.S. Delegation and
negotiations for all U.S. Agencies.
CCC also provides loans for Farm and Sugar Storage Facilities (FSFL). FSFL provides low-interest financing for
producers to build or upgrade farm storage and handling facilities. The 2008 Farm Bill added hay and renewable
biomass as eligible FSFL commodities, extended the maximum loan term to 12 years and increased the maximum
loan amount to $500,000.
Farm and Foreign Agricultural Service List of Programs
                                    Farm Service Agency                   Commodity Credit Corporation

                          Direct Farm Ownership                      General Sales Manager Guarantee Credit
                          Direct Farm Operating                      Program
                          Direct Emergency Loans                     Facility Program Guarantee
                          Direct Indian Land Acquisition             P.L. 480 Title 1 Program
                          Direct Boll Weevil Eradication             Direct Farm Storage Facility
                          Direct Seed Loans to Producers             Direct Sugar Storage Facilities
                          Guaranteed Farm Operating
                          Subsidized/Unsubsidized
                          Agricultural Resource Demonstration Fund
                          Bureau of Reclamation Loan Fund
                          Guaranteed Farm Ownership
                          Unsubsidized
                          American Recovery and Reinvestment
                          Fund



The Rural Development Mission Area
Each year, RD programs create or preserve tens of thousands of rural jobs and provide or improve the quality of
rural housing. To leverage the impact of its programs, RD is working with State, local and Indian tribal
Governments, as well as private and not-for-profit organizations and user-owned cooperatives.
Through its rural housing loan and grant programs, RD provides affordable housing and essential community
facilities to rural communities. Rural housing programs help finance new or improved housing for moderate, low,
and very low-income families each year. The programs also help rural communities finance, construct, enlarge or
improve fire stations, libraries, hospitals and medical clinics, industrial parks, and other community facilities.




                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                    101
The Rural Business Program goal is to promote a dynamic business environment in rural America. RD partners
with the private sector and community-based organizations to provide financial assistance and business planning. It
also provides technical assistance to rural businesses and cooperatives, conducts research into rural economic issues,
and provides cooperative educational materials to the public.
The Rural Utilities Program helps to improve the quality of life in rural America through a variety of loan programs
for electric energy, telecommunications, and water and environmental projects. This program leverages scarce
Federal funds with private capital for investing in rural infrastructure, technology and development of human
resources.
RD programs provide certain loan servicing options to borrowers whose accounts are distressed or delinquent.
These options include reamortization, restructuring, loan deferral, lowering interest rate, acceptance of easements
and debt write-downs. The choice of servicing options depends on the loan program and the individual borrower.
Rural Development List of Programs
              Rural Housing Program                        Rural Business Program                        Rural Utilities Program

 Home Ownership Direct Loans                        Business and Industry Direct Loans       Water and Environmental Direct Loans
 Home Ownership Guaranteed Loans                    Business and Industry Guaranteed Loans   Water and Environmental Guaranteed Loans
 Home Improvement and Repair Direct Loans           Intermediary Relending Program Direct    Electric Direct Loans
 Home Ownership and Home Improvement and            Loans                                    Electric Guaranteed Loans
 Repair Nonprogram Loans                            Rural Economic Development Direct        Telecommunications Direct Loans
 Rural Housing Site Direct Loans                    Loans                                    Federal Financing Bank-Telecommunications
 Farm Labor Housing Direct Loans                                                             Guaranteed
 Rural Rental and Rural Cooperative Housing Loans                                            Distance Learning and Telemedicine Direct
 Rental Housing Guaranteed Loans                                                             Broadband Telecommunications Services
 Multi-family Housing–Nonprogram–Credit Sales
 Community Facilities Direct Loans
 Community Facilities Guaranteed Loans



Discussion of Administrative Expenses, Subsidy Costs and Subsidy Rates
Administrative Expenses
Consistent with the Federal Credit Reform Act of 1990 as amended, subsidy cash flows exclude direct Federal
administrative expenses. Administrative expenses for FY 2009 and FY 2008 are shown in Table 10.
Reestimates, Default Analysis, and Subsidy Rates
The Federal Credit Reform Act of 1990 as amended governs the proprietary and budgetary accounting treatment
of direct and guaranteed loans. The long-term cost to the Government for direct loans or loan guarantees is
referred to as “subsidy cost.” Under the act, subsidy costs for loans obligated beginning in FY 1992 are recognized
at the net present value of projected lifetime costs in the year the loan is disbursed. Subsidy costs are revalued
annually. Components of subsidy include interest subsidies, defaults, fee offsets, and other cash flows.
RD’s cash flow models are tailored for specific programs based on unique program characteristics. The models
utilized are housing, guaranteed, Electric Underwriters, FFB modifications and a direct model that covers the
remaining portfolio with similar characteristics.
The annual reestimate process updates the budget assumptions with actual portfolio performance, interest rates and
updated estimates for future loan performance. The FY 2009 reestimate process resulted in an $565 million



102      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
increase in the post 1991 estimated cost of the direct loan portfolio and a $72 million increase in the post 1991
estimated cost of the guaranteed loan portfolio.
Table 3 discloses the direct loan subsidy expense including the $564 million increase due to reestimates. The
increase was a result of a $352 million increase in RD’s programs and a $212 million increase in the FFAS
programs.
Table 8 discloses the loan guarantee subsidy expenses including the $72 million increase due to reestimate. The
increase was a result of a $113 million increase in RD’s programs and a $41 million reduction in the FFAS
programs.
Based on sensitivity analysis conducted for each cohort or segment of a loan portfolio, the difference between the
budgeted and actual interest for both borrower and Treasury remain the key components for the subsidy
formulation and reestimate rates of many USDA direct programs. USDA uses the Governmentwide interest rate
projections provided by the OMB in order to do its calculations and analysis.
The Inter-agency Country Risk Assessment System (ICRAS) is a Federal interagency effort chaired by OMB
under the authority of the Federal Credit Reform Act of 1990 as amended. The system provides standardized risk
assessment and budget assumptions for all direct credits and credit guarantees provided by the Government, to
foreign borrowers. ICRAS identification for each country is still the basis for a given country’s risk rating, but a set
of program specific default and recovery rates by ICRAS grade has been established for each program. Domestic
programs have always utilized program-specific default and recovery assumptions.
Subsidy rates are used to compute each year’s subsidy expenses as disclosed above. The subsidy rates disclosed in
Tables 11 and 12 pertain only to the FY 2009 and FY 2008 cohorts. These rates cannot be applied to the direct and
guaranteed loans disbursed during the current reporting year to yield the subsidy expense. The subsidy expense for
new loans reported in the current year could result from disbursements of loans from both current year cohorts and
prior-year cohorts. The subsidy expense reported in the current year also includes reestimates.
Downward Reestimate of Subsidy
In accordance with the General Fund Receipt Account Guide, a liability for non-entity assets is accrued for
downward reestimate of subsidy. When more subsidy was collected than is necessary to fund future net cash
outflows, the financing fund must transfer the excess subsidy, with interest, to a designated general fund receipt
account in the following year.
Foreclosed Property
Property is acquired largely through foreclosure and voluntary conveyance. Acquired properties associated with
loans are reported at their market value at the time of acquisition. The projected future cash flows associated with
acquired properties are used in determining the related allowance (at present value).
As of September 30, 2009 and 2008, foreclosed property consisted of 1,082 and 800 rural single-family housing
dwellings, with an average holding period of 15 and 17 months, respectively. As of September 30, 2009 and 2008,
FSA-Farm Loan Program properties consist primarily of 64 and 58 farms, respectively. The average holding period
for these properties in inventory for FY 2009 and FY 2008 was 58 and 64 months, respectively. Certain properties
can be leased to eligible individuals.
Non-performing Loans
Non-performing loans are defined as receivables that are in arrears by 90 or more days, or are on rescheduling
agreements until such time two consecutive payments have been made following the rescheduling.
When RD, FSA and CCC calculate loan interest income, however, the recognition of revenue is deferred. Late
interest is accrued on arrears.


                       FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                   103
Loan Modifications
A modification is any Government action different from the baseline assumptions that affects the subsidy cost, such
as a change in the terms of the loan contract. The cost of a modification is the difference between the present value
of the cash flows before and after the modification.
Multiple-family housing direct loan program modifications related to the revitalization project, which began in
FY 2006, continued throughout FY 2009. The revitalization project is used to rehabilitate ailing housing
developments. In this program, RD determines whether the development owner should be offered a financial
restructuring plan and what type of incentives, if any, should be offered to the owner to rehabilitate an ailing
housing development and to provide affordable rents for tenants.
In FY 2009, loan extension modifications were granted for three borrowers in the FFB electric program. The
maturity dates were extended up to 20 years on selected advances. Interest rates on the advances did not change.
At the time of the modification, the liquidating fund was paid off and the advances were moved to the financing
fund. The post-modification cash flows were discounted at the first quarter net present value discount factor from
the FY 2009 President’s Budget relative to the effective date of the loan extension modifications.
The Debt Reduction Fund is used to account for CCC’s “modified debt.” Debt is considered to be modified if the
original debt has been reduced or the interest rate of the agreement changed. In contrast, when debt is
"rescheduled," only the date of payment is changed. Rescheduled debt is carried in the original fund until paid.
With one exception, all outstanding CCC modified debt is carried in the Debt Reduction Fund and is governed by
the Federal Credit Reform Act of 1990 as amended.
Interest Credit
Approximately $18,100 million and $17,700 million of Rural Housing Service (RHS) unpaid loan principal as of
September 30, 2009, and 2008 were receiving interest credit, respectively. If those loans receiving interest credit had
accrued interest at the full-unreduced rate, interest income would have been approximately $967 million and $947
million higher for FY 2009 and FY 2008, respectively.
Restructured Loans
At the end of FY 2009 and FY 2008, the RD portfolio contained approximately 71,400 and 73,300 restructured
loans with an outstanding unpaid principal balance of $2,400 million. At the end of FY 2009 and FY 2008, the
farm loan portfolio contained approximately 20,500 and 20,000 restructured loans with an outstanding unpaid
principal balance of $1,126 million and $1,100 million, respectively. Direct credit and credit guarantee principal
receivables in the food aid and export programs under rescheduling agreements as of September 30, 2009 and 2008,
were $2,887 million and $3,100 million, respectively.




104      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Table 1. Direct Loan and Loan Guarantees, Net
 FY 2009                                          Loans                                  Present       Value of Assets
 Direct Loans                                   Receivable,    Interest    Foreclosed     Value          Related to
                                                  Gross       Receivable    Property    Allowance          Loans
 Obligated Pre-1992
   Farm                                         $    1,219    $     83     $      14    $       (43)   $        1,273
   Export                                                -           -             -              -                 -
   Food Aid                                          4,470          48             -         (1,408)            3,110
   Housing                                           9,984          83            33         (4,667)            5,433
   Electric                                          6,877           1             -         (1,675)            5,203
   Telecommunications                                  706           2             -            (44)              664
   Water and Environmental                           1,224          12             -           (142)            1,094
   Business and Industry                                 -           -             -              -                 -
   Economic Development                                 34           -             -            (16)               18
 Pre-1992 Total                                     24,514         229            47         (7,995)           16,795
 Obligated Post-1991
   Farm                                              6,057         169             5           (500)            5,731
   Export                                                -           -             -              -                 -
   Food Aid                                          1,615          20             -           (518)            1,117
   Housing                                          18,301         103            46         (2,410)           16,040
   Electric                                         33,119          32             -           (652)           32,499
   Telecommunications                                3,409           2             -             43             3,454
   Water and Environmental                           9,218          94             -           (728)            8,584
   Business and Industry                                30          (1)            -            (10)               19
   Economic Development                                543           2             -           (174)              371
 Post-1991 Total                                    72,292         421            51         (4,949)           67,815
 Total Direct Loan Program Receivables              96,806         650            98        (12,944)           84,610
 Defaulted Guarantee Loans
  Pre-1992
     Farm                                               1             -            -              -                 1
     Export                                           135             1            -            (82)               54
     Food Aid                                           -             -            -              -                 -
     Housing                                            -             -            -              -                 -
     Electric                                           -             -            -              -                 -
     Telecommunications                                 -             -            -              -                 -
     Water and Environmental                            -             -            -              -                 -
     Business and Industry                              4             -            -              -                 4
     Economic Development                               -             -            -              -                 -
  Pre-1992 Total                                      140             1            -            (82)               59
   Post-1991
     Farm                                               54            -            -           (52)                 2
     Export                                            619            7            -          (203)               423
     Food Aid                                            -            -            -             -                  -
     Housing                                            98            -            -           (65)                33
     Electric                                            -            -            -             -                  -
     Telecommunications                                  -            -            -             -                  -
     Water and Environmental                             -            -            -             -                  -
     Business and Industry                             127            3            -           (14)               116
     Economic Development                                -            -            -             -                  -
   Post-1991 Total                                     898           10            -          (334)               574
 Total Defaulted Guarantee Loans                     1,038           11            -          (416)               633
 Loans Exempt from Credit Reform Act:
   Commodity Loans                                    414             3            -             (3)              414
   Other Foreign Receivables                            -             -            -              -                 -
 Total Loans Exempt                                   414             3            -             (3)              414

 Total Direct Loan and Loan Guarantees, Net                                                            $       85,657




                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                         105
Table 1. Direct Loan and Loan Guarantees, Net (cont’d)
FY 2008                                          Loans                                    Present       Value of Assets
Direct Loans                                   Receivable,      Interest    Foreclosed      Value         Related to
                                                 Gross         Receivable    Property    Allowance          Loans
Obligated Pre-1992
  Farm                                         $    1,406      $     96     $      12    $       (59)   $        1,455
  Export                                                -             -             -              -                 -
  Food Aid                                          4,813           121             -         (1,949)            2,985
  Housing                                          10,462           111            33         (4,880)            5,726
  Electric                                          8,273             5             -         (1,689)            6,589
  Telecommunications                                  896             2             -            (54)              844
  Water and Environmental                           1,328            14             -           (159)            1,183
  Business and Industry                                 -             -             -              -                 -
  Economic Development                                 38             -             -            (17)               21
Pre-1992 Total                                     27,216           349            45         (8,807)           18,803
Obligated Post-1991
  Farm                                              5,203           159             3            224             5,589
  Export                                                -             -             -              -                 -
  Food Aid                                          1,837            79             -         (1,035)              881
  Housing                                          17,044            98            34         (2,387)           14,789
  Electric                                         29,216            28             -           (336)           28,908
  Telecommunications                                3,151             2             -            187             3,340
  Water and Environmental                           8,583            87             -           (829)            7,841
  Business and Industry                                35             -             -            (25)               10
  Economic Development                                530             2             -           (175)              357
Post-1991 Total                                    65,599           455            37         (4,376)           61,715
Total Direct Loan Program Receivables              92,815           804            82        (13,183)           80,518
Defaulted Guarantee Loans
 Pre-1992
    Farm                                                   1           -            -             (1)                -
    Export                                               136           1            -            (90)               47
    Food Aid                                               -           -            -              -                 -
    Housing                                                -           -            -              -                 -
    Electric                                               -           -            -              -                 -
    Telecommunications                                     -           -            -              -                 -
    Water and Environmental                                -           -            -              -                 -
    Business and Industry                                  3           -            -              -                 3
    Economic Development                                   -           -            -              -                 -
 Pre-1992 Total                                          140           1            -            (91)               50
  Post-1991
    Farm                                                  58           -            -           (56)                 2
    Export                                               615           7            -          (185)               437
    Food Aid                                               -           -            -             -                  -
    Housing                                               61           -            -           (33)                28
    Electric                                               -           -            -             -                  -
    Telecommunications                                     -           -            -             -                  -
    Water and Environmental                                -           -            -             -                  -
    Business and Industry                                103           3            -           (10)                96
    Economic Development                                   -           -            -             -                  -
  Post-1991 Total                                        837          10            -          (284)               563
Total Defaulted Guarantee Loans                          977          11            -          (375)               613
Loans Exempt from Credit Reform Act:
  Commodity Loans                                        630          13            -              -               643
  Other Foreign Receivables                                -           -            -              -                 -
Total Loans Exempt                                       630          13            -              -               643
Total Direct Loan and Loan Guarantees, Net                                                              $       81,774




106     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Table 2. Schedule for Reconciling Subsidy Cost Allowance Balances (Post-1991) Direct Loans
                                                                                             FY 2009       FY 2008

       Beginning balance of the subsidy cost allowance                                $       4,661    $    4,346
       Add: Subsidy expense for direct loans disbursed during the year by component
         Interest rate differential costs                                                        73           (60)
         Default costs (net of recoveries)                                                      253           211
         Fees and other collections                                                              (1)           (2)
         Other subsidy costs                                                                     79           226
       Total subsidy expense prior to adjustments and reestimates                               404           375

       Adjustments
         Loan modifications                                                                       9             4
         Fees received                                                                           39            36
         Loans written off                                                                     (335)         (242)
         Subsidy allowance amortization                                                        (264)         (309)
         Other                                                                                  206           368
       Total subsidy cost allowance before reestimates                                        4,720         4,578

       Add or subtract subsidy reestimates by component
         Interest rate reestimate                                                               383           637
         Technical/default reestimate                                                           181          (554)
       Total reestimates                                                                        564            83
       Ending balance of the subsidy cost allowance                                   $       5,284    $    4,661




                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                    107
Table 3. Subsidy Expense for Direct Loans by Program and Component

     FY 2009
                                          Interest                 Fees and Other                 Subtotal      Total        Interest Rate    Technical       Total      Total Subsidy
                                         Differential   Defaults     Collections    Other         Subsidy    Modifications   Reestimates     Reestimates   Reestimates     Expense
     Direct Loan Programs
      Farm                                $       2     $ 160      $           -    $  1          $ 163      $          -    $       204     $      424    $      628    $        791
      Export                                      -         -                  -       -              -                 -              -              -             -               -
      Food Aid                                    -         -                  -       -              -                19           (244)          (172)         (416)           (397)
      Housing                                    24        75                 (1)     85            183                 6            (41)           129            88             277
      Electric                                  (45)       13                  -      (4)           (36)              (16)           600           (324)          276             224
      Telecommunications                         (1)        4                  -       -              3                 -             29            120           149             152
      Water and Environmental                    75         1                  -      (3)            73                 -           (164)            19          (145)            (72)
      Business and Industry                       -         -                  -       -              -                 -             (6)            (5)          (11)            (11)
      Economic Development                       18         -                  -       -             18                 -              5            (10)           (5)             13
     Total Direct Loan Subsidy Expense    $      73     $ 253      $          (1)   $ 79          $ 404      $          9    $       383     $      181    $      564    $        977
                                                                                        .

     FY 2008
                                          Interest                 Fees and Other                 Subtotal      Total        Interest Rate    Technical       Total      Total Subsidy
                                         Differential   Defaults     Collections    Other         Subsidy    Modifications   Reestimates     Reestimates   Reestimates     Expense
     Direct Loan Programs
      Farm                                $     (18)    $ 130      $           -    $ (9)         $ 103      $          -    $         -     $     (550)   $     (550)   $       (447)
      Export                                      -         -                  -       -              -                 -              -              -             -               -
      Food Aid                                    9         2                  -       -             11                 -           (180)          (163)         (343)           (332)
      Housing                                  (123)       66                 (1)    245            187                 4            184            (51)          133             324
      Electric                                  (32)       11                  -      (6)           (27)                -            335            155           490             463
      Telecommunications                         (1)        1                  -       -              -                 -            211            (19)          192             192
      Water and Environmental                    86         1                  -      (4)            83                 -             94             63           157             240
      Business and Industry                       -         -                  -       -              -                 -              -              -             -               -
      Economic Development                       19         -                  -      (1)            18                 -             (7)            11             4              22
     Total Direct Loan Subsidy Expense    $     (60)    $ 211      $          (1)   $225          $ 375      $          4    $       637     $     (554)   $       83    $        462
                                                                                        .




                                                                                            108
                                                             FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Table 4. Total Amount of Direct Loans Disbursed (Post-1991)

                                                                       FY 2009     FY 2008
              Direct Loan Programs
                Farm                                                   $ 1,823    $ 1,317
                Export                                                       -          -
                Food Aid                                                     -         20
                Housing                                                  1,971      1,750
                Electric                                                 4,462      4,047
                Telecommunications                                         565        551
                Water and Environmental                                    842      1,017
                Business and Industry                                        -          -
                Economic Development                                        52         56
              Total Direct Loans Disbursed                             $ 9,715    $ 8,758




                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION   109
=
Table 5. Guaranteed Loans Outstanding
                                                  Pre - 1992    Post - 1991      Total      Pre - 1992    Post - 1991      Total
                                                  Outstanding   Outstanding   Outstanding   Outstanding   Outstanding   Outstanding
                       FY 2009
                                                   Principal,    Principal,    Principal,    Principal,    Principal,    Principal,
                                                  Face Value    Face Value    Face Value    Guaranteed    Guaranteed    Guaranteed
                   Loan Guarantee Programs
                     Farm                        $        32    $   10,675    $   10,707    $       29    $    9,598    $    9,627
                     Export                                -         7,039         7,039              -        6,898         6,898
                     Food Aid                              -             -              -             -             -             -
                     Housing                               4        34,781        34,785             3        31,293        31,296
                     Electric                            161           210           371           161           210           371
                     Telecommunications                    -             -              -             -             -             -
                     Water and Environmental               -            69            69              -           60            60
                     Business and Industry                13         4,383         4,396             8         3,267         3,275
                     Economic Development                  -             -              -             -             -             -
                   Total Guarantees Disbursed    $       210    $   57,157    $   57,367    $      201    $   51,326    $   51,527


                                                  Pre - 1992    Post - 1991      Total      Pre - 1992    Post - 1991      Total
                                                  Outstanding   Outstanding   Outstanding   Outstanding   Outstanding   Outstanding
                       FY 2008
                                                   Principal,    Principal,    Principal,    Principal,    Principal,    Principal,
                                                  Face Value    Face Value    Face Value    Guaranteed    Guaranteed    Guaranteed
                   Loan Guarantee Programs
                     Farm                        $        43    $   10,081    $   10,124    $       38    $    9,061    $    9,099
                     Export                                -         3,918         3,918              -        3,829         3,829
                     Food Aid                              -             -              -             -             -             -
                     Housing                               5        22,514        22,519             4        20,270        20,274
                     Electric                            174           214           388           174           214           388
                     Telecommunications                    -             -              -             -             -             -
                     Water and Environmental               -            68            68              -           59            59
                     Business and Industry                14         3,756         3,770            10         2,833         2,843
                     Economic Development                  -             -              -             -             -             -
                   Total Guarantees Disbursed    $       236    $   40,551    $   40,787    $      226    $   36,266    $   36,492




                                                                       110
                                                FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Table 6. Liability for Loan Guarantees (Present Value Method for Pre-1992 Guarantees)
                                                  Liabilities for   Liabilities for Loan
                                                 Losses on Pre-       Guarantees on
               FY 2009
                                                      1992              Post-1991
                                                  Guarantees           Guarantees          Total Liabilities for
                                                 Present Value        Present Value        Loan Guarantees
           Loan Guarantee Programs
             Farm                                $            -     $              170     $              170
             Export                                           -                    221                    221
             Food Aid                                         -                      -                      -
             Housing                                          -                  1,102                  1,102
             Electric                                         -                      -                      -
             Telecommunications                               -                      -                      -
             Water and Environmental                          -                     (1)                    (1)
             Business and Industry                            1                    351                    352
             Economic Development                             -                      -                      -
           Total Liability for Loan Guarantees   $            1     $            1,843     $            1,844



                                                  Liabilities for   Liabilities for Loan
                                                 Losses on Pre-       Guarantees on
               FY 2008
                                                      1992              Post-1991
                                                  Guarantees           Guarantees          Total Liabilities for
                                                 Present Value        Present Value        Loan Guarantees
           Loan Guarantee Programs
             Farm                                $            -     $              114     $              114
             Export                                           -                    162                    162
             Food Aid                                         -                      -                      -
             Housing                                          -                    766                    766
             Electric                                         -                      -                      -
             Telecommunications                               -                      -                      -
             Water and Environmental                          -                      -                      -
             Business and Industry                            1                    290                    291
             Economic Development                             -                      -                      -
           Total Liability for Loan Guarantees   $            1     $            1,332     $            1,333




                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                  111
=
Table 7. Schedule for Reconciling Loan Guarantee Liability

                                                                                    FY 2009      FY 2008
 Beginning balance of the loan guarantee liability                                 $   1,332    $   1,255
 Add:Subsidy expense for guaranteed loans disbursed during the year by component
   Interest supplement costs                                                              25           29
   Default costs (net of recoveries)                                                     661          418
   Fees and other collections                                                           (349)        (209)
   Other subsidy costs                                                                     -            -
 Total of the above subsidy expense components                                           337          238

 Adjustments
   Loan guarantee modifications                                                            -          (90)
   Fees received                                                                         344          169
   Interest supplements paid                                                               5           15
   Claim payments to lenders                                                            (144)         (90)
   Interest accumulation on the liability balance                                         48           99
   Other                                                                                (152)        (109)
 Ending balance of the subsidy cost allowance before reestimates                       1,770        1,487

 Add or subtract subsidy reestimates by component:
   Interest rate reestimate                                                              (45)          34
   Technical/default reestimate                                                          117         (189)
 Total of the above reestimate components                                                 72         (155)
 Ending balance of the loan guarantee liability                                    $   1,842    $   1,332




112     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Table 8. Subsidy Expense for Loan Guarantees by Program and Component
        FY 2009
                                                                                                                                                           Total
                                                 Interest          Fees and Other                      Total      Interest Rate Technical    Total       Subsidy
        Loan Guarantee Programs                Supplement Defaults   Collections   Other   Subtotal Modifications Reestimates Reestimates Reestimates    Expense
          Farm                                  $      17  $ 63     $         (25)  $ -     $ 55     $         -    $        5  $    (10)  $       (5)   $     50
          Export                                         -    76              (22)    -        54              -          (45)         9         (36)          18
          Food Aid                                       -      -               -     -         -              -             -          -           -            -
          Housing                                       8    445            (267)     -       186              -          (15)        72          57         243
          Electric                                       -      -               -     -         -              -             -          -           -            -
          Telecommunications                             -      -               -     -         -              -             -          -           -            -
          Water and Environmental                        -      -               -     -         -              -            (1)        1            -            -
          Business and Industry                          -    77              (35)    -        42              -           11         45          56           98
          Economic Development                           -      -               -     -         -              -             -          -           -            -
        Total Loan Guarantee Subsidy Expense    $      25  $ 661    $       (349)  $ -      $ 337    $         -    $     (45)  $   117    $      72     $ 409


        FY 2008
                                                                                                                                                           Total
                                                 Interest          Fees and Other                      Total      Interest Rate Technical    Total       Subsidy
        Loan Guarantee Programs                Supplement Defaults   Collections   Other   Subtotal Modifications Reestimates Reestimates Reestimates    Expense
          Farm                                  $      15  $ 49     $         (18)  $ -     $ 46     $         -    $        3  $    (52)  $     (49)    $     (3)
          Export                                         -    58              (10)    -        48              -            (5)      (38)        (43)            5
          Food Aid                                       -      -               -     -         -              -             -          -          -             -
          Housing                                      14    228            (146)     -        96              -            (1)      (10)        (11)          85
          Electric                                       -      -               -     -         -              -             -          -          -             -
          Telecommunications                             -      -               -     -         -              -             -          -          -             -
          Water and Environmental                        -      -               -     -         -              -             -          -          -             -
          Business and Industry                          -    83              (35)    -        48              -           37        (90)        (53)          (5)
          Economic Development                           -      -               -     -         -              -             -          -          -             -
        Total Loan Guarantee Subsidy Expense    $      29  $ 418    $       (209)  $ -      $ 238    $         -    $      34   $   (190)  $    (156)    $     82




                                                                                  113
                                                         FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Table 9. Guaranteed Loans Disbursed
                                                         FY 2009                          FY 2008
                                                 Principal,    Principal,    Principal, Face      Principal,
                                                Face Value    Guaranteed          Value         Guaranteed
                                                Disbursed      Disbursed       Disbursed         Disbursed
 Loan Guarantee Programs
     Farm                                       $    2,594    $     2,332    $        2,163    $      1,944
     Export                                          5,250          5,145             1,907           1,909
     Food Aid                                            -              -                 -               -
     Housing                                        14,165         12,745             6,484           5,832
     Electric                                            -              -                 -               -
     Telecommunications                                  -              -                 -               -
     Water and Environmental                             5              4                40              33
     Business and Industry                           1,112            865               780             609
     Economic Development                                -              -                 -               -
 Total Guaranteed Loans Disbursed               $   23,126    $    21,091    $       11,374    $     10,327




Table 10. Administrative Expenses
                                                                 FY 2009           FY 2008
                  Direct Loan Programs                         $       594       $       537
                  Guaranteed Loan Programs                             375               293
                Total Administrative Expenses                  $       969       $       830




114     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Table 11. Subsidy Rates for Direct Loans (percentage)
                                                                                        Fees and
               FY 2009                                        Interest                   Other
                                                             Differential   Defaults   Collections    Other    Total
             Direct Loan Programs
               Farm Ownership                                      4.37        1.70            -       0.28     6.35
               Farm Operating                                     (1.26)      13.05            -      (0.01)   11.78
               Indian Tribe Land Acquisition                       0.06        6.23            -        -       6.29
               Emergency Disaster                                  4.09       10.64            -      (0.51)   14.22
               Boll Weevil Eradication                            (1.65)       0.17            -       0.92    (0.56)
               Farm Storage Facility Loan Program                 (0.82)       7.20          (0.14)     -       6.24
               Sugar Storage Facility Loan Program                (1.72)       0.64            -        -      (1.08)
               Water and Waste Disposal Loans                     13.41        1.64            -      (0.43)   14.62
               Distance Learning and Telemedicine Loans             -          2.48            -      (0.02)    2.46
               Broadband Treasury Loans                             -          3.65            -       0.25     3.90
               Electric Hardship Loans                            (2.55)       0.99            -      (0.81)   (2.37)
               FFB Electric Loans                                 (2.97)       0.70            -        -      (2.27)
               Telecommunication Hardship Loans                   (2.86)       1.02            -       0.07    (1.77)
               FFB Telecommunications Loans                       (1.47)       0.80            -      (0.27)   (0.94)
               Treasury Telecommunication Loans                    0.04        0.23            -      (0.06)    0.21
               Community Facility Loans                            1.27        4.77            -      (0.32)    5.72
               Single-Family Housing Credit Sales                (10.36)       7.77            -        -      (2.59)
               Multi-Family Housing Credit Sales                  27.43        8.74            -      (0.05)   36.12
               Section 502 Single-Family Housing                   1.64        5.07            -        -       6.71
               Section 504 Housing Repair                         27.69        0.98            -      (1.80)   26.87
               Section 515 Multi-Family Housing                   39.73        1.58            -      (0.14)   41.17
               Section 523 Self-Help Housing                       1.65         -              -        -       1.65
               Section 524 Site Development                       (2.77)       0.93            -        -      (1.84)
               Section 514 Farm Labor Housing                     40.98        9.50            -      (8.35)   42.13
               Multi-Family Housing Relending Program             44.98         -              -        -      44.98
               Multi-Family Housing Revitalization Seconds        72.78       12.72            -        -      85.50
               Multi-Family Housing Revitalization Zero           59.59        1.00            -        -      60.59
               Intermediary Relending Program                     42.09        0.40            -      (0.64)   41.85
               Rural Economic Development Loans                   21.49        0.21            -      (0.81)   20.89
               Rural Microenterprise Loans                        32.95        1.80            -      (0.72)   34.03




                      FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                      115
==
                                                                                       Fees and
                 FY 2008                                   Interest                     Other
                                                          Differential     Defaults   Collections       Other         Total
             Direct Loan Programs
               Farm Ownership                                  (6.72)        11.00            -           0.17         4.45
               Farm Operating                                  (1.11)        13.94            -          (0.14)       12.69
               Indian Tribe Land Acquisition                    2.83          0.31            -            -           3.14
               Emergency Disaster                               6.72          5.24            -          (0.82)       11.14
               Boll Weevil Eradication                         (2.00)         1.45            -           0.28        (0.27)
               Farm Storage Facility Loan Program               0.02          1.10          (0.11)         -           1.01
               Sugar Storage Facility Loan Program              0.36          0.62            -            -           0.98
               Water and Waste Disposal Loans                   7.03          0.09            -          (0.31)        6.81
               Distance Learning and Telemedicine Loans          -            2.15            -          (0.01)        2.14
               Broadband Treasury Loans                          -            2.17            -          (0.02)        2.15
               Electric Hardship Loans                         (0.03)         0.96            -          (0.81)        0.12
               FFB Electric Loans                              (1.37)         0.67            -            -          (0.70)
               Telecommunication Hardship Loans                (0.96)         1.00            -           0.04         0.08
               FFB Telecommunications Loans                    (0.01)         0.85            -          (0.22)        0.62
               Treasury Telecommunication Loans                  -            0.64            -           0.03         0.67
               Community Facility Loans                         5.40          0.73            -          (0.58)        5.55
               Single-Family Housing Credit Sales             (15.38)         7.85            -           6.38        (1.15)
               Multi-Family Housing Credit Sales              (17.41)         5.41            -          49.15        37.15
               Section 502 Single-Family Housing              (13.44)         5.73            -          17.09         9.38
               Section 504 Housing Repair                      29.14          0.94            -          (1.81)       28.27
               Section 515 Multi-Family Housing               (17.92)         1.13            -          59.39        42.60
               Section 523 Self-Help Housing                    2.84           -              -            -           2.84
               Section 524 Site Development                    (1.71)         0.92            -            -          (0.79)
               Section 514 Farm Labor Housing                  44.45          8.93            -         (10.11)       43.27
               Multi-Family Housing Relending Program          46.39           -              -            -          46.39
               Intermediary Relending Program                  43.53           -              -          (0.64)       42.89
               Rural Economic Development Loans                23.15          0.21            -          (0.77)       22.59


Table 12. Subsidy Rates for Loan Guarantees (percentage)
                                                                                           Fees and
       FY 2009                                                Interest                       Other
                                                             Differential      Defaults    Collections            Other        Total
      Guaranteed Loan Programs
       CCC Export Loan Guarantees Program                            -            5.97               (1.06)         -           4.91
       Farm Operating—Unsubsidized                                   -            3.49               (1.00)         -           2.49
       Farm Operating—Subsidized                                   11.22          2.57                 -            -          13.79
       Farm Ownership—Unsubsidized                                   -            1.33               (1.00)         -           0.33
       Water and Waste Disposal Loans                                -             -                 (0.82)         -          (0.82)
       Community Facility Loans                                      -            3.95               (0.87)         -           3.08
       Section 502 Single-Family Housing Purchase                    -            3.27               (2.00)         -           1.27
       Section 502 Single-Family Housing Refinance                   -            1.48               (0.50)         -           0.98
       Guaranteed 538 Multi-Family Housing                         22.33          0.57               (7.22)         -          15.68
       Business and Industry Loans                                   -            7.80               (3.44)         -           4.36
       North American Development Bank Loans                         -           13.51               (3.15)         -          10.36
       Renewable Energy Loans                                        -           11.25               (1.55)         -           9.70
       Section 9003 Loans                                            -           36.78               (5.85)        2.46        33.39




116     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                Fees and
          FY 2008                                     Interest                    Other
                                                     Differential   Defaults    Collections    Other   Total
     Guaranteed Loan Programs
       CCC Export Loan Guarantee Program                     -           7.08         (4.74)       -      2.34
       Farm Operating—Unsubsidized                           -           3.32         (0.90)       -      2.42
       Farm Operating—Subsidized                           11.05         2.29           -          -     13.34
       Farm Ownership—Unsubsidized                           -           1.28         (0.88)       -      0.40
       Water and Waste Disposal Loans                        -            -           (0.82)       -     (0.82)
       Community Facility Loans                              -           4.54         (0.86)       -      3.68
       Section 502 Single-Family Housing Purchase            -           3.20         (2.00)       -      1.20
       Section 502 Single-Family Housing Refinance           -           1.31         (0.50)       -      0.81
       538 Multi-Family Housing-Subsidized                 16.91         0.42         (7.94)       -      9.39
       Business and Industry Loans                           -           7.33         (3.01)       -      4.32
       NAD Bank Loans                                        -          10.84         (3.14)       -      7.70
       Renewable Energy                                      -          11.97         (2.28)       -      9.69




NOTE 8. INVENTORY AND RELATED PROPERTY, NET
Commodity inventory is restricted for the purpose of alleviating distress caused by natural disasters, providing
emergency food assistance in developing countries and providing price support and stabilization. Commodity loan
forfeitures during the fiscal years ended September 30, 2009 and 2008 were $47 million and $8 million,
respectively.




                      FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                117
==
                                                               FY 2009                          FY 2008
         Inventories                                                     $       -                        $      -

                                                        Volume                           Volume
         Commodities:
                                                     (in millions)       Amount       (in millions)       Amount
           Corn (In Bushels):
            On hand at the beginning of the year                -               -                1              2
            Acquired during the year                            2              11                3             25
            Disposed of during the year
               Sales                                             -              (2)               -              -
               Donations                                        (2)             (9)              (3)           (25)
               Other                                             -               -               (1)            (2)
            On hand at the end of the year                       -               -                -              -

           Wheat (In Bushels):
            On hand at the beginning of the year                -               -               39            144
            Acquired during the year                           32             217               29            295
            Disposed of during the year
               Sales                                          (25)           (176)             (56)           (124)
               Donations                                       (7)            (44)              (6)           (295)
               Other                                            -               3               (6)            (20)
            On hand at the end of the year                      -               -                -               -

           Nonfat Dry Milk (In Pounds):
            On hand at the beginning of the year                -               -               14             13
            Acquired during the year                          270             220                -              -
            Disposed of during the year
               Sales                                           (1)             (1)              (1)             (1)
               Donations                                      (23)            (27)             (11)            (11)
               Other                                          (22)             (8)              (2)             (1)
            On hand at the end of the year                    224             184                -               -

           Other:
             On hand at the beginning of the year                               15                             25
             Acquired during the year                                        3,653                            879
             Disposed of during the year
                 Sales                                                     (2,625)                              (1)
                 Donations                                                 (1,031)                            (888)
                 Other                                                         10                                -
             On hand at the end of the year                                    22                               15
         Allowance for losses                                                  (1)                               -
         Total Commodities                                                    205                               15
         Total Inventory and Related Property, Net                       $    205                         $     15




118   FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
NOTE 9. GENERAL PROPERTY, PLANT, AND EQUIPMENT, NET
           FY 2009                                        Useful                                          Net
                                                           Life                      Accumulated         Book
              Category                                   (Years)          Cost       Depreciation        Value

           Land and Land Rights                                       $         76   $          -    $         76
           Improvements to Land                          10 - 50               707           (611)             96
           Construction-in-Progress                                            983              -             983
           Buildings, Improvements and Renovations       15 - 30             1,991         (1,269)            722
           Other Structures and Facilities               15 - 50             1,776         (1,346)            430
           Equipment                                      5 - 20             1,661         (1,330)            331
           Assets Under Capital Lease                     3 - 20                76            (42)             34
           Leasehold Improvements                           10                  66            (44)             22
           Internal-Use Software                          5-8                  579           (441)            138
           Internal-Use Software in Development                                137             (1)            136
           Other General Property, Plant and Equipment   5 - 15                  4              -               4
               Total                                                  $      8,056   $     (5,084)   $      2,972

           FY 2008                                        Useful                                          Net
                                                           Life                      Accumulated         Book
              Category                                   (Years)          Cost       Depreciation        Value

           Land and Land Rights                                       $         76   $          -    $         76
           Improvements to Land                          10 - 50               697           (588)            109
           Construction-in-Progress                                            982              -             982
           Buildings, Improvements and Renovations       15 - 30             1,936         (1,214)            722
           Other Structures and Facilities               15 - 50             1,728         (1,296)            432
           Equipment                                      5 - 20             1,650         (1,325)            325
           Assets Under Capital Lease                     3 - 20               143            (78)             65
           Leasehold Improvements                           10                  66            (42)             24
           Internal-Use Software                          5-8                  560           (376)            184
           Internal-Use Software in Development                                 51             (1)             50
           Other General Property, Plant and Equipment   5 - 15                  4              -               4
               Total                                                  $      7,893   $     (4,920)   $      2,973




NOTE 10. STEWARDSHIP PP&E
Stewardship PP&E consist of assets whose physical properties resemble those of General PP&E that are
traditionally capitalized in the financial statements. Due to the nature of these assets however, valuation would be
difficult and matching costs with specific periods would not be meaningful. Stewardship PP&E include heritage
assets and stewardship land.
Heritage Assets
Heritage assets are unique and are generally expected to be preserved indefinitely. Heritage assets may be unique
because they have historical or natural significance, are of cultural, educational or artistic importance, or have
significant architectural characteristics. The assets are reported in terms of physical units rather than cost, fair
value, or other monetary values. No amounts are shown on the balance sheet for heritage assets, except for multi-
use heritage assets in which the predominant use of the asset is in general government operations. The costs of
acquisition, betterment, or reconstruction of multi-use heritage assets is capitalized as general PP&E and
depreciated. The costs of acquiring, constructing, improving, reconstructing, or renovating heritage assets, other
than multi-use is considered an expense in the period incurred when determining the net cost of operations.
Heritage assets consist of collection type, such as objects gathered and maintained for exhibition, for example
library collections; and non-collection-type, such as memorials, monuments and buildings.
National Forests, National Grasslands and Other Sites—FS manages its heritage assets by site. Sites include National
Forests, National Grasslands, other Forest Service-managed sites, and non Forest Service- managed sites such as
museums and university laboratories. The mission of the FS is to sustain the health, diversity, and productivity of
the Nation’s forests and grasslands to meet the needs of present and future generations. The FS strives to achieve


                         FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                  119
==
quality land management under the sustainable multiple-use management concept to deliver the necessary products
and services that are essential for enhancing natural resource stewardship and to meet the diverse needs of people.
Heritage Asset categories can include the following:
• Priority Heritage Assets (PHA): Heritage assets of distinct public value that are, or should be, actively
   maintained, and meet one or more of the following criteria:
  − The property is recognized through an official designation; such as a listing on the National Register of
      Historic Places, State register, etc.
  − The property is recognized through prior investment in preservation, interpretation, and use. Any
      improvement to a PHA that meets real property designation criteria is now considered as real property.
  − The property is recognized in an agency-approved management plan.
  − The property exhibits critical deferred maintenance needs, and those needs have been documented.
Other Heritage Assets: Assets that may have potential important historical or cultural significance, but lack formal
listing and the demonstrated need for active maintenance.
Assemblage Assets: Any grouping of artifacts or archival materials aggregated through donation, agency events,
site-specific or other field collection, other acquisition method, or combination therein. This would include
materials donated to the FS; artifact or archival materials collected from a single site, FS administrative unit, or
event; or any combination thereof.
Research Centers—ARS conducts research at 36 research centers nationwide to develop and transfer solutions to
agricultural problems of high national priority and provides information access and dissemination to ensure high-
quality, safe food and other agricultural products; assess the nutritional needs of Americans; sustain a competitive
agricultural economy; enhance the natural resource base and the environment; and provide economic opportunities
for rural citizens, communities, and society as a whole. NRCS owns one research center, the Tucson Plant
Material Center (TPMC). The TPMC develops and evaluates native plants and addresses an array of resource
issues in the areas of rangeland, mined land, urban lands, cropland riparian areas and desert lands. Research centers
are considered heritage assets because one or more buildings or structures at these centers is on the National
Register of Historic Places or have been identified as eligible for inclusion on the National Register.
Library Collections—The National Agricultural Library (NAL) as a whole is the largest collection of materials devoted
to agriculture in the world. The collections are in constant use to support the research activities of USDA,
departmental operations and to answer citizen inquiries. NAL houses and provides access to millions of books and
periodicals. The overwhelming number of these items were published more than 25 years ago and almost all of
them are out-of-print and unavailable for purchase. By statute, NAL is the primary depository of publications and
information concerning the research and other activities of USDA. Included in the collection are government
documents and many items that are unique and irreplaceable. NAL collects, preserves and provides access to
manuscripts, rare books, photographs, posters, oral histories and other unique materials. Collection concentrations
include the fields of agriculture, horticulture, entomology, poultry sciences, botany, natural history and agricultural
history. Although focused primarily on American agriculture and related sciences, NAL holds numerous items of
international origin.
Acquisition and Withdrawal of Heritage Assets—The FS generally does not construct heritage assets, although in some
circumstances important site-structural components may be rehabilitated or reconstructed into viable historic
properties to provide forest visitors with use and interpretation. Heritage assets may be acquired through the
procurement process, but this rarely occurs. Normally, heritage assets are part of the land acquisition and inventory
process. Withdrawal occurs through land exchange or natural disasters. Most additions occur through inventory
activities where previously undocumented sites are discovered and added to the total. Although not technically
additions—they already existed on NFS lands—they do represent an increased management responsibility
commensurate with the spirit of “additions.”


120     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Stewardship Land
Stewardship land is land and land rights not acquired for or in connection with items of general PP&E. Land is
defined as the solid surface of the earth, excluding natural resources. Stewardship land is valued for its
environmental resources, recreational and scenic value, cultural and paleontological resources, vast open spaces, and
resource commodities and revenue provided to the Federal government, states, and counties. These assets are
reported in terms of physical units rather than cost, fair value, or other monetary values. No asset amount is shown
on the balance sheet for stewardship land. The acquisition cost of stewardship land is considered an expense in the
period acquired when determining the net cost of operations. Stewardship land consists primarily of the national
forests and grasslands owned by the FS and conservation easements purchased by NRCS.
National Forests—National forests are formally established and permanently set aside and reserved for national forest
purposes, including National Wilderness, National Primitive, National Wild and Scenic River, National
Recreation, National Scenic Research, National Game Refuges and Wildlife Preserve, and National Monument
areas.
National Grasslands—National grasslands are designated by the Secretary of Agriculture and permanently held by the
USDA under Title III of the Bankhead-Jones Farm Tenant Act.
Research and Experimental Areas—Research and experimental areas are reserved and dedicated by the Secretary of
Agriculture for forest and range research experimentation. Areas reported are located outside the exterior
boundaries of a national forest or national grassland.
National Preserves and Other Areas—National preserves are units established to protect and preserve scientific, scenic,
geologic, watershed, fish, wildlife, historic, cultural and recreational values; and provide for multiple use and
sustained yield of its renewable resources. Other areas include areas administered by the FS that are not included in
one of the above groups.
Conservation Easements—NRCS’s objective in administering the conservation easement programs are to provide
landowners financial and technical assistance in return for maintaining and improving high quality productive soils,
clean and abundant water, healthy plant and animals communities, clean air , an adequate energy supply, and
working farm and ranch land. NRCS’s objective in managing, monitoring and enforcing the terms and conditions
of the easement deed is to ensure that the taxpayers investments are properly used in accordance with the intent of
the program, to ensure that the agency is a good steward of the land and to be a good neighbor to adjacent
landowners. The uses for the land are identified under each program. Withdrawals from the program are not
allowed. Stewardship resources involve a substantial investment by the NRCS for long-term benefits for the
American public to help people help the land. The purchase of easements is to restore or enhance wetlands, protect
farmland, restore and protect grassland, restore and protect forest ecosystems, and to restore, protect, maintain and
enhance the functions of the floodplain.
Acquisition and Withdrawal of Stewardship Lands—The Land and Water Conservation Fund (L&WCF) Land Acquisition
Program acquires land for the FS NFS. The program coordinates with a variety of partners, including State, local,
and Tribal governments, and private landowners through statewide planning for development of a land-adjustment
strategy.
The Land Acquisition Program preserves, develops, and maintains access to NFS lands and waters for the public
and provides permanent access to public lands for recreation, commodity production, resource management, public
safety, and community economic viability.
The L&WCF statutory authority specifically defines the purpose to also include protecting the quality of scientific,
scenic, historical, ecological, environmental, air and atmospheric, water resource, archeological values, as well as
food and habitat for fish and wildlife, and managing the public lands for minerals, food, timber and fiber.



                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                   121
==
From these several allowable uses of program funding, the program concentrates on protecting habitat for priority
species identified in the national forest and grassland’s Land Management Plans (LMPs) and enhancing
recreational opportunities for areas with high demand for recreation. The program focuses acquisitions on
inholdings and areas adjacent to existing NFS lands.


                                                 FY 2009            Additions           Withdrawals     FY 2008
  Heritage Assets
    National Forests                                      155                 -                   -             155
    National Grasslands                                    20                 -                   -              20
    Other Sites                                           135               113                   -              22
    Research Centers                                       37                 -                   -              37
    Library Collections                                     1                 -                   -               1
  Total                                                   348               113                   -             235

  Stewardship Land
    National Forests                                    155                   -                   -            155
    National Grasslands                                  20                   -                   -             20
    Research and Experimental Areas                       3                   -                   -              3
    National Preserves and Other Areas                    3                   -                   -              3
    Conservation Easements                           10,834                 403                   -         10,431
  Total                                              11,015                 403                   -         10,612



NOTE 11. OTHER ASSETS
In FY 2009 and FY 2008, other assets include investments in trust for loan asset sales of $35 million and $35
million, respectively.
                                                              FY 2009               FY 2008
                          Intragovernmental:
                            Advances to Others            $             4       $             5

                          With the Public:
                            Advances to Others                      148                   216
                            Prepayments                               -                     -
                            Other Assets                             37                    37
                          Total Other Assets              $         189         $         258




NOTE 12. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
In FY 2009 and FY 2008, other intragovernmental liabilities not covered by budgetary resources include accruals
for Federal Employee Compensation Act (FECA) of $169 million and $164 million, contract disputes claims
payable to Treasury’s Judgment Fund of $18 million and $17 million, deposit funds and clearing accounts of $38
million and $4 million, and custodial of $4 million and $5 million, respectively.
In FY 2009 and FY 2008, other liabilities with the public not covered by budgetary resources include, Tobacco
Transition Payment Program of $4,705 million and $5,302 million, future funded indemnity costs of $339 million
and $2,145 million, accruals for rental payments under the Conservation Reserve Program (CRP) of $1,735 million
and $1,776 million, unfunded leave of $629 million and $616 million, Payments to States $443 million and $531



122    FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
million, contingent liabilities of $20 million and $29 million, and deposit funds and clearing accounts of $17
million and $12 million, respectively.
                                                                                  FY 2009             FY 2008
       Intragovernmental:
          Other                                                               $           229     $             190
       Subtotal Intragovernmental                                                         229                   190
       With the Public:
        Federal employee and veterans' benefits                                           846                   832
          Environmental and disposal liabilities                                            9                    18
         Other                                                                          7,887             10,410
       Subtotal With the Public                                                         8,742             11,260

       Total liabilities not covered by budgetary resources                             8,971             11,450

       Total liabilities covered by budgetary resources                               116,753            109,522

       Total Liabilities                                                      $       125,724     $      120,972


NOTE 13. DEBT
                                                              Beginning                               Ending
          FY 2009
                                                               Balance            Net Borrowing       Balance
          Intragovernmental
            Debt to the Treasury                          $       51,201          $      4,427    $      55,628
            Debt to the Federal Financing Bank                    26,376                 2,115           28,491
          Total Intragovernmental                                 77,577                 6,542           84,119

          Agency Debt:
            Held by the Public                                            -                   -                 -

          Total Debt                                      $       77,577          $      6,542    $      84,119

                                                              Beginning                               Ending
          FY 2008
                                                               Balance            Net Borrowing       Balance
          Intragovernmental
            Debt to the Treasury                          $       49,197          $      2,004    $      51,201
            Debt to the Federal Financing Bank                    25,904                   472           26,376
          Total Intragovernmental                                 75,101                 2,476           77,577

          Agency Debt:
            Held by the Public                                            -                   -                 -

          Total Debt                                      $       75,101          $      2,476    $      77,577




                       FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                   123
==
NOTE 14. ENVIRONMENTAL AND DISPOSAL LIABILITIES
The Department is subject to the Comprehensive Environmental Response, Compensation, and Liability Act, the
Clean Water Act, and the Resource Conservation and Recovery Act for cleanup of hazardous waste. In FY 2009,
the FS and CCC estimate the liability for total cleanup costs for sites known to contain hazardous waste to be $1
million and $8 million respectively, $18 million for FS and $7 million for CCC in FY 2008, based on actual
cleanup costs at similar sites. These estimates will change as new sites are discovered, remedy standards change and
new technology is introduced.
NOTE 15. OTHER LIABILITIES
In FY 2009, other liabilities with the public include estimated losses on crop insurance claims of $2,865 million,
estimated underwriting gains on crop insurance of $2,194 million, crop insurance premium subsidy deficiency
reserve of $839 million, Payments to States of $443 million, estimated program delivery cost to reinsurer of $13
million, loans paid in advance for multi-family housing of $9 million, undistributed credits for insured loans of $4
million, credit reform programs of $7 million, and purchaser road credits of $1 million.
In FY 2008, other liabilities with the public include estimated losses on crop insurance claims of $3,881 million,
estimated underwriting gains on crop insurance of $2,491 million, crop insurance premium subsidy deficiency
reserve of $887 million, Payments to States of $531 million, estimated program delivery cost to reinsurer of $31
million, loans paid in advance for multi-family housing of $9 million, undistributed credits for insured loans of $2
million, credit reform programs of $10 million, and purchaser road credits of $1 million.
              FY 2009                                                    Non-Current       Current         Total
              Intragovernmental:
                Other Accrued Liabilities                            $           18    $       31    $       49
                Employer Contributions and Payroll Taxes                          -            86            86
                Unfunded FECA Liability                                           -           169           169
                Other Unfunded Employment Related Liability                       -            17            17
                Advances from Others                                              -            37            37
                Liability for Deposit Funds, Clearing Accounts                    -             9             9
                Liability for Subsidy Related to Undisbursed Loans                -           564           564
                Resources Payable to Treasury                                     -        10,799        10,799
                Custodial Liability                                               -            44            44
              Subtotal Intragovernmental                                         18        11,756        11,774

              With the Public:
                Other Accrued Liabilities                                         -        13,930        13,930
                Accrued Funded Payroll and Leave                                  -           239           239
                Unfunded Leave                                                    -           629           629
                Advances from Others                                              -            51            51
                Deferred Credits                                                  -           613           613
                Liability for Deposit Funds, Clearing Accounts                    -           127           127
                Contingent Liabilities                                           16         1,254         1,270
                Capital Lease Liability                                          25            15            40
                Custodial Liability                                               -            (1)           (1)
                Other Liabilities                                                21         6,355         6,376
              Subtotal With the Public                                           62        23,212        23,274

              Total Other Liabilities                                $           80    $   34,968    $   35,048




124     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
     FY 2008                                                    Non-Current       Current         Total
     Intragovernmental:
       Other Accrued Liabilities                            $           17    $      126    $      143
       Employer Contributions and Payroll Taxes                          -            75            75
       Unfunded FECA Liability                                           -           164           164
       Advances from Others                                              -            12            12
       Liability for Deposit Funds, Clearing Accounts                    -           (15)          (15)
       Liability for Subsidy Related to Undisbursed Loans                -           525           525
       Resources Payable to Treasury                                     -        12,702        12,702
       Custodial Liability                                               -            72            72
       Other Liabilities                                                 -             -             -
     Subtotal Intragovernmental                                         17        13,661        13,678

     With the Public:
       Other Accrued Liabilities                                         -        14,070        14,070
       Accrued Funded Payroll and Leave                                  -           201           201
       Unfunded Leave                                                    -           616           616
       Advances from Others                                              -            52            52
       Deferred Credits                                                  -           645           645
       Liability for Deposit Funds, Clearing Accounts                    -           285           285
       Contingent Liabilities                                           14           115           129
       Capital Lease Liability                                          28            37            65
       Custodial Liability                                               -             2             2
       Other Liabilities                                                20         7,823         7,843
     Subtotal With the Public                                           62        23,846        23,908

     Total Other Liabilities                                $           79    $   37,507    $   37,586




              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                125
==
NOTE 16. LEASES
USDA activities based in the Washington D.C. area are located in General Services Administration (GSA) leased
facilities, and USDA owned buildings. The USDA Headquarter complex (Whitten Building, and South Building)
is a government owned facility, which is part of the GSA Federal Buildings Inventory. As the result of a 1998
Agreement between GSA and USDA, a moratorium was placed on the rental billings for the Headquarters
complex beginning in FY 1999.
At current market rate, the estimated yearly rental payment for the above mentioned space would be $63.4 million.
This agreement is still in effect and as a result, USDA activities located in the Headquarter complex are not billed
for rental costs.

 FY 2009
 Capital Leases:
   Summary of Assets Under Capital Leases
     Land and Building                              $            76
     Machinery and Equipment                                      -
     Accumulated Amortization                                   (42)

      Future Payments Due:
                                                                           Machinery &
                                                    Land & Buildings                             Other       Totals
                                                                           Equipment
     Fiscal Year
     2010                                                       14                       -               -             14
     2011                                                       13                       -               -             13
     2012                                                       12                       -               -             12
     2013                                                       11                       -               -             11
     2014                                                       11                       -               -             11
     After 5 Years                                              44                       -               -             44
 Total Future Lease Payments                                   105                       -               -            105
 Less: Imputed Interest                                         44                       -               -             44
 Less: Executory Costs                                          21                       -               -             21
 Less: Lease Renewal Options                                     -                       -               -              -
 Net Capital Lease Liability                                    40                       -   $           -             40

 Lease liabilities covered by budgetary resources               40

 Operating Leases:
  Future Payments Due:
                                                                           Machinery &
                                                    Land & Buildings                             Other       Totals
        Fiscal Year                                                        Equipment
        2010                                                   117                       1               -            118
        2011                                                   104                       1               1            106
        2012                                                    93                       -               1             94
        2013                                                    82                       -               1             83
        2014                                                    76                       -               1             77
        After 5 Years                                          462                       -               2            464
      Total Future Lease Payments                   $          934     $                 2   $           6   $        942




126        FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
     FY 2008
     Capital Leases:
       Summary of Assets Under Capital Leases
         Land and Building                              $          142
         Machinery and Equipment                                     1
         Accumulated Amortization                                  (78)

       Future Payments Due:
                                                                               Machinery &
                                                        Land & Buildings                             Other       Totals
                                                                               Equipment
         Fiscal Year
         2009                                                       22                       -               -             22
         2010                                                       20                       -               -             20
         2011                                                       19                       -               -             19
         2012                                                       16                       -               -             16
         2013                                                       13                       -               -             13
         After 5 Years                                              57                       -               -             57
     Total Future Lease Payments                                   147                       -               -            147
     Less: Imputed Interest                                         48                       -               -             48
     Less: Executory Costs                                          19                       -               -             19
     Less: Lease Renewal Options                                    15                       -               -             15
     Net Capital Lease Liability                                    65                       -   $           -             65

     Lease liabilities covered by budgetary resources               65

     Operating Leases:
      Future Payments Due:
                                                                               Machinery &
                                                        Land & Buildings                             Other       Totals
         Fiscal Year                                                           Equipment
         2009                                                      106                       1               -            107
         2010                                                       94                       1               -             95
         2011                                                       84                       -               -             84
         2012                                                       73                       -               -             73
         2013                                                       63                       -               -             63
         After 5 Years                                             426                       -               -            426
       Total Future Lease Payments                      $          846     $                 2   $           -   $        848



NOTE 17. COMMITMENTS AND CONTINGENCIES
The Department is subject to various claims and contingencies related to lawsuits as well as commitments under
contractual and other commercial obligations.
For cases in which payment has been deemed probable and for which the amount of potential liability has been
estimated, $1,270 million and $129 million has been accrued in the financial statements as of September 30, 2009
and 2008, respectively.
No amounts have been accrued in the financial statements for claims where the amount is uncertain or where the
probability of judgment against USDA is remote. The Department’s potential liability for claims where a judgment
against the Department is reasonably possible ranges from $47 million to $241 million as of September 30, 2009,
compared to $50 million to $260 million as of September 30, 2008.
CRP rental payments are estimated to be $1,800 million annually through FY 2016. Commitments to extend loan
guarantees are estimated to be $6,066 million and $3,846 million in FY 2009 and FY 2008, respectively.
NOTE 18. EARMARKED FUNDS
Earmarked funds are financed by specifically identified revenues, often supplemented by other financing sources,
which remain available over time. These specifically identified revenues and other financing sources are required by




                             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                       127
==
statute to be used for designated activities, benefits or purposes and must be accounted for separately from the
Government’s general revenues.
Financial information for all significant earmarked funds follows the descriptions of each fund’s purpose shown
below.
Risk Management Agency
Federal Crop Insurance Corporation Fund (FCIC)
Resources for the FCIC Fund includes funds collected from the public for insurance premiums and other insurance
related fees that are used with appropriations from Congress and unobligated balances from previous years to fund
the Federal Crop Insurance Program. Funds are available under 7 U.S.C. 1501-1519.
Agricultural Marketing Service
Funds for Strengthening Markets, Income, and Supply
This fund is used to purchase commodities for schools and elderly feeding programs, to provide goods and other
necessities in emergencies and disasters, and to purchase agricultural commodities to stabilize markets. The fund is
permanently financed by statutory transfer of an amount equal to 30 percent of customs receipts collected during
each calendar year and is automatically appropriated for expanding outlets for perishable, non-price supported
commodities. An amount equal to 30 percent of receipts collected on fishery products is transferred to the Food
and Nutrition Service and is used to purchase commodities under section 6 of the National School Lunch Act and
other authorities specified in the child nutrition appropriation. Funds are available under section 32 of the Act of
August 24, 1935, as amended (7 U.S.C. 612c).
Expenses and Refunds, Inspection and Grading of Farm Products
The commodity grading programs provide grading, examination, and certification services for a wide variety of
fresh and processed food commodities using federally approved grade standards and purchase specifications. This
fund is financed by the collection of fees charged to producers of various food commodities who request, on a
voluntary basis, inspection and grading of agricultural food commodities. This program is authorized by the
Agricultural Marketing Act of 1946 (7 U.S.C. 1621-1627).
Animal Plant Health Inspection Service
Agricultural Quarantine Inspection User Fee Account
This fund is used to record and report expenditures and revenue associated with operating Agricultural Quarantine
Inspection (AQI) activities at ports of entry. The Farm Bill of 1990, as amended by the Federal Agriculture
Improvement and Reform Act of 1996, gave the Animal and Plant Health Inspection Service (APHIS) the
authority to charge user fees for AQI services, and to use the revenue to fund AQI activities. In March of 2003, a
portion of the AQI program was transferred to the Department of Homeland Security (DHS); however, APHIS
retained the authority to collect AQI revenue. APHIS transfers a portion of the revenue to DHS periodically
throughout the year to fund their expenditures. The revenue in the fund is collected from airlines, air passengers,
vessels, trucks, and railroad cars that are subject to AQI inspection at ports of entry. These user fees are an inflow
of revenue from the public that is used to fund AQI inspections that are required by APHIS and DHS. The
authority is codified in 21 U.S.C. 136(a).
Forest Service
Cooperative Work
Cooperative contributions are deposited for disbursement in compliance with the terms and provisions of the
agreement between the cooperator and the Forest Service. Cooperators include timber purchasers, not-for-profit
organizations, and local hunting and fishing clubs. The governing authorities are the Cooperative Funds Act of
June 30, 1914 (16 U.S.C. 498), and the Knutson-Vandenberg Act.


128      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Land Acquisition
Each fiscal year this fund receives a transfer of recreation user fees from the Department of the Interior’s Land and
Water Conservation Fund, to be used for the acquisition of land or waters, or interest therein, including
administrative expenses, to carry out the provisions of the Land and Water Conservation Fund Act of 1965, as
amended (16 U.S.C. 460l-4-11), pertaining to the preservation of watersheds. The Land Acquisition program is
authorized by the Interior and Related Agencies Appropriations Act of December 30, 1982 (96 Stat. 1983, Public
Law 97-394).
Payments to States, National Forest Fund
The Act of May 23, 1908, as amended (16 U.S.C. 500), commonly known as “Payments to States”, requires with a
few exceptions, that 25.0 percent of all monies received from the national forests and deposited into the National
Forest Fund during a fiscal year from timber, grazing, special-use permits, power and mineral leases, and admission
and user fees be paid to the States in which the national forests are located, for public schools and public roads in
the county or counties in which the national forests are situated. The Secure Rural Schools and Community Self-
Determination Act of 2000 (P.L. 106-393) as amended by § 601 of The Emergency Economic Stabilization Act of
2008, (H.R. 1424) (P.L. 110-343), provides stabilized education and road maintenance funding through
predictable payments to counties, job creation in those counties, and other opportunities associated with the
restoration, maintenance, and stewardship of Federal lands.
Timber Salvage Sales
The Timber Salvage Sale Fund was established to facilitate the timely removal of timber damaged by fire, wind,
insects, disease, or other events. Amounts collected from the sale of salvaged timber are used on other qualifying
salvage sales to cover the cost of preparing and administering the sales. The Timber Salvage Sales program is
authorized by 16 USC 472(a).
State, Private, and International Forestry Land and Water Conservation Fund
The Fiscal Year 2004 Department of the Interior and Related Agencies Appropriation Act (Public Law 108-108)
authorizes the Forest Service to receive a transfer of receipts from the Department of the Interior’s Land and Water
Conservation Fund to finance the existing Forest Legacy Program, funded previously by State and Private Forestry
general appropriation. To accommodate the new financing arrangement and at OMB’s request, the U.S.
Department of Treasury established a new special fund, “State, Private and International Forestry Land and Water
Conservation Fund”. The program expenditures include grants and an occasional land purchase, but no real
property will be procured or constructed.
Recreation Fee Demonstration Program
The Recreation Fee Demonstration Program fund receives deposits of recreation fees collected from projects that
are part of the Recreation Fee Demonstration Program. These monies are retained and used for backlog repair and
maintenance of recreation areas, sites or projects. These funds are also used for interpretation, signage, habitat or
facility enhancement, resource preservation, annual operation, maintenance, and law enforcement related to public
use of recreation areas and sites. The Recreation Fee Demonstration Program is authorized by 16 U.S.C. 4601-
6(a).
National Forest Fund Receipts
The Federal Lands Recreation Enhancement Act (FLREA) (Public Law 108-447) sets forth provisions for
collection of recreation fees and retention of special recreation permit fees by the FS. The FS deposits 85 percent
of special use permit revenues from these authorizations into the National Forest Fund.




                       FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                  129
==
Restoration of Forest Lands and Improvements
The Restoration of Forest Lands and Improvements Acts (16 U.S.C. 579(c)) provides that any monies received by
the United States with respect to lands under the administration of the Forest Service (a) as a result of the forfeiture
of a bond or deposit by a permittee or timber purchaser for failure to complete performance of improvement,
protection, or rehabilitation work required under the permit or timber sale contract or (b) as a result of a judgment,
compromise, or settlement of any claim, involving present or potential damage to lands or improvements, shall be
deposited into the United States Treasury and are appropriated and made available until expended to cover the cost
to the United States of any improvement, protection, or rehabilitation work on lands under the administration of
the Forest Service rendered necessary by the action which led to the forfeiture, judgment, compromise, or
settlement: Provided, that any portion of the moneys received in excess of the amount expended in performing the
work necessitated by the action which led to their receipt shall be transferred to miscellaneous receipts.
Acquisition of Lands to Complete Land Exchanges
As authorized by 7 statutes, this program is funded annually by congressional appropriation action, with forest
revenues generated by the occupancy of public land or from the sale of natural resources other than minerals. All
funds appropriated that remain unobligated at the end of the fiscal year are returned to the receipts of the affected
national forests. These funds are used to purchase land and for related expenditures such as title search, escrow,
recording, and personnel costs when the purchase is considered necessary to minimize soil erosion and flood
damage. This appropriation is available for land acquisition within the exterior boundaries of the national forests.
Cooperative State Research Education and Extension Service
Native American Institutions Endowment Fund
The Native American Institutions Endowment Fund was authorized by Public Law 103-382, and provided an
initial installment to establish an endowment to benefit the 1994 land grant institutions. The public law states that
“This program will enhance educational opportunities for Native Americans by building educational capacity at
these institutions in the areas of student recruitment and retention, curricula development, faculty preparation,
instruction delivery systems, and scientific instrumentation for teaching.” While the principal (corpus) of the fund
cannot be used, the interest that is earned on the endowment fund investments in Treasury instruments can be used
for the purposes described above. After the close of a fiscal year, the income is distributed after making adjustments
for the cost of administering the fund.
Farm Service Agency
Agricultural Disaster Relief Trust Fund
The Agricultural Disaster Relief Trust Fund shall make amounts available for the purpose of expenditures to meet
the obligations of the United States incurred under section 901 or section 531 of the Federal Crop Insurance Act.
The trust fund will be used to make payments to farmers and ranchers under five disaster assistance programs: (1)
Supplemental Revenue Assistance Payments (SURE) Program, (2) Livestock Feed Program (LFP), (3) Livestock
Indemnity Program (LIP), (4) Tree Assistance Program (TAP), and (5) Emergency Assistance for Livestock,
Honey Bees, and Farm-Raised Fish Program (ELAP). The fund has appropriated an amount equivalent to 3.08
percent of the amounts received in the general fund of the Treasury of the United States during fiscal years 2008
through 2011 attributable to the duties collected on articles entered, or withdrawn from warehouse, for
consumption under the Harmonized Tariff Schedule of the United States.
Other
Financial information is summarized for all other earmarked funds with total assets less than $50 million listed
below.
Agricultural Marketing Service
Perishable Agricultural Commodities Act


130      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Wool Research, Development and Promotion Trust Fund
Animal Plant Health Inspection Service
Miscellaneous Contributed Funds
Forest Service
Roads and Trails for States, National Forest Fund
Reforestation Trust Fund
Payments to Counties, National Grasslands
Timber Sales Pipeline Restoration Fund
Operation and Maintenance of Forest Service Quarters
Timber Roads, Purchaser Elections
Expenses, Brush Disposal
Range Betterment Fund
Acquisition of Lands for National Forests, Special Acts
Construction of Facilities or Land Acquisition
Recreation Fees for Collection Costs
Payment to Minnesota (Cook, Lake and Saint Louis Counties)
Licensee Program
Tongass Timber Supply Fund
Resource Management Timber Receipts
Quinault Special Management Area
MNP Rental Fee Account
Midewin National Tallgrass Prairie Restoration Fund
Land Between the Lakes Management Fund
Administration of Rights-of-Way and Other Land Uses Fund
Valles Caldera Fund
Hardwood Technology Transfer and Applied Research Fund
Stewardship Contracting Product Sales
Mount Saint Helens Highway
Gifts, Donations and Bequests for Forest and Rangeland Research
Land Between the Lakes Trust Fund
Gifts and Bequests
Natural Resources Conservation Service
Miscellaneous Contributed Funds
Agricultural Research Service
Concessions Fees and Volunteer Services
Gifts and Bequests
Miscellaneous Contributed Funds
Rural Development
Alternative Agricultural Research and Commercialization Revolving Fund
Foreign Agricultural Service
Miscellaneous Contributed Funds


                       FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION   131
==
Gifts and Bequests
Grain Inspection, Packers and Stockyards Administration
Inspection and Weighing Services
Food Safety and Inspection Service
Expenses and Refunds, Inspection of Farm Products
Office of the Inspector General
Inspector General Assets Forfeiture, Department of Justice
Inspector General Assets Forfeiture, Department of Treasury
National Agricultural Statistics Service
Miscellaneous Contributed Funds
Economic Research Service
Miscellaneous Contributed Funds
Departmental Offices
Gifts and Bequests




132      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Earmarked Funds


                                                RMA                    AMS                  AMS                APHIS                  FS                  FS                   FS                  FS

                                                                                        Expenses and
                                                                    Funds for              Refunds,           Agricultural
                                            Federal Crop          Strengthening         Inspection and        Quarantine                                                 Payments to
                                              Insurance          Markets, Income,      Grading of Farm     Inspection User                                              States, National     Timber Salvage
Balance Sheet As of September 30, 2009     Corporation Fund        and Supply              Products          Fee Account        Cooperative Work   Land Acquisition      Forests Fund            Sales
                                               12X4085              12X5209                12X8015             12X5161             12X8028            12X5004              12X5201              12X5204
Fund Balance with Treasury                $            1,218    $             427      $             61   $                79   $           388    $             23    $             150     $           55
Investments                                                -                      -                  40                     -                  -                   -                     -                 -
Other Assets                                           2,981                  253                    17                  127                 22                  49                    3                  4
Total Assets                                           4,199                  680                   118                  206                410                  72                  153                 59

Other Liabilities                                      6,776                      3                 64                    77                 51                   1                  425                   5
Total Liabilities                                      6,776                      3                 64                    77                 51                   1                  425                   5

Unexpended Appropriations                                897                   302                   -                    -                   -                   -                     -                 -
Cumulative Results of Operations                      (3,474)                  375                  54                  129                 359                  71                  (272)               54

Total Liabilities and Net Position                     4,199                   680                 118                  206                 410                  72                  153                 59




Statement of Net Cost For the Period
Ended September 30, 2009
Gross program costs                                   10,060                 1,017                 183                  230                 126                  59                  400                 36
Less Earned Revenue                                    2,878                     1                 148                  486                  91                   -                  163                 24
Net Cost of Operations                                 7,182                 1,016                  35                 (256)                 35                  59                  237                 12




Statement of Changes in Net Position
For the period Ended September 30, 2009
Net Position Beginning of Period                      (2,210)                  680                  53                  220                 263                  80                   (35)               66

Non-Exchange Revenue                                   6,815                  1,013                  1                 (347)                131                  50                     -                  -
Other Financing Sources                                    -                      -                 35                    -                   -                   -                     -                  -
Net Cost of Operations                                (7,182)                (1,016)               (35)                 256                 (35)                (59)                 (237)               (12)

Change in net Position                                  (367)                    (3)                 1                   (91)                96                  (9)                 (237)               (12)

Net Position End of Period                $           (2,577)   $              677     $            54    $             129     $           359    $             71    $             (272)   $           54




                                                                                                                 133
                                                                           FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Earmarked Funds


                                                 FS                   FS                   FS                  FS                CSREES                  FSA
                                           State, Private,
                                          and International
                                           Forestry, Land                                                 Acquisition of
                                             and Water          Recreation Fee       Restoration of         Lands to         Native American         Agricultural
                                            Conservation         Demonstration      Forest Lands and    Complete Land           Institutions        Disaster Relief
Balance Sheet As of September 30, 2009          Fund               Program           Improvements          Exchanges         Endowment Fund           Trust Fund            Other            Total
                                              12X5367              12X5268              12X5215             12X5216              12X5205               12X5531
Fund Balance with Treasury                $            106     $            129     $           150     $             43     $               20   $           1,533     $       314      $       4,696
Investments                                                -                   -                    -                    -                 105                      -            10                155
Other Assets                                             6                     4                 26                   33                      -                     -            32              3,557
Total Assets                                           112                  133                 176                   76                   125                1,533             356              8,408

Other Liabilities                                       32                     5                   1                    1                    -                     2                51           7,494
Total Liabilities                                       32                     5                   1                    1                    -                     2                51           7,494

Unexpended Appropriations                                -                     -                  -                     -                  60                      -              4              1,263
Cumulative Results of Operations                        80                   128                175                    75                  65                  1,531            301               (349)

Total Liabilities and Net Position                     112                   133                176                    76                 125                  1,533            356              8,408




Statement of Net Cost For the Period
Ended September 30, 2009
Gross program costs                                     76                    86                  10                    8                    3                     5            219             12,518
Less Earned Revenue                                      -                    67                  30                    9                    4                     -            106              4,007
Net Cost of Operations                                  76                    19                 (20)                  (1)                  (1)                    5            113              8,511




Statement of Changes in Net Position
For the period Ended September 30, 2009
Net Position Beginning of Period                       107                   147                154                    74                 112                   833             394                  938

Non-Exchange Revenue                                    49                     -                  1                     -                  12                   703              33              8,461
Other Financing Sources                                  -                     -                  -                     -                   -                     -              (9)                26
Net Cost of Operations                                 (76)                  (19)                20                     1                   1                    (5)           (113)            (8,511)

Change in net Position                                 (27)                  (19)                21                     1                  13                   698             (89)                 (24)

Net Position End of Period                $             80     $             128    $           175     $              75    $            125     $            1,531    $       305      $           914




                                                                                                             134
                                                                           FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Earmarked Funds


                                                RMA                    AMS                  AMS                APHIS                 FS                  FS                   FS                  FS                  FS
                                                                                                                                                                                                                State, Private,
                                                                                       Expenses and                                                                                                            and International
                                                                    Funds for             Refunds,            Agricultural                                                                                      Forestry, Land
                                            Federal Crop          Strengthening        Inspection and         Quarantine                                                Payments to                               and Water
                                              Insurance          Markets, Income,     Grading of Farm      Inspection User                                             States, National     Timber Salvage       Conservation
Balance Sheet As of September 30, 2008     Corporation Fund        and Supply             Products           Fee Account       Cooperative Work   Land Acquisition      Forests Fund            Sales                Fund
                                               12X4085              12X5209               12X8015              12X5161            12X8028            12X5004              12X5201              12X5204             12X5367
Fund Balance with Treasury                $            2,364    $             362     $             95    $              153   $           296    $             32    $              96     $           66     $            107
Investments                                                -                      -                   -                    -                  -                   -                     -                 -                     -
Other Assets                                           3,744                  329                   18                   148                21                  49                    3                  4                    4
Total Assets                                           6,108                  691                  113                   301               317                  81                   99                 70                  111

Other Liabilities                                     8,318                     11                  60                    81                54                   1                  134                  4                     4
Total Liabilities                                     8,318                     11                  60                    81                54                   1                  134                  4                     4

Unexpended Appropriations                                944                   302                   -                  130                  -                   -                     -                 -                    1
Cumulative Results of Operations                      (3,154)                  378                  53                   90                263                  80                   (35)               66                  106

Total Liabilities and Net Position                    6,108                    691                 113                  301                317                  81                    99                70                  111




Statement of Net Cost For the Period
Ended September 30, 2008
Gross program costs                                   7,081                    717                 185                  199                139                  40                  169                 43                   47
Less Earned Revenue                                   1,440                      1                 155                  607                105                   -                   59                 36                    -
Net Cost of Operations                                5,641                    716                  30                 (408)                34                  40                  110                  7                   47




Statement of Changes in Net Position
For the period Ended September 30, 2008
Net Position Beginning of Period                       (393)                   854                  25                  132                301                  66                    75                73                  100

Non-Exchange Revenue                                   3,824                   542                  25                 (320)                (4)                 54                     -                  -                  54
Other Financing Sources                                    -                     -                  33                    -                  -                   -                     -                  -                   -
Net Cost of Operations                                (5,641)                 (716)                (30)                 408                (34)                (40)                 (110)                (7)                (47)

Change in net Position                                (1,817)                 (174)                 28                    88               (38)                 14                  (110)                (7)                   7

Net Position End of Period                $           (2,210)   $              680    $             53    $             220    $           263    $             80    $              (35)   $           66     $            107




                                                                                                                    135
                                                                             FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Earmarked Funds


                                                 FS                  FS                 FS                  FS                CSREES                  FSA


                                                                                                       Acquisition of
                                           Recreation Fee                         Restoration of         Lands to         Native American         Agricultural
                                            Demonstration      National Forest   Forest Lands and    Complete Land           Institutions        Disaster Relief
Balance Sheet As of September 30, 2008        Program          Fund Receipts      Improvements          Exchanges         Endowment Fund           Trust Fund            Other            Total
                                              12X5268              125008            12X5215             12X5216              12X5205               12X5531
Fund Balance with Treasury                $            147     $           74    $           113     $             51     $               11   $             833     $       315      $       5,115
Investments                                               -                  -                   -                    -                 101                      -            10                111
Other Assets                                              4                 6                 41                   23                      -                     -            33              4,427
Total Assets                                           151                 80                154                   74                   112                  833             358              9,653

Other Liabilities                                        4                  -                   -                     -                   -                      -               44           8,715
Total Liabilities                                        4                  -                   -                     -                   -                      -               44           8,715

Unexpended Appropriations                                -                  -                  -                     -                  48                     -               3              1,428
Cumulative Results of Operations                       147                 80                154                    74                  64                   833             311               (490)

Total Liabilities and Net Position                     151                 80                154                    74                 112                   833             358              9,653




Statement of Net Cost For the Period
Ended September 30, 2008
Gross program costs                                     65                  -                   5                   10                    2                      -           237              8,939
Less Earned Revenue                                     61                 34                 108                   20                    4                      -           167              2,797
Net Cost of Operations                                   4                (34)               (103)                 (10)                  (2)                     -            70              6,142




Statement of Changes in Net Position
For the period Ended September 30, 2008
Net Position Beginning of Period                       151                 48                 51                    64                  98                       -           257              1,902

Non-Exchange Revenue                                      -                 -                  -                     -                  12                   833              60              5,080
Other Financing Sources                                   -                (2)                 -                     -                   -                     -              67                 98
Net Cost of Operations                                   (4)               34                103                    10                   2                     -             (70)            (6,142)

Change in net Position                                   (4)               32                103                    10                  14                   833                 57               (964)

Net Position End of Period                $            147     $           80    $           154     $              74    $            112     $             833     $       314      $           938




                                                                                                          136
                                                                      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
NOTE 19. SUBORGANIZATION PROGRAM COSTS/PROGRAM COSTS BY SEGMENT
        FY 2009                                                             FSA                                        CCC                                       FAS
                                                            Intragovernmental   With the Public        Intragovernmental   With the Public       Intragovernmental   With the Public



        Enhance International Competitiveness and
        the Sustainability of Rural and Farm Economies:
        Gross Costs                                         $                -   $                -    $             136    $        1,612       $             104    $          287
        Less: Earned Revenue                                                 -                    -                  192               112                     130                 -
        Net Costs                                                            -                    -                  (56)            1,500                     (26)              287

        Enhance the Competitiveness and Sustainability
        of Rural and Farm Economies:
        Gross Costs                                                      1,007            2,200                     1,095           11,757                        -                    -
        Less: Earned Revenue                                               244              249                         2            2,361                        -                    -
        Net Costs                                                          763            1,951                     1,093            9,396                        -                    -

        Support Increased Economic Opportunities and
        Improved Quality of Life in Rural America:
        Gross Costs                                                          -                    -                     -                    -                    -                    -
        Less: Earned Revenue                                                 -                    -                     -                    -                    -                    -
        Net Costs                                                            -                    -                     -                    -                    -                    -

        Enhance Protection and Safety of the Nation's
        Agriculture and Food Supply:                                         -                    -                     -                    -                    -                    -
        Gross Costs                                                          -                    -                     -                    -                    -                    -
        Less: Earned Revenue                                                 -                    -                     -                    -                    -                    -
        Net Costs

        Improve the Nation's Nutrition and Health:
        Gross Costs                                                          -                    -                     -                    -                    -                    -
        Less: Earned Revenue                                                 -                    -                     -                    -                    -                    -
        Net Costs                                                            -                    -                     -                    -                    -                    -

        Protect and Enhance the Nation's Natural Resource
        Base and Environment:
        Gross Costs                                                          -                    -                  399             1,825                        -                    -
        Less: Earned Revenue                                                 -                    -                    -                 1                        -                    -
        Net Costs                                                            -                    -                  399             1,824                        -                    -

        Total Gross Costs                                                1,007            2,200                     1,630           15,194                     104               287
        Less: Total Earned Revenue                                         244              249                       194            2,474                     130                 -
        Net Cost of Operations                              $              763   $        1,951        $            1,436   $       12,720       $             (26)   $          287




                                                                                                      137
                                                                    FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2009                                                             RMA                                       FNS                                       FSIS
                                                    Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental    With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $                -   $                -   $                -   $                -   $                -    $                -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
Net Costs                                                            -                    -                    -                    -                    -                     -

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Costs                                                        67            10,082                        -                    -                    -                     -
Less: Earned Revenue                                                -             2,878                        -                    -                    -                     -
Net Costs                                                          67             7,204                        -                    -                    -                     -

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                          -                    -                    -                    -                    -                     -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
Net Costs                                                            -                    -                    -                    -                    -                     -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                         -                    -                    -                    -                  354               875
Gross Costs                                                          -                    -                    -                    -                    3               140
Less: Earned Revenue                                                 -                    -                    -                    -                  351               735
Net Costs

Improve the Nation's Nutrition and Health:
Gross Costs                                                          -                    -                1,097           78,332                        -                     -
Less: Earned Revenue                                                 -                    -                    2               40                        -                     -
Net Costs                                                            -                    -                1,095           78,292                        -                     -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                          -                    -                    -                    -                    -                     -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
Net Costs                                                            -                    -                    -                    -                    -                     -

Total Gross Costs                                                  67            10,082                   1,097            78,332                      354               875
Less: Total Earned Revenue                                          -             2,878                       2                40                        3               140
Net Cost of Operations                              $              67    $        7,204       $           1,095    $       78,292       $              351    $          735




                                                                                      138
                                                         FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2009                                                             AMS                                      APHIS                                     GIPSA
                                                    Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $                -   $                -   $                -   $                -   $              13    $           20
Less: Earned Revenue                                                 -                    -                    -                    -                   -                18
Net Costs                                                            -                    -                    -                    -                  13                 2

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Costs                                                       140             1,210                        -                    -                  19                44
Less: Earned Revenue                                                2               190                        -                    -                   -                23
Net Costs                                                         138             1,020                        -                    -                  19                21

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                          -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Costs                                                            -                    -                    -                    -                    -                    -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                         -                    -                 387             1,021                        -                    -
Gross Costs                                                          -                    -                  31               584                        -                    -
Less: Earned Revenue                                                 -                    -                 356               437                        -                    -
Net Costs

Improve the Nation's Nutrition and Health:
Gross Costs                                                          -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Costs                                                            -                    -                    -                    -                    -                    -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                          -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Costs                                                            -                    -                    -                    -                    -                    -

Total Gross Costs                                                 140             1,210                     387             1,021                      32                64
Less: Total Earned Revenue                                          2               190                      31               584                       -                41
Net Cost of Operations                              $             138    $        1,020       $             356    $          437       $              32    $           23




                                                                                      139
                                                         FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2009                                                                 FS                                        NRCS                                       ARS
                                                    Intragovernmental        With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $                   -    $                 -   $                -   $                -   $                -   $                -
Less: Earned Revenue                                                    -                      -                    -                    -                    -                    -
Net Costs                                                               -                      -                    -                    -                    -                    -

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Costs                                                             -                      -                    -                    -                 102               404
Less: Earned Revenue                                                    -                      -                    -                    -                  32                16
Net Costs                                                               -                      -                    -                    -                  70               388

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                             -                      -                    -                    -                    -                    -
Less: Earned Revenue                                                    -                      -                    -                    -                    -                    -
Net Costs                                                               -                      -                    -                    -                    -                    -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                            -                      -                    -                    -                 100               395
Gross Costs                                                             -                      -                    -                    -                  31                15
Less: Earned Revenue                                                    -                      -                    -                    -                  69               380
Net Costs

Improve the Nation's Nutrition and Health:
Gross Costs                                                             -                      -                    -                    -                  21                85
Less: Earned Revenue                                                    -                      -                    -                    -                   7                 3
Net Costs                                                               -                      -                    -                    -                  14                82

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                      1,251                 5,338                     549             2,426                      57               229
Less: Earned Revenue                                               128                   551                      95                10                      19                10
Net Costs                                                        1,123                 4,787                     454             2,416                      38               219

Total Gross Costs                                                1,251                 5,338                     549             2,426                     280             1,113
Less: Total Earned Revenue                                         128                   551                      95                10                      89                44
Net Cost of Operations                              $            1,123       $         4,787       $             454    $        2,416       $             191    $        1,069




                                                                                           140
                                                          FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2009                                                           CSREES                                   ERS                                  NASS
                                                    Intragovernmental  With the Public     Intragovernmental   With the Public   Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $               -    $           6     $               7    $           10   $                -   $                -
Less: Earned Revenue                                                -                -                     -                 -                    -                    -
Net Costs                                                           -                6                     7                10                    -                    -

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Costs                                                        14              416                    15                21                  41                99
Less: Earned Revenue                                               17                -                     -                 -                  15                 2
Net Costs                                                          (3)             416                    15                21                  26                97

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                         6              198                     3                 4                  13                31
Less: Earned Revenue                                                8                -                     -                 -                   5                 1
Net Costs                                                          (2)             198                     3                 4                   8                30

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                        7              220                     2                 2                   1                 2
Gross Costs                                                         9                -                     -                 -                   -                 -
Less: Earned Revenue                                               (2)             220                     2                 2                   1                 2
Net Costs

Improve the Nation's Nutrition and Health:
Gross Costs                                                         5              148                    10                14                    -                    -
Less: Earned Revenue                                                6                -                     -                 -                    -                    -
Net Costs                                                          (1)             148                    10                14                    -                    -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                         6              194                     4                 5                   1                 3
Less: Earned Revenue                                                8                -                     -                 -                   -                 -
Net Costs                                                          (2)             194                     4                 5                   1                 3

Total Gross Costs                                                  38            1,182                    41                56                  56               135
Less: Total Earned Revenue                                         48                -                     -                 -                  20                 3
Net Cost of Operations                              $             (10)   $       1,182     $              41    $           56   $              36    $          132




                                                                                     141
                                                         FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2009                                                              RD                                        DO                                  TOTAL
                                                    Intragovernmental   With the Public       Intragovernmental   With the Public   Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $                -   $                -   $              14     $          22   $             274    $        1,957
Less: Earned Revenue                                                 -                    -                  21                 -                 343               130
Net Costs                                                            -                    -                  (7)               22                 (69)            1,827

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Costs                                                          -                    -                 125               209                2,625           26,442
Less: Earned Revenue                                                 -                    -                 196                 2                  508            5,721
Net Costs                                                            -                    -                 (71)              207                2,117           20,721

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                      4,069            2,707                      63               107                4,154            3,047
Less: Earned Revenue                                               471            3,320                     100                 1                  584            3,322
Net Costs                                                        3,598             (613)                    (37)              106                3,570             (275)

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                         -                    -                 107               178                 958             2,693
Gross Costs                                                          -                    -                 167                 2                 241               741
Less: Earned Revenue                                                 -                    -                 (60)              176                 717             1,952
Net Costs

Improve the Nation's Nutrition and Health:
Gross Costs                                                          -                    -                   59               99                1,192           78,678
Less: Earned Revenue                                                 -                    -                   93                1                  108               44
Net Costs                                                            -                    -                  (34)              98                1,084           78,634

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                          -                    -                 114               189                2,381           10,209
Less: Earned Revenue                                                 -                    -                 177                 2                  427              574
Net Costs                                                            -                    -                 (63)              187                1,954            9,635

Total Gross Costs                                                4,069            2,707                     482               804              11,584           123,026
Less: Total Earned Revenue                                         471            3,320                     754                 8               2,211            10,532
Net Cost of Operations                              $            3,598   $         (613)      $            (272)    $         796   $           9,373    $      112,494




                                                                                      142
                                                         FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2009                                             Intradepartmental
                                                       Eliminations      GRAND TOTAL



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $            (452)   $      1,779
Less: Earned Revenue                                              (56)            417
Net Costs                                                        (396)          1,362

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Costs                                                    (1,081)         27,986
Less: Earned Revenue                                             (359)          5,870
Net Costs                                                        (722)         22,116

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                      (172)          7,029
Less: Earned Revenue                                             (110)          3,796
Net Costs                                                         (62)          3,233

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                     (242)          3,409
Gross Costs                                                      (185)            797
Less: Earned Revenue                                              (57)          2,612
Net Costs

Improve the Nation's Nutrition and Health:
Gross Costs                                                    (1,052)         78,818
Less: Earned Revenue                                              (91)             61
Net Costs                                                        (961)         78,757

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                      (860)         11,730
Less: Earned Revenue                                             (259)            742
Net Costs                                                        (601)         10,988

Total Gross Costs                                              (3,859)        130,751
Less: Total Earned Revenue                                     (1,060)         11,683
Net Cost of Operations                              $          (2,799)   $    119,068




                                                                                        143
                                                           FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2008                                                             FSA                                       CCC                                       FAS
                                                    Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $                -   $                -   $             176    $        1,892       $              95    $          328
Less: Earned Revenue                                                 -                    -                  71               347                      99                 -
Net Costs                                                            -                    -                 105             1,545                      (4)              328

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Costs                                                       953             3,434                    1,339            7,254                        -                    -
Less: Earned Revenue                                              213               578                       16            1,394                        -                    -
Net Costs                                                         740             2,856                    1,323            5,860                        -                    -

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                          -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Costs                                                            -                    -                    -                    -                    -                    -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                         -                    -                    -                    -                    -                    -
Gross Costs                                                          -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Costs

Improve the Nation's Nutrition and Health:
Gross Costs                                                          -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Costs                                                            -                    -                    -                    -                    -                    -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                          -                    -                 236             1,889                        -                    -
Less: Earned Revenue                                                 -                    -                   -                 2                        -                    -
Net Costs                                                            -                    -                 236             1,887                        -                    -

Total Gross Costs                                                 953             3,434                   1,751            11,035                      95               328
Less: Total Earned Revenue                                        213               578                      87             1,743                      99                 -
Net Cost of Operations                              $             740    $        2,856       $           1,664    $        9,292       $              (4)   $          328




                                                                                      144
                                                         FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2008                                                             RMA                                       FNS                                       FSIS
                                                    Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental    With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $                -   $                -   $                -   $                -   $                -    $                -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
Net Costs                                                            -                    -                    -                    -                    -                     -

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Costs                                                        53             7,124                        -                    -                    -                     -
Less: Earned Revenue                                                -             1,440                        -                    -                    -                     -
Net Costs                                                          53             5,684                        -                    -                    -                     -

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                          -                    -                    -                    -                    -                     -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
Net Costs                                                            -                    -                    -                    -                    -                     -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                         -                    -                    -                    -                  340               864
Gross Costs                                                          -                    -                    -                    -                    4               162
Less: Earned Revenue                                                 -                    -                    -                    -                  336               702
Net Costs

Improve the Nation's Nutrition and Health:
Gross Costs                                                          -                    -                 815            59,735                        -                     -
Less: Earned Revenue                                                 -                    -                   1                27                        -                     -
Net Costs                                                            -                    -                 814            59,708                        -                     -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                          -                    -                    -                    -                    -                     -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
Net Costs                                                            -                    -                    -                    -                    -                     -

Total Gross Costs                                                  53             7,124                     815            59,735                      340               864
Less: Total Earned Revenue                                          -             1,440                       1                27                        4               162
Net Cost of Operations                              $              53    $        5,684       $             814    $       59,708       $              336    $          702




                                                                                      145
                                                          FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2008                                                             AMS                                      APHIS                                     GIPSA
                                                    Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $                -   $                -   $                -   $                -   $              13    $           19
Less: Earned Revenue                                                 -                    -                    -                    -                   -                20
Net Costs                                                            -                    -                    -                    -                  13                (1)

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Costs                                                       122               934                        -                    -                  18                43
Less: Earned Revenue                                                7               212                        -                    -                   -                26
Net Costs                                                         115               722                        -                    -                  18                17

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                          -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Costs                                                            -                    -                    -                    -                    -                    -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                         -                    -                 361             1,094                        -                    -
Gross Costs                                                          -                    -                  28               703                        -                    -
Less: Earned Revenue                                                 -                    -                 333               391                        -                    -
Net Costs

Improve the Nation's Nutrition and Health:
Gross Costs                                                          -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Costs                                                            -                    -                    -                    -                    -                    -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                          -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Costs                                                            -                    -                    -                    -                    -                    -

Total Gross Costs                                                 122               934                     361             1,094                      31                62
Less: Total Earned Revenue                                          7               212                      28               703                       -                46
Net Cost of Operations                              $             115    $          722       $             333    $          391       $              31    $           16




                                                                                      146
                                                          FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2008                                                                 FS                                        NRCS                                       ARS
                                                    Intragovernmental        With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $                   -    $                 -   $                -   $                -   $                -   $                -
Less: Earned Revenue                                                    -                      -                    -                    -                    -                    -
Net Costs                                                               -                      -                    -                    -                    -                    -

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Costs                                                             -                      -                    -                    -                 102               398
Less: Earned Revenue                                                    -                      -                    -                    -                  27                13
Net Costs                                                               -                      -                    -                    -                  75               385

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                             -                      -                    -                    -                    -                    -
Less: Earned Revenue                                                    -                      -                    -                    -                    -                    -
Net Costs                                                               -                      -                    -                    -                    -                    -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                            -                      -                    -                    -                 100               390
Gross Costs                                                             -                      -                    -                    -                  26                11
Less: Earned Revenue                                                    -                      -                    -                    -                  74               379
Net Costs

Improve the Nation's Nutrition and Health:
Gross Costs                                                             -                      -                    -                    -                  22                84
Less: Earned Revenue                                                    -                      -                    -                    -                   6                 2
Net Costs                                                               -                      -                    -                    -                  16                82

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                      1,223                 5,487                     562             2,615                      58               227
Less: Earned Revenue                                               250                   616                      74                73                      15                 7
Net Costs                                                          973                 4,871                     488             2,542                      43               220

Total Gross Costs                                                1,223                 5,487                     562             2,615                     282             1,099
Less: Total Earned Revenue                                         250                   616                      74                73                      74                33
Net Cost of Operations                              $              973       $         4,871       $             488    $        2,542       $             208    $        1,066




                                                                                           147
                                                          FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2008                                                           CSREES                                   ERS                                  NASS
                                                    Intragovernmental  With the Public     Intragovernmental   With the Public   Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $               -    $           5     $               8    $           10   $                -   $                -
Less: Earned Revenue                                                -                -                     -                 -                    -                    -
Net Costs                                                           -                5                     8                10                    -                    -

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Costs                                                        13              306                    16                20                  46                91
Less: Earned Revenue                                               16                -                     1                 -                   9                 2
Net Costs                                                          (3)             306                    15                20                  37                89

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                         6              142                     3                 4                  22                44
Less: Earned Revenue                                                7                -                     -                 -                   5                 1
Net Costs                                                          (1)             142                     3                 4                  17                43

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                        7              163                     2                 2                    -                    -
Gross Costs                                                         9                -                     -                 -                    -                    -
Less: Earned Revenue                                               (2)             163                     2                 2                    -                    -
Net Costs

Improve the Nation's Nutrition and Health:
Gross Costs                                                         5              108                     9                12                    -                    -
Less: Earned Revenue                                                6                -                     -                 -                    -                    -
Net Costs                                                          (1)             108                     9                12                    -                    -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                         6              140                     4                 6                    -                1
Less: Earned Revenue                                                7                -                     -                 -                    -                -
Net Costs                                                          (1)             140                     4                 6                    -                1

Total Gross Costs                                                  37              864                    42                54                  68               136
Less: Total Earned Revenue                                         45                -                     1                 -                  14                 3
Net Cost of Operations                              $              (8)   $         864     $              41    $           54   $              54    $          133




                                                                                     148
                                                         FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2008                                                                 RD                                          DO                                  TOTAL
                                                    Intragovernmental        With the Public       Intragovernmental   With the Public   Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $                   -    $                 -   $              12     $          20   $             304    $        2,274
Less: Earned Revenue                                                    -                      -                  18                 -                 188               367
Net Costs                                                               -                      -                  (6)               20                 116             1,907

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Costs                                                             -                      -                 125               210                2,787           19,814
Less: Earned Revenue                                                    -                      -                 187                 2                  476            3,667
Net Costs                                                               -                      -                 (62)              208                2,311           16,147

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                      3,858                 4,358                       67              111                3,956            4,659
Less: Earned Revenue                                               360                 4,183                       99                1                  471            4,185
Net Costs                                                        3,498                   175                      (32)             110                3,485              474

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                            -                      -                 107               179                 917             2,692
Gross Costs                                                             -                      -                 160                 2                 227               878
Less: Earned Revenue                                                    -                      -                 (53)              177                 690             1,814
Net Costs

Improve the Nation's Nutrition and Health:
Gross Costs                                                             -                      -                   61              103                 912            60,042
Less: Earned Revenue                                                    -                      -                   92                1                 105                30
Net Costs                                                               -                      -                  (31)             102                 807            60,012

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                             -                      -                 111               184                2,200           10,549
Less: Earned Revenue                                                    -                      -                 165                 2                  511              700
Net Costs                                                               -                      -                 (54)              182                1,689            9,849

Total Gross Costs                                                3,858                 4,358                     483               807              11,076           100,030
Less: Total Earned Revenue                                         360                 4,183                     721                 8               1,978             9,827
Net Cost of Operations                              $            3,498       $           175       $            (238)    $         799   $           9,098    $       90,203




                                                                                           149
                                                          FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2008                                             Intradepartmental
                                                       Eliminations      GRAND TOTAL



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $             (94)   $      2,484
Less: Earned Revenue                                             (100)            455
Net Costs                                                           6           2,029

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Costs                                                    (1,606)         20,995
Less: Earned Revenue                                             (307)          3,836
Net Costs                                                      (1,299)         17,159

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                      (189)          8,426
Less: Earned Revenue                                             (109)          4,547
Net Costs                                                         (80)          3,879

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                     (235)          3,374
Gross Costs                                                      (170)            935
Less: Earned Revenue                                              (65)          2,439
Net Costs

Improve the Nation's Nutrition and Health:
Gross Costs                                                      (773)         60,181
Less: Earned Revenue                                              (86)             49
Net Costs                                                        (687)         60,132

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                      (644)         12,105
Less: Earned Revenue                                             (201)          1,010
Net Costs                                                        (443)         11,095

Total Gross Costs                                              (3,541)        107,565
Less: Total Earned Revenue                                       (973)         10,832
Net Cost of Operations                              $          (2,568)   $     96,733




                                                                                        150
                                                           FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
NOTE 20. COST OF STEWARDSHIP PP&E
The acquisition cost of stewardship land in FY 2009 and FY 2008 was $168 million and $228 million, respectively.


NOTE 21. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED

           FY 2009
                                                                Direct         Reimbursable           Total
           Apportionment by Fiscal Quarter                  $     38,698   $           2,310      $     41,008
           Apportionment for Special Activities                  103,216              25,331          128,547
           Exempt from Apportionment                                 952                      1               953
           Total Obligations Incurred                       $    142,866   $          27,642      $   170,508

           FY 2008
                                                                Direct         Reimbursable           Total
           Apportionment by Fiscal Quarter                  $     34,940   $           2,482      $     37,422
           Apportionment for Special Activities                   78,820              22,360           101,180
           Exempt from Apportionment                                 754                      1               755
           Total Obligations Incurred                       $    114,514   $          24,843      $   139,357




NOTE 22. AVAILABLE BORROWING AUTHORITY, END OF PERIOD
Available borrowing authority at September 30, 2009 and 2008 was $32,508 million and $29,439 million,
respectively.


NOTE 23. TERMS OF BORROWING AUTHORITY USED
The Secretary of Agriculture has the authority to make and issue notes to the Secretary of Treasury for the purpose
of discharging obligations for RD’s insurance funds and CCC’s nonreimbursed realized losses and debt related to
foreign assistance programs. The permanent indefinite borrowing authority includes both interest bearing and
non–interest bearing notes. These notes are drawn upon daily when disbursements exceed deposits. Notes payable
under the permanent indefinite borrowing authority have a term of one year. On January 1 of each year, USDA
refinances its outstanding borrowings, including accrued interest, at the January borrowing rate.
In addition, USDA has permanent indefinite borrowing authority for the foreign assistance and export credit
programs to finance disbursements on post-credit reform, direct credit obligations, and credit guarantees. In
accordance with the Federal Credit Reform Act of 1990 as amended, USDA borrows from Treasury on October 1,
for the entire fiscal year, based on annual estimates of the difference between the amount appropriated (subsidy) and
the amount to be disbursed to the borrower. Repayment under this agreement may be, in whole or in part, prior to
maturity by paying the principal amount of the borrowings plus accrued interest to the date of repayment. Interest is
paid on these borrowings based on weighted average interest rates for the cohort, to which the borrowings are
associated. Interest is earned on the daily balance of uninvested funds in the credit reform financing funds
maintained at Treasury. The interest income is used to reduce interest expense on the underlying borrowings.
USDA has authority to borrow from the Federal Financing Bank (FFB) in the form of Certificates of Beneficial
Ownership (CBO) or loans executed directly between the borrower and FFB with an unconditional USDA
repayment guarantee. CBO’s outstanding with the FFB are generally secured by unpaid loan principal balances.
CBO’s outstanding are related to pre-credit reform loans and no longer are used for program financing.


                      FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                  151
==
FFB’s CBO’s are repaid as they mature and are not related to any particular group of loans. Borrowings made to
finance loans directly between the borrower and FFB mature and are repaid as the related group of loans become
due. Interest rates on the related group of loans are equal to interest rates on FFB borrowings, except in those
situations where an FFB funded loan is restructured and the terms of the loan are modified.
Prepayments can be made on Treasury borrowings without a penalty; however, they cannot be made on FFB
CBO’s, without a penalty.
Funds may also be borrowed from private lending agencies and others. USDA reserves a sufficient amount of its
borrowing authority to purchase, at any time, all notes and other obligations evidencing loans made by agencies and
others. All bonds, notes, debentures, and similar obligations issued by the Department are subject to approval by the
Secretary of the Treasury. Reservation of borrowing authority for these purposes has not been required for many
years.
NOTE 24. PERMANENT INDEFINITE APPROPRIATIONS
USDA has permanent indefinite appropriations available to fund 1) subsidy costs incurred under credit reform
programs, 2) certain costs of the crop insurance program, (3) certain commodity program costs and 4) certain costs
associated with FS programs.
The permanent indefinite appropriations for credit reform are mainly available to finance any disbursements
incurred under the liquidating accounts. These appropriations become available pursuant to standing provisions of
law without further action by Congress after transmittal of the Budget for the year involved. They are treated as
permanent the first year they become available, as well as in succeeding years. However, they are not stated as
specific amounts but are determined by specified variable factors, such as cash needs for liquidating accounts, and
information about the actual performance of a cohort or estimated changes in future cash flows of the cohort in the
program accounts.
The permanent indefinite appropriation for the crop insurance program is used to cover premium subsidy, delivery
expenses, losses in excess of premiums and research and delivery costs.
The permanent indefinite appropriation for commodity program costs is used to encourage the exportation of
agricultural commodities and products, to encourage domestic consumption of agricultural products by diverting
them, and to reestablish farmers’ purchasing power by making payments in connection with the normal production
of any agricultural commodity for domestic consumption.
The permanent indefinite appropriation for FS programs is used to fund Recreation Fee Collection Costs, Brush
Disposal, License programs, Smokey Bear and Woodsy Owl, Restoration of Forest Lands and Improvements,
Roads and Trails for States, National Forest Fund, Timber Roads, Purchaser Elections, Timber Salvage Sales and
Operations, and Maintenance of Quarters. Each of these permanent indefinite appropriations is funded by receipts
made available by law, and is available until expended.
NOTE 25. LEGAL ARRANGEMENTS AFFECTING USE OF UNOBLIGATED BALANCES
Unobligated budget authority is the difference between the obligated balance and the total unexpended balance. It
represents that portion of the unexpended balance unencumbered by recorded obligations. Appropriations are
provided on an annual, multi-year, and no-year basis. An appropriation expires on the last day of its period of
availability and is no longer available for new obligations. Unobligated balances retain their fiscal-year identity in an
expired account for an additional five fiscal years. The unobligated balance remains available to make legitimate
obligation adjustments, i.e., to record previously unrecorded obligations and to make upward adjustments in
previously underestimated obligations for five years. At the end of the fifth year, the authority is canceled.
Thereafter, the authority is not available for any purpose.



152     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Any information about legal arrangements affecting the use of the unobligated balance of budget authority is
specifically stated by program and fiscal year in the appropriation language or in the alternative provisions section at
the end of the appropriations act.
NOTE 26. DIFFERENCES BETWEEN THE STATEMENT OF BUDGETARY RESOURCES AND THE BUDGET OF THE UNITED STATES GOVERNMENT
The differences between the FY 2008 Statement of Budgetary Resources and the FY 2008 actual numbers
presented in the FY 2010 Budget of the United States Government (Budget) are summarized below.
The Budget excludes expired accounts that are no longer available for new obligations. Adjustments were made
subsequent to the Budget submission as follows:
CCC zeroed out the balance in its Export Guarantee Program, Negative Subsidies account for FACTS II
reporting.
The Budget includes the Milk Market Orders Assessment Fund since employees of the Milk Market
Administrators participate in the Federal retirement system, though these funds are not available for use by the
Department.
Other items are mainly due to rounding.
A comparison between the FY 2009 Statement of Budgetary Resources and the FY 2009 actual numbers presented
in the FY 2011 Budget cannot be performed as the FY 2011 Budget is not yet available. The FY 2011 Budget is
expected to be published in February 2010 and will be available from the Government Printing Office.

        FY 2008
                                                                                                     Distributed
                                                               Budgetary         Obligations         offsetting
                                                               Resources          incurred            receipts         Net Outlays


        Combined Statement of Budgetary Resources          $      172,749    $       139,357     $          2,242      $    98,424
        Reconciling items:
         Expired accounts                                         (14,146)             (1,625)                     -             -
         CCC export guarantee program negative subsidies              (91)                (91)                     -            91
         Milk Market Orders Fund                                       51                 51                       -             -
         Other                                                        (23)                  2                  (2)               5
        Budget of the United States Government             $      158,540    $       137,694     $         2,240       $    98,520




NOTE 27. UNDELIVERED ORDERS AT THE END OF THE PERIOD
Budgetary resources obligated for undelivered orders as of September 30, 2009 and 2008 was $44,332 million and
$37,794 million, respectively.




                      FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                   153
==
NOTE 28. INCIDENTAL CUSTODIAL COLLECTIONS
Custodial collections represent National Forest Fund receipts from the sale of timber and other forest products,
miscellaneous general fund receipts such as collections on accounts receivable related to canceled year
appropriations, civil monetary penalties and interest, and commercial fines and penalties. Custodial collection
activities are considered immaterial and incidental to the mission of the Department.


              Revenue Activity:                                                FY 2009             FY 2008
                  Sources of Collections:
                  Miscellaneous                                            $             86    $             83
              Total Cash Collections                                                     86                  83
              Accrual Adjustments                                                        (4)                  -
              Total Custodial Revenue                                                    82                  83
              Disposition of Collections:
              Transferred to Others:
                  Treasury                                                           (85)                (15)
              ( Increase )/Decrease in Amounts Yet to be Transferred                     3               (68)
              Net Custodial Activity                                       $             -     $           -




154    FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
NOTE 29. FIDUCIARY ACTIVITIES
Rural Housing Insurance Fund (RHIF) was established by Public Law 89-117 pursuant to section 517 of title V of
the Housing Act of 1949, which authorized RD to collect escrow payments on behalf of new and existing Single
Family Housing borrowers. Other fiduciary activities by RD include but are not limited to collections from
borrowers, interest paid on escrow accounts, payments to insurance agencies and taxing authorities.



                             Schedule of Fiduciary Activity
                       For the year ended September 30, 2009

                                                               Rural Housing
                                                                 Insurance
                                                                   Fund
     Fiduciary net assets, beginning of year                    $        95
      Fiduciary revenues                                                  -
      Contributions                                                     433
      Investment earnings                                                 -
      Gain (Loss) on disposition of investments, net                      -
      Administrative and other expenses                                   -
      Disbursements to and on behalf of beneficiaries                  (431)
     Increases/(Decrease) in fiduciary net assets                         2
     Fiduciary net assets, end of year                          $        97




                                 Fiduciary Net Assets
                               As of September 30, 2009

                                                               Rural Housing
                                                                 Insurance
                                                                   Fund
     Fiduciary Assets
      Cash and cash equivalents                                 $        8
      Investments                                                       89
      Other assets                                                       -
     Fiduciary Liabilities
      Less: Liabilities                                                  -
     Total Fiduciary Net Assets                                 $       97




NOTE 30. RECONCILIATION OF BUDGETARY RESOURCES OBLIGATED TO NET COST OF OPERATIONS
Budgetary and proprietary accounting information are inherently different because of the types of information and
the timing of their recognition. The reconciliation of budgetary resources obligated and the net cost of operations
provides a link between budgetary and proprietary accounting information. It serves not only to explain how



                        FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION             155
==
information on net obligations relates to the net cost of operations but also to assure integrity between budgetary
and proprietary accounting.
Net obligations and the net cost of operations are different because (1) the net cost of operations may be financed by
non-budgetary resources (e.g. imputed financing); (2) the budgetary and non-budgetary resources used may finance
activities which are not components of the net cost of operations; and (3) the net cost of operations may contain
components which do not use or generate resources in the current period.
                                                                                                                   2009           2008
       Resources Used to Finance Activities:
       Budgetary Resources Obligated -
          Obligations Incurred                                                                                   $ 170,508    $ 139,357
          Less: Spending authority from offsetting collections and recoveries                                       38,245       38,542
          Obligations net of offsetting collections and recoveries                                                 132,263      100,815
          Less: Distributed Offsetting receipts                                                                      3,574        2,242
          Net Obligations                                                                                          128,689       98,573

       Other Resources -
          Transfers in(out) without reimbursement                                                                     (562)         (391)
          Imputed financing from costs absorbed by others                                                            1,033           907
          Other                                                                                                       (863)           52
          Net other resources used to finance activities                                                              (392)          568

          Total resources used to finance activities                                                               128,297        99,141

       Resources Used to Finance Items not Part of the Net Cost of Operations:
          Change in undelivered orders                                                                              (6,538)        (1,926)
          Resources that fund expenses recognized in prior periods                                                  (4,692)          (144)
          Budgetary offsetting collections and receipts that do not affect net cost of operations -
           Credit program collections which increase liabilities for loan guarantees or allowances for subsidy      13,145         13,357
           Change in Unfilled Customer Orders                                                                          286             77
           Decrease in exchange revenue receivable from public                                                       6,697          7,625
           Other                                                                                                     2,111          1,024
          Resources that finance the acquisition of assets                                                         (26,597)       (24,997)
          Other resources or adjustments to net obligated resources that do not affect net cost of operations          359           (194)

          Total resources used to finance items not part of the net cost of operations                             (15,229)        (5,178)

          Total resources used to finance the net cost of operations                                               113,068        93,963

       Components of the Net Cost of Operations that will not Require or Generate
       Resources in the Current Period:
       Components Requiring or Generating Resources in Future Periods -
          Increase in annual leave liability                                                                            12            25
          Increase in environmental and disposal liability                                                               -             -
          Upward/Downward reestimates of credit subsidy expense                                                      1,928           608
          Increase in exchange revenue receivable from the public                                                        -             -
          Other                                                                                                        997         1,633
          Total components of Net Cost of Operations that will require or generate
            resources in future periods                                                                              2,937         2,266

       Components not Requiring or Generating Resources -
         Depreciation and amortization                                                                                223            408
         Revaluation of assets or liabilities                                                                          27           (134)
         Other Components not Requiring or Generating Resources:
           Bad Debt Expense                                                                                         (1,226)         (753)
           Cost of Goods Sold                                                                                        2,803         1,047
         Other                                                                                                       1,236           (64)
         Total components of Net Cost of Operations that will not require or generate resources                      3,063           504

          Total components of Net Cost of Operations that will not require or generate
           resources in the current period                                                                           6,000         2,770

          Net Cost of Operations                                                                                 $ 119,068    $   96,733




156     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Required Supplementary Stewardship Information
STEWARDSHIP INVESTMENTS (UNAUDITED)
                                                                           FY 2009   FY 2008   FY 2007   FY 2006   FY 2005
                                                                           Expense   Expense   Expense   Expense   Expense
            Non-Federal Physical Property:
            Food and Nutrition Service
                Supplemental Nutrition Assistance Program                  $   55    $   32    $   20    $   21    $    22
                Special Supplemental Nutrition Program                         15        10        15        12         17
            Cooperative State Research, Education, and Extension Service
                Extension 1890 Facilities Program                               17       17        17        17         17
            Total Non-Federal Property                                     $    87   $   59    $   52    $   50    $    56

            Human Capital:
            Cooperative State Research, Education, and Extension Service
                 Higher Education and Extension Programs                   $   547   $   521   $   524   $   525   $   507
            Food and Nutrition Service
                 Supplemental Nutrition Assistance Program                      19       36        51        66         49
            Agricultural Research Service
                 National Agricultural Library                                  23       22        22        22         21
            Risk Management Agency
                 Risk Management Education                                       6       10        11        10         10
            Natural Resources Conservation Service
                 Technical Service Providers                                    47        37        42        53        48
                 Agricultural Conservation Enrollees/Seniors                     1         4         3         4         -
            Total Human Capital                                            $   643   $   630   $   653   $   680   $   635

            Research and Development:
            Agricultural Research Service
                 Human Nutrition                                                85        85        86        85        84
                 Collaborative Research Program                                  3         4         3         7         6
                 Product Quality/Value Added                                   108       105       106       107       105
                 Livestock Production                                           86        85        85        85        84
                 Crop Production                                               204       201       202       201       197
                 Food Safety                                                   106       104       105       105       103
                 Livestock Protection                                           83        82        83        90        78
                 Crop Protection                                               201       196       198       199       193
                 Environmental Stewardship                                     225       223       224       223       219
            Cooperative State Research, Education, and Extension Service
                 Land-grant University System                                  691       663       661       661       645
            Forest Service                                                     323       304       261       318       295
            Economic Research Service
                 Economic and Social Science                                    79       77        75        75         74
            National Agricultural Statistics Service
                 Statistical                                                     8         8         6         5         5
            Total Research and Development                                 $ 2,202   $ 2,137   $ 2,095   $ 2,161   $ 2,088



Non-Federal Physical Property
Food and Nutrition Service
FNS’ non-Federal physical property consists of computer systems and other equipment obtained by State and local
governments for the purpose of administering the Supplemental Nutrition Assistance Program (SNAP). The total
SNAP expense for ADP Equipment & Systems has been reported as of the date of FNS’ financial statements.
FNS’ non-Federal physical property also consists of computer systems and other equipment obtained by the State
and local governments for the purpose of administering the Special Supplemental Nutrition Program for Women,
Infants and Children.
Cooperative State Research, Education and Extension Service
The Extension 1890 facilities program supports the renovation of existing buildings and the construction of new
facilities that permit faculty, students, and communities to benefit fully from the partnership between USDA and
the historically African-American land-grant universities.




                         FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                        157
==
Human Capital
Cooperative State Research, Education and Extension Service
The Higher Education programs include graduate fellowship grants, competitive challenge grants, Secondary/2-
year Post Secondary grants, Hispanic serving institutions education grants, a multicultural scholars program, a
Native American institutions program, a Native American institutions endowment fund, an Alaska Native Serving
and Native Hawaiian Serving institutions program, a resident instruction grant program for insular areas, and a
capacity building program at the 1890 institutions. These programs enable universities to broaden their curricula,
increase faculty development and student research projects, and increase the number of new scholars recruited in
the food and agriculture sciences. CSREES also supports extension-related work at 1862 and 1890 land-grant
institutions throughout the country through formula and competitive programs. CSREES supported the Outreach
and Assistance for Disadvantaged Farmers Program for the first time in fiscal 2003. The purpose is to enhance the
ability of minority and small farmers and ranchers to operate farming or ranching enterprises independently to
assure adequate income and maintain reasonable lifestyles.
Food and Nutrition Service
FNS’ human capital consists of employment and training (E&T) for the SNAP. The E&T program requires
recipients of SNAP benefits to participate in an employment and training program as a condition to SNAP
eligibility.
Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’ E&T
program has placed 955,329 work registrants subject to the 3 - month SNAP participant limit and 1,706,182 work
registrants not subject to the limit in either job-search, job-training, job-workfare, education, or work experience.
Agricultural Research Service
As the Nation’s primary source for agricultural information, the National Agricultural Library (NAL) has a mission
to increase the availability and utilization of agricultural information for researchers, educators, policymakers,
consumers of agricultural products, and the public. The NAL is one of the world’s largest and most accessible
agricultural research libraries and plays a vital role in supporting research, education, and applied agriculture.
The NAL was created as the departmental library for USDA in 1862 and became a national library in 1962. One of
four national libraries of the U.S. (with the Library of Congress, the National Library of Medicine, and the
National Library of Education), it is also the coordinator for a national network of State land-grant and USDA
field libraries. In its international role, the NAL serves as the U.S. center for the international agricultural
information system, coordinating and sharing resources and enhancing global access to agricultural data. The NAL
collection of over 3.5 million items and its leadership role in information services and technology applications
combine to make it the foremost agricultural library in the world.
Risk Management Agency
In response to the Secretary’s 1996 Risk Management Education (RME) initiative, and as mandated by the Federal
Agricultural Improvement and Reform Act of 1996, the FCIC has formed new partnerships with the CSREES,
the Commodity Futures Trading Commission, the USDA National Office of Outreach, Economic Research
Service, and private industry to leverage the federal government’s funding of its RME program by using both public
and private organizations to help educate their members in agricultural risk management. The RME effort was
launched in 1997 with a Risk Management Education Summit that raised awareness of the tools and resources
needed by farmers and ranchers to manage their risks. RMA has built on this foundation since 2003 by expanding
State and Regional education partnerships; encouraging the development of information and technology decision
aids; supporting the National Future Farmers of America (FFA) foundation with an annual essay contest;
facilitating local training workshops; and supporting Cooperative Agreements with Educational and outreach
organizations.



158      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
During fiscal years 2009 and 2008, the RME worked toward the goals by funding risk management sessions, most
of which targeted producers directly. The number of producers reached through these sessions is approximately
20,000 and 49,000 in fiscal years 2009 and 2008, respectively. Additionally, some training sessions helped those
who work with producers, such as lenders, agricultural educators, and crop insurance agents, better understand
those areas of risk management with which they may be unfamiliar. Total RME obligations incurred by the FCIC
were approximately $6 million for fiscal year 2009 and $10 million for fiscal year 2008. The following table
summarizes the RME initiatives since fiscal year 2005:

                           (dollars in millions)                 2009     2008     2007     2006     2005

                RME Obligations                              $     6       10       11       10       9.4
                Number of producers attending RME sessions       20,000   49,000   49,000   48,000   47,000


One of the directives of the Agricultural Risk Protection Act (ARPA) is to step up the FCIC’s educational and
outreach efforts in certain areas of the country that have been historically underserved by the Federal crop insurance
program. The Secretary determined that fifteen states met the underserved criteria. These states are Maine,
Massachusetts, Connecticut, Wyoming, New Jersey, New York, Delaware, Nevada, Pennsylvania, Vermont,
Maryland, Utah, Rhode Island, New Hampshire, and West Virginia.
Natural Resources Conservation Service
The Agency’s investment in human capital is expensed each year and is primarily for education and training
programs intended to (1) increase or maintain national economic productive capacity and (2) produce outputs and
outcomes that provide evidence of maintaining or increasing national productive capacity.
As the Nation’s conservation agenda continues to become more complex, the need for technical information and
advice will increasingly exceed the capacity of the Federal workforce to respond timely. NRCS is expanding the
capacity of its workforce through three strategies:
     1. Relying on the non-Federal entities to provide technical assistance to participants in NRCS conservation
        programs. Under authority of the 2002 Farm Bill, NRCS established processes to certify individual
        Technical Service Providers (TSP’s) and to enter into agreements with governmental and non-
        governmental entities to provide services. In FY 2009 NRCS signed agreements or renewed the
        certification of 423 individual TSP’s and 21 businesses. There are now more than 1,100 individual TSP’s
        and 88 businesses certified and available to help program participants apply conservation. Since passage of
        the 2002 Farm Bill, NRCS has obligated over $300 million to acquire TSP technical service. Web-based
        orientations and proficiency statements have been developed to help ensure that TSP’s have the necessary
        technical competencies to carry out NRCS’ programs.
     2. Acquiring the services of experienced workers on a temporary basis. NRCS is acquiring the expertise of
        older workers through the Agricultural Conservation Enrollees/Seniors (ACES) project conducted in
        partnership with the National Older Worker Career Center. This project evolved from and complements
        the TSP initiative to leverage conservation technical assistance capacity and help landowners meet
        conservation goals. NRCS has filled 300 ACES positions across the country, including 260 at the field
        level.
     3. Using the time, talent, and energy of volunteers. Since the organization of local conservation districts in
        the 1930’s, people have volunteered their time and talent to help get conservation on the land. In 1981,
        using new authority enacted by Congress, NRCS established the National Volunteer Program. In 1985,
        that program became the Earth Team.



                       FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                   159
==
Research and Development
Agricultural Research Service
The ARS mission is to conduct research to develop and transfer solutions to agricultural problems of high national
priority and provide information access and dissemination to: ensure high quality, safe food, and other agricultural
products; assess the nutritional needs of Americans; sustain a competitive agricultural economy; enhance the natural
resource base and the environment; and provide economic opportunities for rural citizens, communities, and society
as a whole. ARS’ programs are aligned under the Department’s new priorities as follows:
Department Priority 1: Rural Communities Create Wealth So They Are Self-Sustaining, Repopulating, and Thriving Economically
Product Quality/Value Added—Many agricultural products are marketed as low value commodities and harvested
commodities often suffer losses due to spoilage or damage during shipping, storage, and handling. Healthy foods
are often not convenient and/or are not widely accepted by many consumers. Biobased product represent small
fraction of the market for industrial products and their performance is often uncertain. Biofuels and some biobased
products are not yet economically competitive with petroleum-based products.
ARS has active research programs directed toward: 1) improving the efficiency and reducing the cost for the
conversion of agricultural products into biobased products and biofuels; 2) developing new and improved products
to help establish them in domestic and foreign markets; and 3) providing higher quality, healthy foods that satisfy
consumer needs in the United States and abroad.
National Agricultural Library—The Library, the world’s largest library serving agriculture, delivered more than 93
million direct customer service transactions in FY 2009, a 5 per cent increase over FY 2008. NAL, with partners in
the Land-Grant University and agricultural information service communities, has initiated development of a
national digital library for agriculture. Specific efforts are directed toward achieving two goals: 1) continuing to
meet the needs of NAL customers, and 2) implementing a national digital library for agriculture.
Buildings and Facilities—ARS has over 100 laboratories, primarily located throughout the United States. ARS’
facilities programs are designed to meet the needs of its scientists and support personnel to accomplish the agency’s
mission.
Department Priority 2: National Forest and Private Working Lands Are Conserved, Restored, and Made More Resilient to Climate Change
and Are Managed to Enhance Water Resources
Environmental Stewardship—ARS’ research programs in environmental stewardship support scientists at seventy
locations. Emphasis is given to developing technologies and systems that support profitable production and
enhance the Nation’s vast renewable natural resource base.
ARS is currently developing the scientific knowledge and technologies needed to meet the challenges and
opportunities facing U.S. agriculture in managing water resource quality and quantity under different climatic
regimes, production systems, and environmental conditions. ARS’ air resources research is developing
measurements, prediction, and control technologies for emissions of greenhouse gases, particulate matter,
ammonia, hydrogen sulfide, and volatile organic compounds affecting air quality and land-surface climate
interactions. The agency is a leader in developing measurement and modeling techniques for enhancing the health
and productivity of soils, including developing predictive tools to assess the sustainability of alternative land
management practices. Finding mechanisms to aid agriculture in adapting to changes in atmospheric composition
and climatic variations are also important components of ARS’ research program.
ARS’ grazing and range land research includes the conservation and restoration of the Nation’s range land and
pasture ecosystems and agroecosystems through improved management of fire, invasive weeds, grazing, global
change, and other agents of ecological change. ARS is currently developing improved grass and forage legume
germplasm for livestock, conservation, bioenergy, and bioproduct systems as well as grazing-based livestock systems


160      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
that reduce risk and increase profitability. In addition, the agency is developing whole system management
strategies to reduce production costs and risks.
Department Priority 3: America Leads the World in Sustainable Crop Production and Biotech Crop Exports
Livestock Production—ARS’ livestock production program is directed toward: 1) safeguarding and utilizing animal
genetic resources, associated genetic and genomic databases, and bioinformatics tools; 2) developing a basic
understanding of the physiology of livestock and poultry; and 3) developing information, tools, and technologies
that can be used to improve animal production systems. The research is heavily focused on the development and
application of genomics technologies to increase the efficiency and product quality of beef, dairy, swine, poultry,
aquaculture, and sheep systems.
Current areas of emphasis include increasing efficiency of nutrient utilization; increasing animal well-being and
reducing stress in production systems; increasing reproductive rates and breeding animal longevity; developing and
evaluating non-traditional production systems (e.g., organic, natural); and evaluating and conserving animal genetic
resources.
Crop Production—ARS’ crop production program focuses on developing and improving ways to reduce crop losses
while protecting and ensuring a safe and affordable food supply. The research program concentrates on effective
production strategies that are environmentally friendly, safe to consumers, and compatible with sustainable and
profitable crop production systems. Research activities are directed at safeguarding and utilizing plant genetic
resources and their associated genetic, genomic, and bioinformatics databases that facilitate selection of varieties
and/or germplasm with significantly improved traits.
Current research activities attempt to minimize the impacts of crop pests while maintaining healthy crops and safe
commodities that can be sold in markets throughout the world. ARS is conducting research to: discover and
exploit naturally occurring and engineered genetic mechanisms for plant pest control; develop agronomic
germplasm with durable defensive traits, and transfer genetic resources for commercial use. ARS is also providing
taxonomic information on invasive species that strengthen prevention techniques, aid in detection/identification of
invasives, and increase control through management tactics which restore habitats and biological diversity.
Livestock Protection—ARS’ animal health program is directed at protecting and ensuring the safety of the Nation’s
agriculture and food supply through improved disease detection, prevention, control, and treatment. Basic and
applied research approaches are used to solve animal health problems of high national priority. Emphasis is given
to methods and procedures to control animal diseases.
The research program has ten strategic objectives: 1) establish ARS’ laboratories into a fluid, highly effective
research network to maximize use of core competencies and resources; 2) access specialized high containment
facilities to study zoonotic and emerging diseases; 3) develop an integrated animal and microbial genomics research
program; 4) establish centers of excellence in animal immunology; 5) launch a biotherapeutic discovery program
providing alternatives to animal drugs; 6) build a technology driven vaccine and diagnostic discovery research
program; 7) develop core competencies in field epidemiology and predictive biology; 8) develop internationally
recognized expert collaborative research laboratories; 9) establish a best in class training center for our Nation’s
veterinarians and scientists; and 10) develop a model technology transfer program to achieve the full impact of
ARS’ research discoveries.
ARS’ current animal research program includes eight core components: 1) biodefense research, 2) animal genomics
and immunology, 3) zoonotic diseases, 4) respiratory diseases, 5) reproductive and neonatal diseases, 6) enteric
diseases, 7) parasitic diseases, and 8) transmissible spongiform encephalopathies.
Crop Protection—ARS research on crop protection is directed toward epidemiological investigations to understand
pest and disease transmission mechanisms, and to identify and apply new technologies that increase our
understanding of virulence factors and host defense mechanisms.


                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                       161
==
Currently, ARS’ research priorities include: 1) identification of genes that convey virulence traits in pathogens and
pests; 2) factors that modulate infectivity, gene functions, and mechanisms; 3) genetic profiles that provide specified
levels of disease and insect resistance under field conditions, and 4) mechanisms that facilitate the spread of pests
and infectious diseases.
ARS is developing new knowledge and integrated pest management approaches to control pest and disease
outbreaks as they occur. Its research will improve the knowledge and understanding of the ecology, physiology,
epidemiology, and molecular biology of emerging diseases and pests. This knowledge will be incorporated into pest
risk assessments and management strategies to minimize chemical inputs and increase production. Strategies and
approaches will be available to producers to control emerging crop diseases and pest outbreaks.
Department Priority 4: America’s Children and the World’s Children Have Access to Safe, Nutritious, and Balanced Meals
Food Safety—Assuring that the United States has the highest levels of affordable, safe food requires that the food
system be protected at each stage from production through processing and consumption from pathogens, toxins,
and chemical contaminants that cause diseases in humans. The U.S. food supply is very diverse, extensive, easily
accessible, and thus vulnerable to the introduction of biological and chemical contaminants through natural
processes, intentional means, or by global commerce.
ARS’ current food safety research is designed to yield science-based knowledge on the safe production, storage,
processing, and handling of plant and animal products, and on the detection and control of toxin producing and/or
pathogenic bacteria and fungi, parasites, chemical contaminants, and plant toxins. ARS’ research activities involve
a high degree of cooperation and collaboration both within the USDA-REE agencies as well as with USDA’s Food
Safety and Inspection Service and the Animal and Plant Health Inspection Service, and with other entities,
including the Food and Drug Administration, the Centers for Disease Control, the Department of Homeland
Security, and the Environmental Protection Agency. ARS also collaborates in international research programs to
address and resolve global food safety issues.
Specific research efforts are directed toward developing new technologies that assist ARS stakeholders and
customers, that is, regulatory agencies, industry, and commodity and consumer organizations in detecting,
identifying, and controlling foodborne diseases that affect human health.
Human Nutrition—Maintenance of health throughout the lifespan along with prevention of obesity and chronic
diseases via food-based recommendations are the major emphasis of ARS’ human nutrition research program.
These health related goals are based on the knowledge that deficiency diseases are no longer the most important
public health concerns. Excessive consumption has become the primary nutrition problem in the American
population. This is reflected by increased emphasis on prevention of obesity from basic science through
intervention studies to assessments of large populations. ARS’ research programs also actively study bioactive
components of foods that have no known requirement but have health promotion activities.
Four specific areas of research are currently emphasized: 1) nutrition monitoring and the food supply, e.g., a
national diet survey and the food composition databank; 2) dietary guidance for health promotion and disease
prevention, i.e., specific foods, nutrients, and dietary patterns that maintain health and prevent diseases; 3)
prevention of obesity and related diseases, including research as to why so few of the population do not follow the
Dietary Guidelines for Americans; and 4) life stage nutrition and metabolism, in order to better define the role of
nutrition in pregnancy, growth of children, and for healthier aging.
Cooperative State Research, Education, and Extension Service Program
CSREES participates in a nationwide land-grant university system of agriculture related research and program
planning and coordination between State institutions and USDA. It assists in maintaining cooperation among the
State institutions, and between the State institutions and their Federal research partners. CSREES administers
grants and formula payments to State institutions to supplement State and local funding for agriculture research.


162     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Forest Service
Forest Service R&D has an integrated portfolio that supports achievement of the agency’s strategic goals with an
emphasis in seven strategic program areas:
Wildland Fire and Fuels
Wildland Fire and Fuels R&D provides managers the knowledge and tools to reduce the negative impacts of fire
and enhance the beneficial effects of fire, as a natural process, and the human process of fire and fuels management
on society and the environment.
Research focuses on understanding and modeling fundamental fire processes; interactions of fire with ecosystems
and the environment; social and economic aspects of fire; evaluation of integrated management strategies and
disturbance interactions at multiple scales; and application of fire research to address management problems.
Invasive Species
Invasive Species R&D provides the scientific information, methods, and technology to reduce or eliminate the
introduction, spread, and impact of invasive species, and to restore or improve the functionality of ecosystems
affected by invasives species.
Research focuses on plants, animals, fish, insects, diseases, invertebrates, and other species not native to an
ecosystem whose introduction is likely to cause economic or environmental harm.
Water, Air, and Soil
Water, Air, and Soil R&D enables the sustainable management of these essential resources by providing clear air
and safe drinking water, by protecting lives and property from wildlife fire and smoke, and through adapting to
climate variability and change.
The program features ecosystem services with a high level of integration between water, air, and soil research, such
as the effects of climate variability and change on water budgets or carbon sequestration from an ecosystem
perspective.
Wildlife and Fish
Wildlife and Fish R&D relies upon interdisciplinary research to inform policy initiatives affecting wildlife and fish
habitat on private and public lands, and the recovery of threatened or endangered species.
Scientists investigate the complex interactions among species, ecosystem dynamics and processes, land use and
management, and any emerging broadscale threats, including global climate change, loss of open space, invasive
species, and disease.
Resource Management and Use
Resource Management and Use R&D provides the scientific and technology base to sustainably manage and use
forest resources and forest fiber-based products.
Research focuses on the plant sciences, soil sciences, social sciences, silviculture, productivity, forest and range
ecology management, harvesting and operations, forest and biomass products and utilization, economics, urban
forestry, and climate change.
Outdoor Recreation
Outdoor Recreation R&D promotes human and ecological sustainability by researching environmental
management, activities, and experiences that connect people with the natural world.
Research in Outdoor Recreation is interdisciplinary, focusing on nature-based recreation and the changing trends
in American society; connections between recreation visitors, communities, and the environment; human benefits
and consequences of recreation and nature contact; the effectiveness of recreation management and decision-
making; and sustaining ecosystems affected by recreational use.


                       FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                    163
==
Inventory and Monitoring
The Inventory and Monitoring R&D provides the resource data, analysis, and tools needed to monitor forest
ecosystems at greatest risk from rapid change due to threats from fire, insects, disease, natural processes, or
management actions. From their research, scientists determine the status and trend of the health of the Nation’s
forests and grasslands, and the potential impact from climate change.
Their research integrates the development and use of science, technology, and remotely sensed data to better
understand the incidences of forest fragmentation over time from changes in land use or from insects, disease, fire,
and extreme weather events.
A representative summary of FY 2009 accomplishments include the following:
• 57 new interagency agreements and contracts
• 12 interagency agreements and contracts continued
• 2,294 articles published in journals
• 886 articles published in all other publications
• 3 patents granted
Economic Research Service
ERS provides economic and other social science research and analysis for public and private decisions on
agriculture, food, natural resources, and rural America. Research results and economic indicators on these
important issues are fully disseminated through published and electronic reports and articles; special staff analyses,
briefings, presentations, and papers; databases; and individual contacts. ERS’ objective information and analysis
helps public and private decision makers attain the goals that promote agricultural competitiveness, food safety and
security, a well-nourished population, environmental quality, and a sustainable rural economy.
National Agricultural Statistics Service
Statistical research and service is conducted to improve the statistical methods and related technologies used in
developing U.S. agricultural statistics. The highest priority of the research agenda is to aid the NASS estimation
program through development of better estimators at lower cost and with less respondent burden. This means
greater efficiency in sampling and data collection coupled with higher quality data upon which to base the official
estimates. In addition, products for data users are being improved using technologies such as remote sensing and
geographic information systems. Continued service to users will be increasingly dependent upon methodological
and technological efficiencies.




164      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Required Supplementary Information
DEFERRED MAINTENANCE (UNAUDITED)
Deferred maintenance is maintenance that was scheduled to be performed but was delayed until a future period.
Deferred maintenance represents a cost that the Federal Government has elected not to fund and, therefore, the
costs are not reflected in the financial statements.
Maintenance is defined to include preventive maintenance, normal repairs, replacement of parts and structural
components, and other activities needed to preserve the asset so that it continues to provide acceptable service and
achieve its expected life. Maintenance excludes activities aimed at expanding the capacity of an asset or otherwise
upgrading it to service needs different from, or significantly greater than, those originally intended.




                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                   165
==
Forest Service
                                                       Cost to Return to       Cost of Critical   Cost of Non-critical
        FY 2009
                                                     Acceptable Condition       Maintenance         Maintenance
Asset Class
    Bridges                                         $                  156     $           29      $              127
    Buildings                                                        1,023                144                     879
    Dam                                                                 29                 10                      19
    Minor Constructed Features                                         107                  -                     107
    Fence                                                              298                298                       -
    Handling Facility                                                   22                 22                       -
    Heritage                                                            25                  9                      16
    Road                                                             3,178                318                   2,860
    Trail Bridge                                                        11                  4                       7
    Wastewater                                                          40                 24                      16
    Water                                                              118                 67                      51
    Wildlife, Fish, TES                                                  6                  4                       2
    Trails                                                             294                  5                     289
    General Forest Area                                                  -                  -                       -
Total Forest Service                                $                5,307     $          934      $            4,373


                                                       Cost to Return to       Cost of Critical   Cost of Non-critical
        FY 2008
                                                     Acceptable Condition       Maintenance         Maintenance


Asset Class
    Bridges                                         $                  133     $           28      $              105
    Buildings                                                          712                117                     595
    Dam                                                                 24                  9                      15
    Minor Constructed Features                                         102                  -                     102
    Fence                                                              301                301                       -
    Handling Facility                                                   23                 23                       -
    Heritage                                                            16                  5                      11
    Road                                                             3,400                782                   2,618
    Trail Bridge                                                        10                  3                       7
    Wastewater                                                          35                 20                      15
    Water                                                              103                 60                      43
    Wildlife, Fish, TES                                                  7                  5                       2
    Trails                                                             279                  7                     272
    General Forest Area                                                  -                  -                       -
Total Forest Service                                $                5,145     $        1,360      $            3,785



Deferred maintenance is reported for general Property, Plant, and Equipment (PP&E), heritage assets, and
stewardship land. It is also reported separately for critical and noncritical amounts of maintenance needed to return
each class of asset to its acceptable operating condition. Critical maintenance is defined as a serious threat to public
health or safety, a natural resource, or the ability to carry out the mission of the organization. Noncritical
maintenance is defined as a potential risk to the public or employee safety or health (e.g., compliance with codes,
standards, or regulations) and potential adverse consequences to natural resources or mission accomplishment.



166      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
The Forest Service began reporting deferred maintenance in 2000. Estimates of deferred maintenance for all major
classes of PP&E, heritage assets, and stewardship assets are based on condition surveys. The agency has completed
two rounds of condition surveys providing a comprehensive national assessment of Forest Service property.
For roads, deferred maintenance is determined from surveys of an annual random sample of a sufficient number of
roads to achieve estimates of 95-percent accuracy and 95-percent confidence. Validation of this process is ongoing.
Deferred maintenance needs for all other asset groups are determined from surveys of all individual assets on a
revolving schedule where the interval between visits does not exceed 5 years.
No deferred maintenance exists for fleet vehicles as they are managed through the agency’s working capital fund
(WCF). Each fleet vehicle is maintained according to schedule. The cost of maintaining the remaining classes of
equipment is expensed.
The overall condition of major asset classes range from poor to good depending on the location, age, and type of
property. The standards for acceptable operating condition for various classes of general PP&E, stewardship, and
heritage assets are as follows.
Conditions of roads and bridges within the National Forest System (NFS) road system are measured by various
standards:
    1. Federal Highway Administration regulations for the Federal Highway Safety Act;
    2. Best management practices for the nonpoint source provisions of the Clean Water Act from
        Environmental Protection Agency and States;
    3. Road management objectives developed through the National Forest Management Act forest planning
        process; and
    4. Forest Service directives—Forest Service Manual (FSM) 7730, Operation and Maintenance (August 25,
        2005, amendment was superseded with October 1, 2008, revision); Forest Service Handbook (FSH)
        7709.56a, Road Preconstruction, and FSH 7709.56b, Transportation Structures Handbook.
Dams shall be managed according to FSM 7500, Water Storage and Transmission, and FSH 7509.11, Dams
Management Handbook. The condition of a dam is acceptable when the dam meets current design standards and
does not have any deficiencies that threaten the safety of the structure or public. For dams to be rated in acceptable
condition, the agency needs to restore the dams to the original functional purpose, correct unsightly conditions, or
prevent more costly repairs.
Buildings shall comply with the National Life Safety Code, the Forest Service Health and Safety Handbook, and
the Occupational Safety Health Administration as determined by condition surveys. These requirements are found
in FSM 7310, Buildings and Related Facilities, revised November 19, 2004. The condition of administrative
facilities ranges from poor to good, with approximately 37 percent needing major repairs or renovations;
approximately 14 percent in fair condition; and 49 percent of the facilities in good condition.
The agency is currently developing an integrated strategy to realign our administrative facility infrastructure to meet
current organizational structure and to reduce the maintenance liability for unneeded buildings, free up land for use
by local communities and private enterprise, and provide added funds for infrastructure maintenance and
development. Forest Service anticipates maximum benefits from a combination of appropriations, facility
conveyance receipts, and decommissioning of unneeded facilities.
Recreation facilities include developed recreation sites, general forest areas, campgrounds, trailheads, trails, water
and wastewater systems, interpretive facilities, and visitor centers. These components are included in several asset
classes of the deferred maintenance exhibit. All developed sites are managed in accordance with Federal laws and
regulations (Code of Federal Regulations (CFR) 36).




                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                     167
==
Detailed management guidelines are contained in FSM 2330, Publicly Managed Recreation Opportunities, and
forest- and regional-level user guides. Quality standards for developed recreation sites were established as
Meaningful Measures for health and cleanliness, settings, safety and security, responsiveness, and the condition of
the facility.
The condition assessment for range structures (fences and stock handling facilities) is based on (1) a determination
by knowledgeable range specialists or other district personnel of whether the structure would perform the originally
intended function, and (2) a determination through the use of a protocol system to assess conditions based on age.
A long-standing range methodology is used to gather this data.
Heritage assets include archaeological sites that require determinations of National Register of Historic Places
status, National Historic Landmarks, and significant historic properties. Some heritage assets may have historical
significance, but their primary function in the agency is as visitation or recreation sites and, therefore, may not fall
under the management responsibility of the heritage program.
Trails and trail bridges are managed according to Federal law and regulations (CFR 36). More specific direction is
contained in FSM 2350, Trail, River, and Similar Recreation Opportunities, and the FSH 2309.18, Trails
Management Handbook.
Deferred maintenance of structures for wildlife, fish, and threatened and endangered species is determined by field
biologists using their professional judgment. The deferred maintenance is considered critical if resource damage or
species endangerment would likely occur if maintenance were deferred much longer.
Condition of Heritage Assets and Stewardship Lands
The Statement of Federal Financial Accounting Standard No. 29, Heritage Assets and Stewardship Lands,
reclassified information on heritage and stewardship land assets from “supplementary” to “basic.” This change
moves the acquisitions and withdrawals of these assets to the financial notes, accompanying the financial
statements. The condition information for these assets remains supplementary.
Heritage Assets
Heritage professionals are responsible for documenting and maintaining cultural resource condition assessments to
standard. Periodic monitoring and condition assessments are the basis for applying protective measures and
treatments to vulnerable, deteriorating, or threatened cultural resources. The condition of heritage assets depends
on the type of asset and varies from poor to fair.
Stewardship Land
The condition of NFS lands varies by purpose and location. The Forest Service monitors the condition of its
stewardship lands based on information compiled by two national inventory and monitoring programs—Forest
Inventory and Analysis (FIA) and Forest Health Monitoring (FHM).
Although most of the estimated 193 million acres of stewardship lands continue to produce valuable benefits –
clean air and water, habitat for wildlife, and products for human use – significant portions are at risk to pest
outbreaks or catastrophic fires.
There are 25 million acres of NFS forest lands at risk to future mortality from insects and diseases, based on the
2006 publication of Mapping Risk from Forest Insects and Diseases. Invasive species of insects, diseases, and plants
continue to affect our native ecosystems by causing mortality to, or displacement of, native vegetation.
The projected accomplishments on NFS lands include treatment of 42,337 acres for invasives and 57,058 for native
pests. These numbers should be considered preliminary, with final amounts of acres treated for invasives and native
pests on NFS lands available at www.fs.fed.us in February 2010.




168      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Agricultural Research Service

                                            FY 2009        FY 2008
     Asset Class
        Buildings                           $    258       $    241
        Structures                                19             36
        Heritage                                  89             80
     Total Agricultural Research Service    $    366       $    357

Deferred Maintenance (DM) includes work needed to meet laws, regulations, codes and other legal direction as
long as the original intent or purpose of the fixed asset is not changed. Also includes work performed to bring an
asset up to present environmental standards or correction of safety problems. Critical DM is DM that is identified
for critical systems including HVAC, electrical, roofing, and plumbing tasks. Non-critical DM is all other systems.
DM is reported for buildings, structures and heritage assets.
Executive Order (EO) 13327 requires all Federal agencies to assess the condition of their facilities and plan for
their full life cycle management. The Condition Index (CI) is a general measure of the constructed asset’s
condition at a specific point in time. It is calculated as the ration of repair needs, or DM, to plant replacement
value (PRV). PRV can be calculated systematically and without much effort. The condition of the constructed
asset is a more difficult figure to determine. A repair need is the amount necessary to ensure a constructed asset is
restored to a condition substantially equivalent to the originally intended and designed capacity, efficiency or
capability. Ideally, with enough money and time, repair needs would be determined for each asset by inspection,
evaluation of the repairs required, and consistent estimating of the repairs throughout ARS. ARS does not have
available manpower in-house to complete this type of inspection and estimating, nor the funding to contract. ARS
looked at approaches to model ARS assets and evaluate the results for management purposes.
Whitestone Research is a company that estimates DM based on the age of the facility, geographic location, typical
major components and size of the structure. Whitestone first inspected a sample of representative buildings from
29 ARS sites (roughly 48 percent of the total inventory) and used parametric models to estimate DM and PRV.
These results were generalized to the entire population of ARS facilities. Assuming a PRV of $3.6 billion, the CI
ratio (1 - $DM/PRV) is 92 percent, an outcome commonly classified as “adequate.”




                       FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION               169
==
STATEMENT OF BUDGETARY RESOURCES (UNAUDITED)

FY 2009                                                            FSA                           CCC                   FAS             RMA            FNS            FSIS           AMS            APHIS
                                                                  Non-Budgetary                 Non-Budgetary
                                                                    Financing                     Financing
                                                        Budgetary   Accounts          Budgetary   Accounts         Budgetary       Budgetary      Budgetary      Budgetary      Budgetary      Budgetary
Budgetary Resources:
Unobligated balance, brought forward, October 1:        $   2,215     $     869       $    2,098     $   2,516     $         382   $    2,057     $   14,258     $       29     $     433      $      368
Recoveries of prior year unpaid obligations                    55            72              181            10               170            4            507          1,441            15             168
Budget Authority:
  Appropriation                                             2,733             -           15,444             -               331        6,843         75,647            982          8,227           1,394
  Borrowing Authority                                           -         2,937           28,870           340                 -            -              -              -              -               -
  Earned -
    Collected                                                 728         1,628           11,722           553               102        4,211               84          146               58          105
    Change in receivables from Federal Sources                 (3)            -              (89)            -                42            -                -          (15)               -            8
  Change in unfilled customer orders -
    Advances received                                           -             -               154             -             -               -              -              -              -               -
    Without advance from Federal Sources                        1            23                 -           (18)          (13)              -              -              3              -               -
  Expenditure transfers from trust funds                        -             -             1,130             -             -               -              -              -              -               -
Nonexpenditure transfers, net, anticipated and actual          51             -            (2,241)            -           102               1          6,590              -         (6,616)           (300)
Temporarily not available pursuant to Public Law                -             -                 -             -             -               -              -              -              -               -
Permanently not available                                    (321)         (524)          (27,444)       (1,583)          (75)             (2)        (2,119)            (9)          (295)             (9)
 Total Budgetary Resources                                  5,459         5,005            29,825         1,818         1,041          13,114         94,967          2,577          1,822           1,734

Status of Budgetary Resources:
Obligations Incurred:
  Direct                                                    2,317         3,279            3,573           847               529       12,113         79,454          2,419          1,274           1,099
 Reimbursable                                                 450             -           24,232             -               144            -             42            126             51             336
Unobligated Balance:
 Apportioned                                                2,523           628              329           363             89             996          1,520             12             33             267
 Exempt from Apportionment                                      -             -              841             4              -               -              -              -             32               -
Unobligated balance not available                             169         1,098              850           604            279               5         13,951             20            432              32
Total Status of Budgetary Resources                         5,459         5,005           29,825         1,818          1,041          13,114         94,967          2,577          1,822           1,734

Change in Obligated Balances:
Obligated balance, net, brought forward October 1              497           330            7,646            6             20              456          4,288            162           122             391
Obligations incurred                                         2,767         3,279           27,805          847            673           12,113         79,496          2,545         1,325           1,435
Gross outlays                                               (2,618)       (3,036)         (26,050)        (879)          (423)         (12,173)       (77,928)        (1,108)       (1,265)         (1,289)
Recoveries of prior year unpaid obligations, actual            (55)          (72)            (181)         (10)          (170)              (4)          (507)        (1,441)          (15)           (168)
Change in uncollected payments from Federal Sources              2           (23)              89           18            (29)               -              -             12             -              (8)
Obligated balance, net, end of period -
 Unpaid obligations                                           606           514            9,541           159            187             392          5,347            186           170             387
 Uncollected customer payments from Federal Sources           (12)          (35)            (233)         (177)          (116)              -              -            (17)           (2)            (27)
 Obligated balance, net, end of period                        594           479            9,308           (18)            71             392          5,347            169           168             360

Net Outlays:
 Gross outlays                                              2,618          3,036         26,050            879            423          12,173         77,928          1,108          1,265           1,289
 Offsetting collections                                      (729)        (1,628)       (13,006)          (553)          (103)         (4,211)           (84)          (146)           (58)           (104)
 Distributed offsetting receipts                             (951)             -              -           (474)            (1)              -              -            (11)          (155)            (15)
 Net Outlays                                            $     938 $        1,408      $ 13,044 $          (148)    $      319      $    7,962     $   77,844     $      951     $    1,052     $     1,170




                                                                                                                       170
                                                                                    FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2009                                                     GIPSA         FS            NRCS           ARS       CSREES                  ERS             NASS                 RD                     DO                 TOTAL
                                                                                                                                                                              Non-Budgetary                              Non-Budgetary
                                                                                                                                                                                Financing                                  Financing
                                                        Budgetary     Budgetary     Budgetary      Budgetary     Budgetary           Budgetary       Budgetary      Budgetary   Accounts         Budgetary     Budgetary   Accounts
Budgetary Resources:
Unobligated balance, brought forward, October 1:        $       14    $   2,170     $    1,793     $     241     $     127           $          4    $          4   $    1,827    $    1,929     $        58   $    28,078       5,314
Recoveries of prior year unpaid obligations                      6           38            572           111           446                      4               6          153           672              57         3,934         754
Budget Authority:
  Appropriation                                                 40        7,107          1,308          1,387        1,270                     80          152           8,847             -           543         132,335           -
  Borrowing Authority                                            -            -              -              -            -                      -            -               -        11,628             -          28,870      14,905
  Earned -
   Collected                                                    42          535            108           105            46                      -           24           3,846         7,315           816          22,678       9,496
   Change in receivables from Federal Sources                    -          (23)            (6)            -            (2)                     -            -               4             -            24             (60)          -
  Change in unfilled customer orders -
   Advance received                                              -            2              4              -          (18)                     -            -               -             -            (2)            140           -
   Without advance from Federal Sources                          -          (51)            17             (6)          11                      1            -               -           215           (10)            (47)        220
  Expenditure transfers from trust funds                         -            -              -              -            -                      -            -               -             -             -           1,130           -
Nonexpenditure transfers, net, anticipated and actual            -            -          1,612              3          160                      -            -             204             -             3            (431)          -
Temporarily not available pursuant to Public Law                 -            -              -              -          (12)                     -            -               -             -             -             (12)          -
Permanently not available                                       (1)          (5)            (1)            (6)          (5)                    (1)          (2)         (2,636)       (3,498)           (7)        (32,938)     (5,605)
 Total Budgetary Resources                                     101        9,773          5,407          1,835        2,023                     88          184          12,245        18,261         1,482         183,677      25,084

Status of Budgetary Resources:
Obligations Incurred:
  Direct                                                        46        6,544          3,540          1,300        1,717                     81          153           5,780        16,269           532         122,471      20,395
  Reimbursable                                                  42          482             99            112          102                      1           24             555             -           844          27,642           -
Unobligated Balance:
 Apportioned                                                     8        2,031            794            399          202                      1            5           4,423         1,333           154          13,786       2,324
 Exempt from Apportionment                                       -            -              -              -            -                      -            -               -             -             -             873           4
Unobligated balance not available                                5          716            974             24            2                      5            2           1,487           659           (48)         18,905       2,361
Total Status of Budgetary Resources                            101        9,773          5,407          1,835        2,023                     88          184          12,245        18,261         1,482         183,677      25,084

Change in Obligated Balances:
Obligated balance, net, brought forward October 1                6         1,707          3,006           340         1,489                 29               20          4,916         20,358           182          25,277     20,694
Obligations incurred net                                        88         7,026          3,639         1,412         1,819                 82              177          6,335         16,269         1,376         150,113     20,395
Gross outlays                                                  (83)       (6,480)        (2,836)       (1,306)       (1,223)               (80)            (169)        (5,580)       (12,903)       (1,348)       (141,959)   (16,818)
Recoveries of prior year unpaid obligations, actual             (6)          (38)          (572)         (111)         (446)                (4)              (6)          (153)          (672)          (57)         (3,934)      (754)
Change in uncollected payments from Federal Sources              -            74            (11)            6            (9)                (1)               -             (4)          (215)          (14)            107       (220)
Obligated balance, net, end of period
 Unpaid obligations                                             11        2,641          3,322           432         1,716                     27           25           5,527        23,741           319          30,836      24,414
 Uncollected customer payments from Federal Sources             (5)        (351)           (97)          (90)          (86)                    (1)          (3)            (11)         (904)         (181)         (1,232)     (1,116)
 Obligated Balance, net, end of period                           6        2,290          3,225           342         1,630                     26           22           5,516        22,837           138          29,604      23,298

Net Outlays:
 Gross outlays                                                  83        6,480          2,836          1,306        1,223                     80          169           5,580        12,903         1,348       141,959        16,818
 Offsetting collections                                        (42)        (536)          (111)          (105)         (29)                     -          (24)         (3,846)       (7,315)         (814)      (23,948)       (9,496)
 Distributed offsetting receipts                                 -         (574)             1            (23)          (5)                     -            -          (1,310)            -           (56)       (3,100)         (474)
 Net Outlays                                            $       41    $   5,370     $    2,726     $    1,178    $   1,189           $         80    $     145      $      424 $       5,588     $     478     $ 114,911 $       6,848




                                                                                                                               171
                                                                                    FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2008                                                            FSA                           CCC                   FAS              RMA           FNS            FSIS           AMS           APHIS
                                                                  Non-Budgetary                 Non-Budgetary
                                                                    Financing                     Financing
                                                        Budgetary   Accounts          Budgetary   Accounts         Budgetary        Budgetary     Budgetary      Budgetary      Budgetary     Budgetary
Budgetary Resources:
Unobligated balance, brought forward, October 1:        $   3,165     $   1,820       $    1,604     $   2,139     $         387    $    2,262    $   14,891     $       57     $     603     $      362
Recoveries of prior year unpaid obligations                    40            81            1,246            27                96             2           637          1,074            14            129
Budget Authority:
  Appropriation                                             3,410             -           16,154             -               261         4,222        53,836            940          7,844          1,437
  Borrowing Authority                                           -         1,897           30,267           302                 -             -             -              -              -              -
  Earned -
    Collected                                                 791         1,499           13,812         1,250               141         2,068              85          150           110            111
    Change in receivables from Federal Sources                 (3)            -               10          (177)              (42)            -               -            5             -             (9)
  Change in unfilled customer orders -
    Advances received                                           -              -                3            -                 -             -             -              -              -            (19)
    Without advance from Federal Sources                       (1)            (1)               -          194                22             -             -              -              -              -
  Expenditure transfers from trust funds                        -              -              959            -                 -             -             -              -              -              -
Nonexpenditure transfers, net, anticipated and actual           -              -           (2,620)           -                 2             1         6,277             (2)        (6,296)          (225)
Temporarily not available pursuant to Public Law                -              -                -            -                 -             -             -              -              -              -
Permanently not available                                    (365)        (2,323)         (33,375)        (350)              (35)           (1)         (838)           (19)          (687)           (24)
 Total Budgetary Resources                                  7,037          2,973           28,060        3,385               832         8,554        74,888          2,205          1,588          1,762

Status of Budgetary Resources:
Obligations Incurred:
  Direct                                                    4,413         2,104            4,258           869               325         6,497        60,602          2,008          1,096          1,068
 Reimbursable                                                 409             -           21,704             -               125             -            28            168             59            326
Unobligated Balance:
 Apportioned                                                1,092            65              276         1,662                12         2,053           974              8             92            335
 Exempt from Apportionment                                      -             -              811             5                 -             -             -              -            289              -
Unobligated balance not available                           1,123           804            1,011           849               370             4        13,284             21             52             33
Total Status of Budgetary Resources                         7,037         2,973           28,060         3,385               832         8,554        74,888          2,205          1,588          1,762

Change in Obligated Balances:
Obligated balance, net, brought forward October 1              215           432            7,734          (53)            11              180          4,154            137           112            407
Obligations incurred                                         4,822         2,104           25,962          869            450            6,497         60,630          2,176         1,155          1,394
Gross outlays                                               (4,504)       (2,127)         (24,797)        (766)          (365)          (6,219)       (59,859)        (1,072)       (1,132)        (1,291)
Recoveries of prior year unpaid obligations, actual            (40)          (81)          (1,246)         (27)           (96)              (2)          (637)        (1,074)          (14)          (129)
Change in uncollected payments from Federal Sources              5             1              (10)         (17)            20                -              -             (5)            -              9
Obligated balance, net, end of period -
 Unpaid obligations                                           512           343            7,968           200               106          456          4,288            190           124            410
 Uncollected customer payments from Federal Sources           (15)          (13)            (322)         (194)              (86)           -              -            (28)           (2)           (19)
 Obligated balance, net, end of period                        497           330            7,646             6                20          456          4,288            162           122            391

Net Outlays:
 Gross outlays                                              4,504          2,127         24,797             766           365            6,219        59,859          1,072          1,132          1,291
 Offsetting collections                                      (791)        (1,499)       (14,773)         (1,249)         (141)          (2,068)          (85)          (150)          (111)           (93)
 Distributed offsetting receipts                             (581)             -              -            (353)           (1)               -            (1)           (13)          (185)           (20)
 Net Outlays                                            $   3,132 $          628      $ 10,024 $           (836)   $      223       $    4,151    $   59,773     $      909     $      836    $     1,178




                                                                                                                       172
                                                                                    FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2008                                                     GIPSA         FS            NRCS           ARS         CSREES             ERS             NASS                 RD                     DO                 TOTAL
                                                                                                                                                                           Non-Budgetary                              Non-Budgetary
                                                                                                                                                                             Financing                                  Financing
                                                        Budgetary     Budgetary     Budgetary      Budgetary      Budgetary       Budgetary       Budgetary      Budgetary   Accounts         Budgetary     Budgetary   Accounts
Budgetary Resources:
Unobligated balance, brought forward, October 1:        $       13    $   1,672     $    1,047     $     210      $       126     $          3    $          5   $   1,182     $    1,249     $     167     $    27,756     $    5,208
Recoveries of prior year unpaid obligations                      4           78            491            56               33                2               1         171          1,118            29           4,103          1,226
Budget Authority:
  Appropriation                                                 39        6,309          1,434          1,202           1,211               78          165          3,669              -           444         102,655              -
  Borrowing Authority                                            -            -              -              -               -                -            -              -         12,712             -          30,267         14,911
  Earned -
    Collected                                                   46          561            148               81            38                1           19          4,374          6,106           834          23,370          8,855
    Change in receivables from Federal Sources                  (1)          38             (9)               3             3                -           (3)           (21)             -           (16)            (45)          (177)
  Change in unfilled customer orders -
    Advances received                                            -           (7)            (3)            (1)             17                -            -               -             -             4              (6)             -
    Without advance from Federal Sources                         -            3             27             16              (3)               -            -               -            48           (52)             12            241
  Expenditure transfers from trust funds                         -            4              -              -               -                -            -               -             -             -             963              -
Nonexpenditure transfers, net, anticipated and actual            -           (2)         1,956              4              35                1            1             120             -             5            (743)             -
Temporarily not available pursuant to Public Law                 -            -              -              -             (11)               -            -               -             -             -             (11)             -
Permanently not available                                       (3)         (71)            (7)           (17)            (17)              (2)          (2)         (3,455)       (4,238)           (7)        (38,925)        (6,911)
 Total Budgetary Resources                                      98        8,585          5,084          1,554           1,432               83          186           6,040        16,995         1,408         149,396         23,353

Status of Budgetary Resources:
Obligations Incurred:
   Direct                                                       42        6,055          3,174          1,212           1,245               78          166          3,701         15,066           535          96,475         18,039
  Reimbursable                                                  42          360            117            101              60                1           16            512              -           815          24,843              -
Unobligated Balance:
  Apportioned                                                    7          982            517            216             123                1            2          1,234          1,057             1           7,925          2,784
  Exempt from Apportionment                                      -            -              -              -               -                -            -              -              -             -           1,100              5
Unobligated balance not available                                7        1,188          1,276             25               4                3            2            593            872            57          19,053          2,525
Total Status of Budgetary Resources                             98        8,585          5,084          1,554           1,432               83          186          6,040         16,995         1,408         149,396         23,353

Change in Obligated Balances:
Obligated balance, net, brought forward October 1                4         1,859          3,176           478            1,411           31               14          5,381         17,728           168          25,472         18,107
Obligations incurred                                            84         6,415          3,291         1,313            1,305           79              182          4,213         15,066         1,350         121,318         18,039
Gross outlays                                                  (78)       (6,448)        (2,951)       (1,376)          (1,193)         (79)            (179)        (4,528)       (11,269)       (1,373)       (117,444)       (14,162)
Recoveries of prior year unpaid obligations, actual             (4)          (78)          (491)          (56)             (33)          (2)              (1)          (171)        (1,118)          (29)         (4,103)        (1,226)
Change in uncollected payments from Federal Sources              -           (41)           (18)          (19)               -            -                3             21            (48)           68              33            (64)
Obligated balance, net, end of period -
 Unpaid obligations                                             11        2,132          3,092           436            1,566               29           23          4,924         21,047           349          26,616         21,590
 Uncollected customer payments from Federal Sources             (5)        (425)           (86)          (96)             (77)               -           (3)            (8)          (689)         (167)         (1,339)          (896)
 Obligated balance, net, end of period                           6        1,707          3,006           340            1,489               29           20          4,916         20,358           182          25,277         20,694

Net Outlays:
 Gross outlays                                                  78        6,448          2,951          1,376           1,193               79          179           4,528        11,269         1,373      117,444            14,162
 Offsetting collections                                        (47)        (558)          (145)           (81)            (55)              (1)         (19)         (4,374)       (6,107)         (835)      (24,327)          (8,855)
 Distributed offsetting receipts                                 -         (514)             3            (23)             (4)               -           (1)           (494)            -           (55)       (1,889)            (353)
 Net Outlays                                            $       31    $   5,376     $    2,809     $    1,272     $     1,134     $         78    $     159      $     (340) $      5,162     $     483     $ 91,228 $           4,954




                                                                                                                  173
                                                                           FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
RISK ASSUMED INFORMATION (UNAUDITED)
Risk assumed is generally measured by the present value of unpaid expected losses net of associated premiums based
on the risk inherent in the insurance or guarantee coverage in force. Risk assumed information is in addition to the
liability for unpaid claims from insured events that have already occurred. The assessment of losses expected based
on the risk assumed are based on actuarial or financial methods applicable to the economic, legal and policy
environment in force at the time the assessments are made. The FCIC has estimated the loss amounts based on
the risk assumed for its programs to be $8,930 million and $9,859 million as of September 30, 2009 and 2008,
respectively.




174    FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                      4. Other Accompanying Information




4.   Other Accompanying Information
Appendix A—Response to Management Challenges
The U.S. Department of Agriculture’s (USDA) Office of Inspector General (OIG) report concerning the
Department’s most significant management challenges can be found on the Internet at:
• http://www.usda.gov/oig/webdocs/MgmtChallenges2009.pdf . The OIG report also includes emerging issues
   that could become a Departmental challenge in upcoming years. The challenges herein and the emerging issues
   may hinder USDA’s mission and program delivery to its customers and constituents. To mitigate these
   challenges, USDA management provides accomplishments for the current fiscal year and/or planned actions for
   the upcoming one. The Department is reporting on 10 management challenges for FY 2009, 1 more than last
   year’s report. OIG did not remove any of the previous year’s challenges; however, sub-elements/issues reported
   under Challenge 4 (Homeland Security) and Challenge 8 (Food Safety) were either revised or removed this
   year. The following table summarizes those challenges that changed from FY 2008 to FY 2009.

                FY 2008 Management Challenges                                                      FY 2009 Changes
 (Challenge #4)                                                      (Challenge #4)
 Issue—Implement commodity inventory systems that provide critical   Issue Revised — Implement commodity inventory systems that provide critical
 homeland security features and complete security clearances for     homeland security features.
 employees involved in commodity inventory management activities
 and risk assessments.
 (Challenge #8)
 Issue—Develop a process to accumulate, review, and analyze all      Issue Removed by OIG
 data available to assess the adequacy of food safety systems.
 (Challenge #8)
 Issue—Continue to develop and implement a strategy for hiring and   Issue Revised — Continue to develop and implement a strategy for training
 training inspectors.                                                inspectors.

The following table includes fiscal year (FY) 2009 accomplishments, FY 2010 planned actions, and ongoing
activities to address the Department’s challenges.
USDA’s Management Challenges

 1) Interagency Communications, Coordination, and Program Integration Need Improvement.
 • Integrate the information management systems used to implement the crop insurance, conservation, and farm programs;
 • Increase organizational communication and understanding among the agencies that administer the farm, crop insurance, and conservation programs;
     and
 • Increase communication and coordination on issues related to agricultural inspection policies and procedures.
     Fiscal Year 2009 Accomplishments


                   FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                                  175
      −      Natural Resources Conservation Services (NRCS) initiated review testing, security scans, and the development of user roles for the Lean Six
          Sigma Grants Process;
      −      Risk Management Agency (RMA) and Farm Service Agency (FSA) held weekly meetings to identify needs, manage project priorities, and
          review progress;

      −      RMA issued an online users guide on Comprehensive Information Management System (CIMS) applications. It provides CIMS users efficient
          access to a central source of information and web report instructions. The user guide emphasizes that the user must safequard the Personally
          Identifiable Information contained in the CIMS reports;
      −      CIMS reports were designed and made available to Approved Insurance Providers (AIPs), showing producer entity and acreage differences;
      −      FSA formed State and county office user groups to provide them with access to CIMS. The FSA User Group began reviewing applications and
          providing recommendations and input to CIMS;
      −      RMA, FSA, and NRCS met to coordinate issues and opportunities common to the conservation agencies. They also discussed program
          financial assistance eligibility, the Service Center Information Management System, and the Federal Financial Accountability and Transparency
          Act;
      −      Implemented a new Conservation Security Program (CSP) rule to require the utilization of FSA farm records for program eligibility; and
      −      MIDAS is the FSA’s initiative to “Modernize and Innovate the Delivery of Agricultural Systems.” FSA has collaborated and coordinated with the
          Department to begin identifying shared data elements, systems interfaces, and program integration.
      Planned Actions for Fiscal Year 2010
        − Continue developing a single acreage reporting process to reduce duplicate reporting requirements for producers for common elements;
        − Continue with weekly meetings to set project objectives and priorities, and control CIMS maintenance and enhancements;
        − Issue user policy for CIMS Applications;
        − Provide CIMS access to the more than 12,000 FSA county and state office workers;
        − Establish requirements for RMA Reinsured Policy Acceptance Systems to use CIMS data to verify new producers reported to the agency;
        − Continue testing reports showing discrepancies between FSA and RMA data;
        − Continue developing the Lean Six Sigma Grants Process to better integrate the management of grants and financial assistance programs.
            This process will include cost share, easements, stewardship, emergency landscapes, and traditional grants;
        − Meet weekly to coordinate issues and opportunities common to the conservation agencies and related to program financial assistance
            eligibility, the Service Center Information Management System and the Federal Financial Accountability and Transparency Act;
        − Continue implementing CSP policy; and
      −     Acquire a System Integrator and an Independent Validation and Verification contract for MIDAS.




 2) Implementation of Strong, Integrated Internal Control Systems Still Needed.
 • Develop Rural Housing Service controls over administering disaster housing assistance programs to ensure aid is provided to the needy and avoid
     benefits duplication.
      Fiscal Year 2009 Accomplishments
        − Established and published multifamily housing procedures to monitor assistance in response to a disaster; and
      −       Implemented single-family housing procedures to require applicant certification of other emergency benefits, and consultation with the Office
          of the General Counsel on using newly appropriated disaster funds.
      Planned Actions for Fiscal Year 2010
      −      Seek assistance from the U.S. Department of Homeland Security’s Federal Emergency Management Agency to develop matching
          agreements to compare disaster assistance and procedures. The agreement would set policy to monitor, deliver, and control assistance in
          disasters related to housing.
 • Strengthen quality control and perform required reconciliation of producer/policy holder data in the Federal Crop Insurance Program.
      Fiscal Year 2009 Accomplishments
        − Reviewed selected RMA approved insurance providers operations to determine their compliance with the quality control guidelines listed in
             the Standard Reinsurance Agreement and associated appendix.
      Planned Actions for Fiscal Year 2010
        − Continue reviewing selected approved insurance providers operations to determine compliance with quality control guidelines listed in the
            Standard Reinsurance Agreement and associated appendix; and
      −     Continue implementing CIMS and integrating it into RMA’s and FSA’s business processes to allow for duplicate data to be identified and
          addressed at the time of producer reporting.



176        FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
• Prepare complete, accurate financial statements without extensive manual procedures and adjustments.
   Fiscal Year 2009 Accomplishments
   NRCS:
     − Issued interim guidance covering reimbursable agreements that addressed the proper classification, recording, and liquidation of unfilled
          customer orders;
     − Provided training on reimbursable agreements;
     − Issued guidance on personal and real property balances, and physical and real property inventories;
     − Instituted a process to ensure the Fund Balance with Treasury reconciliation is performed; financial statements are accurate, reliable, and
          complete; and the management review of monthly statements for fleet card purchases occurs;
     − Hired additional accounting staff experienced in financial statement preparation and reporting;
     − Conducted financial reviews to ensure compliance with policies and procedures to identify corrective actions and the need for additional
          guidance or training; and
   −      Obtained U.S. Standard General Ledger compliant posting models to appropriately record transactions without reclassification.
   Planned Actions for Fiscal Year 2010
   NRCS will:
     − Seek a contractor to assist in remediating its audit issues;
     − Include interim policy in national instructions;
     − Remediate financial audit issues including:
      o Open obligations;
      o Accruals;
      o Capital leases;
      o Internal Use Software;
      o Unfilled Customer Orders;
      o Easement reporting;
      o Deferred maintenance reporting; and
      o Proper presentation of the Statement of Net Cost.
     − Prepare for conversion to the USDA Financial Management Modernization Initiative (FMMI) financial system on October 1, 2010;
     − Issue financial policies and procedures; and
   −    Complete comprehensive training for financial and non-financial employees at all organization levels.
• Improve Forest Service’s (FS) and NRCS’s internal controls and management accountability to effectively manage resources, measure progress
  towards goals and objectives, and accurately report accomplishments.
   Fiscal Year 2009 Accomplishments
     − FS completed corrective action on remaining audit recommendations on performance reporting;
     − Performed an annual systems assessment of all FS financial/mixed financial systems;
     − FS implemented controls to monitor and ensure adequate firefighter training and developed preseason language assessments/certifications;
     − NRCS reviewed existing CSP contracts;
     − Conducted national CSP training for NRCS personnel on new and existing policies;
     − NRCS headquarters personnel visited 20 states to review and ensure compliance with the open obligation review;
     − NRCS implemented USDA’s new travel system that obligates funds at the time travel is approved;
     − NRCS issued accrual policy to strengthen existing procedures and ensure accruals were properly recorded, and trained staff on how to review
          and properly record accruals;
     − NRCS reviewed and ensured appropriate segregation of duties, and established guidelines and procedures for the periodic review of
          Collaborative Software Development Laboratory project roles; and
   −      NRCS revised the Web Based Total Cost Accounting System (WebTCAS) Risk Assessment to account for all National Institute of Standards
       and Technology Special Publication (NIST SP) 800-30 control areas, and the WebTCAS System Security Plan to account for all NIST SP 800-18
       control areas.
   Planned Actions for Fiscal Year 2010
     − FS will review performance accountability within various regions and continue implementing corrective actions identified through the Office of
         Management and Budget Circular A-123, “Management’s Responsibility for Internal Control,” Appendix A, “Internal Control over Financial
         Reporting” (A-123) process and OIG/GAO audits;
     − Assess all FS financial/mixed financial systems;
     − Conduct annual internal control risk assessment throughout FS and develop plans to address identified risks;
     − FS will improve monitoring and management of critical firefighter positions;
     − NRCS will implement corrective actions on findings from the 2009 CSP review prior to making 2010 payments;



                   FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                                      177
          −      Release a revised NRCS Conservation Programs Manual, and train all office staff;
          −      NRCS will develop a tracking system for technical assistance requests in the Chesapeake Bay, and expedite the development and
                 implementation of outcome-based performance measurements for evaluating the effectiveness of conservation efforts and programs; and
      −          NRCS will develop an overall strategy for the dam rehabilitation program. The strategy includes plans to work with State regulatory agencies
              to assess and rehabilitate high hazard dams.

 • Capitalize on FSA compliance activities to improve program integrity.
      Fiscal Year 2009 Accomplishments
      −      FSA established a compliance process that calls for annual reviews and analyses.
      Planned Actions for Fiscal Year 2010
      −     Continue to analyze results from compliance reviews to identify any program weaknesses and revise procedures to address them.



 3) Continuing Improvements Needed in Information Technology (IT) Security.
 • Emphasize security program planning and management oversight and monitoring.
      Fiscal Year 2009 Accomplishments
        − Completed a Departmental Security Program Plan/Strategic Plan;
        − Evaluated current and implemented refined Departmental security performance metrics;
        − Established the Agriculture Security Operations Center for centralized incident management and network intrusion/incident monitoring;
        − Continued leveraging the Cyber Security Assessment and Management System (CSAM) as a security program compliance tool and document
             repository;
        − Coordinated and monitored agency/Department compliance with new program requirements;
        − Initiated Program Reviews for Information Security Management Assistance (PRISMA);
        − Implemented ongoing Plans of Actions and Milestones (POA&M) closure validation reviews;
        − Began developing a Cyber and Privacy Policy and Oversight (CPPO) tactical plan; and
        − Trained agencies on CSAM and PRISMA reviews.
   Planned Actions for Fiscal Year 2010
     − Continue leveraging CSAM to manage IT security program compliance and oversight;
     − Continue using Security Metrics and PRISMA reviews to measure agency compliance with Security Program Requirements; and
     − Implement the CPPO tactical plan to improve USDA’s performance on the Federal Information Security Management Act (FISMA) scorecard.
 • Establish an internal control program throughout the systems’ life cycle.
      Fiscal Year 2009 Accomplishments
        − Reviewed existing cyber security Departmental manuals, and revised and reissued several as regulations;
        − Issued standard operating procedures to document repeatable program oversight processes;
        − Integrated A-123 and NIST SP 800-53 Common/Core controls for increased efficiency in controls testing activities;
        − Developed and implemented PRISMA review program; and
        − Completed incident handling compliance review for all incidents from October 2008 through February 2009.
   Planned Actions for Fiscal Year 2010
     − Conduct nine PRISMA reviews.
 • Identify, test, and mitigate IT security vulnerabilities (risk assessments).
      Fiscal Year 2009 Accomplishments
        − Review selected POA&M closure documentation to validate/verify corrective actions;
        − Continued Certification and Accreditation (C&A) concurrency review program;
        − Completed corrective action on OIG audit on wireless security; and
        − Continued using the FISMA scorecard to monitor agencies’ compliance with security program requirements.
      Planned Actions for Fiscal Year 2010
        − Complete reviewing system security plans and assessing common and high-risk vulnerabilities; and
        − Develop mitigation strategies to resolve the highest risk Department vulnerabilities.




178           FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
• Improve access controls.
   Fiscal Year 2009 Accomplishments
     − Improved access control by upgrading existing firewalls and enforcing remote access controls for Animal and Plant Health Inspection Service
          (APHIS) systems;
     − Revised Departmental regulation on access control;
     − Issued requirements for full review of privileged accounts; and
     − Reviewed POA&M documentation for access control vulnerabilities to verify mitigation actions are being implemented.
  Planned Actions for Fiscal Year 2010
    − Develop tactical plan for review of all user access profiles/accounts;
    − Continue FY09 initiatives for integrated access management (IAM and HSPD-12) encompassing physical and logical controls, encryption, and
        auditing; and
    − Implement updated policies, procedures, and technologies.
• Implement appropriate application and system software change control.
   Fiscal Year 2009 Accomplishments
     − Validated agency change management processes during C&A concurrency reviews; and
     − Implemented enterprise-wide security solutions for configuration management information in support of incident management.
   Planned Actions for Fiscal Year 2010
   −     Continue program oversight activities focusing on change/configuration management.



• Develop disaster contingency (service continuity) plans.
   Fiscal Year 2009 Accomplishments
     − Drafted a Departmental regulation for contingency planning;
     − Validated all agency disaster recovery plans;
     − Continuity of Operations (COOP) plans were migrated from the Living Disaster Recovery Planning System to CSAM;
     − Continued monitoring completion of COOP testing by USDA agencies; and
  −       Completed revising templates for contingency testing.
   Planned Actions for Fiscal Year 2010
     − Verify that agencies develop and test disaster recovery plans for all systems; and
   −     Continue Departmental initiatives to establish and fund alternate ‘hot sites’ for Service Center Agencies.




4) Departmental Efforts and Initiatives in Homeland Security Need to be Maintained.
• Implement commodity inventory systems that provide critical homeland security features and complete security clearances for employees involved in
    commodity inventory management activities and risk assessments.
   Fiscal Year 2009 Accomplishments
   −      Continued to ensure clearances were obtained for current FSA employees.
   Planned Actions for Fiscal Year 2010
   −      Continue implementing the Web-based supply chain management system.
• Continue to strengthen controls over select agents and toxins.
  Fiscal Year 2009 Accomplishments
    − Implemented an annual Compliance Inspection Program for all USDA registered entities.
• Continue efforts to coordinate with the U.S. Department of Homeland Security in implementing effective control systems to ensure the safety and
  security of agricultural products entering the country.
   Planned Actions for Fiscal Year 2010
   −     Develop and implement guidance for the electronic reporting of refused-entry data.




                   FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                                     179
 • Continue to strengthen ability to respond to avian influenza outbreaks.
      Fiscal Year 2009 Accomplishments
        − Continued implementing Animal and Plant Health Inspection Service’s (APHIS) strategic plan to include detailed goals, objectives, and
             activities for addressing avian influenza from FY 2009 to FY 2012;
        − APHIS finalized cooperative agreements with Iowa State University to produce a manual which will detail the live bird marketing system; and
      −      Completed risk assessments for pasteurized liquid eggs.
      Planned Actions for Fiscal Year 2010
        − Issue manual which will detail the live bird marketing system to include specific biosecurity measures. These measures would allow APHIS to
            prevent or mitigate the spread of high consequence diseases, respond to highly contagious diseases, including cleaning and disinfection
            protocols, and develop a continuity of business planning for an outbreak;
        − Continue to revise the outbreak surveillance response for Highly Pathogenic avian influenza (HPAI), including surveillance in the live bird
            market system and other off-farm surveillance;
        − Continue to develop an APHIS animal disease incident planning system. The system would provide a framework for existing documents, such
            as emergency management guidelines and disease-specific response plans (HPAI and foot-and-mouth disease); and
      −     Complete risks assessments on nest run eggs, and washed and sanitized eggs.
 • Strengthen controls over live animal imports.
      Fiscal Year 2009 Accomplishments
        − Collected data monthly on Canadian cattle import discrepancies and implement resolution, as needed; and
        − Implemented instructions which provided details on how APHIS will communicate with the Canadian Services Agency.
      Planned Actions for Fiscal Year 2010
        − Continue to collect data monthly on Canadian cattle import discrepancies and implement resolution, as needed.



 5) Material Weaknesses Continue to Persist in Civil Rights Control Structure and Environment.
 • Develop a plan to process complaints timely and effectively.
      Fiscal Year 2009 Accomplishments
        − Developed an automated intake report for pending complaints;
        − Established formal procedures for the prompt resolution of complaints not processed timely;
        − Developed automated adjudication reports for pending complaints;
        − Reassessed performance standards for specialists in the Employment Complaints Division to include the timely completion of assigned cases;
        − Required contract agreements for investigations to include a standard provision for timely and quality services;
        − Effective July 13, 2009, the Secretary announced his strategy to resolve all open Equal Employment Opportunity (EEO) complaints in the
             Department through the use of Alternative Dispute Resolution (ADR). The Secretary charged each Under and Assistant Secretary with the
             responsibility of resolving all open EEO complaints by way of a Departmental “Complaint Resolution Initiative” over a 60-day period. The
             initiative authorizes use and application of the full range of remedies available “without a finding of discrimination or admission of wrongdoing
             (no fault) in all administrative and Federal court processes”; and
      −      As part of Secretary Vilsack’s Civil Rights initiative, a Departmental EEO Task Force was established consisting of all agency Resolving
          Officials (ROs) and employees designated to serve with them. Since June 26, 2009, the Employment Complaint Division and the Complaints
          Resolution and Prevention Center (CRPC), now the Early Resolution and Conciliation Division (ERC), have conducted three orientation/training
          sessions to advise ROs and Tasks Force members of their roles and the use of ADR as a resolution tool.
   Planned Actions for Fiscal Year 2010
   −      Request the Equal Employment Opportunity Commission to conduct training and provide technical assistance with investigations and
       processing of complaints.
 • Ensure integrity of complaint data in the system.
      Fiscal Year 2009 Accomplishments
        − Finalized formal plan for business rules;
        − Created audit procedures for reviewing sample cases for data integrity;
        − Created automated quality control tool; and
      −      Audited sample cases.
 •



180        FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
• Develop procedures to control and monitor case file documentation and organization.
   Fiscal Year 2009 Accomplishments
     − Posted vacancy announcement for records manager.
   Planned Actions for Fiscal Year 2010
     − Develop comprehensive records management procedures for EEO case files;
     − Implement procedures for transferring and safeguarding documents part of an EEO complaint file; and
   −     Obtain the services of an external contractor to inventory and review EEO case files, and establish record retention procedures.



6) USDA Needs to Develop a Proactive, Integrated Strategy to Assist American Producers to Meet the Global Trade Challenge.
• Continue to strengthen genetically engineered organism field testing controls to prevent inadvertent genetic mixing with agricultural crops for export.
   Fiscal Year 2009 Accomplishments
     − Drafted standards and guidelines for the APHIS Biotechnology Quality Management System (BQMS); and
   −      Published the BQMS Pilot Project Draft Audit Standards in the Federal Register for public comment.
   Planned Actions for Fiscal Year 2010
     − Review Federal Register comments on BQMS draft audit standards; and
   −      Expand the BQMS pilot project to 10 participants.

• Develop a global market strategy.
  Planned Actions for Fiscal Year 2010
    − Expand outreach activities to key countries;
    − Incorporate the Country Strategy Statements (CSS) into the Foreign Agricultural Service (FAS) Mission Strategic Planning process; and
  −      Redefine the CSS development process to incorporate regional and global perspective encompassing USDA interests in individual countries
      and regions.
• Strengthen trade promotion operations.
   Planned Actions for Fiscal Year 2010
     − Analyze and reassess market development programs by coordinating industry trade partners’ program initiatives with USDA functional area
         efforts;
     − Continue developing new program management software and ongoing efforts to streamline program administration;
     − Further develop evaluation criteria and processes to demonstrate the effectiveness of market development program administration and
         funding allocations; and
   −     Conduct annual review/reassessment of FAS outreach effort.



7) Better Forest Service (FS) Management and Community Action Needed to Improve the Health of the National Forests and Reduce the Cost
of Fighting Fires.
• Develop methods to improve forest health; and
• Establish criteria to reduce the threat of wildland fires.
   Fiscal Year 2009 Accomplishments
     − Developed national guidance for the regions to use in assessing the risks from wildfires;
     − Monitored the effectiveness of hazardous fuel treatments and restoration projects;
     − Partnered with States and counties to develop and deliver fire prevention ordinances for use in planning and zoning in wildland urban interface
          areas; and
   −      Conducted large fire cost reviews.
   Planned Actions for Fiscal Year 2010
     − Continue to conduct large fire cost reviews and implement corrective actions, as applicable;
     − Monitor the effectiveness of hazardous fuel treatments and restoration projects;
     − Obtain clarification from the Office of the General Counsel on FS’ and States’ protection responsibilities in the wildland urban interface and
         other private properties threatened by wildfires; if State is responsible, provide direction and begin negotiation of WUI protection



                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                                        181
               responsibilities in large fire suppression management in WUI;
          −    Partner with States and counties to develop and deliver fire prevention ordinances to use in planning and zoning in wildland urban interface
               areas; and.
      −        Direct physical resources to effectively address the changing environment of forest health and the expanding WUI.



 8) Improved Controls Needed for Food Safety Inspection Systems.
 • Develop a time-phased plan to complete assessments of establishment food safety systems control plans and production processes, including a
     review program that includes periodic reassessment;
 • Develop a process to accumulate, review, and analyze all data available to assess the adequacy of food safety system; and
 • Improve the accuracy of data available in the systems.

      Fiscal Year 2009 Accomplishments
      −      Analyzed data to determine the best way to assess an establishment’s ability to control risk;
      −      Developed a project management plan to assert appropriate control using American National Scientific Institute earned value management
          standards to measure and control costs and schedule;
      −      Issued Food Safety and Inspection Service (FSIS) Directive 5100.1, Revision 2, “Enforcement, Investigations, and Analysis Officer
          Comprehensive Food Safety Assessment Methodology;”
        − Developed a risk-based approach to prioritize food safety assessments;
        − Met monthly to prioritize analytical and reporting needs. Business requirements were developed, including recommendations on reports that
             district analysts should be generating;
        − Programmed tracking system for monitoring the completion of In-Plant Performance System (IPPS) assessments. These assessments allow
             users to generate reports displaying lists of individuals who have outstanding IPPS reviews;
        − Updated the AssuranceNet Users Guide to provide additional guidance to supervisors reviewing IPPS assessments; and
        − Maintained data and information systems infrastructure adequate to support inspection activities.
   Planned Actions for Fiscal Year 2010
     − Test the electronic food safety assessments. As data are collected, they will be evaluated and analyzed. FSIS will examine relevant time
         windows prior to establishing its exact use in estimating risk;
     − Implement a modernization effort to continue to improve the security, quality, and sustainability of the system infrastructure (ongoing);
     − Continue to utilize the Enterprise Architecture Blueprint to document, assess, and improve the lines of agency business processes, and
         ensure they are properly aligned to the system’s capabilities and needs; and
     − Continue to utilize the Public Health Information Consolidation Projects and the Public Health Data Communication Infrastructure Systems to
         plan, track, and better report on IT operational and development activities.
 • Complete corrective actions on prior recommendations.
      Fiscal Year 2009 Accomplishments
        − Implemented a tracking system for audit recommendations that notifies FSIS program managers monthly about their obligations to respond to
             and take final action on OIG recommendations. The system is used to track results and produce a variety of reports.



 • Continue to develop and implement a strategy for hiring and training inspectors.
      Fiscal Year 2009 Accomplishments
        − Trained public health veterinarians to conduct food safety assessments.
      Planned Actions for Fiscal Year 2010
        − Conduct a review of the effectiveness of its training programs;
        − Conduct surveys of inspection program personnel and their supervisors following training to verify that inspectors are performing key job
            duties as instructed; and
        − Develop refresher training to reinforce inspection duties.




182           FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
9) Implementation of Renewable Energy Programs at USDA
• Develop and implement a viable and comprehensive renewable energy strategy for USDA agencies and programs.
   Fiscal Year 2009 Accomplishments
   −      USDA agencies cross referenced energy loans, grants, and guarantees against the existing systems to avoid funding duplication;
   −      Issued guidance to agency personnel who track and report energy activities;
   −      Identified renewable energy activities and programs of USDA;
   −      Revised the reporting format to collect funding information for renewable energy activities; and
     − Developed and implemented a USDA Energy Matrix to address audit recommendations.
   Planned Actions for Fiscal Year 2010
   −     Inter-agency working group will submit recommendations for a renewable energy strategy to the USDA Energy Council;
   −     USDA will continue to work towards a consolidated database of all Department renewable energy projects. USDA will expand the Energy
       Matrix to include links to agency databases of renewable energy projects; and
     − Continue to correct action items identified through audits.




10) Implementation of the American Recovery and Reinvestment Act of 2009 (ARRA)
• Provide timely and effective oversight of ARRA monies expended by USDA programs.
   Fiscal Year 2009 Accomplishments
     − Appointed the Deputy Chief of Staff as Senior Accountable Official for ARRA;
     − Established Department of Agriculture Recovery Team (DART) to ensure appropriate coordination of the program funds to USDA under
          ARRA;
     − Held periodic DART meetings to provide forum for agencies to identify best practices, share lessons learned, and resolve implementation
          issues;
     − Monitored compliance and program eligibility for existing USDA programs that received additional funding under the ARRA;
     − Collected data from financial systems and IT performance management and monitoring systems to ensure accountability and transparency of
          ARRA funds;
     − Provided funding reports on a quarterly basis or as required by Government-wide ARRA reporting guidance;
     − Established USDA and agency Web sites to report on USDA’s success with ARRA-related matters;
     − Created a geo-spatial map that allows the public to research and review ARRA projects; and
   −      USDA agencies developed risk mitigation plans for all ARRA-funded activities.
   Planned Actions for Fiscal Year 2010
     − USDA agencies will continue to implement corrective actions to close OIG audit recommendations related to ARRA-funded programs; and
   −      DART and USDA program managers will continue to monitor and prepare reports on ARRA funds to ensure program accountability and
       transparency.




                  FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                                 183
Appendix B—Improper Payment and Recovery Auditing Details
Since 2000, agencies have reported efforts to reduce erroneous payments through the Office of Management and
Budget’s (OMB) Circular A-11, “Preparation, Submission, and Execution of the Budget”. Under the Improper
Payments Information Act (IPIA), executive agencies must identify any of its programs that may be susceptible to
significant improper payments, estimate the annual amount of improper payments and submit those estimates to
Congress. Section 831 of the Defense Authorization Act requires recovery auditing. In this process, agencies
entering into contracts worth more than $500 million in a fiscal year (FY) must execute a cost effective program for
identifying errors made in paying contractors and for recovering amounts erroneously paid to the contractors. On
August 10, 2006, government-wide guidance was consolidated into OMB Circular A-123, “Management's
Responsibility for Internal Control, Appendix C, Requirements for Effective Measurement and Remediation of
Improper Payments.” Under this guidance, the U.S. Department of Agriculture (USDA) has 5 programs required
to report under Section 57 of OMB Circular A-11 and has identified an additional 11 programs at risk of
significant improper payments through the risk assessment process.
Accomplishments this year include:
• Measuring programs at risk of significant improper payments;
• Developing corrective action plans to reduce improper payments and establishing both reduction and recovery
   targets (where appropriate) for the programs at risk of significant improper payments;
• Completing risk assessments for all low risk programs; and
• Complying with reporting standards.
USDA’s improper payment rate of 5.92% for FY 2009, is an improvement over the 6.13% rate reported for
FY 2008. The estimated improper payments amount of $4.3 billion for FY 2009 is a slight increase from the $4.1
billion for FY 2008. This increase is due to the FY 2009 measured outlays of $72.4 billion being a larger volume
than the $67.4 billion in measured outlays for FY 2008. The FY 2009 results demonstrate that improper payment
error rates are being reduced and progress is being made:
• Nine USDA high risk programs reported improper payment error rates below their FY 2008 error rate;
• Seven USDA high risk programs, representing 63% of USDA’s total reportable outlays, reported error rates
     below their reduction targets in FY 2009. This exceeded USDA’s goal of achieving reduction targets for 50% or
     more of the agency’s total reportable outlays;
• Forest Service’s (FS) Wildland Fire Suppression Management Program error rate of 0.00% was below its
     reduction target of 0.02%, and below its FY 2008 error rate of 0.02%;
• Natural Resources Conservation Service’s (NRCS) Farm Security and Rural Investment Act programs error rate
     of 0.03% was below its reduction target of 0.30%;
• Rural Development’s (RD) Rental Assistance Program error rate of 2.06% was below its reduction target of
     3.90%, and below its FY 2008 error rate of 3.95%;
• Farm Service Agency’s (FSA) Conservation Reserve Program error rate of 0.72% was below its reduction target
     of 1.20%, and below its FY 2008 error rate of 1.25%;
• FSA’s Miscellaneous Disaster Programs error rate of 0.90% was below its reduction target of 3.00%, and below
     its FY 2008 error rate of 3.13%;
• FSA’s Direct and Counter Cyclical Program error rate of 0.42% was below its reduction target of 0.65%, and
     below its FY 2008 error rate of 0.70%;
• FSA’s Noninsured Assistance Program error rate of 14.18% was below its FY 2008 error rate of 14.67%;
• Food and Nutrition Service’s (FNS) Supplemental Nutrition Assistance Program (SNAP) error rate of 5.01%
     was below its reduction target of 5.64%, and below its FY 2008 error rate of 5.64%. The SNAP error rate is a
     historic low for the program and is the 5th year in a row that the SNAP error rate has been below 6%, long
     considered the standard for recognition in the program;



184    FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
• FNS’ National School Lunch Program error rate of 16.44% was below its FY 2008 error rate of 16.55%; and
• FNS’ School Breakfast Program error rate of 24.62% was below its FY 2008 error rate of 25.02%.
The root causes of improper payments are summarized into the categories of verification, authentication and
administrative. Verification errors relate to verifying recipient information such as earnings, income, assets, work
status, etc. Authentication errors relate to authenticating the accuracy of qualifying for program specific
requirements, criteria or conditions. Administrative errors relate to the accuracy of the entry, classification, or
processing of information associated with applications, supporting documents, or payments.
For FY 2009, the root causes of USDA improper payments were categorized as:
• 62 % attributable to verification error;
• 34 % attributable to authentication error; and
• 4 % attributable to administrative error.
USDA establishes improper payment recovery targets for high risk programs, where appropriate, and actively
collects recoveries. USDA’s total improper payment recoveries of $352.8 million reported for FY 2009 exceeded the
Departmental recovery target of $53.7 million. In addition, USDA continues the recovery auditing program for
contract payments made by eight agencies. Since 2005, USDA agencies have recovered $1.2 million in contact
payments identified for recovery.
USDA’s goal is to continue to achieve OMB’s targets for success in FY 2010. This goal is based upon USDA’s
previous accomplishments, planned corrective actions in progress, and established improper payment reduction and
recovery targets.
OMB provided a reporting template for IPIA in OMB Circular A-136, “Financial Reporting Requirements.” The
template requires responses to specific issues. USDA’s response to these issues follows.

           I. Describe your agency’s risk assessments, performed subsequent to compiling your full program
              inventory.
              List the risk-susceptible programs identified through your risk assessments.


The Office of the Chief Financial Officer (OCFO) issued detailed guidance for the risk assessment process
including templates and performs extensive reviews of drafts. Programs with larger outlays were required to perform
more detailed assessments than smaller programs. For USDA’s largest programs, the risk assessment process
required the following:
• Amount of improper payments needed to meet the reporting standards;
• Description of the program including purpose and basic eligibility requirements;
• Definition of improper payments specific to the program;
• Program vulnerabilities linked to improper payments;
• Internal controls designed to offset the program vulnerabilities;
• Internal controls testing for selected programs;
• Listing of significant reviews and audits;
• Final determination of risk level;
• Planned future enhancements (optional); and
• Description of how improper payments are recovered (optional).




                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                           185
USDA has identified the following 16 programs as susceptible to significant improper payments.

      Selection Methodology                       Agency                                                     Program
 Section 57 of OMB Circular        Farm Service Agency (FSA), Commodity        Marketing Assistance Loan Program (MAL)
 A-11                              Credit Corporation (CCC)
                                   Food Nutrition Service (FNS)                Supplemental Nutrition Assistance Program (SNAP)
                                                                               National School Lunch Program (NSLP)
                                                                               School Breakfast Programs (SBP)
                                                                               Special Supplemental Nutrition Program for Woman, Infants and
                                                                               Children (WIC)
 USDA Identified as Susceptible    FSA, CCC                                    Milk Income Loss Contract (MILC) Program
 to Significant Improper                                                       Loan Deficiency Payments (LDP)
 Payments
                                                                               Direct and Counter-Cyclical Payments (LCP)
                                                                               Conservation Reserve Program (CRP)
                                                                               Miscellaneous Disaster Programs (MDP)
                                                                               Noninsured Assistance Program (NAP)
                                   Food Nutrition Service (FNS)                Child and Adult Care Food Program (CACFP)
                                   Forest Service (FS)                         Wildland Fire Suppression Management (WFSM)
                                   Rural Development (RD)                      Rental Assistance Program (RAP)
                                   Risk Management Agency (RMA)                Federal Crop Insurance Corporation (FCIC) Program Fund
                                   Natural Resources Conservation Service      Farm Security and Rural Investment Act programs (FSRIP)
                                   (NRCS)




                 II. Describe the statistical sampling process conducted to estimate the improper payment rate for each
                     program identified.


 Agency              Program                                                         Sampling Process
 FSA/CCC     Marketing Assistance Loan    •    A statistical sample of high risk programs is conducted by the FSA County Office Review Program
             Program (MAL)                     (CORP) under the direction of the Operations Review and Analysis Staff (ORAS);
                                          •    Testing is conducted using statistically sound samples drawn from the total population of program
                                               payments made from October 2007 through August 2008. A professional statistician, under contract to
                                               FSA, is used to design the sampling approach, define the sample size and identify the sample items.
                                               Sample size is chosen to achieve a 90 percent two-sided confidence level;
                                          •    Once the universe of the program is determined for the target fiscal year, a stratified two-stage
                                               sampling approach is used. County offices (COFs) making payments for the target program are
                                               selected in the first stage and individual payments made or contracts reviewed by COFs are selected
                                               in the second stage; and
                                          •    That sample list of individual contracts or payments is provided to the members of the CORP staff
                                               covering the respective States. The CORP staff visits each of the COFs shown on the list and reviews
                                               the individual contracts or payments identified in the statistically sound sample. The CORP reviewers
                                               use a list of program division provided criteria that is drawn from legal and program administrative
                                               guidance. Findings of non-adherence to the criteria related to the individual contracts or payments in
                                               the sample will identify potential improper payments made. The results of that review are summarized
                                               and submitted to the CORP national office staff to be analyzed by the contractor statistician. That
                                               contractor determines the rate of improper payments based on the data provided by the CORP staff
                                               that visited the COFs and completed the actual review of documents.




186      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Agency           Program                                                          Sampling Process
FNS      Supplemental Nutrition      Statistical Sampling
         Assistance Program (SNAP)   Each month, States select a statistically random sample of cases from a universe of all households
                                     receiving SNAP benefits for that given month. Most States draw the samples using a constant sampling
                                     interval. There are some States which employ simple random and/or stratified sampling techniques.
                                     Required annual sample sizes range from 300 for State agencies with small SNAP populations to more than
                                     1,000 for larger States. The average is approximately 950 per State. States are required to complete at
                                     least 98 percent of selected cases deemed to be part of the desired SNAP universe. Federal sub-samples
                                     are selected systematically by FNS from each State’s completed reviews. These sample sizes range from
                                     150 to 400 per State.
                                     Error Rate Calculation
                                     The National payment error rate is calculated using a multi-step process:
                                     •     Each State agency conducts quality control (QC) reviews of the monthly sample of cases. The QC
                                           review measures the accuracy of eligibility and benefit determinations for each sampled case against
                                           SNAP standards. State agencies are required to report to FNS the findings for each case selected for
                                           review;
                                     •     FNS then sub-samples completed State QC reviews and re-reviews selected individual case findings
                                           for accuracy. Based on this sub-sample, FNS determines each State agency’s official error rate using
                                           a regression formula; and
                                     •     The national payment error rate then is computed by averaging the error rate of the active cases for
                                           each State weighted by the amount of issuance in the State.
FNS      National School Lunch       •     USDA conducts studies approximately every five years to assess the level of error in program
         Program (NSLP)                    payments because detailed information on the circumstances of the NSLP and SBP participating
                                           households are not collected administratively. The November 2007 – NSLP/SBP Access,
                                           Participation, Eligibility and Certification (APEC) Study – makes use of a national probability sample of
                                           school food authorities (SFAs), schools, certified students and their households, and households that
                                           applied and were denied for program benefits in School Year 2005-06;
                                     •     A stratified random sample of 78 unique public SFAs was selected in the first stage of sampling.
                                           Stratification variables included geographic region, prevalence of schools having a SBP and those
                                           using Provision 2/3, and a poverty indicator. For SFAs that do not have Provision 2/3 schools, three
                                           schools, on average, were selected for inclusion in the studying the second stage of sampling.
                                           Schools were stratified into two groups: 1) elementary schools and 2) middle- and high-schools. The
                                           school sample included both public and private schools. A total of 264 schools participated in the study
                                           (216 non-Provision 2/3 schools, 24 Provision 2/3 schools in their base year, and 24 Provision 2/3
                                           schools not in their base year). For the third stage of sampling, samples of households were selected
                                           in 240 of these schools to yield completed interviews for about 3,000 students certified for free and
                                           reduced-price meals and 400 denied applicant households;
                                     •     The sample of approved and denied applicant households was augmented by sampling of applications
                                           from Provision 2/3 schools in which household surveys were not conducted. Application reviews of
                                           about 6,800 students approved for free and reduced-price meals and over 1,000 denied applicants
                                           were conducted to estimate the case error rate due to administrative error;
                                     •     Data on counting and claiming errors were collected in all schools selected for application reviews. On
                                           randomly selected school days, field staff observed approximately 100 lunch transactions at each of
                                           the 245 schools participating in the NSLP as well as 50 breakfast transactions at each of the 218
                                           schools participating in the SBP. Cashier error was estimated using information from these meal
                                           transactions. Data on school-recorded daily meal totals across all points of sale, aggregated meal
                                           counts reported to the district, and total meals submitted to the State agency for reimbursement were
                                           examined to determine claiming errors; and
                                     •     To update the erroneous payment rate estimates in NSLP without having to conduct another full round
                                           of primary data collection, a series of econometric models were developed that captured the
                                           relationship between characteristics of the districts that participated in the APEC study and their
                                           estimated rates of certification error. Estimated coefficients from these models were used in
                                           conjunction with updated values of district characteristics obtained from the School Food Authorities
                                           Verification Summary Reports to predict certification error. Certification error rates were then
                                           translated into amounts and rates of erroneous payments in each district. Aggregating the district level
                                           estimates produced a national measure of predicted erroneous payments.




              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                                       187
 Agency            Program                                                           Sampling Process
 FNS      School Breakfast Program      The statistical sampling process for this program is similar to NSLP. See the NSLP description.
          (SBP)
 FNS      Special Supplemental          FNS plans to continue periodic examinations of WIC vendor and certification error:
          Nutrition Program for         •     Vendor Error — The 2005 vendor error study employed a nationally representative probability sample
          Women, Infants and                  of WIC vendors. A two-stage clustered design was developed to facilitate over-sampling of WIC-only
          Children (WIC)                      stores. Current lists of authorized WIC vendors were collected from the 45 States plus the District of
                                              Columbia that use retail vendors from delivery of benefits. These lists were used to establish the retail
                                              vendors for delivery of benefits. These lists were used to establish the national sample frame of
                                              vendors active during the study period. Geographic Information System software was used to form
                                              365 primary sampling units (PSU) in contiguous counties. Most PSUs had at least 80 vendors. The
                                              study selected 100 PSUs using probability non-replacement sampling with probabilities proportional to
                                              the size of the PSU. About 16 vendors and 4 reserve vendors were selected from each of the 100
                                              PSUs. The final sample size (unweighted) was 1,768 vendors. The study compared the purchase
                                              price paid by the compliance buyer with i) observed shelf prices and ii) the purchase amount the
                                              vendor reported to the State in order to yield estimates of overcharge and undercharge; and
                                        •     Certification Error — The 1998 WIC Income Verification Study was designed to provide information
                                              on the characteristics of a nationally representative sample of WIC participants in the contiguous
                                              United States, certified for WIC during Spring 1998. The sample was based on a multi-stage sample
                                              design, with 50 geographic PSUs selected at the first stage, 79 local WIC agencies selected at the
                                              second stage, and 178 WIC service sites selected at the third stage. WIC participants were randomly
                                              sampled for the study at the 178 WIC service sites as they appeared for WIC certification. In-person
                                              interviews were completed with 3,114 WIC participants at the 178 WIC service sites. The estimate of
                                              improper payments comes from a follow-up in-home survey that was conducted with approximately
                                              one out of every three persons selected for the in-person interviews. The in-home survey was
                                              designed to verify income information through review of household income documents. In-home
                                              interviews were completed with 931 respondents.
 FNS      Child and Adult Care Food     The national estimate of erroneous payments for the sponsor error component is based on a nationally
          Program (CACFP)               representative sample of sponsor files for 660 Family Day Care Homes (FDCH) in 60 distinct sponsors in 14
                                        States. The tiering status of FDCHs was first verified by determining their school area eligibility (at least 50
                                        percent of students were approved for free/reduced-price meals and Census Block Group area eligibility (at
                                        least 50 percent of children at or below 185 percent of the Federal Poverty Guidelines)) for Tier I and Tier II
                                        status. A sponsor of an FDCH not verified through area eligibility was contacted to secure additional
                                        documentation in support of the FDCH’s tiering status, such as income and categorical eligibility.
 FSA      Milk Income Loss Contract     MILC was not measured since the FY 2008 outlays significantly decreased to $2 million. Measuring the
          Program (MILC)                program was not cost justifiable. The FY 2009 outlays will be measured and reported in FY 2010.
 FSA      Loan Deficiency Payments      LDP was not measured since the FY 2008 outlays significantly decreased to $6 million. Measuring the
          (LDP)                         program was not cost justifiable. The FY 2009 outlays will be measured and reported in FY 2010.
 FSA      Direct and Counter-Cyclical   See the process described in the MAL discussion. The same process was used for this program.
          Payments (DCP)
 FSA      Conservation Reserve          See the process described in the MAL discussion. The same process was used for this program.
          Program (CRP)
 FSA      Miscellaneous Disaster        See the process described in the MAL discussion. The same process was used for this program.
          Programs (MDP)
 FSA      Noninsured Assistance         See the process described in the MAL discussion. The same process was used for this program.
          Program (NAP)
 FS       Wildland Fire Suppression     WFSM employs monetary unit sampling. Transactions coded to the Wildland Fire Suppression Fund are
          Management (WFSM)             systematically analyzed and reviewed.
                                        Two samples were selected by systematic random sampling with probability proportional to size (dollar
                                        amount). Sample size determination was based on total transaction amounts through 6/30/2008 for sample
                                        one. The second sample size determination was based on total transaction amounts from 7/01/2008
                                        through 9/30/2008. Due to the seasonality of the final amounts, the first nine months were sampled as a
                                        higher dollar rate (conservative rate) than the last three months. The final three months were sampled at the
                                        dollar rate for the entire balance.
                                        To ensure the validity of the sample design, sample sizes, and measurement methodology, a professional
                                        statistician from the University of New Mexico was consulted. The sample was selected using a 90%
                                        confidence level, with a precision range of 2.5%. Software used for sample selection was SAS 9.1 for
                                        Windows.




188    FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Agency           Program                                                          Sampling Process
RD       Rental Assistance Program   RD reviewed the sampling plan developed by the U.S. Department of Housing and Urban Development for
         (RAP)                       its studies. RD statisticians prepared a similar plan for this report. This report is based on a review of
                                     tenants receiving rental assistance (RA) during FY 2008. The sampling plan consisted of 666 RA payments
                                     from a universe of 3,373,862 or .019 percent. The methodology produced a sample with a 99-percent
                                     confidence level. This year, the audit unit from the Centralized Servicing Center (CSC) conducted the study
                                     rather than the RD field staff that were used in previous years. The study required CSC to evaluate tenant
                                     files and income calculations.
                                     The FY 2008 universe of rental assistance payments was 3,373,862. The only parameter used to determine
                                     the eligible universe was the RA payment. No other data element, such as location, size of property,
                                     number of units and availability of other rental assistance (such as Section 8) was a consideration. The
                                     statisticians were provided a data extract from the Multi-Family Housing Information System. The extract
                                     contained a list of all tenants receiving RA during FY 2008. The data included month of payment, project
                                     name, project identifier (case number/project number) and tenant name and unit number. From the data
                                     extract, the statisticians selected the sample by a systematic sample technique.
                                     Once the sample was identified, a letter was sent to the borrower/management agents that explained the
                                     process, provided the list of tenant payments to be reviewed and provided a list of documents that needed
                                     to be provided to the Centralized Servicing Center (CSC) for review. The data received from the
                                     borrower/management agent was used to compare Agency records. The study required CSC to complete
                                     the survey for the selected tenant payments. There was to be no substitution of the selected payment and, if
                                     the management agent was unable to submit the file, the payment would be considered improper. The
                                     survey results for this year are lower than prior years. This is attributable to the aggressive implementation
                                     of Multi-Family Housing’s corrective action plan and a concerted effort of focused training by both the
                                     Agency and the Industry groups.
RMA      Federal Crop Insurance      RMA drew 900 random 2005, 2006 and 2007 crop year indemnities to review during 2006, 2007 and 2008.
         Corporation Program Fund    For FY 2009 reporting, RMA sampled and reviewed the 2008 crop year, using those results to replace the
         (FCIC)                      2005 crop year results. This allowed RMA to maintain a running average error rate for the three most recent
                                     crop years. RMA will repeat this process for three years to compile 900 random indemnity reviews and build
                                     a database that will be used to identify the RMA program-error rate and identify any discernable trends.
                                     Samples are drawn by the compliance staff which oversees the compliance review data base and is
                                     responsible for data quality control. Limited resources make it impractical to conduct a statistically valid
                                     program review each year. Despite these limits, in combination with the National Operations Reviews
                                     conducted by RMA compliance personnel, these random reviews of paid indemnities should provide the
                                     program with sufficient data to establish an acceptable error rate for the purposes of the IPIA.
NRCS     Farm Security and Rural     NRCS determined the universe size of payments for all the programs by using all transactions for FY 2008
         Investment Act programs     entered into the accounting system against general ledger account 4902 and Treasury Symbols 12_1004.
         (FSRIP)                     Transaction codes were identified and extracted which represented payments against the individual
                                     program fund codes to create a universe of payments for each individual program.
                                     Based upon last year’s results and conversations with the individual Program Managers, NRCS projected
                                     the anticipated rate of occurrence. This would be the error rate from the previous years sampling factoring in
                                     any substantial changes made which mitigates improper payment risk found in prior IPIA efforts, external
                                     and internal audits or reviews.
                                     NRCS estimated the precision range, i.e., the upper and lower bounds around the estimated rate of
                                     occurrence as 5.00% (+/- 2.50%) based upon conversations with the Program Managers. OMB guidance
                                     recommended a 90% confidence level. However, NRCS used a more rigorous confidence level of 95% for
                                     the sample since accounting and financial applications typically use that confidence level. Based upon the
                                     four variables above (universe size, anticipated occurrence rate, precision range, and confidence level), we
                                     calculated the necessary sample size.
                                     Using a random number generator, NRCS selected payments for the sample. For program payments made
                                     through ProTracts system, payment amounts were aggregated by payment document number. ProTracts
                                     produced a payment transaction for each component of a payment request. This resulted in testing of the
                                     entire payment instead of a portion and simplifies the research required.
                                     A complete copy of the contract file was requested from the field office. The field office was required to
                                     verify highly erodible land/wetland conservation compliance and obtain adjusted gross income compliance
                                     documentation from the participant. Headquarters financial management (FMD) personnel audited the
                                     contract information against the program’s business process using a standard template developed for each
                                     individual program. The template ensured consistency in the reviews and incorporated tests for known
                                     causes of improper payments, issues identified by the Program Managers and internal controls
                                     implemented as a result of prior internal and external audits and reviews.




              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                                      189
               III. Describe the Corrective Action Plans for reducing the estimated rate of improper payments. Include
                    in this discussion what is seen as the cause of errors and the corresponding steps necessary to
                    prevent future occurrences. If efforts are already underway, and/or have been ongoing for some
                    length of time, it is appropriate to include that information in this section.


  Agency         Program                                                    Corrective Actions Planned
 FSA/CCC   Marketing Assistance   MAL improper payments were primarily attributable to administrative errors.
           Loan program (MAL)     The most significant causes for payments being identified as improper were as follows:
                                  •    A lien search was not conducted before loan disbursement;
                                  •    An acceptable acreage report is not on file at time of review; and
                                  •    Lien waiver was not obtained before loan disbursement.
                                  Actions taken or that will be taken to reduce the weaknesses identified are as follows:
                                  a. Broad Scope Actions Taken:
                                  •    FSA has committed to reducing improper payments and program weaknesses that contribute to improper
                                       payments;
                                  •    FSA has taken actions to correct its deficiencies in many areas and has incorporated the priority of reducing
                                       improper payments into its strategic planning documents; and
                                  •    Compliance reviews and spot-checks are required to ensure the accuracy of payments and integrity of FSA
                                       programs. Annually, based on a statistical sampling method, producers nationwide are selected for
                                       compliance review and spot-check. COFs are required to complete spot-checks and reviews for the various
                                       programs and activities in which the selected producers participate for the year, and record the results of
                                       these reviews in the National Compliance Review database. This reporting mechanism allows the National
                                       office to monitor the overall integrity of each program being implemented.
                                  b. Actions Already Taken that Impact All Causes of Improper Payments Identified:
                                  •    Provided training on improper payments to field personnel and educate them on the importance of control
                                       procedures as well as the potential risks of noncompliance. Training was delivered through various means
                                       including in person and via Ag Learn, and is being followed up with communications and job aid to help
                                       facilitate compliance controls;
                                  •    Integrated the employee’s individual performance results related to reducing improper payments into his/her
                                       annual performance rating;
                                  •    Utilized program specific checklists for COF employees to use before payment. County Executive Directors
                                       and District Directors review the completed checklists to help identify apparent internal control deficiencies
                                       and address additional training needs to reduce future errors;
                                  •    Contacted State office (SO) managers where the majority of improper payments were identified, according
                                       to the statistical sample, to determine possible training and/or job aids the SO and COF staff may need to
                                       assist in facilitating compliance to controls;
                                  •    Issued a notice for each program for the FY 2008 National CORP review of improper payments, providing
                                       detailed findings discovered during the FY 2008 statistical sample including established policy and
                                       procedure references for each finding;
                                  •    Issued various National notices to SOs and COFs re-enforcing current program policies and procedures;
                                       and
                                  •    Conducted a 2008 National Farm Bill training conference that included a specific presentation pertained to
                                       necessary internal control procedures and action expected upon issuance of National CORP review notices
                                       pertaining to improper payments. PowerPoint presentations of each of the respective training sessions were
                                       posted to the FSA intranet for immediate reference for SOs and COFs to utilize in conducting subsequent
                                       training sessions for all the applicable FSA employees within a respective state.
                                  c. Actions That Will be Taken that Impact All Causes of Improper Payments Identified:
                                  •    Provide a notice to SOs and COFs providing the detail findings discovered during the FY 2009 program
                                       specific statistical sample including established policy and procedure references for each finding;
                                  •    Reinforce current program policies regarding program compliance through the issuance of National notices
                                       to SOs and COFs personnel; and
                                  •    Review existing policy and procedures to determine program compliance inefficiencies and eliminate
                                       inadequate program compliance controls.




190    FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Agency         Program                                                         Corrective Actions Planned
FNS      Supplemental Nutrition   SNAP improper payments were primarily attributable to verification and authentication errors.
         Assistance Program       Causes of improper payments
         (SNAP)                   An improper payment occurs when a participating household is certified for too many or too few benefits
                                  compared to the level for which they are eligible. This can result from incomplete or inaccurate reporting of
                                  income and/or assets by participants at the time of certification. It also can occur from changes subsequent to
                                  certification or errors in determining eligibility or benefits by caseworkers. Eligibility worker delays in action or
                                  inaction taken on client reported changes also can cause of improper payments.
                                  An analysis of the FY 2007 completed statistical sample revealed that approximately 71.18 percent of all
                                  variances occurred before or at the most recent certification/recertification. Additionally, 59.44 percent of the
                                  errors were State agency caused. About half of the errors (49.18 percent) were income related and caused by
                                  client misreporting or the agency misapplying the reported income. Misreporting or misapplying deductions was
                                  the second largest source of errors at 31.06 percent. The analysis of the FY 2008 data is scheduled for release in
                                  early 2010.
                                  Steps that are (or will be) taken to address specific findings in the last statistical sample
                                  Program regulations require State agencies to analyze data to develop corrective action plans to reduce or
                                  eliminate program deficiencies. A State with a high error rate must develop a quality control (QC) corrective
                                  action plan to address deficiencies revealed through an analysis of its own QC data. A State with an excessive
                                  error rate will be required to invest a specified amount (depending on its error rate and size) designated
                                  specifically to correct and lower its error rate. The State also will face further fiscal penalties if it fails to lower its
                                  error rate in a future fiscal year.
                                  Steps that are (or will be) taken to improve the overall control environment and improper payments
                                  FNS, through its regional offices, works directly with States to impart the importance of payment accuracy and
                                  correct payments to State leadership. The agency also helps those leaders develop effective corrective action
                                  strategies to reduce payment errors. Regional offices provide many forms of technical assistance to States, such
                                  as:
                                  •      Analyzing data;
                                  •      Reviewing and monitoring corrective action plans;
                                  •      Developing strategies for error reduction and corrective action;
                                  •      Participating on boards and in work groups; and
                                  •      Hosting, attending and supporting payment accuracy conferences.
                                  FNS administers a State Exchange Program that provides funds to States to facilitate travel for obtaining,
                                  observing and sharing information on best practices and effective techniques for error reduction. Coalitions have
                                  been formed among States to promote partnerships, information exchange and collaborative efforts. These
                                  efforts address mutual concerns and support development of effective corrective action.
FNS      National School Lunch    NSLP improper payments were primarily attributable to verification and authentication errors.
         Program (NSLP)           FNS has worked closely with OMB, Congress, the States, schools, and advocacy partners for two decades to
                                  gain a better understanding of erroneous payments, and to develop and implement initiatives to address them.
                                  Strengthened the Certification Process through Legislative Program Reauthorization
                                  FNS worked with Congress to develop the Child Nutrition and WIC Reauthorization Act of 2004 (CNR) to enact
                                  program changes that address school meals certification problems. The act strengthened the certification
                                  process by:
                                  •    Requiring SNAP direct certification for free meals in all school districts, and continuing authority for optional
                                       direct certification using data from the Temporary Assistance for Needy Families and the Food Distribution
                                       Program on Indian Reservations;
                                  •    Simplifying the certification process by requiring a single application for all eligible children in a household;
                                  •    Requiring eligibility determinations to be in effect for the entire school year;
                                  •    Modifying verification requirements, and adding authority for optional direct verification of children’s
                                       eligibility;
                                  •    Requiring State agencies to conduct additional administrative reviews of school districts with higher rates of
                                       error;
                                  •    Expanding authority for the use of public records for verification of applications;
                                  •    Requiring increased efforts to obtain household response to application verification requests; and
                                  •    Requiring districts with high rates of non-response to verification to target subsequent year verification
                                       activity toward error-prone applications.
                                  FNS is engaged in continuing efforts to fully implement all the provisions of the CNR designed to improve
                                  program accountability.




               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                                                191
  Agency      Program                                                Corrective Actions Planned
                          Improved State and Federal Oversight and Technical Assistance
                          FNS conducted the following to improve oversight and technical assistance:
                          • Since 2004, required annual training for schools on certification and accountability issues;
                          • Secured funding from Congress in 2004 for FNS technical assistance to help State and local partners reduce
                             administrative errors and improve program integrity;
                          • Provided ongoing guidance and training materials to State agencies to improve monitoring of schools;
                          • In addition to providing ongoing guidance and training materials to States on the School Meals Initiative (SMI)
                             since 1995, provided in-person technical assistance to over 30 State agencies between 2005 and 2008 to
                             improve compliance with program nutrition and meal planning standards, leading to improved accuracy of
                             reimbursable meal-counting;
                          • Issued a revised Eligibility Manual which contains information on determining students’ eligibility for free and
                             reduced price meals under 7 CFR Parts 210 and 220, the National School Lunch Program (NSLP) (including
                             after school snacks and commodity schools) and the School Breakfast Program (SBP);
                          • Trained more than 500 State and federal reviewers on the Coordinated Review Effort (CRE) process and
                             forms to ensure that performance standards related to meal counting and claiming and serving reimbursable
                             meals are met. In addition, new CRE forms and Instructions were posted to the FNS web site along with the
                             training materials that were used in the CRE training sessions. Also, the CRE Guidance, which was
                             developed in the early 1990s is being updated to include current procedures to be utilized during CRE
                             Reviews. State agencies are implementing the CRE procedures that were identified during the training
                             sessions for the 2008-2009 school year;
                          • Pursuant to the CNR, FNS released applications for the fourth round of Direct Certification/Verification grant
                             funding in FY 2008. These grants are available to State agencies to assist in the implementation of
                             mandatory direct certification, direct verification and other provisions of CNR related to determining eligibility
                             to receive benefits in the NSLP and SBP. Child Nutrition and SNAP State agencies are eligible to apply for
                             funds. CNR provided $9 million for this purpose. A series of grants were awarded in FY 2006-08; with an
                             approximately $2.5 million in FY 2009; and
                          • FNS annually releases a solicitation for funding to State agencies for Administrative Reviews and Training
                             grants. This funding is available to perform administrative reviews and training of selected local educational
                             agencies identified by the States as having demonstrated a high level of, or high risk for, administrative error
                             in the NSLP. $4 million was set aside in FY 2005 and for each fiscal year thereafter.
                          Expanded National Data Collection and Analysis to Inform Policy
                          FNS conducted the following to collect and disseminate program data:
                          • Initiated an annual measure of administrative errors in the certification process in school year 2004-2005;
                          • As early as the 1990s, tested alternative approaches to the existing school meals certification and verification
                             processes to assess their impact on accuracy and program access;
                          • Highlighted the results of the data collections at numerous briefings with State and Federal partners and
                             Congressional staff;
                          • Published the APEC study, which provides the first comprehensive national estimate of erroneous school
                             meal payments for IPIA reporting. Additionally we are working on developing an appropriate approach to
                             improving the deficiencies noted in the APEC study; and
                          • Published the third annual report, “Accuracy of School Food Authorities’ (SFA) Processing of School Lunch
                             Applications – Regional Office Review of Applications” in May 2008. Covering the year 2007, the publication
                             is part of a series of annual reports assessing administrative errors associated with SFAs approval of
                             applications for free and reduced-price school meals.
                          Additional Action Planned
                          FNS proposes to expand training, technical assistance, and other efforts to reduce payment errors that result
                          from operational problems. Planned efforts include:
                          • Implementing improvements in data reporting systems, and have launched an improved we-based system for
                             States to report the results of verification activity. We anticipate that this reporting mechanism will improve
                             the accuracy and timeliness of this data. In addition, we have been actively emphasizing to States the
                             importance of using this and other data sources, such as the CRE Data Report (FNS-640) to identify and
                             target corrective action;
                          • Continuing the APEC study, which would enable FNS to estimate and measure changes in erroneous
                            payments over time, and would help inform FNS, Congress, the States, and advocacy partners on the
                            development of additional guidance, training, and policy options. For the past two decades, research and
                            evaluation conducted by FNS has suggested that there are potentially significant risks for payment errors in
                            the school meal programs. During that time, FNS worked closely with Congress, State agencies, school food
                            authorities, advocacy partners and others to assess and find ways to reduce erroneous payments in the



192    FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Agency         Program                                                      Corrective Actions Planned
                                   programs. Now that FNS has a nationally-representative estimate, it is expanding its efforts and focusing on
                                   reducing erroneous payments in the programs; and
                                 • Working with the National Food Service Management Institute to provide web-based training to States and
                                   Schools on certification and other issues.
FNS      School Breakfast        SBP improper payments were primarily attributable to authentication and verification errors.
         Program (SBP)           The corrective actions planned for this program are similar to NSLP. See the NSLP description.
FNS      Special Supplemental    WIC improper payments were primarily attributable to verification and authentication errors.
         Nutrition Program for   •    Vendor Error:
         Women, Infants and           The Child Nutrition Act was amended in 1996 to require the disqualification of WIC vendors who had been
         Children (WIC)               disqualified by the SNAP, and was amended in 1998 to require permanent disqualification of vendors who
                                      had been convicted of trafficking and illegal sales. The WIC/FSP Vendor Disqualification Final Rule
                                      implemented these requirements and also mandated three-year disqualifications for overcharging and
                                      charging for food not received. The WIC Food Delivery Final Rule mandated nationwide standards for
                                      vendor authorization, training, and monitoring. FNS will annually estimate and report improper payments to
                                      vendors based on information on vendor investigations routinely conducted by the State WIC Agencies and
                                      reported to FNS.
                                 •    Certification Error:
                                      FNS plans to continue periodic examinations of certification error in the WIC Program. The Child Nutrition
                                      Act was amended in 1998 to require income documentation for WIC Program applicants in all States. The
                                      Final WIC Policy Memorandum #99-4, “Strengthening Integrity in the WIC Certification Process”, the WIC
                                      Certification Integrity Interim Rule and the WIC Certification Integrity Final Rule implemented this
                                      requirement. The WIC Food Delivery Final Rule mandated one-year disqualifications for the most serious
                                      participant violations, including dual participation and misrepresentation of income. The WIC Miscellaneous
                                      Final Rule required State agencies to prevent conflicts of interest such as clinic staff certifying themselves,
                                      close friends, or relatives, and also required State agencies to maintain information on participant and
                                      employee fraud and abuse.
                                      FNS will measure the level of improper payments due to certification error for FY 2009 payments, with the
                                      initial improper payment amount and error rate available in March 2011.
FNS      Child and Adult Care    CACFP improper payments were primarily attributable to verification errors.
         Food Program            CACFP has three distinct parts: Child Care Centers, Adult Day Care Facilities, and Family Day Care Homes
         (CACFP)                 (FDCH). Overall program funding is provided to state agencies which provide funds to sponsoring organizations
                                 to pay for claims for reimbursable meals served at provider sites. Sites can be as large as an institution or as
                                 small as a household. Each part of CACFP has its own reimbursement structure.
                                 Payments and claim information are transferred among FNS, State agencies, program sponsors and program
                                 sites; each such transaction represents a risk for improper payment. Because requirements vary significantly for
                                 each different type of program sponsor and site, a full and rigorous assessment of the rate of improper payments
                                 is extremely complex.
                                 The original plan was to develop a program-wide study which would examine reimbursements for meals served
                                 and develop program error measurements that complied with the requirements of the IPIA. Because of the
                                 complexities of the program, FNS estimated that it would cost $20 million to measure improper payments at the
                                 precision required by IPIA. This amount has not been provided.
                                 In lieu of funding for a program-wide measurement, FNS has identified the FDCH component of this program as
                                 potentially high risk. FDCHs participate in CACFP through public or private nonprofit sponsoring organizations.
                                 FDCH improper payments are most likely caused by sponsor error in determining a participating home’s
                                 reimbursement tier (tiering error) or by FDCH error in reporting the number of meals which are eligible for
                                 reimbursement (claiming error).
                                 Two activities are underway which provide information on improper payments in the FDCH component of
                                 CACFP. A third activity was pilot tested during FY2007.
                                 •      Child Care Assessment Project (CCAP)—In the Spring of 2004, FNS began the CCAP. This project was
                                        designed to measure the effectiveness of efforts to improve the integrity of CACFP family day care homes
                                        and provide information from a broadly representative national sample of sponsors and providers. Over a
                                        four year period, FNS is conducting comprehensive on-site assessments of a sample of participating family
                                        day care home sponsors. These assessments are designed to analyze the effectiveness of FNS regulatory
                                        and policy initiatives on program performance. They will also offer insights on the control points in the
                                        claiming and reimbursement process that most frequently cause or contribute to improper payments. This



               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                                        193
  Agency         Program                                                      Corrective Actions Planned
                                         information will also help to support the effort to develop measurement strategies to estimate CACFP
                                         erroneous payments pursuant to IPIA. Data collection for this activity has been completed and the final
                                         results will be reported in FY 2010.
                                   •     Tiering Error—FNS has developed an annual sponsor tiering error measure and tested it. CACFP
                                         sponsors are responsible for determining whether family day care homes receive meal reimbursement at
                                         the higher rate (Tier 1) or lower rate (Tier 2). For FY 2008, the third annual data collection was conducted to
                                         determine a nationally representative sponsor tiering determination error rate.
                                   •     Claiming Error—FNS has identified two potential methods of estimating the risk of claiming error:
                                       − State data approach: Use data from State monitoring visits of FDCHs.
                                       − Sponsor data approach: Federal staff select a random sample of sponsoring organizations and from each
                                            use a random selection of the sponsor’s monitoring visits of FDCHs.
                                   Both approaches compare the number of participants observed during a monitoring visit to the average number
                                   of meals claimed for reimbursement for the meal or snack closest to the time of the visit. FNS pilot tested both
                                   approaches in conjunction with the CCAP reviews. FNS concluded that comparing meal claims to a sponsor’s
                                   report of the number of children observed during a monitoring visit does not provide a reliable estimate of family
                                   home day care meal claiming error.
                                   FNS has contracted with Mathematica Policy Research, Inc. to evaluate the feasibility of three different data
                                   collection methods for validating FDCH meal reimbursement claims. The pretest found that parent recalls hold
                                   promise for validating whether meals claimed for children of interviewed parents are erroneous. A plan is being
                                   developed to further evaluate the use of parent-recall interviews in validating sponsor submitted meal claims for
                                   FDCHs.
 FSA       Milk Income Loss        MILC was not measured since the FY 2008 outlays significantly decreased to $2 million. The FY 2009 outlays will
           Contract Program        be measured with planned corrective actions reported in FY 2010.
           (MILC)
 FSA       Loan Deficiency         LDP was not measured since the FY 2008 outlays significantly decreased to $6 million. The FY 2009
           Payments (LDP)          outlays will be measured with planned corrective actions reported in FY 2010.
 FSA       Direct and Counter-     DCP improper payments were primarily attributable to administrative errors.
           Cyclical Payments       The most significant cause for payments being identified as improper are as follows:
           (DCP)                   •    Paperwork error pertaining to whether an acreage report was on file to account for all cropland for the farm
                                        participating in DCP.
                                   For DCP corrective actions, see the MAL section. The same corrective actions apply to this program.
 FSA       Conservation Reserve    CRP improper payments were primarily attributable to administrative errors.
           Program (CRP)           The most significant causes for payments being identified as improper is:
                                   •    Payment amount is incorrect for calculated cost-share assistance (non-paperwork error) with an error rate
                                        of 1.24%; and
                                   •    Revised CRP-1 contract errors (non-paperwork error) with an error rate of .31%. The original CRP-1 was on
                                        file, but the errors were associated with a revised CRP-1.
                                   For CRP corrective actions, see the MAL section. The same corrective actions apply to this program.
 FSA       Miscellaneous           MDP improper payments were primarily attributable to administrative errors.
           Disaster Programs       Each fiscal year’s payment data represents different disaster response programs based on authorities provided
           (MDP)                   by legislation passed by Congress. Of the eight disaster programs included in the statistical sample, none are
                                   permanent programs.
                                   The most significant causes for payments being identified as improper are as follows:
                                   •     Crop Disaster Programs – Calculated payment amount is incorrect (non-paperwork error) - .41%; and
                                   •     Livestock Disaster Programs – Feed loss value is incorrect (non-paperwork error) - .36%
                                   For MDP corrective actions, see the MAL section. The same corrective actions apply to this program.
 FSA       Noninsured Assistance   NAP improper payments were primarily attributable to administrative errors.
           Program (NAP)           The most significant causes for payments being identified as improper are as follows:
                                   •    Application for payment filed late (paperwork error) – 6.82% error rate;
                                   •    Incorrect total production used to calculate the NAP payment (non-paperwork error) – 2.35% error rate;
                                   •    Notice of loss filed late (paperwork error) – 1.96% error rate;
                                   •    Unit yield is not properly calculated (non-paperwork error) – 1.96% error rate; and
                                   •    Incorrect crop acreage used to calculate payment (non-paperwork error) – 1.12% error rate.
                                   For NAP corrective actions, see the MAL section. The same corrective actions apply to this program.



194    FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Agency         Program                                                      Corrective Actions Planned
FS       Wildland Fire            FS corrective actions have significantly reduced the potential for errors resulting in the WFSM program reporting
         Suppression              a zero improper payment error rate. These actions include improved controls with regard to review processes,
         Management (WFSM)        centralization of accounting functions, improved communications, and follow-up prior to payment authorization.
RD       Rental Assistance        RAP improper payments were primarily attributable to administrative errors.
         Program (RAP)            Root cause of improper payment errors included:
                                  •     Insufficient file documentation; and
                                  •     Borrower/agent calculation errors and number transposition.
                                  Corrective actions include:
                                  •     Established a working group with the property management business partners and the Agency to continue
                                        providing educational opportunities for the industry regarding the importance of the IPIA process and the
                                        types of errors that were identified. Timeframe – May 30, 2009.
                                  •     Implement a new management agent performance assessment review that will reduce management fees
                                        paid to noncompliant management agents. If performance decreases, there will be a concurrent decrease
                                        in thebase management fee allowed for that year. Errors made on tenant certifications will be one of six
                                        criteria used for determining reduction in management fees paid. Timeframe – September 30, 2010; and
                                  •     Continue to pursue access to the Department of Health and Human Services New Hires database and the
                                        Department of Housing and Urban Development’s Enterprise Income Verification System to be shared with
                                        State Offices and management agents. Ongoing.
RMA      Federal Crop             FCIC improper payments were primarily attributable to verification errors.
         Insurance Corporation    RMA completed the fourth year of the three-year review cycle established to determine the improper payment
         Program Fund (FCIC)      rate for the Federal Crop Insurance Program. The strategy for identifying and controlling the error rate includes
                                  identifying error trends and policy concerns and correct them, however, as with the first 900 policies reviewed,
                                  there are still no definitive trends in the 900 polices completed in 2008. No underlying policy or underwriting
                                  issues have become apparent. This is in part due to the diversity of crops being reviewed and suggests it may be
                                  several cycles before RMA may amass sufficient numbers of samples on any particular crop to draw meaningful
                                  comparisons in the errors identified.
                                  RMA continues to expand its strategic data acquisition and analysis efforts by incorporating additional remote
                                  sensing and geospatial analyses to its data warehousing and data mining initiative. The data warehouse was
                                  extended to include the compilation of detailed geospatial NEXRAD radar and rainfall data. The application of
                                  these data and analysis tools were then increased to include underwriting and program integrity issues
                                  throughout the program. Data mining activities continue to show significant cost avoidance savings each year by


                                  identifying and spot checking the crop insurance program most anomalous participants based on their history of
                                  filing claims. Additionally, RMA and FSA continue to work on completing the Comprehensive Information
                                  Management System. This project is designed to identify common and unique producer and crop information
                                  reported to both agencies; develop services to access the information; aid in information reconciliation; and
                                  reduce the reporting burdens of farmers, ranchers, producers, RMA, FSA, and crop insurance providers.
                                  When RMA negotiated and executed the new Standard Reinsurance Agreement (SRA) starting in 2005, it
                                  emphasized improved quality controls and enhanced penalties that together should encourage participating
                                  companies who sell and service Federal crop insurance policies to improve their improper payments rate. Based
                                  on the passage of the 2008 Farm Bill, RMA will have another opportunity beginning with the 2011 reinsurance
                                  year to further adjust and improve SRA holder quality control requirements.
NRCS     Farm Security and        FSRI improper payments were primarily attributable to verification errors.
         Rural Investment Act     The improper payments discovered were final payments on conservation contracts. In December 2008, NRCS
         programs (FSRI)          performed a 100% open obligation review. NRCS performs a quarterly review of open obligations in accordance
                                  with Department Regulation 2300-001, “USDA Travel Card Regulation.” Checklists are developed to be
                                  completed during the reviews. NRCS will add specific questions to the checklist to address the missing
                                  documentation issues found during our IPIA testing.




             IV. Based on the Rate(s) Obtained in Step III, Set Annual Improvement Targets through FY 2012.
                                 Improper Payment Reduction Outlook FY 2008 – FY 2012


               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                                      195
Below is a summary level table for all high risk programs outlining improper payment rates for the last two years
and future reduction targets. When a number cannot be provided, an explanation is provided in the notes below.
Amounts represent when the sampling results are reported. USDA programs report results the year following
sampling activity. For example, results reported during FY 2009 represent measures of FY 2008 outlays and
program activity.

                                                    Improper Payment Sampling Results (millions)
                                                                                     Results                                 Results
                                                                                Reported in FY 2008                     Reported in FY 2009
                               Program                                     Outlays       IP%           IP$      Outlays        IP%             IP$
 Marketing Assistance Loan Program, FSA/CCC [Note #3]                      4,981        1.76%          92        4,935        2.56%          85
 Supplemental Nutrition Assistance Program, FNS                            30,373       5.64%        1,713      34,611        5.01%        1,733
 National School Lunch Program, FNS [Note #1]
     Total Program                                                          8,756       16.55%       1,449       9,436        16.44%       1,551
     Certification Error                                                    8,756       9.67%         847        9,436        9.56%         902
     Counting/Claiming Error                                                8,756       6.88%         602        9,436        6.88%         649
 School Breakfast Program, FNS {Note #1]
    Total Program                                                           2,150       25.02%         538       2,273        24.62%           560
    Certification Error                                                     2,150       9.23%          198       2,273        8.83%            201
    Counting/Claiming Error                                                 2,150       15.79%         339       2,273        15.79%           359
 Women, Infants and Children, FNS [Note #2]
     Total Program                                                          3,950        N/A           N/A       4,483         N/A             N/A
     Certification Error Component                                          3,950        N/A           N/A       4,483         N/A             N/A
     Vendor Error Component                                                 3,950       0.87%          34        4,483        1.27%            57
 Child and Adult Care Food Program, FNS [Note #2]
 Total Program
 FDC Homes – Tiering Decisions                                              2,311         N/A          N/A       2,214          N/A            N/A
 FDC Homes – Meal Claims                                                     728        1.56%          11         713         2.07%            15
                                                                             728          N/A          N/A        713           N/A            N/A
 Milk Income Loss Contract Program, FSA [Note #5]                            155        0.21%          0.3          2           N/A            N/A
 Loan Deficiency Payments, FSA [Note #5]                                     134        0.60%          0.8          6           N/A            N/A
 Direct and Counter-Cyclical Payments, FSA [Note #3]                        7,144       0.70%          47        4,948        0.42%            20
 Conservation Reserve Program, FSA [Note #3]                                1,888       1.25%          24        1,876        0.72%            11
 Miscellaneous Disaster Programs, FSA [Note #3]                              154        3.13%           5        2,245        0.90%            19
 Noninsured Assistance Program, FSA [Note #3]                                126        14.67%         18          67         14.20%            8
 Wildland Fire Suppression Management, FS                                   1,370       0.02%          0.2       1,016        0.00%            0.0
 Rental Assistance Program, RD                                              887         3.95%          35         887         2.06%          18
 Federal Crop Insurance Corporation Program Fund, RMA [Note #4]            3,508        4.70%         165        3,545        5.79%         205
 Farm Security and Rural Investment Act programs, NRCS                     1,138        0.00%         0.0        1,320        0.03%         0.0
 USDA Total                                                                67,442       6.13%        4,132      72,363        5.92%        4,283


                                           Detailed Breakout of Improper Payment Reported in FY 2009
                                       Total                      Over-        Under-                          Incorrect          Incomplete
                                    Payments                    Payments      Payments           Other       Disbursement         Paperwork
                                   $ in millions       IP %        %             %                %               %                   %
 Marketing Assistance Loan
 Program, FSA/CCC                     4,935            2.56%      2.56%         0.00%            N/A            0.16%                  2.40%
 [Note #3]



196      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                                              Detailed Breakout of Improper Payment Reported in FY 2009
                                        Total                          Over-             Under-                           Incorrect                Incomplete
                                     Payments                        Payments            Payments         Other         Disbursement               Paperwork
                                    $ in millions          IP %         %                   %              %                 %                         %
Supplemental Nutrition                 34,611             5.01%          4.01%            1.00%            N/A                5.01%                     N/A
Assistance Program, FNS
National School Lunch
                                       9,436          16.44%             12.47%           3.96%            N/A                16.44%                    N/A
Program, FNS
School Breakfast Program, FNS          2,273          24.62%             21.28%           3.35%            N/A                24.62%                    N/A
Women, Infants and Children,
                                       4,483              1.27%          0.81%            0.46%            N/A                1.27%                     N/A
FNS
Child and Adult Care Food
                                        713               2.07%          1.87%            0.20%            N/A                2.07%                     N/A
Program, FNS
Milk Income Loss Contract
                                         2                 N/A             N/A             N/A             N/A                 N/A                      N/A
Program, FSA [Note #5]
Loan Deficiency Payments, FSA
                                         6                 N/A             N/A             N/A             N/A                 N/A                      N/A
[Note #5]
Direct and Counter-Cyclical
                                       4,948              0.42%          0.40%            0.02%            N/A                0.17%                  0.32%
Payments, FSA [Note #3]
Conservation Reserve Program,
                                       1,876              0.72%          0.71%            0.01%            N/A                0.44%                  0.38%
FSA [Note #3]
Miscellaneous Disaster
                                       2,245              0.90%          0.65%            0.25%            N/A                0.84%                  0.11%
Programs, FSA [Note #3]
Noninsured Assistance
                                         67           14.20%             13.01%           1. 17%           N/A                6.40%                  9.30%
Program, FSA [Note #3]
Wildland Fire Suppression
                                       1,016              0.00%          0.00%            0.00%            N/A                0.00%                  0.00%
Management, FS
Rental Assistance Program, RD           887               2.06%          2.06%             0.0%            N/A                0.63%                  1.43%
Federal Crop Insurance
Corporation Program Fund,              3,545              5.79%          5.78%            0.01%            N/A                5.79%                  0.00%
RMA
Farm Security and Rural
                                       1,320              0.03%          0.03%            0.00%            N/A                0.00%                  0.03%
Investment Program, NRCS
USDA Total                              72,363            5.92%          4.78%            1.14%           0.00%               5.47%                  0.45%



                                                  Improper Payment Reduction Outlook ($ in millions)
                                                          FY 2010 Reporting                       FY 2011 Reporting                        FY 2012 Reporting
                Program                          Outlays           IP%            IP$      Outlays       IP%           IP$       Outlays          IP%           IP$
Marketing Assistance Loan Program,
                                                  8,824           1.55%          137        8,824       1.45%         128         8,824          1.45%         128
FSA/CCC
Supplemental Nutrition Assistance
                                                 35,189           5.60%          1,971     35,483       5.40%         1,916      35,483          5.30%         1,881
Program, FNS [Note #6]
National School Lunch Program, FNS               10,215           15.63%         1,597     10,941       15.19%        1,662      11,370          14.76%        1,678
School Breakfast Program, FNS                     2,589           23.42%         606        2,823       22.66%        640         2,959          21.92%        649
Women, Infants and Children, FNS                  4,901           0.77%           38        5,265       0.72%          38         5,376          0.67%          36
Child and Adult Care Food Program, FNS              758           1.46%           11        799         1.41%          11            816         1.36%          11
Milk Income Loss Contract Program, FSA              600           0.21%           1         282         0.21%          1             282         0.21%          1
Loan Deficiency Payments, FSA                       152           0.60%           1         151         0.60%          1             151         0.60%          1




                  FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                                                      197
                                             Improper Payment Reduction Outlook ($ in millions)
                                                   FY 2010 Reporting                FY 2011 Reporting                FY 2012 Reporting
                 Program                    Outlays       IP%          IP$   Outlays       IP%          IP$   Outlays       IP%          IP$
 Direct and Counter-Cyclical Payments,
 FSA                                         5,985       0.41%         25     5,859       0.40%         23     4,282       0.39%         17
 Conservation Reserve Program, FSA           1,852       0.71%         13     1,764       0.70%         12     1,841       0.69%         13
 Miscellaneous Disaster Programs, FSA        1,643       0.89%         15     1,284       0.88%         11     1,205       0.87%         10
 Noninsured Assistance Program, FSA          275         9.22%         25     275         5.90%         16     275         2.50%         7
 Wildland Fire Suppression Management,
 FS                                          2,090       0.02%         0.4    2,300       0.02%         0.5    2,400       0.02%         0.5
 Rental Assistance Program, RD               961         2.05%         20     999         2.04%         20     1,030       2.03%         21
 Federal Crop Insurance Corporation
 Program Fund, RMA                           8,550       4.50%         385    6,000       4.40%         264    6,000       4.30%         258
 Farm Security and Rural Investment, NRCS    1,790       0.20%         4      2,172       0.15%         3      2,688       0.10%         3


Note #1: Does not adjust for interaction between the different sources of certification error and counting/claiming
error. Improper Payment Rates (School Year 2007/08) times SBP outlays (FY 2008).
Note #2: WIC and CACFP tests components of their total program. WIC currently tests and reports on the vendor
error component of the payment process. The WIC certification error component information should be available
by March 2011. CACFP currently tests and reports on the FDCH tiering decision component of the payment
process. FNS continues to evaluate the measure processes for the CACFP meal claim component and has not set a
date for measurement and reporting.
Note #3: The FY 2009 estimated improper payment dollar amounts for MAL, DCP, CRP, MDP, and NAP reflect
variances from the relationship between the improper payment percentage and the outlays amount. These variances
result from the complex, multi-stage statistical sampling methodology developed by the contract statistician in
calculating the independent projections of the dollars/percentages in error. The variances are not an attribute
measurement, but rather a complex ratio estimate weighted with respect to the payments within their applicable
county stratification. They reflect the variability within the payment data and occur with a 90% confidence level.
The MAL, DCP, CRP, MDP, and NAP universe of payments for the FY 2009 reporting cycle was October 2007
through August 2008. The measurement period was adjusted in order to meet an earlier report timeframe. The
FY 2010 reporting cycle measurement period will be September 2008 through August 2009.
Note #4: RMA uses a three year running average to calculate the improper payment error rate. This is the fourth
year RMA has used this process to measure the improper payment error rate.
Note #5: FSA did not measure MILC and LDP for the FY 2009 IPIA review and reporting cycle since sampling
was not cost effective due to the very low outlay amounts ($2 million for MILC and $6 million for LDP). FSA will
measure MILC and LDP and report the results for the FY 2010 IPIA review cycle.
Note #6: The presented SNAP improper payment targets are being evaluated by USDA and OMB. These targets
may be revised in OMB’s annual report “Improving the Accuracy and Integrity of Federal Payments” provided to
Congress in January 2010.




198      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                V. Discussion of your Agency’s Recovery Auditing effort, if applicable, including any contract types
              excluded from review and the justification for doing so; actions taken to recoup improper payments,
                    and the business changes and internal controls instituted and/or strengthened to prevent
                                                        further occurrences.
                                              In addition, complete the table below.

USDA continued its recovery audit program with eight agencies in FY 2009. All agencies used independent
recovery audit firms working on contingency.
Steps taken to reduce future errors include strengthening internal controls by providing information related to all
recovered monies and the underlying transactions to management. The most successful method of identifying funds
to be recovered has been the review of vendor statements. Most amounts identified during FY 2009 were due to the
vendor statements reviews of FY 2008 payments.

                                             FY 2009 Recovery Auditing Results ($ in Million)
                                                                                                               Cumulative
                    Amount        Actual      FY 2009                                                           (Current &     Cumulative
                   Subject to    Amount      Amounts                         Prior Years                       Prior Years)     (Current &
                   Review for   Reviewed     Identified      FY 2009          Amounts           Prior Years      Amounts       Prior Years)
   Agency           FY 2009        and          for          Amounts        Identified for       Amounts      Identified for     Amounts
  Component        Reporting    Reported     Recovery       Recovered         Recovery          Recovered        Recovery      Recovered
 Forest Service     1,906.069   1,906.069      0.002          0.002             .682              0.682           .684             0.684
 Natural
 Resources
                     693.067     693.067       0.000          0.000             0.026             0.026           0.026            0.026
 Conservation
 Service
 Agricultural
 Research            461.173     461.173       0.059          0.059             0.000             0.000           0.059            0.059
 Service
 Animal Plant
 Health
                     428.645     428.645       0.021          0.021             0.374             0.374           0.395            0.395
 Inspection
 Service*
 Farm Service
                     94.819      94.819        0.000          0.000             0.047             0.047           0.047            0.047
 Agency
 Food Safety
 and Inspection      33.550      33.550       0.000           0.000             0.000             0.000           0.000            0.000
 Service
 Rural
                     110.314     110.314      0.000           0.000             0.000             0.000           0.000            0.000
 Development
 Agricultural
 Marketing           47.995      47.995        0.000          0.000             0.002             0.002           0.002            0.002
 Service
 All Others         1,154.138     0.000         N/A            N/A               N/A               N/A             N/A              N/A
 USDA Total         4,929.77    3,775.632      0.082          0.082             1.131             1.131            1.213            1.213




                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                           199
         VI. Describe the steps the agency has taken and plans to take (including time line) to ensure that
          agency managers (including the agency head) are held accountable for reducing and recovering
                                               improper payments.

FSA
The following are steps taken to ensure agency managers are held accountable for reducing and recovering improper
payments:
• FSA has a performance management program in place to improve individual and organizational effectiveness in
   accomplishing the Agency’s mission and goals. This program provides for improper payments to be included in
   the State Executive Directors Performance Plan, element 5 titled “Program Management”;
• National and State Office (STO) managers are held accountable for ensuring that program policies and
   procedures are provided to the STO and COF employees accurately and on a timely basis. National Office
   managers are also held accountable, as reflected in the performance based rating measures, for overall program
   administration at the National level. FSA employees’ performance elements are directly related to FSA’s
   Strategic Plan;
• COF employees, including the County Executive Director, are responsible for making payments to producers
   and following all administrative steps in doing so. Employees will be evaluated on program delivery and their
   compliance with regulations, policies, and procedures through their performance plans;
• Deputy Administrator of Field Operations will facilitate meetings with the program areas to discuss any
   additional action necessary for senior management to address accountability;
• Employees at all levels of the Agency will be held accountable for efficient and accurate delivery of all FSA
   programs; and
• FSA’s strategic Plan for 2005-2011 established a performance measure to help ensure payments are accurate and
   complete. The performance measure, “Maintain or increase the percentage of proper payments is identified in
   FSA’s crosscutting management objective “Strategically Managing Human Capital.”
FNS
An agency priority is to improve stewardship of Federal funds. Within this priority are specific goals applicable to
programs at high risk for erroneous payments. The goal for the SNAP, WIC, and CACFP is to reduce the error
rates by continued management improvements. The goal of the NSLP and SBP is to improve the accuracy of
school administration processes that certify children for school meals. The agency goals and priorities are
incorporated into each manager’s performance plan.
FS
The FS Albuquerque Service Center management team is held accountable by performance metrics that include
compliance with the IPIA. Additionally, the agency chief financial officer will provide disbursement performance
information to the agency head as part of the performance appraisals for senior leadership.
RD
RD State Offices with improper payment errors must develop a corrective action plan. The plan will include
procedures to train field staff, borrowers and property manager in appropriate required documentation and follow-
up with tenants and income-verifiers.




200     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
RMA
RMA revised its strategic plan to provide results to enhance accountability. It also has established procedures to
ensure RMA management takes future corrective actions to address program vulnerabilities. Additionally, every
employee’s performance plan agreement has contained a position-corresponding strategic objective element since
FY 2005.
NRCS
NRCS incorporated IPIA goals and objectives in the performance standards for all senior executive service
positions. These also have been included in the regional assistant chiefs and state conservationist performance plans.



          VII A. Describe whether the agency has the information systems and other infrastructure it needs to
                           reduce improper payments to the levels the agency has targeted.

             VII B. If the agency does not have such systems and infrastructure, describe the resources the
                      agency requested in its FY 2009 budget submission to Congress to obtain the
                                   necessary information systems and infrastructure.


While USDA is creating information systems and infrastructure to reduce improper payments, especially for
programs susceptible to significant risk, efforts in some programs are constrained by limited resources. USDA has
worked closely with OMB to develop action plans that focus available resources on the most critical needs with
regard to improper payment measurement and risk reduction.



          VIII. Describe any statutory or regulatory barriers which may limit the agencies’ corrective actions in
             reducing improper payments and actions taken by the agency to mitigate the barriers’ effects.


FSA/CCC
The Department of Agriculture Reorganization Act of 1994, Section 281 provides that “[E]ach decision of a State,
county, or area committee or an employee of such a committee, made in good faith in the absence of
misrepresentation, false statement, fraud, or willful misconduct shall be final not later than 90 calendar days after
the date of filing of the application for benefits, [and] ...no action may be taken...to recover amounts found to have
been disbursed as a result of the decision in error unless the participant had reason to believe that the decision was
erroneous.” This statue commonly is referred to the “Finality Rule.”
FNS
Recent Child Nutrition reauthorization legislation, while it did include some changes requested by the
Administration to improve accountability, limited USDA’s ability to act in this area because of concerns about
potential barriers to participation. In many instances, the mandated goal of providing easy access to benefits must
be balanced against the goal of reducing improper and erroneous payments. In addition, program administration is
highly decentralized involving a myriad of governmental and non-governmental organizations. There are
approximately 100,000 school meals locations at which benefits are provided. Many of these benefit providers


                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                         201
simply do not have the capacity to develop robust accountability processes. For these reasons, any approach to
reducing school meals improper payments must:
• Improve accuracy without compromising access for low-income families. A process that keeps eligible children from
    participating would undermine the program;
• Not unduly increase burden on schools. Many schools consider the program burdensome now; adding burden could
    discourage schools from participating;
• Be cost-effective. Improving accuracy is potentially resource-intensive; policymakers must not create a process that
    increases net program costs; and
• Answer the needs of other users of program data, which often use certification data to distribute millions of dollars in
    other kinds of benefits to schools. As these needs contribute to the problem, a solution may also require new
    commitments from those users.
RD
The RD program does not have the statutory authority similar to the Department of Housing and Urban
Development to gain access to data from the Department of Health and Human Services, Internal Revenue
Service, Social Security Administration, and the Department of Labor to be shared with field offices and
management agents.
NRCS
Verification of eligibility will be an ongoing challenge for NRCS. It would be advantageous for NRCS to
determine adjusted gross income eligibility on current and future Farm Security and Rural Investment Act
programs (Farm Bill) participants by coordinating with the Internal Revenue Service (IRS). For long term contracts
the IRS requirement for participants to maintain tax records expires prior to the expiration of the Farm Bill
contracts, limiting the ability to independently verify eligibility.



        IX. Additional comments, if any, on overall agency efforts, specific programs, best practices, or common
                                    challenges as a result of IPIA implementation.


USDA has no additional comments.




202     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Appendix C—Inspector General Act Amendments of 1988: Management’s Report on Audit Follow-Up
BACKGROUND
The Office of Inspector General (OIG) audits USDA’s programs, systems, and operations. OIG then recommends
improvements to management based on its findings. U.S. Department of Agriculture (USDA) management may
agree or disagree with the audit’s findings or recommendations. An agreement is reached during the management-
decision process. If management agrees with a recommendation, a written plan for corrective action with a target
completion date is developed. The plan is then submitted to OIG for concurrence. If both OIG and management
agree that the proposed corrective action will correct the weakness, management decision is achieved for that
recommendation.
Audit follow-up ensures that prompt and responsive action is taken. USDA’s Office of the Chief Financial Officer
(OCFO) oversees audit follow-up for the Department. An audit remains open until all corrective actions for each
recommendation are completed. As agencies complete planned corrective actions and submit closure
documentation, OCFO reviews it for sufficiency and determines if final action is completed.
FY 2009 Results
Exhibit 33: Decrease in Total Open Audit Inventory                               USDA agencies closed 60 audits in fiscal year
                                                                                 (FY) 2009. OIG and USDA agencies reached
                                                                                 management decision on 31 audits during the year.
                                                                                 One audit is in appeal status. As shown in
                                                                                 Exhibit 33, the Department reduced its inventory
                                                                                 of open audits in FY 2009 by 18 percent in
                                                                                 FY 2009.
                                                                                 Audit Follow-Up Process
                                                                                               The Inspector General Act Amendments of 1988
                                                                                               require an annual report to Congress providing the
                                                                                               status of resolved audits that remain open. Reports
                                                                                               on resolved audits must include the elements listed
Note: The FY 2008 ending balance was revised from 150 to 156 to include 6 audits that were     in the accompanying bullets:
transmitted from the Office of Inspector General after the reporting period. These adjustments
are also reflected in the beginning balances for audits with disallowed costs and funds to be  • Beginning and ending balances for the number
put to better use shown in Exhibit 35 and Exhibit 37.
                                                                                                   of audit reports and dollar value of disallowed
       costs and funds to be put to better use (see definitions below);
• The number of new management decisions reached;
• The disposition of audits with final action (see definition below);
• Resolved audits that remain open 1 year or more past the management decision date require an additional
       reporting element; and
• The date issued, dollar value, and an explanation of why final action has not been taken.




                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                              203
Exhibit 34: Audit Follow-Up Definitions

          Term                                                                             Definition
    Disallowed Cost        An incurred cost questioned by OIG that management has agreed should not be chargeable to the Government.
    Final Action           To complete all actions that management has agreed will address the audit findings and recommendations.
    Funds To Be Put        An OIG recommendation that funds could be used more efficiently if management completes the recommendation, including:
    to Better Use          •    Reductions in outlays or other savings;
                           •    De-obligation of funds from programs or operation or withdrawal of subsidy costs on loans, guarantees, or bonds; and
                           •    Implementing recommended improvements for grants or contracts, or unnecessary expenditures noted in pre-award reviews
                                of contract or grant agreements.
    Management             Agreement between management and OIG on corrective action needed to address audit findings and recommendations.
    Decision


Beginning and Ending Inventory for Audits with Disallowed Costs (DC) and Funds to Be Put to Better Use (FTBU)1
    Exhibit 35: Inventory of Audits with Disallowed Costs1                               Exhibit 36: Distribution of Adjustments to Disallowed Costs

       Audits with Disallowed Costs                 # of Audits   Amount ($)                                   Category                                Amount ($)
    Beginning of the Period                              44        76,090,844            Legal Decision                                                 1,687,842
       Plus: New Management Decisions                     8         4,827,523            Agency Appeals                                                    86,080
       Total Audits Pending Collection of                52        80,918,367            Write-Offs                                                     1,136,425
       Disallowed Costs
       Adjustments                                                  3,337,765            Agency Documentation                                             805,324
       Revised Subtotal                                            77,580,602            Agency Discovery                                                -377,906
       Less: Final Actions (Recoveries)*                 11         4,156,479            Total                                                       $3,337,765


    Audits with DC Requiring Final Action                41       $73,424,123
    at the End of the Period
    *Recoveries do not include $14,185 interest collected.



                                   Exhibit 37: Inventory of Audits with Funds To Be Put to Better Use1

                                                                                          # of
                                     Audits with Funds to be Put to Better Use           Audits                  Amount ($)
                                   Beginning of the Period                                 19                471,061,054
                                          Plus: New Management Decisions                    3                144,519,851
                                          Total Audits Pending                             22                615,580,905
                                          Less: Final Actions                               9                113,030,766
                                   Audits with FTBU Requiring Final Action at the          13                502,550,139
                                   End of the Period
                                   Disposition of Funds to Be Put to Better Use:
                                   FTBU Implemented                                                           41,992,447
                                   FTBU Not Implemented                                                       71,038,319
                                   Total FTBU Amounts for Final Action
                                                                                                           $113,030,766
                                   Audits



1
  Exhibit 35 and Exhibit 37 include only those open audits with DC and FTBU, respectively. Additionally, some audits contain both DC and FTBU amounts. For these reasons,
the number of audits shown as the ending balances in Exhibit 35 and Exhibit 37 does not equal the total resolved audit inventory balance in Exhibit 33.



204          FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
Of the 60 audits that achieved final action during the fiscal year, 11 contained Disallowed Costs (DC). The
number of DC audits remaining in the inventory at the end of the fiscal year is 41 with a monetary value of
$73,424,123.
For audits with disallowed costs that achieved final action in FY 2009, OIG and management agreed to collect
$7,494,244. Adjustments were made totaling $3,337,765 (45 percent of the total) because of: 1) legal decisions;
2) agency appeals; 3) write-offs; 4) USDA agencies’ ability to provide sufficient documentation to substantiate
disallowed costs; and 5) agency discovery. Management recovered the remaining $4,156,479.
Final action occurred on 9 audits that involved FTBU amounts. The number of FTBU audits remaining in the
inventory to date is 13 with a monetary value of $502,550,139.
Decrease in the Number of Audits Open One or More Years Past the Management Decision Date
                                                                       The numbers of audits open 1 or more years without final action in
   Audits one Year or More Past MDD                # of Audits         FY 2008 decreased from 109 to 73 audits, a 33 percent decrease.
                                                                       During the year, an additional 25 audits turned one year past
Beginning of the period                                  109
                                                                       Management Decision Date (MDD) for a balance of 98 audits.
     Less: FY 2008 audits closed                         35
                                                                       USDA agencies continue to pursue compensating controls that
         Audit in appeal                                  1            address many of the underlying issues identified in these older
Subtotal FY 2008 Audits one year or more                 73
                                                                       audits.
past MD
     Plus: Audits that turned one year              Agencies have completed all planned corrective actions on 22
                                                         25
     during FY 2009                                 audits that are pending collection of associated disallowed costs.
End of the Period                        98         Eight audits were scheduled for completion by
                                                    September 30, 2009, but final action documentation was not
evaluated during this reporting period. Audits without final action 1 year or more past the MDD and behind
schedule are listed individually in the table that follows. They are categorized by the reason final action has not
occurred. More detailed information on audits on schedule and audits under collection is available from OCFO.
Exhibit 38: Distribution of Audits Open One Year or More Past the Management Decision Date

                                Audits On Schedule                          Audits Behind Schedule                        Audits Under Collection
          Agency          No.        DC ($)        FTBU ($)          No.         DC ($)             FTBU ($)        No.        DC ($)         FTBU ($)
        Totals            5      144,923                 0            71      31,069,486       431,340,480          22      39,420,666        640,135



Management’s Report on Audit Follow-Up
Exhibit 39: Audits Open One Year or More Past the Management Decision Date and Behind Schedule

                                           Revised                                                                                      Monetary Amount
                            Date          Completion
       Audits              Issued           Date                                      Audit Title                                 DC$                FTBU$
 (34) Pending issuance of policy/guidance and legislation
 02601-1-CH                9/30/05            12/31/09         Agricultural Research Service Adequacy of Controls to                -                    -
                                                               Prevent the Improper Transfer of Sensitive Technology
 03601-11-AT              11/17/05            12/30/09         Farm Service Agency Minority Participation in Farm                   -                    -
                                                               Service Agency’s Programs
 04004-3-AT                6/26/03            12/31/09         Rural Development, Rural Housing Service, Rural Rental           $134,639            $3,183,305
                                                               Housing Program, Tenant Income Verification –
                                                               Gainesville, Florida




                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                                                205
                            Revised                                                                          Monetary Amount
                  Date     Completion
      Audits     Issued      Date                              Audit Title                             DC$              FTBU$
 04099-339-AT    3/23/05    12/31/09    Rural Development, Rural Housing Service Subsidy                 -                 -
                                        Payment Accuracy in Multi-Family Housing Program
 06401-22-FM    11/13/07    10/31/09    Commodity Credit Corporation’s Financial Statements for          -                 -
                                        FY 2007 and 2006
 08001-1-AT      4/19/07    12/31/09    Forest Service Implementation of the Capital Improvement         -                 -
                                        Program
 08401-8-FM     11/15/07     3/31/10    Forest Service Financial Statements for FY 2007 and 2006         -                 -
 08601-30-SF     3/31/03    10/30/09    Forest Service Review of Security Over                           -                 -
                                        Explosives/Munitions/Magazines Located Within the
                                        National Forest System
 08601-38-SF     9/23/04    12/31/09    Forest Service Firefighting Safety Program                       -                 -
 08601-44-SF     12/7/06     3/31/10    Forest Service Large Fire Suppression Cost                       -                 -
 08601-45-SF     8/8/06     10/31/09    Forest Service Follow-up Review of FS Security Over              -                 -
                                        Explosives/Munitions Magazines Located within the
                                        National Forest System
 08601-48-SF     2/5/08      3/31/10    Forest Service Air Safety Program                                -                -
 08601-50-SF     9/28/07    12/31/09    Forest Service Stewardship Contracts                             -             $467,326
 08601-51-SF     8/5/08     3/31/10     Forest Service Controls over Documenting and Reporting           -            $116,827,492
                                        Its Hurricane Relief Expenditures to FEMA
 09601-4-TE      9/30/05    12/31/09    Rural Development, Rural Utilities Service Broadband        $25,614,279       $308,063,204
                                        Grant and Loan Programs
 10099-10-KC     9/30/03    3/31/10     Natural Resources Conservation Service Protection of             -                 -
                                        Federal Assets
 24501-1-FM     11/24/04    10/31/10    Food Safety and Inspection Service Application Controls -        -                 -
                                        Performance Based Inspection Service System
 24601-1-CH      6/21/00    3/31/10     Food Safety and Inspection Service Laboratory Testing of         -                 -
                                        Meat and Poultry Products
 27099-34-SF     8/17/07    6/30/10     Food and Nutrition Service Summer Food Service Program       $53,635               -
                                        California and Nevada
 27501-2-HY      3/31/08    9/30/09     Food and Nutrition Service Application Control Review of         -                 -
                                        the Food and Nutrition Service’s Store Tracking and
                                        Redemption System II
 27601-3-CH      3/22/96    9/30/09     Food and Nutrition Service Food Stamp Program—                   -                 -
                                        Disqualified Recipient System – Alexandria, Virginia
 27601-35-CH     7/14/06    3/31/10     Food and Nutrition Service Child and Adult Care Food             -                 -
                                        Program, Supper Meals Served in Schools
 33601-2-AT      6/23/05    9/30/09     Animal and Plant Health Inspection Service Evaluation of         -                 -
                                        the Implementation of the Select Agents or Toxins
                                        Regulations (Phase 1)
 33601-3-CH      2/20/03    3/31/10     Animal and Plant Health Inspection Service Safeguards to         -                 -
                                        Prevent Entry of Prohibited Pests and Diseases into the
                                        United States
 34099-2-AT      9/14/01    10/1/09     Rural Development Rural Business-Cooperative Service        $4,052,351             -
                                        Business and Industry Loan Program, OMNIVEST
                                        Resources, Inc. – Fort Gaines, Georgia
 34601-15-TE     9/30/03    10/30/09    Rural Development, Rural Business-Cooperative Service            -                 -
                                        National Report on the Business and Industry Loan
                                        Program




206     FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                                    Revised                                                                               Monetary Amount
                       Date        Completion
     Audits           Issued         Date                                   Audit Title                              DC$             FTBU$
50099-13-AT           3/29/02        12/31/09      Departmental Administration Oversight and Security of              -                 -
                                                   Biological Agents at Laboratories Operated by the United
                                                   States Department of Agriculture
50601-2-HY             9/9/05        12/31/09      Departmental Administration Review of Oversight of                 -                 -
                                                   Federal Employee’s Compensation Act Operations within
                                                   the U.S. Department of Agriculture
50601-8-TE            1/28/05        9/30/09       Animal and Plant Health Inspection Service Controls Over           -                 -
                                                   Issuance of Genetically Engineered Organism Release
                                                   Permits
50601-9-AT            3/24/04        12/31/09      Departmental Administration Controls Over Chemical and             -                 -
                                                   Radioactive Materials at U.S. Department of Agriculture
                                                   Facilities
50601-10-AT            3/8/04        12/31/09      Homeland Security Follow-up Report on the Security of              -                 -
                                                   Biological Agents at U.S. Department of Agriculture
                                                   Laboratories
50801-12-AT            9/9/02        3/31/10       Departmental Adminstration Management of Hazardous                 -             $1,813,809
                                                   Materials Management Funds
60601-4-HY            5/14/07        12/30/09      Office of the Assistant Secretary for Civil Rights Review of       -                 -
                                                   the U.S. Department of Agriculture’s Accountability for
                                                   Actions Taken on Civil Rights Complaints
60801-4-HQ            3/10/00        12/30/09      Office of the Assistant Secretary for Civil Rights Status of       -                 -
                                                   the Implementation of Recommendations Made in Prior
                                                   Evaluations of Program Complaints
(1) Pending conclusion of investigation, negotiation or administrative appeal
04801-3-KC            3/31/99        12/31/09      Rural Development, Rural Housing Service – Rural Rental        $146,690           $85,516
                                                   Housing Program Bosley Management, Incorporated –
                                                   Sheridan, Wyoming
(14) Pending completion of IT system security weaknesses, systems development, implementation, or enhancement
04601-14-CH           3/20/07        10/31/09      Rural Development, Rural Housing Service Improper                  -                 -
                                                   Payments - Monitoring the Progress of Corrective Action
                                                   for High-Risk Programs in Rural Housing Service
04801-6-KC           12/18/00        10/31/09      Rural Development, Rural Housing Service Rural Rental          $1,029,999         $9,000
                                                   Housing Program Insurance Expenses, Phase I
06401-17-FM           11/5/04        12/30/12      Commodity Credit Corporation’s Financial Statements for            -                 -
                                                   Fiscal Years 2004 and 2003
08601-2-HY           12/22/06        3/31/10       Forest Service Follow up on Recommendations Made on                -                 -
                                                   the Maintenance of Forest Service Infrastructure
08601-40-SF            7/6/05        12/31/09      Forest Service Emergency Equipment Rental Agreements               -                 -
08601-41-SF           1/13/06        3/31/10       Forest Service Collaborative Ventures and Partnerships          $37,890              -
                                                   with Non-Federal Entities
11099-44-FM          12/14/06        10/31/09      Departmental Administration Purchase Card Management               -                 -
                                                   System Controls Need Strengthening
24601-3-CH            9/30/04        10/31/10      Food Safety and Inspection Service Use of Food Safety              -                 -
                                                   Information Systems
24601-7-HY            9/28/06        10/31/10      Food Safety and Inspection Service Issues Impacting the            -                 -
                                                   Development of Risk-Based Inspection at Meat and Poultry
                                                   Processing Establishments
24601-8-CH            8/23/07        10/31/10      Food Safety and Inspection Service Egg Products
                                                   Processing Inspection




                  FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                                   207
                                       Revised                                                                            Monetary Amount
                         Date         Completion
      Audits            Issued          Date                                   Audit Title                           DC$             FTBU$
 33501-1-CH             3/31/05         12/31/09       Animal and Plant Health Inspection Service Review of           -                 -
                                                       Application Controls for the Import Tracking System
 33601-1-HY             2/14/05         10/31/10       Food Safety and Inspection Service Oversight of the            -                 -
                                                       Importation of Beef Products from Canada
 50601-10-HQ            7/24/06          3/31/10       Natural Resources Conservation Service Chesapeake Bay          -                 -
                                                       Restoration Agricultural Impacts on Water Quality
 50601-10-KC            1/25/06         10/31/10       Food Safety and Inspection Service Controls Over BSE           -                 -
                                                       Sampling, Specified Risk Materials and Advanced Meat
                                                       Recovery Products - Phase III and Animal and Plant Health
                                                       Inspection Service Bovine Spongiform Encephalopathy
                                                       (BSE) Surveillance Program – Phase II
 (11) Pending results of internal monitoring or program review
 05099-109-KC           1/27/05        12/31/10      Risk Management Agency Renegotiation of the Standard             -                 -
                                                     Reinsurance Agreement
 05600-1-TE             9/28/89         9/30/10      Risk Management Agency Crop Year 1988 Insurance                  -                 -
                                                     Contracts with Claims
 06401-4-KC             2/26/02        12/30/09      Commodity Credit Corporation’s Financial Statements for          -              $19,586
                                                     FY 2001
 33601-7-CH             8/14/07        12/31/09      Animal and Plant Health Inspection Service Review of             -                 -
                                                     Customs and Border Protection Inspection Activities
 34601-4-AT             1/10/03        10/31/09      Rural Development, Rural Business-Cooperative Service            -                 -
                                                     Lender Servicing of Business and Industry Guaranteed
                                                     Loans in Georgia
 50401-62-FM           11/15/07        10/31/09      Office of the Chief Financial Officer USDA’s Consolidated        -                 -
                                                     Financial Statements for Fiscal Years 2007 and 2006
 50601-9-CH             9/28/06         9/30/09      Animal and Plant Health Inspection Service Control Over          -                 -
                                                     the Bovine Tuberculosis Eradication Program
 50601-13-CH            8/14/08        10/31/09      Rural Development Implementation of Renewable Energy             -                 -
                                                     Programs in USDA
 60016-1-HY             9/8/05         12/30/09      Office of the Assistant Secretary for Civil Rights Follow up     -                 -
                                                     on Prior Recommendations for Civil Rights Program and
                                                     Employment Complaints
 60801-1-HQ             9/30/98        12/30/09      Office of the Assistant Secretary for Civil Rights Evaluation    -                 -
                                                     of the Office of Civil Right’s Efforts to Reduce the Backlog
                                                     of Program Complaints
 60801-2-HQ             3/24/99        12/30/09      Office of the Assistant Secretary for Civil Rights Evaluation    -                 -
                                                     of the Office of Civil Rights Efforts to Implement Civil
                                                     Rights Settlements
 (1) Conclusion of external action
 50601-6-TE             3/04/04         12/30/09       Agricultural Research Service Controls Over Plant Variety      -                 -
                                                       Protection and Germplasm Storage
 (1) Pending results of request for change in management decision
 05099-18-KC             6/1/04          9/30/09       Risk Management Agency Management and Security of              -                 -
                                                       Information Technology Resources
 (1) Pending Office of General Counsel (OGC) or OIG advice
 04601-15-CH            3/30/07      12/31/09      Rural Development, Rural Housing Service, Controls over            -             $388,842
                                                   Single Family Housing Funds Provided for Hurricane Relief
                                                   Efforts
 (8) Pending administrative action
 06401-15-FM          12/26/02          12/30/12       Commodity Credit Corporation’s Financial Statements for        -                 -
                                                       FY 2002
 06401-20-FM            11/9/05         12/30/12       Commodity Credit Corporation’s Financial Statements for        -                 -
                                                       FY 2005 and 2004




208      FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 Revised                                                                        Monetary Amount
                      Date      Completion
     Audits          Issued       Date                              Audit Title                           DC$              FTBU$
06401-21-FM          11/13/06    9/30/09     Commodity Credit Corporation’s Financial Statements for        -                 -
                                             FY 2006 and 2005
08401-4-FM           11/10/04    10/30/09    Forest Service’s Financial Statements for FY 2004 and          -                 -
                                             2003
08401-6-FM           11/24/06    10/31/09    Forest Service’s Financial Statements for FY 2005 and          -                 -
                                             2004
08601-42-SF          3/14/06     10/31/09    Forest Service Firefighting Contract Crews                     -                -
13001-3-TE           8/16/04      3/31/10    Cooperative State Research, Education, and Extension          $3             $482,400
                                             Service Implementation of Agricultural Research,
                                             Extension and Education Reform Act of 1998
50099-11-HY          03/31/05    9/30/09     Research Education and Economics Implementation of             -                 -
                                             Federal Research Misconduct Policy in the U.S.
                                             Department of Agriculture
Total Number Audits (71 )                    Total                                                     $31,069,486      $431,340,480




                 FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                        209
Appendix D—Acronyms

      A
      ACIO—Associate Chief Information Officer                APHIS—Animal and Plant Health Inspection Service
      ACSI—American Customer Satisfaction Index               AQIM—Agricultural Quarantine Inspection Monitoring
      AGI—Adjusted Gross Income                               ARPA—Agricultural Risk Protection Act of 2000
      AHMS—Animal Health Monitoring and Surveillance          ARRA—American Recovery and Reinvestment Act of 2009
      AI—Avian influenza                                      ASB—Agricultural Statistics Board
      AIP—Approved Insurance Provider                         ASCR—Assistant Secretary for Civil Rights
      ANSI—American National Scientific Institute

      B
      B&I—Business and Industry                               BSE—Bovine Spongiform Encephalopathy
      BQMS—Biotechnology Quality Management System

      C
      C&A—Certification and Accreditation                     COOL—County of Origin Labeling
      CACFP—Child and Adult Care Food Program                 COOP—Continuity of Operations
      CBP—Customs and Border Protection                       CPAP—Community Programs and Application Processing
      CCC—Commodity Credit Corporation                        CPPO—Cyber and Privacy Policy and Oversight
      CDC—United States Centers for Disease Control           CR—Civil Rights
      CDP—Crop Disaster Program                               CRES—Civil Rights Enterprise System
      CEAP—Conservation Effects Assessment Project            CRP—Conservation Reserve Program
      CF—Community Facilities                                 CSAM—Cyber Security Assessment
      CFP—Cochrane Fellowship Program                         CSP—Conservation Security Program
      CFR—Code of Federal Regulations                         CSP—Conservation Stewardship Program
      CIMS—Comprehensive Information Management System        CSS—Country Strategic Statement
      CNMP—Comprehensive Nutrient Management Plan             CTA—Conservation Technical Assistance Program
      CNPP—Center for Nutrition Policy and Promotion          CWPP—Community Wildfire Protection Plans

      D
      DAR—Data At Rest                                        DHS—The United States Department of Homeland Security
      DART—Department of Agriculture Recovery Team            DOI—The United States Department of Interior

      E
      EAPIC—East Africa Phytosanitary Information Committee   eFMS—Electronic Funds Management System
      EEO—Equal Employment Opportunity                        EQIP—Environmental Quality Incentives Program
      EERA—Emergency Equipment Rental Agreements              EU—European Union

      F
      FAD—Foreign Animal Disease                              FEMA—Federal Emergency Management Agency
      FAS—Foreign Agricultural Service                        FFMIA—Federal Financial Management Improvement Act
      FATER—Food Aid Targeting Effectiveness Ratio            FISMA—The Federal Information Security Management Act
      FCIC—Federal Crop Insurance Corporation                 FLP—Farm Loan Programs
      FDCH—Family Day Care Home                               FMFIA—The Federal Managers’ Financial Integrity Act
                                                              FMPP—Farmers Market Promotion Program




210   FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
FNS—Food and Nutrition Service                                 FSA—Food Safety Assessment
FPA—Fire Program Analysis                                      FSIS—Food Safety Inspection Service
FRPP—Farm and Ranch Lands Protection Program                   FSWG—Food Safety Working Group
FS—Forest Service                                              FWS—U.S. Fish and Wildlife Service
FSA—Farm Service Agency                                        FY—Fiscal Year

G
GAO—Government Accountability Office                           GEO—Genetically Engineered Organisms
GE—Genetically Engineered                                      GLS—Guaranteed Loan System

H
HACCP—Hazard Analysis and Critical Control Point               HPAI—Highly Pathogenic Avian Influenza
HEI—Healthy Eating Index                                       HSC—Homeland Security Counsel
HIP—Hurricane Indemnity Program                                HSO—[USDA] Homeland Security Office
HIS—Habitat Suitability Indices                                HUD—United States Department of Housing and Urban
                                                               Development

I
IPIA—Improper Payments Information Act of 2002                 IPPS—In-Plant Performance System
IPM—Integrated Pest Management                                 ISO—The International Organization of Standardization
ipmPIPE—integrated pest management Pest Information Platform   IT—Information Technology
for Extension and Education

L
LEA—Local Education Agency                                     LM—Listeria monocytogenes

M
MOU—Memorandum of Understanding                                MRL—Maximum Residue Level

N
NAHLN—The National Animal Health Laboratory Network            NGO—Non-Governmental Organization
NAP—Noninsured Crop Disaster Assistance Payment                NOP—National Organic Program
NAS—National Academy of Sciences                               NOSB—National Organic Standards Board
NCFD—National Computer Forensic Division                       NPDN—National Plant Diagnostic Network
NCP—National Conservation Planning Database                    NRCS—Natural Resources Conservation Services
NDB—National Data Bank                                         NSLP—National School Lunch Program

O
OCFO—Office of the Chief Financial Officer                     OIE—World Organization for Animal Health
OCIO—Office of the Chief Information Officer                   OIG—The Office of Inspector General
OGC—Office of the General Counsel                              OMB—The United States Office of Management and Budget

P
PAR—Performance and Accountability Report                      PII—Personally Identifiable Information
PBIS—Performance-Based Inspection System                       POA&M—Plans of Actions and Milestones
PEIS—Program Evaluation and Improvement Staff                  PRISMA—Program Reviews for Information Security
PHDCIS—Public Health Data Communication Infrastructure         Management Assistance
Systems                                                        ProTracts—Program Contracts Database
PHICP—Public Health Information Consolidation Projects         PRS—Performance Results System
PHIS—Public Health Information System                          PRT—Provincial Reconstruction Team




          FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION                                 211
      Q
      QC—Quality Control

      R
      RBEG—Rural Business Enterprise Grant                          RHS—Rural Housing Service
      RBOG—Rural Business Opportunity Grant                         RMA—Risk Management Agency
      RD—Rural Development                                          RORA—Regional Office Review of Applications
      Recovery Act—American Reinvestment and Recovery Act of        RTE—Ready-to-Eat
      2009
      Response Plan—National Avian Influenza Preparedness and
      Response Plan

      S
      SBP—School Breakfast Program                                  SRA—Standard Reinsurance Agreement
      SIP—Salmonella Initiative Program                             SSOP—Sanitation Standard Operating Procedure
      SNAP—Supplemental Nutrition Assistance Program                SURE—Supplemental Revenue Assistance Payments (Program)
      SPPA—Strategic Partnership Program Agroterrorism Initiative   SWCD—Soil and Water Conservation District
      SPS—Sanitary and Phytosanitary

      T
      T&E—Transportation and Exportation                            TRQ—Tariff-Rate Quota
      TBT—Technical Barriers to Trade

      U
      ULO—Unliquidated Obligations
      USDA—The United States Department of Agriculture
      USTR—The Office of the U.S. Trade Representative

      V
      VS—Veterinary Services

      W
      WBSCM—Web-based Supply Chain Management                       WIC—Special Supplemental Nutrition Program for Women,
      WebTCAS—Web Based Total Cost Accounting System                Infants, and Children
      WEP—Water and Environment Program                             WRP—Wetland Reserve Program
      WFU—Wildland Fire Use                                         WTO—World Trade Organization
                                                                    WUI—Wildland Urban Interface




212   FY 2009 PERFORMANCE AND ACCOUNTABILITY REPORT
